<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016

_______________________________________________________________________




                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                 _______

                         SUBCOMMITTEE ON DEFENSE

              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

  KAY GRANGER, Texas                 PETER J. VISCLOSKY, Indiana
  ANDER CRENSHAW, Florida            BETTY McCOLLUM, Minnesota
  KEN CALVERT, California            STEVE ISRAEL, New York
  TOM COLE, Oklahoma                 TIM RYAN, Ohio
  STEVE WOMACK, Arkansas             C.A. DUTCH RUPPERSBERGER, Maryland
  ROBERT B. ADERHOLT, Alabama        MARCY KAPTUR, Ohio
  JOHN R. CARTER, Texas
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

            Rob Blair, Paul Terry, Walter Hearne, Tim Prince,
    Brooke Boyer, B G Wright, Adrienne Ramsay, Megan Milam Rosenbusch,
                     Collin Lee, and Cornell Teague,
                             Staff Assistants

                   Sherry L. Young, Administrative Aide
                                  _______

                                  PART 1

                                                                   Page
FY 2016 Navy / Marine Corps Budget Overview....................       1                       
FY 2016 Air Force Budget Overview..............................     157
U.S. Africa Command............................................     237
FY 2016 Department of Defense Budget Overview..................     261
FY 2016 National Guard and Reserves............................     343
United States Pacific Command and United States Forces Korea...     449
                                  _______

                    U.S. GOVERNMENT PUBLISHING OFFICE

  97-457                     WASHINGTON : 2015



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey        NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                         PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                  JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                    DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                      LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                    SAM FARR, California
  TOM COLE, Oklahoma                         CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                 SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania              BARBARA LEE, California
  TOM GRAVES, Georgia                        MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                        BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                     STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                 TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                  C.A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee          DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington          HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                       CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California               MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                      DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2016

                              ----------                              

                                       Thursday, February 26, 2015.

           FISCAL YEAR 2016 NAVY/MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

HON. RAY MABUS, SECRETARY, UNITED STATES NAVY
ADMIRAL JONATHAN W. GREENERT, CHIEF OF NAVAL OPERATIONS
GENERAL JOSEPH F. DUNFORD, COMMANDANT, UNITED STATES MARINE CORPS

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. This is a Navy-Marine sort of a day. We 
hear through the grapevine that a lot of other hearings have 
been canceled, so we want to thank you for making your way 
here. We fully expected you would be here, hell or high water.
    The committee will come to order. This morning our 
subcommittee begins a series of Defense posture and budget 
hearings with our military services, our combatant commands and 
other major components of our Armed Forces. In this time of 
rapidly expanding threats to our national security our goal in 
these hearings in our fiscal year 2016 bill is to make sure 
that our soldiers, sailors marines, and airmen and their 
families have the resources they need to execute their assigned 
missions. At the same time in an era of constrained budgets, we 
must make every dollar count.
    This morning we hold an open hearing on the budget request 
for the Department of the Navy. We welcome the leadership of 
the Navy and the Marine Corps, the Secretary of the Navy, Ray 
Mabus, thank you for being back with us. And for the last time 
testifying is the chief of Naval operations, Admiral Jonathan 
Greenert. Admiral, thank you for 40 years of service. Let us 
give him a round of applause.
    It is also my pleasure to welcome back to the committee, 
although for the first time in his capacity as a Commandant of 
the Marine Corps, General Joe Dunford. Thank you, General, for 
being here as well. I am sure I speak for every member of our 
subcommittee in thanking you for your valuable service to our 
great Nation and for those you command. Of course, we recognize 
those who have paid the ultimate sacrifice, those who have been 
wounded that we continue to care about. We owe all of you and 
all of them a great debt.
    Gentlemen, the business at hand is the President's fiscal 
year 2016 budget request. Unfortunately, the variable that will 
have the biggest impact of your budget next year and for years 
to come is not actually part of this request. Unless there is a 
dramatic legislative change, the law of the land requires the 
Appropriations Committee to mark up bills this year to the 
level dictated by the Budget Control Act, the BCA. In the case 
of the Department of Defense, I expect our allocation to be 
approximately $34 billion below the President's request. Since 
this is the first of our hearings, I am going to take a point 
of personal privilege to discuss some of my personal views and 
what I think are realities facing our Nation.
    Today and over the next few weeks, the American people will 
be hearing a great deal about the so-called sequester, it is a 
concept born decades ago and only revived in recent years. 
While it sounds like a lot of procedural jargon to the 
taxpayers, the sequester will have serious ramifications for 
our troops and our national security. This is precisely why we 
will be hearing from our witnesses today and in the weeks to 
come about how an additional $34 billion sequester cut next 
year will harm our defense capabilities in the era of expanding 
threats. And yet, the President is threatening to precipitate 
that very sequester by sending up a budget that ignores the 
law, the Budget Control Act, which we have to support.
    For the record, I agree that the law needs to be modified 
to avoid dramatic, negative consequences to our ability to 
protect our homeland and to assure our mission around the world 
and our support for our allies. But let us also be very clear 
that the sequester alone is not the problem here. After all, 
the sequester did not create the existing security climate that 
reflects indecision, hesitation, or some call it ambivalence in 
our defense in foreign policy. The sequester did not create 
ISIS. That deprived barbaric force was brewed as a result of 
our premature withdrawal from Iraq. The sequester is not 
responsible for the over 200,000 deaths in Syria or millions of 
refugees throughout the Middle East. The sequester had nothing 
to do with the President's public declaration, the United 
States was no longer in what he called a war footing. The 
sequester did not prompt Vladimir Putin to ignite a new cold 
war and brutally violate the sovereignty of his neighbor, 
Ukraine. The sequester did not lead us to liberate Libya and 
turn our back while that country devolved into a dangerous 
breeding ground for terrorists. Sequester did not reduce our 
Navy to the smallest number of ships in recent memory nor 
create the oldest Air Force in its history, nor threaten to 
bring the Army's end strength down to pre-World War II levels.
    I recognize that the sequester is a clear threat to our 
security. However, we are bound to follow the law until 
instructed otherwise. The President's request for the Navy is 
approximately $13 billion above the level the Navy would be 
allocated under the BCA. So the Department will certainly have 
to bear a sizable portion of any reduction. So I need to say 
right up front that we all need to work extremely close 
together to ensure that the funding we are appropriating is 
sufficient to take care of our soldiers and marines and 
maintain your readiness at the highest possible level. But it 
bears repeating; barring some dramatic change in course, the 
committee will mark up the fiscal year 2016 bill that is in 
compliance with the BCA. Of course, we would like to have your 
input. With respect, I will advise you that we will cut the $13 
billion with you or we will cut it without you, but we need to 
do the job that the law requires us to do. However, having said 
that, I remain concerned about the core of the Navy, I think 
all of us do, the ships and the shipbuilding program.
    Mr. Secretary, you have told us in previous hearings that 
since you have been in your position, the Navy has awarded the 
largest number of ship construction contracts. May I say I 
think this committee more than the other body has been very 
generous in that regard because we think ships are important. 
While that is admirable, the stark reality is that your fleet 
size has fluctuated around 280 over the past several years, far 
short of your stated requirement of 304 ships. While the Navy 
continues to promise more ships in the outyears, those outyears 
always seem to slip further out.
    A few years ago the Navy was projecting a fleet size of 313 
ships in 2016. Last year, you predicted the Navy would reach 
and exceed your ship requirements some time in fiscal year 
2019. This year you project you will achieve the illusive 304 
ship fleet in 2020. For the welfare of our Nation's defense, we 
need to come to grip with the resources available to us and 
settle on the plan.
    You have heard me say this before, when it comes to ships, 
numbers matter. In addition to the quality of ships, I am 
concerned about their capacity, I am concerned about their 
adaptabilities, I am concerned about the mix of ships. I think 
all of us are, submarines, surface combatants, amphibs, support 
ships and how they are operated and how they are maintained. 
More and more of your ships are not being operated by your 
sailors but by civilian mariners. In fact, even your newly 
minted fast frigates, the vessels formerly known as littoral 
combat ships don't deploy without two permanently assigned 
civilian contractors. The subcommittee also wants to hear your 
assessment of the conventional and unconventional threats posed 
by China, Russia and Iran.
    Gentlemen, this former army draftee sees troubled waters 
ahead. Sequestration looms large over the Navy, and we owe it 
to our sailors, and marines, and citizens to develop the best 
solutions possible. I can promise you that our subcommittee 
will work hard alongside each of you to insure that our Navy 
and Marine Corps are ready and able to be where it matters when 
it matters.
    I look forward to your comments and an informative 
question-and-answer session, your written testimony will be 
entered into the record, so feel free to summarize your 
statements this morning. Having said that, let me turn to my 
good friend, Mr. Visclosky, for any comments he may wish to 
make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Thank you very much, Mr. Chairman. I 
appreciate your comments and because this is the first hearing 
of this cycle, I would simply offer a few remarks. I did not 
vote for the Budget Control Act, and it is very difficult to 
find anyone in this institution now who admits that they did, 
but we are living with the consequences of it. And I would 
offer the observation that I voted against the President's 
proposal for the use of force last year. I believe then and I 
believe today that there is a conflict within the 
administration--I am not suggesting that is your problem, the 
three gentlemen before us--as far as what our policy is in the 
Middle East and if we are going to ask people to sacrifice 
their lives, be injured and give the time of their life to this 
country, we ought to be very precise.
    From my perspective looking ahead as far as our 
deliberations and the preparation of the budget which includes 
more than half of all discretionary spending in this country, 
Congress has the responsibility, and Congress has a role, and 
we have not met our responsibility. We have roads, as I like to 
explain to people in Indiana, that counties are allowing to 
revert back to gravel because there is not enough money to keep 
them paved in this country. We have to make an investment and 
we have to raise revenue, that is a failure. I often point out 
to my colleagues who complain about the budget that 73 percent 
of spending is mandatory and not under the jurisdiction of this 
committee. We have failed to deal with that responsibility to 
find savings on the entitlement side, specifically Social 
Security and Medicare. So from my perspective, is a huge 
bipartisan failure.
    Given that failure of responsibility, and certainly the 
administration bears some brunt here too because they can speak 
with one voice as opposed to many disparate voices. We have a 
role to perform. And as the chairman rightfully pointed out, 
our role is to prepare legislation according to the law it is 
today. And I do not anticipate unfortunately that that is going 
to significantly change between now and October 1st. There is a 
degree of difficulty as we proceed with this budget and looking 
over what the administration has asked for and what we are 
going to mark to, and would hope that as we proceed, there are 
very close communications because the chairman, and I agree 
with him, acknowledges we are not investing enough in this 
Nation's defense, there is no question about that. We are now 
finding ourselves in a position where we have to govern 
according to the law as well, and that is going to increase our 
degree of difficulty.
    I would simply also add my thank you to each of you for 
your service to this country as well as each one of those 
individuals you represent, both military and civilian for what 
they have done for this country. And also I do look forward to 
your testimony. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky, Mr. Secretary, 
the floor is yours, thank you for being here with us.

                  Summary Statement of Secretary Mabus

    Mr. Mabus. Chairman Frelinghuysen, Ranking Member 
Visclosky, members of this committee, thank you so much for the 
opportunity to discuss the Department of Navy together with the 
Chief of Naval Operations, Jon Greenert, Commandant of the 
Marine Corps, Joe Dunford. I have the great privilege of 
representing the sailors and marines who serve our Nation 
around the world, the civilians who support them, and all of 
their families.
    As you pointed out, Mr. Chairman, this is Admiral 
Greenert's last posture testimony before this committee. He's 
been a steady hand on the helm of the Navy through the past 4 
years of international instability and budget turbulence. Every 
day his judgment, his advice, his counsel have been critical. 
It is an honor to serve with him. He is going to leave a 
lasting impact on the Navy.
    Today our security interest places an increasing array of 
threats and demands while our budget situation grows ever more 
challenging. It is clear that the Navy and Marine Corps team 
offer the best value to advance both our global security and 
our global economic interest. Uniquely, the Navy and Marine 
Corps provide presence around the globe, around the clock. We 
are the Nation's first line of defense, ready for any challenge 
that may come over the horizon. Presence means that we respond 
faster, we stay on station longer, we carry everything we need 
with us, and we do whatever missions are assigned by our 
Nation's leaders without needing anybody else's permission.
    We have always known that America's success depends on an 
exceptional Navy and Marine Corps. Article I of our 
Constitution authorizes Congress to raise an Army when needed, 
but directs you to provide and maintain a Navy.
    From the first six frigates to our growing fleet today, 
from Tripoli to Afghanistan, sailors and marines have proven 
the Founder's wisdom. American leaders across the political 
spectrum have understood the vital significance of sea power. 
We are truly America's away team. We deploy in peacetime just 
as much as in war, and our role over the last 70 years in 
securing sea lanes and freedom of commerce has boosted our own 
in the world's economy.
    Nearly half the world's population lives within 100 miles 
of the sea, 90 percent of our global trade goes back to sea, 
and 95 percent of all data and voice goes under the ocean. The 
shelves of our stores are stocked with just-in-time delivered 
products from all over the world some 38 million American jobs 
are directly linked to seaborne international trade. For seven 
decades, the Navy and Marine Corps have been the primary 
protector of this system that has created unprecedented 
economic growth. While we have led this effort, we have worked 
with allies and partners increasing in our operability and 
establishing relationships that also help keep the peace. That 
is why our national defense strategy is so clearly focused on 
the maritime domain and requires investments in our maritime 
assets.
    For the past few years, the Department of Navy has 
attempted to minimize the impact of an uncertain budgetary 
environment marked by numerous continuing resolutions, 
imposition of sequester-level funding and the threat of a 
current sequestration has been mentioned here before. This 
environment has made it more difficult, but even more critical 
to set priorities and to make some hard choices.
    The presence of our Navy and Marine Corps uniquely deliver 
is built on four foundations, our people, our platforms, our 
power, or partnerships. These are the key to the capability, 
the capacity and the success of our Naval services, and they 
remain my top priorities.
    Our sailors and marines are well-known for their ability to 
exercise independent judgment. The flexibility to adapt to 
changing circumstances and events. We remain committed to 
providing our sailors, marines and our civilians with the 
training and support they need to maintain a naval presence. 
And we include in this our injured, our wounded and all the 
dedicated families.
    We have launched a comprehensive approach to ensure the 
world's healthiest, fittest, most resilient and best educated 
force, and a force that also truly represents America's 
diversity. We continue to aggressively combat sexual assault 
abuse, ethical failings, similar challenges. And we are 
exploring innovative ways to improve retention and recruitment, 
particularly in critical areas. Our people, as great as they 
are, can't do their job without platforms. Providing presence, 
being where we are needed, when we are needed, requires ships, 
submarines, aircraft, systems, vehicles and equipment.
    I couldn't agree with you more, Mr. Chairman, quantity has 
a quality all its own. That means we have got to have a 
properly sized and balanced fleet. I have been over these 
numbers before, but think they bear repeating. On September 11, 
2001, the Navy's battle force stood at 316 ships. By 2008, 
after one of the great military build-ups in our Nation's 
history, our fleet declined to 278 ships. Our focus on two 
ground wars only partly explains that decline. In the 5 years 
before I became Secretary, the Navy contracted for only 27 
ships, not enough to stop the slide and the size of the fleet. 
In my first 5 years, we have contracted for 70 ships, reversing 
and halting that decline. And as you stated, by the end of 
decade, our fleet will be at 304 ships. We have accomplished 
this with a direct and fundamental business approach, increased 
competition, relying on fixed price contracts, and thanks to 
this committee's and Congress's help a multiyear and en bloc 
buying, but budget instability, budget uncertainty, seriously 
erode our ability to grow the fleet, manage our resources and 
maintain the industrial base.
    Without a correctly sized and shaped fleet, the Navy Marine 
Corps will not be able to meet the demand for the kinds of 
missions for which the Navy and Marine Corps are the best and 
often the only option. In the face of this budgetary 
uncertainty, cutting ships is among the most damaging and least 
reversible course of action, which is why I am committed to 
preserving shipbuilding.
    Fueling the ships, aircraft, vehicles of our Navy and 
Marine Corps is a vital operational concern and enables a 
global presence necessary to keep the Nation secure. That is 
why the Navy has a history of innovation, especially in energy, 
moving from sail, to steam, to oil, and pioneering nuclear. The 
fuels market has seen an incredible price volatility in the 
last 6 years. New domestic sources are reducing our reliance on 
foreign oil, but can't stop the wild price swings. At the same 
time, the competition for power, and energy, and the ability to 
use fuel as a weapon remains an international security issue.
    In all cases, we believe our national security interest and 
the ability of the Navy and Marine Corps to meet its missions 
must be enhanced by increasing our energy diversity and 
efficiency. Our ability to maintain presence and advanced 
global security will also be augmented through partnerships, 
cooperation helps make us more effective. It diffuses tensions 
and reduces misunderstandings.
    Again and again, Naval forces have proven themselves most 
immediate, the most capable, the most adaptable option when a 
crisis develops. Overall, the fiscal year 2016 presence budget 
balances current readiness needed to execute our assigned 
missions of sustaining a highly capable fleet all within a 
tough fiscal climate. That climate demands our most rigorous 
examination of every dollar we spent in continuing our 
aggressive efforts to cut unnecessary costs in every program 
and shift our resources from tail to tooth.
    When America is called, the Navy and Marine Corps has 
always answered. In order to ensure that we continue to supply 
the Naval force our Nation's leaders and the American people 
expect, the Commandant and Chief of Naval Operations and I look 
forward to answering your questions. And we look forward to 
working together with this committee and the Congress to 
maintain our great Navy and Marine Corps, because in the words 
of the President Theodore Roosevelt, a great Navy is not a 
provocation of war, it is the surest guarantee of peace.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The written statement of Secretary Mabus follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Mr. Frelinghuysen. Admiral Greenert, again, thank you for 
40 years of service.

                 Summary Statement of Admiral Greenert

    Admiral Greenert. Thank you, Chairman Frelinghuysen, and 
Ranking Member Visclosky, and distinguished members of the 
committee. Thank you all for the opportunity to testify today. 
Mr. Chairman, you were right, this committee has been wonderful 
in supporting the building of ships and the supporting of our 
sailors. And you are also right, the mix of ships matters a 
great deal, it is just not the whole number. I thank you very 
much for your kind words here this morning today.
    It is my honor to serve--I have the best job in the world, 
I have had it. I get to enable and to serve 600,000 Active and 
Reserve sailors, Navy civilians and their families. I am 
especially pleased with the 41,000 sailors who are underway and 
deployed around the globe today. The dedication and their 
resilience of these people continue to amaze me, Mr. Chairman. 
And the citizens of this Nation can take great pride in the 
daily contribution of their sons and daughters who are out 
around the world today.
    I am very pleased and honored to testify this morning 
beside Secretary Mabus and General Dunford. Your Navy and 
Marine Corps team is united in fulfilling our long-standing 
mandate that you mentioned--to be where it matters, when it 
matters, ready to respond to crises, ensuring the security, and 
the underpinning of the global economy.
    Now, to that point, recent events exemplify the value of 
forward presence. Last August, the George Herbert Walker Bush 
carrier strike group had to relocate from the north Arabian Sea 
to the north Arabian Gulf. That is 750 miles where they were on 
station, and they did this in 30 hours, in less than 30 hours. 
In that time, Navy and Marine strike fighters flew 20 to 30 
combat sorties per day over Iraq and Syria. And for 54 days, 
they were the only coalition strike option to project power 
against ISIS.
    The USS Truxtun arrived in the Black Sea to establish a 
U.S. presence and to reassure our allies only a week after 
Russia invaded Crimea, and most of that time that week was due 
to paperwork getting established.
    The USS Fort Worth, a Littoral Combat Ship and the USS 
Sampson destroyer were among the first to support the 
Indonesian-led search effort for the AirAsia Flight 8501 in the 
Java Sea. So we have been where it matters when it matters.
    Mr. Chairman, as I have testified before, the continuing 
resolution and the sequestration in 2013 deeply affected Navy 
readiness and capabilities. We have not recovered yet. Navy 
overall readiness is at its lowest point in many years. Budget 
reductions forced us to cut afloat and ashore operations that 
generated ship and aircraft maintenance backlogs and compelled 
us to extend our unit deployments. Since 2013, many ships have 
been on deployment from 8 to 10 months or longer, and that 
exacts a cost on the resiliency of our people, the 
sustainability of equipment on the ships and service lives of 
the ships themselves.
    Our degraded readiness posture has also affected our 
ability to satisfy contingency response requirements. In 
addition to what is deployed globally today, our combatant 
commanders require three carrier strike groups and three 
amphibious ready groups ready to deploy within 30 days to 
respond to a major crisis. That is our covenant to them.
    However, on average we have been able to keep only one 
carrier strike group and one amphibious ready group in this 
readiness posture. So we are at one-third of the requirement we 
need to be. Assuming the best case of an on-time, an adequate, 
and a stable budget, and no major contingencies, we might be 
able to recover from these accumulated backlogs by 2018 from 
our carrier strike groups, and by 2020 for our amphibious ready 
groups so that is 5 years after the first round of 
sequestration and that is just the glimpse of the damage that 
sequestration can and will cause if we go back there.
    Not only do we face several readiness problems, but we have 
been forced to slow our Navy modernization. We have lost our 
momentum in fielding emerging critical capabilities for future 
fights. We are losing our technical edge, the overall impact of 
budget shortfalls in the past 3 years has manifested in the 
continued decline of our relative war fighting advantages in 
many areas and notably anti-surface warfare, anti-submarine 
warfare, air-to-air warfare, and what we called the integrated 
air and missile defense.
    We have been compelled to accept significant risk in the 
execution of two key missions that are outlined in the 
strategic guidance. I have a little handout that I provided 
which summarizes what those missions are and where we stand.
    But the two missions that we have the most risk in we call 
deter-and-defeat aggression. That means to win a war at sea 
while deterring a war at sea in another different theater. And 
number two, to project power in an anti access area denial 
environment. Now when I say risk, I mean that some of our 
platforms, and our people, and our systems--they will be late 
arriving to the fight. And they will arrive with insufficient 
ordnance, without a superior combat systems and sensors and 
networks that they need and they will be inadequately prepared 
to fight. This means longer timelines to arrive, like I said, 
less time to prevail, if we do, more ships and aircraft out of 
action when in battle, more sailors, marines and merchant 
mariners killed and less credibility, frankly, to deter 
adversaries and assure our allies in the future.
    Given these circumstances our President's budget 2016 
submission represents the absolute minimum funding levels 
needed to execute our strategic guidance, our strategy. To 
bring the Navy program into balance within fiscal guidance, we 
focused first on building the appropriate capability and then 
to deliver that capability at a capacity that we could afford.
    Similar to last year, we applied the following priorities: 
Number 1, we have to maintain the sea-based strategic return. 
That is a homeland defense item; number 2, sustain forward 
presence; number 3, develop the capacity and capability to win, 
improve our readiness, develop asymmetric capabilities; and 
lastly, but not least important, to sustain the industrial 
base.
    Choices were made using these priorities. For example, we 
were once again compelled to take reductions in aviation 
programs, munitions and shore infrastructure. So Mr. Chairman, 
over the last 3 years the Navy has been provided budgets that 
were $25 billion less than the President's budget request. And 
frankly, if we continue on this track, it will be $55 billion 
less across this FYDP. The primary result has been deferred 
modernization, but the cumulative result has been a loss of 
current and future readiness and future capability.
    Today's world is more complex, more uncertain, more 
turbulent. You mentioned it in your opening remarks, Mr. 
Chairman. This trend around the world will likely continue. Our 
adversaries are modernizing and expanding their capabilities. 
It is vital that we have an adequate, predictable and a timely 
budget to maintain an effective Navy.
    The proposal that we provided represents the floor, any 
funding level below the floor of this submission will require 
revision to our defense strategy. Put simply, it will damage 
the national security of the country.
    I look forward to working with the Congress to find 
solutions that will ensure our Navy retains the ability to 
organize, train and equip our great sailors and their families 
in the defense of this Nation. Thank you for your continued 
support and for what this committee has provided your Navy.
    Mr. Frelinghuysen. Thank you, Admiral, for your testimony.
    [The written statement of Admiral Greenert follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Mr. Frelinghuysen. General Dunford, good morning. Thank you 
for being with us.

                  Summary Statement of General Dunford

    General Dunford. Thank you, Chairman Frelinghuysen, Ranking 
Member Visclosky, distinguished members of the committee. I 
appreciate the opportunity to appear before you today and I am 
honored to be here with Secretary Mabus and my shipmate, 
Admiral Greenert, to represent your Marines.
    I will begin by thanking the committee for your steadfast 
support over the past 13 years. Due to your leadership, we feel 
that the best trained and equipped Marine Corps our Nation has 
ever sent to war.
    I know this committee and the American people have high 
expectations for marines as our Nation's expeditionary force in 
readiness. You expect your marines to operate forward, engage 
with our partners, deter potential adversaries and respond to 
crises. And when we fight, you expect us to win.
    You expect a lot from your marines and you should. This 
morning as you hold a hearing, over 31,000 marines are forward 
deployed and engaged doing just what you expect them to do. Our 
role as the Nation's expeditionary force in readiness informs 
how we man, train and equip the Marine Corps. It also 
prioritizes the allocation of resources that we receive from 
the Congress.
    Over the past few years we have prioritized the readiness 
of our forward deployed forces. Those are the forces you count 
on for an immediate response in a crisis. Those are the forces 
that supported the recent evacuation of U.S. citizens in the 
South Sudan, Libya and Yemen. Those are the forces currently 
conducting strikes in Syria, in Iraq, training the Iraqi army 
and protecting our embassy in Baghdad. Those are the 22,500 
marines in the Pacific west of the dateline.
    I can assure you that your forward deployed marines are 
well-trained, well-led, and well-equipped. We have had to make 
tough choices to deal with the effects of two wars, 
sequestration in 2013, and reduced budgets in 2014 and 2015, in 
order to maintain the readiness of our forward deployed forces. 
We have not sufficiently invested in our home station 
readiness, modernization, infrastructure sustainment and 
quality-of-life programs. As a result, approximately half of 
our non-deployed units, and those are the ones that provide the 
bench to respond to unforeseen contingencies, are suffering 
several personnel, equipment and training shortfalls. In a 
major conflict those shortfalls result in delayed response and/
or the unnecessary loss of young American lives.
    Over time, underinvesting in modernization will result in 
maintaining older or obsolete equipment at a higher cost and 
degraded capabilities. It will eventually erode our competitive 
advantage. We do not ever want our marines and sailors in a 
fair fight.
    The readiness challenges we have today provide context for 
my message this morning. We can meet the requirements of the 
Defense Strategic Guidance with the President's budget, but 
there is no margin. BCA funding levels will exacerbate the 
challenges that we have today. It will also result in a Marine 
Corps with fewer available Active Duty battalions and squadrons 
than would be required for a single major contingency. Perhaps 
more concerning it will result in fewer marines and sailors 
being forward deployed and in a position to immediately respond 
to a crisis involving diplomatic posts, American citizens or 
U.S. interests. As we saw in the wake of Benghazi the American 
people expect us to respond to today's crisis today. And we can 
only do that if we are properly postured forward.
    In closing, my assessment is that funding below the 
President's budget level will require that we develop a new 
strategy. Thank you once again for the opportunity to appear 
before you this morning, and for your leadership in addressing 
today's fiscal challenges. I look forward to your questions.
    Mr. Frelinghuysen. Thank you, General.
    [The written statement of General Dunford follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              SHIPBUILDING

    Mr. Frelinghuysen. And thank you gentlemen on behalf of the 
committee. The Budget Control Act is the law of the land, we 
are going to mark to that bill, so we need to talk about new 
strategies. We also need to know if, Mr. Secretary, your 
focuses on people, platforms, powers and partnership, your key 
factors, fixed factors, your personnel costs, where will you be 
making reductions in order to meet the objective of the $13 
billion that would be reduced.
    Mr. Mabus. Mr. Chairman, first I want to agree vehemently 
with what the CNO and the Commandant said, the President's 
budget is the minimum that is required to meet the national 
defense strategy. And we have seen when sequester hit in 2013 
what the impacts are. And we have seen how long-lasting those 
impacts are.
    I have said that I am going to do everything I can to 
protect shipbuilding, regardless of the budget situation. I am 
doing that because it is not reversible. If you miss a ship, if 
you don't build a ship in a year, you never make that ship up. 
And we are living with the decisions that were made 10, 15 
years ago in terms of numbers of naval ships and it takes a 
long time to reverse that.
    But if you do protect shipbuilding and the industrial base 
and the ability to build the Navy ships, things like the 
maintenance requirements, our public shipyards, when 
sequestration hit in 2013, we had a hiring freeze, we had a 
furlough, we had a government shutdown. And we don't have 
enough people in those public shipyards. Now we are hiring, but 
you lose skill sets. And so as the CNO pointed out, the 
maintenance requirements for our ships, it will take us until 
2018 or 2019 to catch up, same thing with our aircraft. The 
backlog in our depots for modernization and for maintenance on 
our aircraft will require us almost the end of this decade to 
make up. So what is certain is that if sequestration level 
funding is where we end up, is that something is going to 
break.

                         SEQUESTRATION IMPACTS

    Mr. Frelinghuysen. So if the shipbuilding thing is 
irreversible, and I do read your statements before you come, 
and you made a point of that, if that is the critical mass, and 
God only knows that is what the Navy is identified for, it is 
the most formidable part of our defense posture, what else is 
going to give? We--in other words, I like having the mission 
impacts, I understand that. But I think we need to know what 
specific platforms, what is going to give if we are going to 
maintain the shipbuilding, and having just visited Norfolk, I 
have seen it firsthand that incredible workforce, but something 
has got to give if we get under the $13 billion figure.
    Mr. Mabus. Well, the things that you have heard from me 
just in the maintenance requirements which affects readiness, 
from the CNO reduced sailing, the reduced surge capacity that 
we have, the reduced training opportunities that we have. What 
you have heard from the Commandant, the reduced readiness of 
the next to deploy, the reduced equipment for units and home 
station, reduced the ability to put sailors and marines 
forward. But I also will have to say that the budget that we 
put in, we have a responsibility to put the budget in that will 
meet the defense plan.
    Mr. Frelinghuysen. We have, of course, a responsibility to 
meet the law as does the administration.
    Mr. Mabus. Well, the President said repeatedly that he 
would veto a budget that locked in sequestration level funding. 
And so we are putting forward the minimum budget that we feel 
will meet the defense strategy. If it goes below that, we will 
break that strategy and we will----
    Mr. Frelinghuysen. We are going to work with you to do 
whatever we have to do and I think a closer working 
relationship is better than one from a standoff.
    Let me, before I turn to Mr. Visclosky, to Admiral Greenert 
and General Dunford, is there anything you can do in the fiscal 
year 2015 budget to minimize the impact of the negative 
consequences of the sequestration, are there any things you can 
do now? I mean, this is all about setting priorities here, I 
know everybody wants to do everything and you do an incredible 
job and do it well. Sometimes we don't always know all the 
things that you do. Marines are deployed in areas now where 
they have not always been, of course, you always have somebody 
at the embassy, so you have larger missions. I am wondering, 
taking a step back, are there things we could examine now in 
this fiscal year that might minimize the impact in outyears?
    Admiral Greenert. I will take a stab there. This is 
difficult because as what happened in 2013, you are talking 
about what we call the POM drop. If it was sort of measured 
approach to 16, it would be different. So here is what I mean, 
if you need money now, you have to go where the money is now. 
So that would be operations and maintenance, well that is only 
a 1-year appropriation, so that is out. Modernization, that is 
out. I am trying to get out of a readiness trough so to try to 
do that in 2015 while trying to support operations in 2015 is 
not--I can not do that. So my point would be if you are marking 
a 2016 budget to a different level, you are going after 
modernization, likely procurement, that is where the money is 
in the fiscal year that you need it. Doing something now while 
operating is not really--there is not much there, chairman.
    Mr. Frelinghuysen. General.
    General Dunford. Chairman, if you take a look at our budget 
between people and operations and maintenance as the CNO was 
talking about, that is 88 percent of my budget. So the only way 
that you could realize savings in a given year is divest 
yourself of people which we have not done. We have been trying 
to keep faith with people as we have done the deliberate 
drawdown or stop training operations and making money, which 
further degrades the readiness challenge that we have. So I 
think my short answer to your question is there really is not 
anything we can do in 2015 to set the conditions for what we 
actually donate, we do not know what 2016 is actually going to 
look like.
    Mr. Frelinghuysen. Well, before returning to Mr. Visclosky, 
we would like actually a list of what you would have to do 
under sequestration scenario. We endorse doing things on the 
George Washington. There are issues relative to end strength, 
we would like a better picture of what you would do, what your 
priorities would be if we had to go into that scenario, which 
is what we will be marking our bill to. I think we need a more 
comprehensive list, specifics, decommissioning ships, reduce 
procurement. I think we need some specific answers. Mr. 
Visclosky.

                NAVAL POSTGRADUATE SCHOOL AND USS HALSEY

    Mr. Visclosky. Thank you, Mr. Chairman. First of all, 
General Dunford, I do want to thank you and congratulate the 
Corps, because they now do have auditable books and I do not 
say that lightly. I think it is very important and realize that 
there are other milestones ahead for the Corps. I hope that you 
will continue to be very diligent and hope other services can 
take a page out of the Marine Corps book. I do think it is 
important.
    I have two questions, if you could, for the record, because 
they are very important to me, but we have a lot of members and 
in the interest of time. There was an OPNAV study last fall 
that validated requirements for between 1,200 and 1,300 FTEs at 
the naval postgraduate school, but the Navy comptroller has a 
cap of 884 as far as FTEs at that school. For the record, if 
you could provide the justification for not accepting the 
study's recommendation. And also, have an interest in the 
continued improvement of conditions on the USS Halsey. My 
understanding is there were two suicides early last year in 
midsummer. I have had a meeting most recently in July of last 
year with Admiral Howard and have a series of questions for an 
update as to whether or not there is any additional suicide-
related behavior on board, if there is any additional resources 
that have been vested or needed.
    [The information follows:]

    The primary mission of the Naval Post Graduate School is to 
increase the warfighting effectiveness of Naval Officers. Over time NPS 
expanded this primary mission by engaging in education and research 
activities for a variety of other customers including counterparts from 
other Services, international partners, OSD, and other executive 
agencies. The OPNAV study examined staffing requirements for the NPS 
workload, inclusive of all these other non-core mission activities. The 
result was a recommended staffing requirement in excess of data 
residing in the official Department of Navy manning data base which is 
used to determine Full Time Equivalent (FTE) controls by activity or 
command. NPS took on this additional workload, much of which is non-
Navy, without developing or maturing commensurately complex business 
practices and without appropriately requesting official changes to the 
data base, which would have been subject to review for compliance with 
the NPS core mission and resource requirements, including FTE. At this 
time, any increase to the manning data base requires a corresponding 
decrease to other functional areas and/or commands within the 
Department. In the current budget environment, it has become more 
critical than ever before that Department of Navy ensure an appropriate 
balance between resource requirements for the NPS primary mission and 
all other staffing requirements. A formal Department of Navy review of 
NPS functions and their associated resource requirements, including 
sources and uses of funds, is ongoing. Once this comprehensive review 
is complete, a final decision on NPS FTE staffing requirements and 
allocations will be made.

    No, there have been no more suicides in USS HALSEY. In fact USS 
HALSEY recently (on 5 February 2015) safely returned from a highly 
successful seven month deployment to the Western Pacific. Programs that 
were implemented, and are ongoing, include several visits by mental 
health experts over a period ranging from a few days to two weeks 
within the first two months of deployment (and the second suicide) to 
regular visits by Chaplains over the course of deployment; a follow-up 
survey by the Naval Unit Behavioral Needs Assessment Survey at the 6-
month mark; and a three-week capstone of classes offered onboard by 
Commander, Destroyer Squadron 31 (CDS-31) Chaplain and Military Family 
Support Center Psychologist to assess USS HALSEY Sailors and help with 
transition back to home life from deployment. Additionally, two Flag 
Officers visited USS Halsey to speak with the crew and provide 
mentoring to the ship's leadership.
    The USS HALSEY Sailors have continued to seek and receive treatment 
for individual and group mental health needs. Identification, caring, 
and intervention is emphasized at every level of a Sailor's chain of 
command.

                       NUCLEAR ENTERPRISE REVIEW

    Mr. Visclosky. The one question we can have a brief 
discussion here, and again, I would then defer, Mr. Chairman, 
is on our nuclear deterrence. The Nuclear Enterprise Review has 
suggested that the composition of the stockpile be changed to 
essentially five unique systems from the existing 12 systems 
today. Obviously, the Navy has a very large interest in the 
issue. The estimated cost as far as the transition for the 
National Nuclear Security Administration is somewhere between 
$50 billion to $60 billion over the coming years. The fiscal 
year 2016 budget for the Navy is about $2.2 billion included 
this year for nuclear enterprises.
    The two questions I have, either Secretary, Admiral, is if 
we have some discussion here about the BCA levels do not 
change, what happens relative to funding nuclear enterprise? 
Secondly, much more broadly, is there any ongoing discussion 
about the triad itself in whether or not that composition from 
3 to some other number may be changed?
    Admiral Greenert. In answer to your first question the sea-
based strategic deterrent is my number 1 program, Mr. 
Visclosky. So I would fully fund that to its requirements. That 
defense of the homeland, that is top priority. That is what I 
would submit to Secretary Mabus in my recommendations. Put it 
another way, I would propose no reductions to the nuclear 
enterprise that you see in the President's budget 2016 
submission.
    Number 2, there are discussions going on within the 
Department as to the future of the nuclear deterrent 
enterprise. I would say, if you will, everything is on the 
table. We are trying to improve it to make sure that the 
modernization of it, this would be the third big modernization 
since you got the inception, then you have a new bomber, a new 
SSBN, that is the Ohio. We are into a new phase where we have 
to look and see what do we want to with the Minute Man, the 
ICBMs, what about the new bomber and you are familiar with the 
Ohio replacement. Those discussions are ongoing, sir.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Frelinghuysen. Vice chair, Ms. Granger.

              SPECIAL PURPOSE MARINE AIR-GROUND TASK FORCE

    Ms. Granger. Thank you very much. Thank you all for your 
service. General Dunford, crisis response is an important 
mission, the Marine Corps has devoted significant resources to, 
and that includes the establishment of a crisis response force 
and a marine security guard augmentation unit. Would you give 
me some examples of how funding readiness has enabled crisis 
response?
    General Dunford. I would, Congresswoman. Frankly, I can 
give you an example that is really attributable to this 
committee. Two years ago we identified the requirement for 
additional crisis response capability, both in AFRICOM and in 
CENTCOM. So we established special purpose marine air ground 
task forces in both of those combatant commanders area of 
responsibilities.
    The special purpose MAGTF crisis response AFRICOM that this 
committee funded, was the first force that responded to Ebola. 
It was the force that conducted the evacuation operation in 
south Sudan, it was the force that conducted the evacuation 
operation in Libya. The force that you created in the United 
States central command, one day 10 days ago simultaneously was 
evacuating the embassy in Sana'a, was protecting the embassy in 
Baghdad, was flying strikes from Bahrain into Syria and Iraq. 
Was conducting V-22 type of recovery and aircraft personnel 600 
nautical miles to support those strikes. With training Iraqi 
army forces in al Assad, it was also training Jordanians. That 
is a 2,500-man force that was conducted 18 months ago.
    So when you talk about marines being forward postured and 
forward engaged, that is what you get when you talk about 
crisis response. I would add that those forces that were 
training the Iraqis were not forces generated specifically to 
train the Iraqis. General Austin was able to begin almost 
immediately after the President's decision to train Iraqis 
because he already had those forces available to him in 
theater.

                SEQUESTRATION IMPACT ON CRISIS RESPONSE

    Ms. Granger. I will just follow up on that. So if the 
crisis response is at the sequestration levels, then something 
else has to go, can you give us an example of what would be cut 
to keep that?
    General Dunford. Congresswoman, we are meeting those crisis 
responses. It is important I think for the committee to 
understand, we are meeting those crisis response requirements 
today at about a 1-to-2 deployment as well. What that means is 
our marines are deployed for 7 months and home for at or less 
than 14 months. At the BCA level, the only thing we can do as I 
was alluding to earlier, the only thing the Marine Corps can do 
is reduce capacity, because over 60 percent of our budget is 
people. And if you add that with operations and maintenance 
money, you are at 88 percent. So the only thing you can do is 
reduce capacity. So I would tell you that crisis response would 
be affected. And what really happens is it exacerbates 
readiness challenges of units at home station. Why do I raise 
that? Because the units that would be most likely to respond in 
the event of a major contingency are actually the units that 
are back at home station not the units that are out there 
conducting crisis response.
    What would happen if we go to BCA levels is those forces 
will have a choice, we will either delay a response in a major 
conflict or we will send young Americans that do not have the 
equipment, the training and the leadership necessary to 
accomplish the mission. I really do think it is a function of 
time and or American lives is what we are talking about. Our 
experience in 1950 in the Korean war was instructive in that 
regard.
    Ms. Granger. Thank you so much.
    Mr. Frelinghuysen. Mr. Israel.

                  SEA-BASED BALLISTIC MISSILE DEFENSE

    Mr. Israel. Thank you, Mr. Chairman. I appreciate the 
homage to the congressional district.
    Admiral Greenert, I want to ask you a question about a 
ballistic missile defense capability. Our adversaries continue 
to develop at a very rapid pace ballistic missile capabilities, 
and we need to stay many steps ahead. I was wondering if you 
could address the demands on the fleet in maintaining a 
proactive ballistic missile defense. I am also concerned about 
the current plan to place Aegis cruisers in reduced operating 
status and would like you to address that issue.
    Admiral Greenert. Today we have on the order of, I think it 
is 15 ballistic missile defense capable ships. I will send you 
a paper on that so I get it straight. We need, by the end of 
the FYDP, and that kind of tends to be our goal, 40 available 
around the world, this is ballistic missile defense capable. 
They have the sensors, they have the weapon. So it is a pretty 
high demand. To get there, Congressman, you have to modernize 
the cruisers and the destroyers. They have to have the cooling, 
the power for this really high powered radar. It takes a lot of 
power, it takes a lot of cooling, and you have to have the 
right weapon. So that tends to be, that is what we are rushing 
to get done.
    [The information follows:]

    We currently have a total of 33 BMD-capable ships in our Fleet. 
This force is comprised of 28 destroyers (DDGs) and 5 cruisers (CGs). 
Twenty-three of the ships have the initial or basic level of 
capability, seven have been upgraded to an intermediate level of 
capability, and three are equipped with advanced capability, which 
allows these ships to conduct true Integrated Air and Missile Defense, 
simultaneously conducting BMD and air defense. Working closely 
together, MDA and Navy are steadily increasing the number of BMD-
capable ships by both modernizing existing destroyers and delivering 
new construction ships built with inherent BMD capability.
    This BMD Fleet is currently meeting about two-thirds of the demand 
that is being levied on the Navy by the Combatant Commanders. In order 
to do that, our BMD ships are making longer, more frequent deployments 
than we would prefer. In addition to increasing both the capacity and 
capability inherent in the ships of our BMD Fleet, I am working to 
ensure that the demand signal levied by the Combatant Commanders is 
correctly validated, serviced efficiently, and is sustainable for the 
long term.

    What has been very helpful, because today we are doing most 
of missile defense from the sea ashore, if we can put a site 
ashore to get that done, that helps dramatically, much bigger 
aperture, more resolution. And so today we are standing one up 
in Romania as I speak, it will be in service at the end of 
December, and in 2 years one in Poland. That will dramatically 
help the European situation. So we are on track. My concern is 
to what end? I am speaking President budget 2016 levels. You go 
to the Budget Control Act levels, as I said before, most of 
what we do will come out of modernization. Well, that is a key 
part of modernization.

                       LONG ISLAND CONTAMINATION

    Mr. Israel. Thank you, Admiral. And finally, Mr. Secretary, 
this is a very parochial concern I am going to ask if you could 
send some folks up to see me regarding a contaminated plume on 
Long Island; the Navy and the Grumman Corporation worked on the 
Hellfire in the 1940s, that site has been contaminated. The 
contamination is growing. I would appreciate it if you would 
send somebody up to see me so that we can address those issues.
    Mr. Mabus. I would be happy to, Congressman. We have been 
working very closely with Congress and also with the State of 
New York to address that, but I will be happy to send some 
people up with not only information but with our plan of 
action.
    Mr. Israel. Thank you, Mr. Secretary, and thank you again, 
Ms. McCollum.
    Mr. Frelinghuysen. Thank you, Mr. Israel. Mr. Crenshaw.

                  GUIDED MISSILE CRUISER MODERNIZATION

    Mr. Crenshaw. Thank you, Mr. Chairman. Let me first welcome 
all of you back. The Navy has a pretty strong presence in my 
district in northeast Florida, so I have worked with you all 
and developed what I would consider a very trusting 
relationship, friendship and I thank you for that. Admiral 
Greenert, I know you will be leaving, but not everybody knows 
that the Secretary of the Navy is on his way to becoming the 
fifth longest serving Secretary of the Navy. I do not know 
where you rank in your service as CNO, but in terms of length 
of service, but certainly you have been one of the best, so 
thank you all for being here today.
    Mr. Frelinghuysen. Looks like the Secretary wants equal 
time. Okay, excuse me.
    Mr. Crenshaw. He will probably be back, right?
    Mr. Mabus. I think he has got the quality, quality edge, I 
may have quantity.
    Mr. Frelinghuysen. That time does not come out of your 
time.
    Mr. Crenshaw. Thank you very much.
    One of the things I know that you all have been working on 
is a plan to modernize some of the guided missile cruisers. 
There was a time when the Navy wanted it to lay up, whatever 
that means, they were going to lay up 11 cruisers which this 
committee and this chairman thought was probably short-sighted. 
So now there is a plan I guess when you think of the tumultuous 
times we live in and we talked a lot about ships today. When 
you lay up a ship and do not have a crew, and you don't have 
any modernization money, more than likely it is going to be 
decommissioned, and I think this subcommittee thought that is 
probably a bad idea when we talk about the number of ships that 
we need. And so, under the leadership of the chairman, we 
developed this plan called 2, 4, 6, these 11 cruisers are going 
to be modernized. I had a couple of questions about that, 
because I think the plan is that no more than two ships will 
enter the modernization schedule each year. None of the ships 
will stay there more than 4 years and there will not be any 
more than six ships there at any one time.
    The question becomes, and maybe for you, Secretary Mabus, 
how have you all decided to benchmark the 4 years that they 
were going to be in this modernization? Is there some--like, 
when does that begin and when does it end so that we can comply 
with that 4-year of 2, 4, 6.
    Mr. Mabus. Congressman, first, I want to thank the 
committee for setting up the so-called SMOSF funds to modernize 
these cruisers. We agree wholeheartedly, we need to keep these 
cruisers, and we need to keep them for as long as we possibly 
can; we need to extend their lives and modernize them as long 
as we possibly can. In answer to your specific question, the 4 
years would not include the time getting ready to go into 
modernization or the time after they come out of modernization 
that you do the shakedown, the testing and this sort of thing. 
So it would be 4 years in modernization.
    Having said all of that, the reason that--and I fully, 
fully understand the concern of the committee and Congress, 
words like ``lay up'' were used, words like ``decommission'' 
were used. The plan that we put in in 2015 to put 11 cruisers 
into modernization at once, we were going to continue to have 
those ships on commission. They were not going to be laid up, 
they were not going to be completely out of service. They were 
going to remain under the control of the CNO. If contingency 
arose that we had to have extra cruisers, we could have manned 
those, or up-manned them, because they would be minimally 
manned and gotten them out to sea.
    By doing that, by putting all 11 in, we need 11 at a time 
in the fleet, by putting the 11 in, we would extend the life of 
those cruisers, from the mid- to late 2020s when they are 
scheduled to retire now to the mid- to late 2040s. The 2, 4, 6 
plan which we are absolutely complying with now would not--it 
would extend the lives, but about 10 years shorter than the 
original plan.
    And what we do not have is the money that would be gained 
from the manpower that we could put into the modernization 
effort and we would run out of the SMOSF funds far earlier. And 
that is the reason that we still believe that putting the 11 
cruisers into modernization at times. Whatever assurances or 
whatever actions we can take to assure the committee, to assure 
the Congress that these 11 cruisers are going to stay in the 
fleet, we need all 22 of the cruisers, and we need these 11 to 
be modernized to replace the cruisers that will reach the end 
of their lives. Whatever actions we can do to do that, because 
we do think that the original plan will do that and we will 
keep these cruisers in service and more modern longer than any 
other plan that we have been able to come up with.
    Mr. Crenshaw. Just one quick follow up to Admiral Greenert, 
one of the things we just talked about you have got the SMOSFs 
so to speak, and then you have to fund the manning outside of 
that. I know that is in 2016, is that still the plan to do that 
in the outyears?
    Admiral Greenert. It is, if that is the intent and that is 
what you tell us to do, that is what we will do. We got the 
bill, the 2015 bill in December, we had about a week to put 
this together. We said, look, we have got to man the 2016 in 
our submission to comply, so we did. We did not get it all put 
together, so we have to get after that.
    The SMOSF fund when it first come out was Ship 
Modernization Operation Sustainment Fund. That was good and we 
appreciate it, especially the operations and sustainment when 
they are not physically in modernization. Well, that has become 
the SMF fund, ship modernization fund, no money for operations 
and sustainment. That hurts, that is a burden we are bearing 
that was not originally intended. That is the intent of the 
Congress, so be it, we will comply. But we sure would prefer 
the other, it would be very helpful if we can extend that back 
to SMOSF, Congressman.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Ms. McCollum.

                             ARCTIC ROADMAP

    Ms. McCollum. Thank you, Mr. Chairman.
    Well, it has been pointed out that the Budget Control Act 
is the law of the land. Congress, without my help, passed that 
law, and Congress, with my help, can change that. We can remove 
sequestration from this conversation. The President put forward 
in his budget a way to move forward without sequestration, and 
I appreciate that. We are awaiting the Budget Committee to give 
us our numbers, our allocations. And so I wake up optimistic 
and hopeful every day that the Budget Committee will do the 
right thing and help us bring sequestration to an end.
    People are chuckling on the other side of the aisle, but 
like I said, I wake up hopeful even though it is zero in 
Minnesota and 19 in Alaska.
    Which leads me to my question. The U.S. Navy Arctic 
Roadmap, which I found really interesting, so, Secretary and 
Admiral Greenert, I would like to get your thoughts on the 
Arctic. The effects of climate change are particularly evident 
in the Arctic. The polar region is warming twice as fast as the 
average rise on the rest of the planet, which means more open 
Arctic waters.
    Now, I know the Navy is thinking about the Arctic, and I 
want to commend you for the work for the report that I just 
held up, the Navy's Task Force on Climate Change, for its 
Arctic Roadmap report last year. We have clear national 
interest in the Arctic, along with our Canadian and Nordic 
allies. In fact, there is a Nordic Council, which the U.S. is 
chairing right now, which is part of the State Department. But 
your focus in this area is really important. It is a resource-
rich environment. We should expect the Russians and the Chinese 
to be very active in this region.
    So, Admiral, as you look to the future, what are the 
challenges, opportunities, resources, and investments this 
committee needs to be thinking about as the Navy operates in 
this very harsh and changing climate?
    And then to General Dunford, similar climate change is 
affecting sea levels, which impacts equatorial coast lines. So 
how is the Marine Corps thinking about climate change and its 
impact on your mission, as well as where you will have to have 
marines based?
    Thank you, gentlemen.
    Admiral Greenert. Thank you, Congresswoman. First question, 
when will it be navigable? When are the navigable sea lines of 
communication open, number one. We think it is about 2023, 
2024. And by the way, just because the ice is kind of slushy, 
unless you have a hardened hull, you still don't want to go 
through that. So it has to be clear. We think it is about 2024.
    When it is navigable? And that means open. Is there a 
threat? Are there disputes on the routes that are navigable? 
And by the way, that is not just open ocean. That is also you 
have got to look at the draft. It is fairly shallow up there. 
And big container ships have deep drafts, 60, 70, 80 feet. You 
talk to big companies--and I have--they say, I don't know if 
this is a really a big deal to me.
    And are there disputes? There are some, territorial. And as 
you mentioned, ma'am, how do we resolve them? Well, the Arctic 
Council is certainly a good way to look at that.
    What kind of changes? Programmatic. Well, we already put in 
place, it is in there, in that roadmap there, that when we 
build in new systems, communications, hull, mechanical, 
electrical, you have to answer the question, how will it 
operate in an Arctic environment? And that includes all that 
stuff topside, all the superstructure and the infrastructure.
    We need to go up and look at it more often. We have an 
exercise we used to do every 3 years called ICEX. Makes sense. 
And we did it mostly under the sea. It was a submarine thing. 
It had been going on for three decades. We are pretty good at 
it. We can go up and establish an ice camp and get that done.
    I say we have got to do it every 2 years, and we are for 
the first time. And I will talk to the secretary about maybe we 
ought to do this annually. We are going to look at the 
acceleration. And it is not just about the undersea. We need to 
do the surface and the air, invite industry up there, and 
assess this place up in an Arctic ice camp and take it from 
there.
    So it will be communications. It will be the systems 
onboard the ships. It will be the satellite imagery so we can 
communicate up there, as well.
    General Dunford. Congresswoman, I know you are describing 
the broader issues associated with climate change. From a 
Marine Corps perspective, we view that as certainly one of the 
sources of conflict, and also it creates an increased 
requirement for humanitarian disaster relief operations. And I 
think the kinds of things that we have done in the Pacific over 
the last several years are probably prologue for what might 
have to be done in the wake of the climate change you describe.
    So for us it is a question, once again, of being forward 
deployed, forward engaged, and be in a position to respond to 
the kinds of natural disasters that I think we see as a second- 
or third-order effect of climate change.
    Ms. McCollum. But planning for that now, not forestalling, 
not doing anything about it now, because on a priority list we 
were talking about the military-industrial base, but putting 
this off, pushing this down the road has the potential of 
making us more vulnerable in the future? Would you agree or not 
agree?
    Admiral Greenert. I do agree. That is why I say we have got 
to get this ICEX exercise to a biannual or annual. And as I 
said, our programs today have to prove that they can operate in 
an Arctic environment.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Frelinghuysen. Members are invited to be part of the 
ICEX program if you haven't done it. It is worthy of doing it.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.

                           CIVILIAN WORKFORCE

    Good morning, Secretary Mabus, Admiral Greenert, General 
Dunford. First of all, thank you for coming here today. 
Certainly, thank you for your service. All of us here 
understand the difficult challenges, and we look forward to 
working with you to support the men and women of the United 
States Navy and the Marine Corps.
    Obviously, difficult decisions must be made, but looking 
through the DOD budget over the years, I noticed that in 2003 
the number of defense civilians was approximately 636,000 
relative to 1,434,377 Active Duty military. That ratio is about 
1.225. Today, there are 776,841 defense civilians relative to 
1,332,991 uniformed services. That ratio, obviously, the 
civilian employees versus military employees, obviously, is out 
of whack significantly.
    In 2010, the Defense Business Board recommended a reduction 
of defense civilians to the fiscal year 2003 levels, or 15 
percent, whichever is greater. According to experts, that would 
save approximately $82.5 billion over 5 years to do that. And, 
obviously, the authorizers are working on procurement reform 
and other types of reform to help streamline the Department of 
Defense to have savings that could be kept within DOD for more 
end strength for Marines, procurement for the Navy, et cetera.
    What is your position on that, to get those savings in the 
civilian workforce. Secretary?
    Mr. Mabus. Congressman, first, I think you need to break 
that out into where those civilians are. I think the services 
have done a pretty good job of making the trade that you have 
to make in terms of uniform versus civilians. DOD is a much 
larger place, though, than just the services, so as you are 
looking at civilian employment, look wider than just the 
services.
    Second, in terms of the Navy in particular, those civilians 
include people in our public shipyards that maintain our 
nuclear submarines. They include the people that maintain and 
modernize our aircraft. And one of the reasons that we are in 
such a readiness trough now in both the Navy and the Marine 
Corps, in aviation and in ship maintenance, is that we lost 
some of those civilians during sequester, furlough, hiring 
freeze, and we are just now catching up.
    And finally, I do want to say a word about Navy civilians. 
We lost 12 of them, killed in action in Washington Navy Yard, 
and we would not have a fleet to put to sea without those 
civilians.
    So I think that the Defense Business Board has a good 
point, but I think you need to also look at the specific jobs 
that those civilians are doing instead of simply a broad metric 
of what percentage to cut.
    Mr. Calvert. Mr. Secretary, several comptrollers who have 
come to see, from both parties, and believe that the Secretary, 
the Secretary of Defense, should have discretion to make 
determinations on how we can over time bring the civilian 
workforce into compliance to what has been historically the 
ratios within the Department of Defense. We are operating under 
the same pool of money that we have to make determinations of 
where it is going to go.
    And I am not arguing that depots are important or fixing 
aircraft, the civilian employees that have a critical role in 
what we are trying to do, but it is not anecdotal to say that 
there has been a growth in middle management in the Department 
of Defense, there has been a growth in other activities in the 
Department in the civilian workforce. And if we have to make 
decisions, is it better to look at the civilian workforce 
versus cutting Marines' end strength, which we have cut 
probably more than we should, or ordering new ships and 
operations and maintenance of those ships?
    Mr. Mabus. Again, I think that the important distinction to 
make here is between the services and the Department of 
Defense.
    Mr. Calvert. And that is the Secretary's job. The Secretary 
of Defense needs to look at everything across the board, 
throughout the Department of Defense, to make those difficult 
decisions.
    Mr. Mabus. Absolutely, Congressman. I think it is all of 
our jobs to make sure that we are not out of whack. But I also 
think that we need to not just look at cutting a Navy ship to 
build a Navy ship or cutting a civilian for a specific reason.
    Mr. Calvert. No, I am just talking about bringing into 
historic compliance. We had 636,000 civilian employees in 2003. 
Today, we have 776,000. And we have dropped the military 
component by well over 100,000 in that same time period.
    Mr. Mabus. Congressman, I think you and I are very much in 
agreement here. It is just where you look. And instead of 
saying everybody cut 15 percent, look and see what the 
civilians are doing.
    Mr. Calvert. I am not saying that. I am not talking about 
across-the-board cuts. I am talking about the Secretary, like 
any business manager, making determinations throughout the 
Department where they need to be made.
    Mr. Mabus. And, Congressman, I agree with you, again, 
wholeheartedly, and I hope that when those looks are made that 
they will be looked at more in tail or overheard, business 
terms, than in tooth, Navy, Marine Corps, forward presence.
    Mr. Calvert. Admiral, would you have any pointers?
    Admiral Greenert. I agree with what the Secretary said. You 
know, Congressman, you could really help us by giving us--it 
would be the Secretary of Defense and all of us--by giving us 
the authorities to manage our civilian workforce like we manage 
our military. And what I mean is to provide appropriate 
incentives to do shaping of the force, to man the civilian 
workforce like we man military, to function, to task, so that, 
as you said, we have a core that is important, as the Secretary 
said and you agree.
    That is where the real rub becomes, sir, whenever we try to 
manage. Then we go in and say, okay, how do we do this? And we 
find that the ability to make changes is so onerous it becomes 
across the board and then we throw the baby out with the 
bathwater, as they say.
    Mr. Calvert. And I have been told anecdotally, when you put 
a uniformed person in there to do that job or you have to bring 
a contractor in to do that job because you do not have the 
flexibility to manage the civilian workforce. Is that correct?
    Admiral Greenert. That is correct. We don't have the 
flexibility to properly manage the civilian workforce, in my 
opinion, yes, sir.
    Mr. Calvert. General.
    General Dunford. Congressman, maybe to help put what 
Secretary Mabus was speaking about in some perspective, in the 
Marine Corps our ratio of civilians to Marines is 1 to 10; in 
the Department as a whole, it is 1 to 2. We have in fact----
    Mr. Calvert. You have done a great job.
    General Dunford. Well, we do benefit from some of the other 
civilians that are out there. But, again, looking at it from a 
purely parochial perspective, we don't have much to cut, 
although we are involved in a 10 percent cut. We will achieve 
that by 2017.
    But the real important point for us is someone has an image 
of the civilians. Ninety percent of our civilians are outside 
the national capital region. They are working at our depot. 
They are providing force protection at our bases. They are 
running our training facilities. They are running our family 
programs.
    So as I look at it as a service chief, I look at our 
civilians as tooth, not tail. In other words, they are directly 
contributing to the combat effectiveness and the readiness of 
the United States Marine Corps. And if they are not, then I 
agree with you 100 percent, then we need to take a hard look at 
whether or not we have them.
    Mr. Calvert. Okay. And I understand, and I just think that 
we have a take a serious look at that, because we would rather 
have the money stay in the Marine Corps and the Navy and to 
give you better flexibility, Secretary Mabus, to operate your 
Department.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Point well taken.
    Mr. Ryan.

                         MENTAL SKILLS TRAINING

    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you, gentlemen. This is clearly very challenging 
times, and we appreciate your service and all that you are 
doing day to day to try to meet the goals that are set for you, 
as unreasonable as sometimes we seem to have placed them for 
you.
    I have got a couple of questions. First, General Dunford, a 
few years back when we met we were working on this mind skills 
program and mental fitness training with Dr. Liz Stanley from 
Georgetown. I was a few years ago stunned by the fact that many 
times the warriors' stress level was almost at its highest when 
they were preparing to go off to war, the family situations, 
just getting ready to leave. And we now know that that 
diminishes your working memory capacity, your cognitive 
functions, and all the things that you are going to need when 
you are out into the field of battle.
    And this mental skills training program has shown some real 
signs of increasing working memory capacity, increasing 
cognitive function, increasing resiliency so that we are really 
making some key investments into the warrior that are going to 
prepare them for the kind of high-level stressful situations 
that they are going to be dealing with.
    So there were some positive studies that came back, and 
then there was a study that was put out for mental skills 
training and basic reconnaissance in the Marines, and it was 
funded by the Office of Naval Research. And it was a 2013 
study. I am waiting for the results to see how that is going.
    General Dunford. Congressman, thanks for asking the 
question. And as you alluded to, I really started getting into 
this probably back in 2010 when I was the commander of our 
Marine Expeditionary Force on the West Coast. And we started a 
pilot program that has come along apace with some other 
research efforts that you spoke about.
    Right now, we have the data that says this is absolutely 
the right way to go, that this can, in fact, reduce the stress 
of our Marines across, whether in predeployment, deployed, or 
postdeployment. But as you point out, some of the most 
stressful period of time is the predeployment phase. We found 
that. That is analytically based.
    Right now, what I am trying to do is figure out how to what 
I describe as marinize it. We have 35,000 new marines every 
year. We have got an Active Duty force of 182,000, another 
38,000 marines. And what Dr. Stanley has been able to do to 
date is work with relatively small groups and small units, but 
not necessarily give us a program that can be applied across 
the Marine Corps.
    And to be honest with you, this is one of those items that 
is on my checklist. I have been on the job just about 4 months 
right now. And as I came into the job, I did ask some questions 
about where are we in the research. I have had a conversation, 
I guess, a couple of conversations with Dr. Stanley since I 
have been in the job. And over the next couple months what I 
will be looking to do is figure out how we can integrate these 
types of techniques so that we are doing nothing more, nothing 
less than exercising the brain the same way we do with the body 
to contribute to the combat effectiveness of our marines. Part 
of that is reducing stress.
    Mr. Ryan. Great. Well, if you could check on the study, the 
latest, see what the results are so we can get moving on that.
    And, Mr. Chairman, I know I have talked to you about this 
several times, on trying to dig a little bit deeper in, not 
only the resiliency of the warrior, but in many instances I 
think this can inoculate from some post-traumatic stress issues 
that come down the line. So I appreciate that.

                          PIVOT TO THE PACIFIC

    Admiral, just a quick question on the Asia-Pacific 
rebalance. If you could give us a little bit on that and where 
the Navy stands in the rebalance and rebasing, reassignments of 
units, and that kind of thing.
    Admiral Greenert. The rebalance I put in three categories: 
forces, capability, and what I call understanding.
    So with regard to forces, we are putting more forces in the 
Asia-Pacific region, some in our forward-deployed naval force, 
that means forward station. So in the next 2 years we will put 
two more destroyers in Japan. This year we are putting another 
submarine in Guam.
    We have the Fort Worth, which is the number two hull 
number, Littoral Combat Ship. She is on deployment over there. 
That is the second deployment over there, would be out of 
Singapore in that area. So when she completes this deployment, 
it is a 16-month, she is about 5 months into it, changed out 
the crew once, the next ship that comes over will stay in 
Singapore, then another, and two more. So we will have four 
Littoral Combat Ships by 2017, by the end of 2017, in 
Singapore. So four Littoral Combat Ships, two destroyers, a 
submarine in Guam. That is part of the force structure.
    Our P-8, it is a maritime patrol aircraft, it is a 737-800 
series aircraft, replaces a propeller aircraft, four-engine 
propeller aircraft. They have been on deployment now for three 
deployments out there. So that is in the Asia-Pacific and that 
is the first area we have deployed this.
    Our Joint Strike Fighter, by the end of this decade, will 
deploy to the Western Pacific, so you see the trend. We are 
putting all the forces out there, either forward station or 
they will deploy there first. All on track, sir.
    Number two, capability. We benchmark anti-air, 
antisubmarine, electronic attack, cyber, all to how it would 
perform in the Western Pacific against potential adversaries 
out there. That is going apace. The modernization is delayed. I 
spoke to that in my opening statement. It is in my written 
statement. That one has slowed down. The point is, the 
benchmark is in place.
    And then lastly, understanding. It is really about 
reassuring our allies, establishing partners, and really 
establishing ad hoc partners where the case may be.
    Mr. Ryan. Are there any new countries involved?
    Mr. Frelinghuysen. I want to make sure Mr. Womack gets his 
oar in the water here too.
    Mr. Ryan. Are there any new countries that are involved in 
what you are doing out there?
    Admiral Greenert. By new countries, friends that are doing 
more, Malaysia, in particular, Indonesia, in particular. I just 
mentioned Singapore, who has really come forward. You are 
familiar with the Philippines interest level, Vietnam interest 
level. So there is a pattern there. Southeast Asia is emerging.
    And lastly, I would say, we have a great opportunity 
emerging now with the President and Prime Minister Modi, the 
recent get-together with India, and what that partnership 
means.
    Mr. Ryan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Mr. Womack.

            TRANSITIONAL OCO REQUIREMENTS TO THE BASE BUDGET

    Mr. Womack. Thank you, Mr. Chairman.
    I too want to offer my thanks to the service of these 
gentlemen that are before us today, and, particularly Admiral 
Greenert, your service. The time that I have spent in the last 
year on the Nimitz and on the West Virginia and with some 
special guys down in Coronado has been a real highlight of my 
time in Congress, and never crease to be amazed at the 
competence of our men and women in uniform.
    And, General Dunford, your service, particularly your most 
recent service in Afghanistan. I truly appreciate your 
hospitality when we traveled there. It is remarkable what you 
guys have been able to do.
    You all have had to rely not only on base funding to 
account for readiness shortfalls, but OCO, as we commonly refer 
to it, and I understand that the need for OCO doesn't go away 
when we leave the Afghan theater. OCO is used to get our 
equipment home, get it into the proper maintenance posture and 
ready for its next mission.
    The conversation has come up again and again how to scale 
OCO down, perhaps 1 day even to zero. I don't know if that is 
realistic. And I know we don't live in an ideal world. But have 
you begun to transition OCO enduring requirements in the base 
yet? Or help me understand how we are planning in that regard.
    Admiral Greenert. Well, Congressman, we started in that 
direction about 4 years ago. And what happened was, either at 
the defense level, the OMB level, or here in the Congress, the 
decision is made to put more operations in OCO and then replace 
where that came out of with maybe some procurement.
    So I think what we need is we need an agreement by all 
three of these entities to say, here is the plan, here is how 
we are going to transition from maybe what is called OCO today 
to a new supplemental fund used for emergent operations out 
there. Today, my readiness accounts of, say, $21 billion, about 
$3.6 billion of it is OCO, that is funded by OCO. And about 2 
of that, I would say, probably eventually belongs in a base, 
belongs in the base.
    So I think we can do this, but I think we need a 
deliberate, coordinated action so that I ask the Secretary, 
hey, let's put this in the base, and then somebody pulls it out 
of the base and replaces it with OCO and then does something 
else with that money. That is confusing to our folks.
    Mr. Womack. General.
    General Dunford. Congressman, thanks. Two years ago, in 
2014, we had a little over $4 billion in OCO. This year we have 
a little over 2; and our request in 2016 is a little over 1, it 
is 1.3 billion. So we have, in fact, come down about half each 
year. But like Admiral Greenert, now I am starting to see 
challenges of training for the contingencies that we are 
involved in that were not anticipated 2 or 3 years ago.
    So a combination of the operations and maintenance money to 
train for the unexpected, combined with the continued 
requirement to reset is the foundational requirements for our 
OCO right now. We will be done with the reset requirement from 
Iraq and Afghanistan by 2017, so this is the last year we will 
request money for reset. But of course that assumes steady 
state requirements in the United States Central Command, 
AFRICOM, and elsewhere.

                             BUDGETARY RISK

    Mr. Womack. My other question is, and I bring this up every 
year, I think, it is levels of acceptable risk. And of course 
this budget that we are dealing with, whether it is sequestered 
budget or maybe even as high as the President's budget, that is 
still to be determined. How are we able to square risk in 
budgets? This seems to me to be a very difficult exercise, 
because you almost have to plan two different budgets. I guess 
you almost assuredly have to plan two different budgets. How 
are we able to measure and assess risk?
    Mr. Mabus. We manage and plan for risk in--it is one of 
these hard choices you make--what is the highest probability of 
what is going to happen, and what are the results if it does? 
So high probability, small result; low probability, but a very 
bad result on the end. And you have to balance force structure, 
so people, platforms, and readiness, to meet, number one, the 
most likely contingencies, and number two, to have the most 
flexibility for the contingencies that you don't plan for. But 
the very word ``risk'' means you take some chances in some 
things that are low probability, that you simply don't have the 
resources.
    Mr. Womack. Mr. Secretary, if we have a sequestered bucket 
in fiscal year 2016, in your opinion, in your professional 
opinion, is it an acceptable level of risk?
    Mr. Mabus. I will quote the Commandant here: We go from 
risk to gamble. It is no longer risk. It is simply a gamble.

                               DWELL TIME

    Mr. Womack. I have one followup question, Mr. Chairman, and 
I know my time is up, but this will elicit only a short 
response from General Dunford.
    You mentioned in our opening one-to-two dwell time. Where 
do we need to be on dwell time?
    General Dunford. Congressman, optimally, it would be at one 
to three. That is what I grew up with most of my career, 
deployed for 6 months, back for 18 months.
    Mr. Womack. One to three is sustainable?
    General Dunford. We can maintain one to two. We are 
maintaining it right now. One to three is optimal. What you 
really start to see when you are at one to two is the inability 
to train across the range of military operations. So you are 
really preparing for the next deployment as opposed to 
preparing across the range of military operations. That is the 
difference between one to two and one to three, as well as, 
obviously, the human factors, how much time you spend back at 
home with the family.
    Mr. Womack. I thank the gentleman.
    Mr. Frelinghuysen. Thank you, Mr. Womack.
    Mr. Ruppersberger.

                 SEQUESTRATION IMPACT ON CYBER COMMAND

    Mr. Ruppersberger. First, thank you for being here and for 
all of your leadership throughout the years.
    First thing, you have been testifying today, Secretary, 
clearly, is crippling policy. Mr. Womack, I thank you for that 
question and the answer that we are now putting our national 
security at a gamble phase. And I think it is really incumbent 
upon this committee, our other committees, to let our peers, 
whether it is Democratic or Republican, this should not be an 
issue of partisanship, it should be about the American national 
security and what is right for our constituents.
    And I think that this testimony, if the average person--
whatever their position is in Congress--understands where we 
are. You know, budgeting is about priorities. It is not about 
cutting across the board and you throw the baby out with the 
bathwater. And we need to rely on you with our oversight 
because of to say on the funding to make those priority 
decisions because we have to deal with the issue of spending. 
There is no question. That is out of control. Areas we can deal 
with and that is our committee oversight also.
    But with that, I want to thank the chair for your 
leadership, and also for our ranking member for raising this 
issue, and for the members on the other side of the aisle for 
asking the questions to show where we are.
    You know, Judge Carter is cochair of the House Army Caucus, 
we are going to get the same thing from the Army and Air Force. 
Now it is time for us, I think, and people who have insight on 
what is going on with our national security, that we are 
putting America at risk. And we can't let it go. So we have to 
educate people that have another point of view as it relates to 
sequestration.
    With that, I want to refer you to Fort Meade.
    Is that my district, Mr. Chairman?
    Mr. Frelinghuysen. Just about everything in this area is 
your congressional district.
    Mr. Ruppersberger. And the U.S. Fleet Command, that is the 
Cyber Command. You know, you talk about the issues that are so 
important, the danger of our country, you know, we talk about 
the terrorism, we talk about the rush of China and the Iran 
threat. And sequestration is, I mean--sequestration, got it on 
my mind, and cyber is right there one of the most serious 
issues we are dealing with. We see the attacks coming more and 
more, constructive attacks, stealing attacks, and we really 
have to be on our game as it relates to that.
    Now, in the Cyber U.S. Fleet Command in Fort Meade, can you 
provide details on the consequences that sequestration at this 
point would have on U.S. Fleet Cyber Command, what cyber 
capabilities on the U.S. Fleet Cyber Command fleet lose with 
that sequestration level bucket? You might want to say to the 
committee what the U.S. Fleet Cyber Command, what their mission 
is. And I don't know who wants to answer the question first.
    Mr. Mabus. I will take an overall shot at it, and then I 
would like the CNO to weigh in as well. But what Tenth Fleet, 
U.S. Naval Cyber does is it provides our cyber capability for 
the Department of the Navy and it folds in under the U.S. Cyber 
Command. And you are absolutely right, cyber is a new area of 
warfare, and you only have to look at what happened in Ukraine 
or any of a number of places to see how it is being not only 
integrated into warfare, but a warfare area all its own.
    What we have been providing is teams, cyber teams to the 
Tenth Fleet and to U.S. Cyber Command. We are on track to 
provide about 40 of those teams that are the warfighting teams 
in cyber. I will have to get you for the record the exact what 
would happen if our budget went down, but it would have an 
impact on both the capacity and the capability of cyber.
    [Clerk's note.--The Navy did not provide a response.]
    Mr. Mabus. And it reaches farther than Tenth Fleet, because 
cyber is a concern all around the world in every one of our 
platforms and every one of our bases. And how we operate and 
how we both defend and go on the offense in cyber is critical, 
and Tenth Fleet and U.S. Cyber Command provide the underpinning 
for that.
    Mr. Ruppersberger. Admiral, or whatever is called the air 
gap between systems and that is to make sure that we can secure 
our network, our computer network and physical, they penetrate 
air gap, they can, I think, all classified information. And I 
know we are continuing to work Cyber Command focusing on that. 
So if you can answer my question, if you can address that area.
    Admiral Greenert. Yes, sir. What that refers to really the 
ability to what I call put sentinels in the system, automatic 
sentinels. They scan all of your networks at each level to see 
if there are attempted intrusions or there are intrusions and 
in some cases take automatic action. So we need to upgrade our 
systems to put these in. Right now that is done by people who 
methodically kind of go through each and every network looking 
for unusual activity. So we have got to get to what is normal.
    What I would tell you, Congressman, is cyber is a very high 
priority. I would very much hesitate to come to Secretary Mabus 
and recommend much reduction in cyber, even at Budget Control 
Act levels.
    Mr. Ruppersberger. My issue in answering the question is 
what would the results be if sequestration continues on. We are 
going to have to deal with it.
    Admiral Greenert. Here is what would happen. Well, here is 
what would slow down: upgrading our networks on our ships and 
even ashore with systems that are already, if you will, 
resistant, that have this building capability that we are 
referring to that we would put up there in the headquarters. So 
going to application-based communications on our ships, going 
ashore as well. Program is called CANES, it is called NGEN, 
Next Generation. That would slow down. So we are more 
vulnerable for longer at getting these replacement systems put 
on. And so, as we say, the risk, the gamble would go on in a 
very critical area, cyber.
    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Judge Carter. Thanks for your patience down there. Poor Mr. 
Graves.

                     CLOSE AIR SUPPORT ALTERNATIVES

    Mr. Carter. Thank you, Mr. Chairman. And I apologize for 
coming in late. I, as you can imagine, have a bill that is 
giving me problems.
    Mr. Frelinghuysen. Chairman of the Homeland Security 
Committee.
    Mr. Carter. As my cochair over there mentioned, I represent 
the Army, Fort Hood is in my district. I have a lot of interest 
in the debate we had last year on close air support, and I ran 
across some information that I wanted to ask you all about. In 
a test last year, a team of U.S. marines called in an upgraded 
Tomahawk missile strike at a nearby target, just like they 
routinely call in arterial or aerial attacks, Cobra 
helicopters. Bob Work, the deputy secretary of defense, 
declared a similar test a potential game-changing capability 
for not a lot of cost. This kind of innovation provides the 
military with a powerful new weapon without actually buying 
much new hardware.
    Can you speak to any of the opportunities associated with 
deploying Tomahawk cruise missiles as innovative alternatives 
to putting close air support, jets, in the air? And can you 
speak to any potential cost differential associated between 
close air support missions executed by Tomahawk missiles versus 
aviation?
    Admiral Greenert. I think what Mr. Work was talking about, 
as it refers to Tomahawk cruise missiles, a Tomahawk cruise 
missile, you give it a point, you say go hit that point. 
Incredibly accurate, and we have been going that way. The 
Tomahawk called Block IV, what you can do is send it up there 
and instead of sending it right to that point, it will loiter 
and you can upgrade the point you want it to go to.
    The next step is you keep updating that aim point, and you 
have a constant feed to the missile as it is coming in, and it 
changes, and it becomes, if you will, its own sensor. So what 
you need is a link of constant information feeding it. We found 
a way to do that, with the right network in the air of sensors. 
The key to that is that link, that constant upgrade. We figured 
out how to do that, Congressman, and that is the key of that.
    So now a moving target, which used to be such a problem 
because you were looking for a point, you can't avoid the 
missile now as much with this accountability.
    Mr. Carter. Well, that is pretty cool. But how does it 
compare effectiveness and cost-wise as you look? And according 
to this article, a bunch of marines called it in on a target on 
the ground and they also used it to hit a ship.
    Admiral Greenert. What is cool about it is you have the 
weapon now, not in 2018.
    Mr. Carter. You don't have to develop it, yeah.
    Admiral Greenert. Yeah, it is now, with a couple of changes 
and a data link we already have, with a missile we already 
have, with sensors we already have. Just get them all talking 
on the same link, and now you have that accountability.
    Mr. Carter. And cost-wise, how does it compare with air 
resources?
    Admiral Greenert. A few million versus tens and tens and 
tens of millions.
    Mr. Carter. General, do you want to comment on it?
    General Dunford. The only thing I was going to say, 
Congressman, I mean, I can see where that Tomahawk missile 
would be helpful for a high-end operational target or a 
strategic target, but probably not routinely the most effective 
weapon system for a tactical target or close air support.
    Mr. Carter. Well, that is kind of what I was curious about, 
because the way the article read, it sounded like it was being 
used for that kind of tactical target. And of course we had the 
big A-10 debate last year and there is still a bunch of ground 
troops that like that aircraft, and so I was curious about 
that. And I thank you for the answer to that question.

                         ADVANCED TECHNOLOGIES

    Mr. Chairman, I may have time for another question.
    Can you elaborate on how the Navy is working to apply 
advanced technologies to achieve more with less? What I am 
referring to is in 2014, on occasion, the U.S. executed a 
series of five air strikes against ISIS targets at a cost of 
$2.5 million. The tactical victory entailed was one destroyed 
truck, one antiaircraft artillery piece, two small boats, and a 
fighting position. This seems to be a relatively high cost-
benefit scenario.
    Today's realty is defined by fiscal constraint amidst this 
complex national security environment. In light of this, we 
need solutions that are cost effective. What are you looking at 
as far as advanced technologies? And I would say the cruise 
missile discussion would be one of them, but are there others 
that you could enlighten us about?
    Mr. Mabus. I can give you two very quick examples here. We 
have deployed a laser weapon on the Ponce in the Arabian Gulf 
right now. This laser weapon, the shots are measured in cents 
per shot, and it is an almost endless magazine because all you 
have to have is energy. You don't have to have a physical 
weapon. And we are testing it now, and so far the tests have 
gone very well.
    Mr. Carter. That is good.
    Mr. Mabus. That is an example.
    The second example is the railgun, which we are also going 
to put on a ship later this year to test in the maritime 
environment. Last week, I got to go to the Naval Research Lab 
and actually shoot one of those railguns, and it comes out so 
fast, Mach 7, Mach 8, you don't have to have high explosive on 
the other end, and all you have to have is the right shape, the 
right kind of projectile. But, again, it is measured in very 
low cost, and the amount per shot is fractions of----
    Mr. Carter. And actually one of the things I was going to 
ask in particular with the railgun, because they developed part 
of that at the University of Texas, and I was there when they 
fired the railgun, and it is pretty impressive. And they 
pointed out that on a ship in a large size it can do major 
damage a long way away without any explosives.
    Mr. Mabus. It can do major damage to almost anything, and 
it is about $30,000 a shot versus a million for a missile.
    Mr. Carter. Thank you.
    Mr. Frelinghuysen. Thank you, Judge Carter. There is always 
a Texas solution somewhere.
    Mr. Diaz-Balart.

                        COUNTER NARCOTIC EFFORTS

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    And since I am new, I am more listening and learning, but I 
have couple things that have come up. When Chairman Rogers, 
Chairman Granger, and a few others and I were at SOUTHCOM--I 
don't know, maybe 6 months ago, I don't know how long ago it 
was--we learned something that was rather astonishing, which is 
that, obviously, the Navy and the Coast Guard have a crucial 
role in interdicting narcotics. And we know that, I forget the 
number, but something like 40,000 Americans die every year--
don't quote me on that number--from illicit drugs.
    What we learned is that what SOUTHCOM sees, they can only 
interdict, I think it was something like 20 percent. And, 
again, don't quote me on the numbers. And so it is an issue of 
assets.
    So are there plans to increase our assets in our hemisphere 
to deal with narcotics? And how would sequestration potentially 
affect that?
    Mr. Mabus. Congressman, that is one of the best examples of 
what happens when you don't build enough ships. And it doesn't 
happen right away. It happens 10, 15 years down the road. We 
had frigates that were performing this mission in SOUTHCOM. 
Those frigates were built in the late 1970s, early 1980s, and 
they have reached the end of their lives. We are retiring the 
last of those frigates this year.
    The follow-on to those frigates are mainly the Fast Frigate 
or Littoral Combat Ship that we are doing, but we didn't start 
building them soon enough. And so there was a gap. There was a 
gap in SOUTHCOM.
    Now, the Littoral Combat Ship, the Fast Frigate will bring 
far more capabilities when they get there, and we are building 
them. We have got 24 under contract today. And so we are 
getting them there. We can also use this platform, the Joint 
High Speed Vessel, to interdict drugs. But it is one of the 
crying needs that we have, is to have enough assets in places 
like SOUTHCOM.
    But when the size of the fleet goes down and you have to 
prioritize where you put those assets, and you have Central 
Command, you have the Western Pacific, you run out of assets. 
And that is, as I said, the best example I can come up with of 
the effects of not building ships today will have on the people 
who are sitting here 10, 15 years in the future.
    Mr. Diaz-Balart. And, obviously, that is real life and like 
that there have to be, obviously--and we have heard them 
today--dozens, if not more, examples of specific issues that 
actually are harming our national security interests. In this 
case, again, lives are being lost every single day. So it is a 
real impact.

                     MANDATORY SPENDING REDUCTIONS

    I just also--if I can ask one more question, Mr. Chairman--
first, I agree with what Mr. Ruppersberger said, that it is 
really our responsibility to explain to people what their real-
life situation is, and it is real. And the number that was 
never supposed to get here, which is sequester now is here and 
we have to live with it.
    Now, the ranking member also, I think, made a great 
explanation of explaining that more than two-thirds of the 
federal budget now is mandatory spending--we don't touch that--
and so we continue to have to deal with a diminishing source of 
funds.
    Last year, the President put on the table in his budget 
some reforms of mandatory spending. So forget about whether 
they were good ones or bad ones, he at least put some reforms 
of the majority of the budget which we don't touch. This year, 
he did not. And so we have a responsibility to do our job. The 
administration has also a responsibility if we are going to 
deal with this sequester issue, which I think we have to deal 
with.
    Do you know if there is any indication that the President 
is going to be looking at putting forward any proposals to 
reform some parts of the--which he hasn't done this year--on 
mandatory? And again, it is up to us to do our part, and I 
think we have not succeeded in doing it, but I think it 
requires all of us to play. And also being on the Budget 
Committee, one of our frustrations is that we have seen no such 
recommendation. Any idea--because we see the impact of not 
doing it--any idea if the President might be looking at 
actually putting forward some amendment to his budget on that?
    Mr. Mabus. Congressman, that is so far out of my lane that 
I am going to get in trouble no matter what I say.
    Mr. Frelinghuysen. Let's keep the Secretary in the naval 
lanes.
    You would probably appreciate that, wouldn't you?
    Mr. Diaz-Balart. Again, I am still learning, Mr. Chairman, 
as I said before. So I am just trying to see what the 
parameters are. But, again, clearly we have real-life effects 
of when we don't adequately fund our military.
    Mr. Frelinghuysen. We will make sure we do a mine sweep 
earlier in the hearing. Thank you, Mr. Diaz-Balart.
    Mr. Graves.

                        OHIO REPLACEMENT PROGRAM

    Mr. Graves. Thank you, Mr. Chairman.
    Well, thank you each for being here. And certainly no 
matter where the seat is at the table, I am grateful to be at 
the table, Mr. Chairman, and have this conversation. It is so 
important.
    Admiral, a question for you, if you don't mind. And you 
have touched on it a little bit with your----
    Mr. Frelinghuysen. One of them needs to be turned off or 
something. I am not sure what is going on.
    Mr. Graves. All right. We are on. We are good. Attempting 
to reclaim my time.
    Admiral, as it relates to the Ohio Replacement Program, can 
you share with us your expectation of where that is on your 
priority list and where you see that going and how it might 
maintain that priority to see completion on the proposed 
schedule?
    Admiral Greenert. Well, it is at the top of the program 
priority list. So when I come to Secretary Mabus, I will 
describe to him, okay, here is the priority, Boss, that I am 
laying before you. The Ohio Replacement is the replacement for 
the Ohio, which is the sea-based strategic deterrent part of 
the triad. Number one, it is homeland security, the protection 
of the homeland. We have to replace it. The youngest Ohio-class 
submarine is 17-years-old. So many of them, the first, they 
will be over 40 years, they were designed for 30, whenever 
their time comes, which is starting in the mid-2020s.
    So we have to start building, that is bending steel, as we 
like to say, in 2021, so that the boat is complete by 2029, so 
it goes on patrol by 2031. There is no slack, Congressman. We 
have to fund it. If we have to endure it in our shipbuilding 
plan, if there is not some assistance outside, which has been 
the case in the past for national programs like this, that is 
about a $9 billion bill in 2021 alone.
    The best we do in shipbuilding in a year is $14 billion. So 
you can see how much of that shipbuilding account, which has 
been going so well for so long. We are committed to it. It has 
to be done. It is a national priority right now.

           IMPACT OF BUDGET CONTROL ACT ON NATIONAL SECURITY

    Mr. Graves. Great. Thank you for sharing that.
    Mr. Chairman, if I might try to attempt to stay in the lane 
for a second.
    Mr. Secretary, I am hearing certainly, I guess, the 
agreement about sequestration and where it has taken us. But I 
think back to 2011 and the Budget Control Act, and I am trying 
to recall if I remember the Defense Department openly speaking 
in opposition to the Budget Control Act and the potential 
implications.
    Can you point to any remarks you made at that time that 
indicated what a threat that would be to our country? Because 
we find ourselves here today with a lot of people saying what a 
bad idea it is, but I don't recall that being said back then.
    Mr. Mabus. I know I said it, and I will search through 
files that nobody looks at, which are my old speeches, to find 
you some examples.
    But I think at the time everybody thought that it was such 
an awful thing that it would never happen. And that was what 
was being said pretty much universally, that the consequences 
for defense and nondefense were so horrendous that it just 
couldn't come to pass. And we have seen how bad those 
consequences are as a result.
    Whatever people said in 2011, I think that it has been 
pretty consistent down the path that the effects of 
sequestration for the things that we are responsible for, the 
Navy, the Marine Corps, were in 2013 devastating and will be in 
the future. And of that, everyone has said it. What we said in 
2011 when it was still a theory, I can't remember exactly, but 
there is an old Yogi Berra quote that said, in theory, there 
should be no difference in theory and practice; in practice, 
there is. And in practice, sequestration is pretty awful.
    Mr. Graves. Well, this is serious stuff. This is a Yogi 
Berra kind of situation in my opinion. And I have looked and I 
haven't found any public statements of your opposition at that 
time. And, in fact, in 2012, in front of the Senate Armed 
Services Committee, you indicated that you would work within 
the constraints of the Budget Control Act with those involved. 
A lot has changed since then. And you publicly since, probably 
in 2013, 2014, that is when your comments turned more to the 
negative.
    I guess when I think about where we are and the role that 
the Defense Department plays for our country in trying to 
project risk assessments, and not seeing that, and no one in 
the Defense Department is seeing that at that time, can you 
point to any one person who now has accepted responsibility for 
putting our Nation in a position in which, it has been stated 
today, where the risk assessment is a gamble? Anyone accepting 
responsibility for that, putting us in that position?
    Mr. Mabus. I am not sure I understand the question in terms 
of--Congress passed the bill. We have had to live with that and 
we have had to express what the risks are to this country, and 
that is what we have tried to do today, that if we go back to 
that, what the gamble is going to be.
    Mr. Graves. Your statement today was, we didn't think it 
would happen.
    Mr. Mabus. Well, I think that is true for everybody who was 
here.
    Mr. Graves. Thank you, Mr. Secretary.

                      COMPOSITION OF TODAY'S FLEET

    Mr. Frelinghuysen. Thank you, Mr. Graves.
    I know members have some questions. I do. I want to talk, 
Admiral Greenert and Mr. Secretary, a little bit about the 
makeup of today's fleet. And the perception is it is pretty 
light on capital warships, destroyers and cruisers, and we have 
a greater reliance on other types of ships.
    Given the headlines we see today, ``China Submarines 
Outnumber U.S. Fleet,'' one of your admirals made some comments 
relative to that, ``China Rebuffs U.S. Requests to Halt South 
China Sea Island Work,'' I mean, I am not sure we should ever 
leave a pivot to the Middle East because I think we have some 
major commitments there. We certainly have commitments to the 
Mediterranean. But I would like to know a little more about the 
capability of the fleet that we have given what we see the 
Chinese developing, the Russians developing.
    I know people mock what the Iranians did in the recent 
days, but in reality that is to some a show of force, and 
sometimes, if we are not prepared, we can be vulnerable. So I 
would like some comments relative to the robustness of the 
fleet that we have, given the traditional view of our need for 
more capital warships.
    Mr. Mabus. Mr. Chairman, as I said in my opening statement, 
we have and we are building a balanced fleet. We are building 
two DDGs a year. We are building two Virginia-class attack 
submarines a year. We are building amphibs to get to the 
minimum number of 33 that the Marines need. We will get there 
by 2018. And we will continue to build all three types of 
amphibious ships that we have.
    We have a need for other types of ships too. We have a 
demonstrated need for 52 small surface combatants. They do 
different tasks than the large surface combatants. It is one of 
the reasons that we are working so hard to make sure that we 
keep the cruisers into the 2040s.
    Mr. Frelinghuysen. Well, there was a time when the cruisers 
were supposed to be put into retirement, and so there has been 
sort of a recognition that--yeah.
    Mr. Mabus. Absolutely. And there is a recognition that not 
only quantity, but quality and capabilities. We have, I think, 
the right balance of capabilities. And I am going to turn to 
CNO in terms of very specific capabilities, but one of the 
things that the CNO has focused on here today is if we go back 
to sequestration-level funding, one of the main hits is going 
to be to things like the modernization, to things like 
upgrading capabilities, to things like the technological edge 
that we possess. So we are building a balanced fleet. We are 
going to have enough----

          SUPERIORITY OVER ADVERSARIES AND RULES OF ENGAGEMENT

    Mr. Frelinghuysen. So the balanced fleet that we are 
building and our committee is invested in, I assume we continue 
to have overwhelming--we used to call it--overwhelming 
superiority over other players, particularly China, which has 
done a remarkable job challenging us in the South China Sea. So 
we still have the naval edge there?
    Admiral Greenert. Today, yes, sir. I talked about it. If we 
go down the road we are on, sooner or later we are going to get 
there. We won't have it in the future.
    Mr. Frelinghuysen. One of the issues here, and normally I 
raise this issue with the Army, the rules of engagement here. I 
mean, it seems we are already engaged and confronted on a 
fairly regular basis. Tell me if we are not. What are the rules 
of engagement given the type of confrontations we have had?
    Admiral Greenert. That is a long topic.
    Mr. Frelinghuysen. It is a long topic.
    Admiral Greenert. We have adequate rules of engagement 
for----

                   SIZE AND COMPOSITION OF THE FLEET

    Mr. Frelinghuysen. It goes to our sailors that are in the 
Pacific. It goes to the issues of the bravery of our Navy 
SEALs. There are issues of rules of engagement here. And there 
is sort of a growing perception that we are sort of tying our 
hands of some of those who are so well trained, so capable, so 
motivated, so patriotic.
    Admiral Greenert. Well, Chairman, a few things for the 
record. Today we have 71 submarines. China has 53. Forty-four 
of them are diesel. But they are building nuclear submarines. 
So there is a metamorphosis going on, but it is not there yet. 
So it is out there, though. We are on the track.
    We have to have the balance of fleet. You mentioned it 
twice, it was in your opening remarks. We have recently had 
destroyers, Aegis destroyers, $2 billion ships running around 
chasing pirates, thugs, doing counterpiracy. As the Secretary 
said, we are balancing the fleet. We are building Joint High 
Speed Vessels to do piracy, to do humanitarian assistance, to 
help the Commandant of the Marine Corps' folks move marines 
around there.
    We need today 38 amphibious ships, gray hull ships to do 
combat. To do the business of the world today, we would need 
50--to do humanitarian assistance and all those others--
amphibious ships. So we build, with your support, things like 
the Afloat Forward Staging Base so that we can provide counter-
SOF, special forces, do counterterrorism, do the kind of 
missions that resonate with the capability you have. It is the 
right expenditure of money.
    Today, we have 87 what we call large surface combatants. 
Those are the capital ships you mentioned earlier, Chairman. 
Twenty years ago we had about the same number in a fleet we 
were so proud of. We had 400. So the combatant balance is 
pretty good today. We are going down in submarines, you 
mentioned it yourself, Chairman, and that is a function of 
submarines we built 30 years ago, two, three, four a year, we 
are building two today. So that is going to go into a dip 
before we come out of that dip and get to the 48 we need.
    Mr. Frelinghuysen. Well, this committee has been very 
supportive of our submarines----
    Admiral Greenert. Very supportive.
    Mr. Frelinghuysen [continuing]. The two Virginia class. 
Certainly there are investments in the Ohio class. I am just 
wondering where it measures up to what the future challenges 
are. We have the near horizon. We have the far horizon. And 
over the years people have been somewhat dismissive of what the 
Chinese are doing.
    And, obviously, we always weigh in on the side of diplomacy 
and good relations, but in reality they are denying us areas 
where there has been free transport, the world's commerce in 
oil passes. There have been issues of us denying us access to 
areas where we have traditionally maintained actually the 
world's commerce. I want to make sure we still have that.
    Admiral Greenert. Chairman, I can't think of a place in 
this world of oceans that our Navy can't go today. Nobody is 
denying us anything. We talk about threats and we will throw 
out scenarios and future scenarios and people will tell you, 
you will be denied to go in there. That is a scenario, we could 
speculate to that and I could talk a long time with you, 
particularly in a classified arena. But I will tell you this, 
Chairman, if we go on the path we are on and we go to Budget 
Control Act numbers, it is a different world. It is a different 
situation. I would be giving you a different story 3 or 4 years 
from now.
    Mr. Frelinghuysen. Well, that is all the more reason--
getting back to my earlier comments--that we need to know 
exactly what the impacts will be to what we are about to embark 
on here. I think we are on your side, but we actually need, 
should we say, more meat on the bones as to what actually we 
would be losing if we get into this situation.
    Let's see. Mr. Visclosky.
    Any question?

       PERSONNEL MISCONDUCT, WOMEN ON SUBMARINES, SEXUAL ASSAULT

    Ms. McCollum. Thank you, Mr. Chairman.
    I am going to have three more personnel-type questions. I 
will do all three of them at once, and as you have time to 
answer in full committee, I would appreciate it. Anything you 
can't get to, please, get back to us in writing.
    Secretary, I want to touch on the Glenn Defense Marine Asia 
scandal. I understand that naval officers have been charged in 
the case. Three admirals were censured just a couple of weeks 
ago. News Defense reported earlier this month that 36 flag 
officers are under investigation with only 219 flag officer 
billets, so this is a serious problem for you. Can you comment 
on how this is impacting the Navy's ability to properly manage 
operations?
    And, Admiral, I am interested to hear your views on the 
underlying cause of this case. Could you tell us what processes 
were missing in the payment review that allowed such a scheme 
to last for over a decade? And so what we are doing to keep 
this from happening again.
    Another question that I have has to do with the Navy 
opening up submarine duty positions to women in 2011. In June 
2013, you submitted an implementation plan to open all 
occupations with limited number of closed positions and equal 
professional opportunities for females in every officer 
designation enlisted ranking in the Navy in January 2016. So I 
would like you to tell us what is ongoing and where the Navy 
will be in meeting this January 1 update.
    There was also an issue where there was an incident where a 
female officer was videotaped in the shower, and I would like 
to know where you are with the punishment and discipline with 
the sailors involved.
    And then last, Secretary, you came before us, we had big 
discussions about what to do about sexual assault. One of the 
things that you asked for was for an increase in resources for 
the Naval Criminal Investigations Service and judge advocates. 
Could you please describe to the committee what additional 
resources you made available in fiscal year 2015 that supported 
your desire to strengthen NCIS and Navy JAG to investigate and 
prosecute sexual criminals, and do you plan to continue or 
strengthen those resources in 2016?
    Thank you. And if you would start with the Asian scandal 
first.
    Mr. Mabus. I think one important thing to remember about 
GDMA is that the reason that situation came to light was that 
we set up some tripwires that raised a red flag and NCIS 
started investigating it. They investigated it for 3 years with 
no leaks. They found an NCIS agent who was passing information 
to GDMA, to Leonard Francis. They fed him false information to 
convince him that the coast was clear. We stopped this. It was 
Navy that found it. It was Navy that did it.
    Now, it shouldn't have gone on nearly as long as it did. I 
assigned the assistant secretary of the Navy for RD&A, 
research, development, and acquisition, to look at how we do 
these husbanding contracts, not just in Asia but around the 
world, and also the head of the Naval Audit Service to go in.
    We have substantially strengthened the way we do husbanding 
and the internal controls in husbanding. To give you a couple 
of quick examples. The way Glenn Defense Marine was able to get 
away with so much of this was you would have a list of things 
when a ship went into port that the ship would need. Glenn 
Defense Marine would say we----
    Ms. McCollum. Mr. Secretary, with all due respect, though, 
my question was, can you comment on how this is impacting the 
Navy's ability to properly manage operations?
    Mr. Mabus. It has not impacted our ability to manage 
operations, Congresswoman.
    Ms. McCollum. So you are able to move positions and fill 
positions even though people are under investigation and people 
are able to retire, even though they are under investigation? I 
might have misinformation. I am just trying to clear it up.
    Mr. Mabus. Because the investigation is taking so long, 
because the decision on the people who may or may not be 
implicated is taking so long, it is frustrating, because it 
limits our ability in some cases for people to retire or for 
people to move around. We are completely on the timetable of 
the U.S. Attorney's Office in terms of when these things come 
out. When they do and no criminal charges are filed, I have set 
up a consolidated disposition authority to say, it might not be 
criminal, but did it meet Navy ethic standards? And that is 
where the three letters of censure came from. Those were 
recommended to me and I signed those.
    We are able to manage it now. If the timetable stays as 
slow as it is, we are going to have some problems in the 
future. And I am sorry I misunderstood your question.
    We are meeting women in subs, the timetable that we set 
forward, women are reporting right now to Virginia-class 
submarines, and I will get back to you. I have some very 
specific numbers. And we have expanded NCIS and Navy JAG and 
sexual assault.
    Ms. McCollum. Mr. Chairman, I am looking forward to the 
committee having more information. Thank you.
    Mr. Frelinghuysen. The Representative has posed some 
questions. I think some more answers are required for the 
record.
    [Clerk's note.--The Navy did not provide a response.]
    Mr. Frelinghuysen. Thank you for raising the issue.
    Ms. Granger.

                       F-35 JOINT STRIKE FIGHTER

    Ms. Granger. I have questions for Admiral Greenert and 
General Dunford regarding the F-35.
    Admiral Greenert, you have said that the F-35C will allow 
the Navy to ensure access and project power. Can you tell me 
why the capabilities of the F-35, what they bring the Navy and 
why that is so important?
    Admiral Greenert. Well, the F-35, first of all, it is 
stealthy. So right off the bat you can avoid certain bands of 
radar, and I will stay out of the clarification, but search 
radar. So that is good. That gets you access right there.
    What people don't talk about is it has got tremendous 
range. You almost double the range from an aircraft carrier 
with F-35C. It carries more ordnance, has a detection radar for 
air to air, which is much advanced, and it can network with 
other aircraft and other of our assets, so ships and the like.
    So what you have is you have not only something that can 
get you access, deliver ordnance if you need to, jam and detect 
and share information for targeting for otherwise. So each of 
those is a tremendous leap unto itself, not just stealth. There 
is so much more.
    Ms. Granger. Thank you. Because we normally focus really on 
the stealth almost exclusively. Thank you.
    And, General Dunford, the Marine Corps plans on declaring 
initial operation capability later this year. Are you going to 
make that? Is there anything we could do to help you achieve 
that milestone? And I will ask the same thing, how important is 
the F-35 to the future of the Marine Corps?
    General Dunford. Congresswoman, thanks very much for asking 
the question. I was out to visit the squadron about 10 or 11 
days ago, and I left very confident that we will meet the 
initial operational capability for that squadron in 2015. And 
then we will have a squadron of F-35 deployed to the Western 
Pacific in 2017. So our fielding of the F-35B program is very 
much on pace.
    There are a number of issues that have to be addressed. 
Each one of the aircraft has 54 separate modifications. That is 
one of the things I wanted to go out and look at. But I am 
convinced we have the right people on the scene making those 
modifications, and we have also leveraged some Air Force 
capability to make sure that we get those modifications made in 
time. So it is complex, but absolutely optimistic that we will 
be able to get that done.
    Admiral Greenert had talked about the unique 
characteristics of the F-35. For us, it is really two issues. 
One, it is a transformational capability. It is not a better F-
18. It is not a better Harrier. It is a transformational 
capability. It does what our close air support aircraft does, 
but particularly in the information realm it is an 
extraordinary change in capability. But also it is the future 
of Marine aviation. We are reducing three type/model/series 
aircraft, all of which are older then two decades, to move into 
the F-35.
    So part of my message today talked about readiness at home 
station. Fifty percent of our F-18s today are in what we call 
an out-of-reporting status, meaning they are not available for 
training. And the only way we are going to get well over time 
is to complete the transition to the F-35. That is how Marine 
air will be capable and ready in the future.
    Ms. Granger. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Crenshaw.

                 CARRIER ONBOARD DELIVERY ALTERNATIVES

    Mr. Crenshaw. I have got just a quick question about 
oversight. We take that seriously here in the subcommittee. And 
I know we have probably all flown on what they call a COD that 
flies out to the aircraft carrier. And last year, I think you 
all asked for some money to analyze and look at some 
alternatives to replace the COD. And then, as I understand it, 
all of a sudden the Osprey, which I have flown on, it is a 
great airplane, that selection was made, but there wasn't a lot 
of backup as to it seemed like a quick decision which hopefully 
saved money.
    I am just curious, from our oversight standpoint, how you 
made that decision, and will we get to see kind of the analysis 
that you all did, looked at alternatives. Just briefly, can you 
tell us about that whole selection process?
    Mr. Mabus. Sure. And absolutely we will give you all the 
documentation, the backup that went into that. We have been 
looking at the COD replacement for a good while, as you know. 
The further we got into the analysis of alternatives, the 
clearer it became that we had an aircraft, the Osprey, the V-
22, that was a hot line, it was being made, that we could do 
the Navy version to do the COD mission with a change order to 
inside a multiyear.
    And so it was a very affordable aircraft that would not 
only meet the needs of the COD, but also the COD, which you 
have flown on, I have flown on, requires a tail hook, they have 
to get in the landing pattern, and they have to be a part of 
the arrested and catapulted off aircraft.
    The Osprey does not. They can be used in different parts of 
the carrier. They can also be used on other ships that the COD 
cannot. And so it is a more flexible platform. And the further 
we got in, the clearer that that option became. We have got 
voluminous backup. And, again, I will be happy to get you that 
and to do it in writing and also do it personally or with the 
folks who went through the analysis.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Womack.

                  AIRBORNE ELECTRONIC ATTACK AIRCRAFT

    Mr. Womack. Thank you, Mr. Chairman. Sorry I had to excuse 
myself for another hearing.
    I have a question for Ander Crenshaw. Is it the arrest or 
the catapult that you don't like on the COD? Because I know it 
is maybe both of those. I don't know. I kind of like the COD 
myself.
    I have got a Growler question.
    Mr. Mabus. You would be the one----
    Mr. Womack. Say again?
    Mr. Mabus. You would be the one person.
    Mr. Womack. I really enjoyed that. I did.
    For the Admiral, I have got a Growler question. Last year--
and if this has already come up, I apologize--but last year the 
request was for, like, 22 and we were able to provide 15. And 
now I understand that that requirement has basically been met 
with the 15, that there is no other need for the Growler. So in 
consideration of the electronic magnetic spectrum and the 
future of that space, what can you tell me about the need for 
additional Growlers?
    Admiral Greenert. First of all, I appreciate the support of 
the Congress and the committee on the urgent need that we had. 
I felt 22 was the appropriate number. We are tweaking that in. 
15 is certainly helpful. That is the platform. The real payload 
is the key, the jammer. And so we need to get to the next 
generation jammer. That is what gets you the access.
    But to your point, we are doing right now in the Department 
of Defense a study that looks at all electronic attack, to your 
point. What is the situation in electromagnetic warfare across 
the spectrum in our maneuver? So as I sit here today, 
Congressman, I say, I think we have enough. That gives us a 
total of, I think, 153, it takes us to. That is about right. I 
am going to hear from the whole Department of Defense because 
we are the jammer provider, if you will, electronic attack 
provider in that. So more to come shortly.
    Mr. Womack. Good. Thank you.
    I yield back.
    Mr. Frelinghuysen. Mr. Ruppersberger.

                          MQ-4 TRITON AIRCRAFT

    Mr. Ruppersberger. Yeah. The Triton unmanned aircraft 
system. I know that the Navy's maritime surveillance fleet is 
reaching the end of its service life and the Navy is 
recapitalizing this mission. Given the critical importance of 
maritime surveillance to our national security and our economy, 
we cannot afford a gap in this capability. Do you agree?
    Admiral Greenert. I agree, sir. And there is language we 
have to meet, and particularly in that regard, not to mention 
it is an important requirement.
    Mr. Ruppersberger. A big part of the recapitalization plan 
is MQ-4C Triton unmanned system. And this will provide 
persistent surveillance with an advanced maritime radar capable 
of providing detailed surveillance of millions of square miles 
of the ocean. So my question is, does the Navy have sufficient 
resources to meet its global requirements for maritime 
surveillance? And have you explored opportunities to accelerate 
new and advanced maritime surveillance capabilities like the 
MQ-4C Triton?
    Admiral Greenert. The answer to that is yes. In our 
President's budget 2016 request, we have sufficient resources 
to do that transition, as you describe, from the EP-3, from the 
legacy systems that provide that, into the MQ-4 and its family 
there. We have that. We are looking at accelerating it. If an 
opportunity provides itself, we will accelerate it.
    Mr. Ruppersberger. Thank you.
    Mr. Frelinghuysen. Thank you.
    Judge Carter, any comments?

                           KOREAN PARTNERSHIP

    Mr. Carter. Real quick, I want to talk about Korea. I have 
got a brigade from Fort Hood that is scheduled to resume 
command in the summer. There has been a lot of discussion about 
behavior of the folks of North Korea, tensions they are 
creating. Can you discuss how the Navy has changed its posture 
in the vicinity of the Korean Peninsula to complement support 
forces there and speak to any allied partnerships the Navy is 
working with to counter the North Korean threat to reassure our 
allies?
    Admiral Greenert. Well, our posture on the peninsula, we 
don't have a naval posture that is indigenous to Korea. But the 
forces in Japan are in direct support. In other words, they 
would all change operational command over to Korea if there is 
a contingency there. So as I mentioned, we are bringing two 
destroyers. Each of those has 96 missile cells, if you will, so 
that is pretty formidable.
    Another submarine in Guam. That submarine would do, among 
other things, ensure that the waters in and around the Korean 
Peninsula are protected, if you will, for our purposes in that 
regard.
    We are strengthening our alliance with the Korean Navy as 
we speak in that whole joint force concept. And so what I mean 
is, sir, it is not just force structure, it is our ability to 
operate together in a joint and combined entity there. And we 
increase the complexity of our exercise every year, and the 
Korean Navy is coming along very well. They have a substantial 
ballistic missile defense capability. They have the sensor, and 
they are looking to choose the weapon. When I say sensor, 
sensor on destroyers, and they have three with an option to 
build two more that they are looking at right now.
    Mr. Carter. Thank you.

                   LITTORAL COMBAT SHIP SURVIVABILITY

    Mr. Frelinghuysen. Mr. Diaz-Balart, any comments?
    I just have a couple questions. I am concerned about China. 
In our trips to the Philippines, Indonesia, Singapore, I 
understand we have got some Littoral Combat Ships, a/k/a 
frigates, now in Singapore. The general consensus from our 
visits was that the 800-pound gorilla has won in terms of its 
dominance in the region, and I am concerned about that. And I 
know that we have huge capabilities, but there is a general 
consensus when we meet with the leadership that they are 
throwing their lot in with the Chinese. I worry about that. I 
think we need to work much more closely with the Filipinos.
    The notion that not only their aircraft carriers may not 
ever match our capability, but numbers, again, count if they 
are working on the submarine fleet, admittedly most of them 
diesel. That is a defense projection that we need to seriously 
consider, the notion that they would ever shut down the world's 
channels for commerce. People say it will never happen, but in 
reality I think we need to be prepared for that. You aren't 
dismissive of that, but in reality we need to provide the 
capabilities for you to match them or overmatch them.
    I do want to ask one last question. Continuing discussion 
within the Navy in terms of the vulnerability of Littoral 
Combat Ship, where do we stand on that? I know we have some 
issues here of upgrading, sort of taking a look at new designs 
and so forth. Where do we stand on that?
    Mr. Mabus. Last year, about this time, Secretary Hagel 
directed Navy to look at a more lethal, more survivable, but 
continue to be affordable small combatant Littoral Combat Ship. 
We set up a task force to do that. We made it very transparent. 
People from this committee's staff, people from the Hill, 
people from our testing organization, people from the Office of 
the Secretary of Defense were taken through the process.
    And I think the process was as exhaustive and as thorough 
as any process we could have done. They looked at more than 
14,000 designs, modifications, this sort of thing, and came up 
with a more lethal, more survivable, and continuing to be 
affordable, about an additional $75 million a ship, that brings 
capabilities that the fleet said it needed, an over-the-horizon 
missile that will be organic to the ship, a Towed Array Sonar 
for countersubmarines.
    And the direction was to look at--we have a need for 52 of 
these--was to look at the last 20. We will start building those 
20 starting in 2019, and all these modifications will go into 
those ships. The hull won't be modified, so you can do this 
within the existing ships. Our plan now is we are doing the 
engineering work, we are doing the technical work, we are 
hopeful that we can bring up, in advance of 2019, the upgrades 
to these ships.
    And the reason that I renamed them frigates, is you look at 
what frigates are supposed to do and you look at what these 
ships do and they are frigates. The last thing is, because it 
is a modification and not a new design, not a new hull, you can 
go back and modify any of the first ships that were built if 
you feel a need to do that.
    Mr. Frelinghuysen. The committee continues to have an 
interest in this issue, and certainly we are highly respectful 
of the industrial base that produces the models. But the whole 
issue of survivability is tied to capability and force 
structure in a rapidly changing world, and I am sure you will 
stay on top of it.
    Mr. Visclosky.

                      LITTORAL COMBAT SHIP TESTING

    Mr. Visclosky. Thank you, Mr. Chairman.
    I would like to follow up on the chairman's question about 
the Littoral Combat Ship. I appreciate the Navy has completed 
its review and that there would be modifications, but I also 
understand that the director of operational test and evaluation 
has gone on record and stated that the proposed modifications 
to the LCS designs do not satisfy significant elements of 
survivability.
    He apparently has stated that the LCS is not expected to be 
survivable in high-intensity combat because its design 
requirements accept the risk that the ship must be abandoned 
under circumstances that would not require such an action on 
other surface combatants. Did you have a reaction to that 
observation?
    Mr. Mabus. Sure. Number one, Operational Test and 
Evaluation were in the room during this process. They were in 
the room when the decision was made as to what to do.
    Number two, I think it is important to remember that this 
is a small surface combatant. You expect it to do different 
things than you do from a large surface combatant or from other 
types of ships. You can make it, you can make any ship more 
survivable. As the task force looked at it, as you went down 
the more lethality or more survivable pathway, it became a 
destroyer, it became a $2 billion ship, which is not the 
mission. The CNO said we have got $2 billion destroyers out 
chasing pirates right now. A $500 million LCS or FF now can do 
that and do that much better.
    In a high-intensity conflict, we are not going to be 
sending these ships out by themselves. They are going to be 
part of a much larger structure, a much larger strike group, 
and they will benefit from all the lethality and all the 
protection from that entire strike group.
    Mr. Visclosky. Mr. Chairman, if I could, two more 
questions.

                        RUSSIAN NAVAL CAPABILITY

    Admiral, people are concerned about Russia in Eastern 
Europe. What about the Russian Navy?
    Admiral Greenert. The Russian Navy is spending a good sum 
of money, billions of dollars to recapitalize their submarine 
building and in their surface building capability. They have 
invested in submarines and they are producing a new class of 
cruise missile submarine and SSBN, which makes sense, that has 
been their mantra for some time, their strategy.
    In this decade, unlikely they will have dramatic 
improvement, based on where they are going right now, in their 
surface fleet. However, if they continue on the path they are 
on, and I am talking about investment and shipbuilding, I would 
say next decade they will have some substantial improvement in 
frigate-like, 2,300, 2,500 tons, and destroyer-like capability. 
So they are definitely modernizing.
    Air, I haven't seen much recently. They are operating more, 
they have kind of gas money, but not as modern.

                       AMPHIBIOUS COMBAT VEHICLE

    Mr. Visclosky. One last question, if I could, Mr. Chairman.
    General, there is research the Marine Corps is undertaking 
as far as the Amphibious Combat Vehicle. Given how marines are 
placed in situations of danger or in combat--I think of the 
evacuations in Somalia, I think of Iraq, Afghanistan--looking 
ahead, just as far as the tactics and strategies the Marine 
Corps is looking at considering, what is that balance and 
relationship between amphibious landing craft and the 
difficulty in designing one that meets your requirements and 
airlift?
    General Dunford. Thanks, Congressman. We have got a plan 
right now that really addresses our tactical mobility across 
the range of military operations. We require two marine 
expeditionary brigades to come from the sea and conduct 
amphibious assault, and so our program will account for that. 
We also have other vehicles that account for the protection and 
the land mobility that are necessary for a wide range of other 
operations.
    So I think the simple answer to your question, Congressman, 
is that we have got balance in our ground tactical vehicle 
program.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. I would like to thank all the members 
for their attendance and questions.
    And, gentlemen, thank you very much for being with us.
    The committee is adjourned until 9 a.m. tomorrow, when we 
will conduct a hearing on the budget of the United States Air 
Force. We stand adjourned. Thank you very much.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                        Joint High Speed Vehicle

    Question. In recent testimony both CNO and SECNAV have been 
supporters of the Joint High Speed Vessel, yet the budget request does 
not increase the number. Does the Navy plan to request more in future 
budgets? What is the likelihood of the JHSV being included in DoD's 
Unfunded Priorities List?
    Answer. The Navy's 2014 update to the 2012 Force Structure 
Assessment re-validated the requirement for Joint High Speed Vessels 
(JHSV) at ten ships. The Navy did not request any additional JHSVs in 
the FY 2016 President's Budget because the battle force inventory will 
already reach ten ships in FY 2018 and 11 ships in FY 2019, thanks to 
the additional JHSV that Congress included in the FY 2015 
Appropriations Act. JHSVs were not included in DoD's FY 2016 Unfunded 
Priorities List

                          SWO Training Program

    Question. What oversight is there of the surface warfare officer 
(SWO) training program?
    Answer. There is extensive oversight of the Surface Warfare Officer 
(SWO) training program beginning at the fleet level where the SWO 
training program is administered by Commander, Naval Surface Forces 
(CNSF) through the chain of command to the Commanding Officers of every 
U.S. Navy surface ship The Commanding Officers are responsible for 
application of the SWO training program within their commands and for 
developing and managing a command training program to facilitate the 
SWO qualification process within the overall ship's personnel training 
program. These Commanding Officers are charged with the mentoring and 
training of their Officers, and they themselves are mentored and 
observed by their Immediate Superiors in Command (ISIC).
    The CNSF SWO training program requires all Surface Warfare trainees 
to attain SWO qualification within the first 22 months of shipboard 
service. Every ship develops a training plan for each individual 
Officer for his or her professional development. The ship's Training 
Officer, Senior Watch Officer and Commanding Officer closely monitor 
their progress. Every Junior Officer is assigned to under instruction 
watches rotating through all the required watch stations under the 
supervision of qualified SWO's to develop watchstanding proficiency and 
learn the required skills. They are also provided opportunities to 
conduct daily and special evolutions until they demonstrate competency 
in these skills in preparation for SWO qualification. Additional time 
is made available and cross deck opportunities are arranged when 
extenuating circumstances with the ship's operating schedule or 
personal hardship preclude an Officer from completing the watchstanding 
prerequisites within the 22 month requirement.
    Question. What percentage of SWOs recommended for non-attainment by 
their commanding Officers are subsequently approved (for non-
attainment) by Commander, Naval Surface Forces, and what type of 
reviews are conducted at each level of the approval process to ensure 
that the Officer does not in fact have the ability to qualify?
    Answer. The Surface Warfare Officer Qualification program provides 
every Junior Officer with a fair and standardized process to qualify as 
a Surface Warfare Officer with greater than a 96% success rate. All 
positively endorsed non-attainment recommendations have been approved 
by CNSF. Statistics for disapproval in the review process below CNSF 
are not maintained. However, there are many cases where the ship's 
Immediate Superior in Command (ISIC) has facilitated cross-decking 
struggling Junior Officers for evaluation to other ships with different 
Commanding Officers to ensure impartiality in the process.
    When a Junior Officer is recommended by their Commanding Officer 
for SWO non-attainment, the report is reviewed and endorsed by the ISIC 
for an 0-6 and/or Flag level review prior to forwarding to CNSF for 
final adjudication. The Officer recommended for non-attainment is 
afforded the opportunity to comment on the Commanding Officer's 
recommendation as an attachment to the report. The ISIC review verifies 
the Officer recommended for non-attainment was afforded a fair 
opportunity to qualify and provided adequate support and mentorship by 
their command.
    Question. How have those numbers and that process changed over the 
past several years? This part of my question was ignored last year, and 
I again request an answer. Please investigate.
    Answer. Over the past three years, Commander, Naval Surface Forces 
annually approved an average of thirty-one SWO non-attainment packages 
per year from an average accession year group of 864 SWO Junior 
Officers. In 2012 there were 36 non-attains falling to 28 in 2014. 
There has been no change to the SWO non-attainment approval process, 
but there has been a significant change in the preparation of all SWO 
Junior Officers for success through the recently implemented eight week 
Basic Division Officer Course (BDOC) at the beginning of their initial 
sea tours. This course imparts baseline understanding of core SWO 
skills in all Division Officer fundamentals, damage control, 
seamanship, navigation, shiphandling, engineering, maritime warfare, 
anti-terrorism and force protection, and leadership.

                            Command Climate

    Question. If an officer or sailor on a ship believes he or she was 
the victim of a dishonest afloat commanding officer, what checks and 
balances exist in the Navy, and what recourse does he or she have?
    Answer. If an officer or Sailor believes they are a victim of a 
dishonest Commanding Officer, they may elevate the issue above their 
chain of command by filing a formal grievance, such as a Complaint of 
Wrongs Against the Commanding Officer (Article 138), a Complaint of 
Wrongs Against a Superior Outside your Chain of Command (Article 1150), 
or an Equal Opportunity (EO) complaint, depending on the circumstance. 
Service members who feel they have been reprised against by a superior 
in their chain of command may also file a Military Whistleblower 
complaint with the Department of Defense Inspector General or the Naval 
Inspector General.
    However, we encourage personnel to attempt to resolve complaints at 
the lowest possible level and use command channels available within the 
command. There are many resources within the command to help resolve a 
vast number of issues, such as the legal staff, chaplain, human 
resource personnel, equal opportunity advisor, and immediate 
supervisors.

                         Navy Inspector General

    Question. I am told that there is a shortage of Navy Inspector 
General investigators, particularly in the field offices. How many 
investigators does each field office employ, and how many complaints 
does each field office receive annually?
    Answer. The Office of the Naval Inspector General (NAVINSGEN), 
Department of Navy (DON) level, employs 24 and Echelon II/III/IV 
employs 175 full time investigators to handle approximately 4,000 
Hotline contacts annually.
    Workload: The 4,000 annual Hotline contacts fall into General, 
Military Whistleblowers or Reprisals, and Congressional contacts. A 
Course of Action (COA) is determined for each contact (Assistance, 
Discard or Dismiss, Investigate, Refer, or Transfer). Current 
statistics show that most contacts end up being assistance cases (e.g. 
pay, allowance, medical, etc.) and the least number of contacts end up 
as investigations. For those contacts that end up in investigations, 
most (32%) end up not substantiated and only 23% end up substantiated. 
Current time to complete an Assistance contact is 14 days, a Discard/
Dismiss contact is 18 days, an investigation is 417 Days, and a Refer 
or Transfer is 26 Days.
    Manpower: In addition to DON investigative workload, NAVINSGEN 
utilizes its investigative staff to administer the DON Hotline Program 
and to serve as the designated Defense Hotline Component Coordinator 
for the Department of Defense (DoD) Inspector General Hotline Program. 
NAVINSGEN tasks many of the contacts to 32 Echelon II commands. The 
number of contacts and investigations handled by Echelon II and 
subordinate commands (Echelon III/IV) varies widely depending on 
command size. Small commands may have none over the course of a year; 
where large commands (e.g. Fleets) may have over 1000 contacts per year 
and over 100 issues requiring investigation per year. It is important 
to point out that these are not field offices, rather Echelon II/III/IV 
investigators report directly to their Commanders. Echelon II command 
IG offices have from one investigator to eight investigators depending 
on the size of their Area of Responsibility.
    Question. What are you doing to ensure that there are sufficient 
investigators for every complaint to be able to receive due process?
    Answer. In 2012, the Office of the Naval Inspector General 
increased its Headquarters staff by 13 investigators, but must continue 
to rely heavily on Command Inspector General resources to administer 
the DON Hotline Program and to provide due process to every 
investigative matter. In addition to increasing the number of 
investigative personnel, the Office of the Naval Inspector General has 
taken steps to increase the efficiency and effectiveness of existing 
personnel resources. To this end, the Office of the Naval Inspector 
General recently established a separate Training and Certification 
Division. This division will provide the Navy Inspectors General 
community-wide integration of training, leadership development, and 
individual training with the intent of improving DON Hotline 
investigation timelines and quality.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                               USS Halsey

    Question. In July 2014, former crewmembers of the USS HALSEY (DOG 
97) brought to Ranking Member Visclosky's attention the high incidence 
of suicide and related behavior on the ship. In subsequent meetings and 
correspondence, the Navy confirmed two recent suicides by crewmembers 
of the HALSEY--April 30, 2014, and June 27, 2014. Further, the Navy 
provided Mr. Visclosky with details on the ``postvention'' programs 
that had executed in support of the crew of the USS HALSEY.
    Admiral Greenert, could you please provide the Committee with an 
update on the USS HALSEY? Have there been any additional incidents of 
suicide-related behavior since Ranking Member Visclosky's meeting with 
the Vice-CNO, Admiral Michelle Howard, in July 2014?
    Answer. There have been 6 people out of a crew of 315 (<2%) who 
exhibited suicide-related behavior aboard USS HALSEY since July 2014; 
this is consistent with the Navy average for a ship on deployment. 
There was one in each of the months of September, November, December 
2014, and January, February, and March in 2015 Each has been a unique 
circumstance, most related to stressors extant prior to checking aboard 
HALSEY.
    Question. Is the Navy still dedicating additional resources to the 
crew of the
USS HALSEY? If so, how long will these additional resources be made 
available? If not, please explain the decision to withdraw the 
additional support.
    Answer. From 7 July 14 to 5 February 2015 (during HALSEY's 
deployment) significant additional resources were given to USS HALSEY 
to include the Navy Unit Behavioral Health Assessment Survey (NUBHNAS), 
a Special Psychiatric Response Intervention Team (SPRINT), Region 
Suicide Prevention Coordinator and regular Chaplain support to include 
classes and individual counseling (not normally available to DDGs), 
access to USS GEORGE WASHINGTON (CVN 73) Medical Department for two 
months, training and assessment by a Fleet Master Chief Petty Officer, 
visits and assessments by several Flag Officers and four visits by 
operational/administrative Chain of Command Navy Captains.
    During their end of deployment transition, USS HALSEY had both the 
DESTROYER SQUADRON (CDS) Chaplain and a Clinical Psychologist from the 
Military Family Support Center (MFFC) ride the ship for three weeks 
(normally ships only have 9 days for this visit); during this time more 
than two-thirds of the crew attended classes, and all who sought 
assistance received individual counseling to help ease their transition 
back to shore-side life with their families.
    Now that USS HALSEY has returned from deployment, the crew has the 
breadth of shore-based resources available to them to include support 
from CDS and Regional Chaplains, Suicide Prevention Coordinator (SPC), 
and specialists at Makalapa Clinic and Tripler Hospital. The Commanding 
Officer has remained in contact with the SPRINT doctor and the NUBHNAS 
doctor for consultation and advice on how best to minister to special 
needs of her crew. HALSEY's Command Triad (CO, XO, Command Master 
Chief) and Independent Duty Corpsman (IDC) are particularly sensitive 
to these cases and situations and they keep in close contact with USS 
HALSEY's families, Oahu's military mental health assets, and they make 
a wealth of information available and regularly emphasize to their crew 
the importance of mental health, seeking help, and looking out for 
their Shipmates.
    An additional resource recommended to the crew, but unable due to 
operational commitments was the Navy's Afloat Cultural Workshop. They 
currently are working to schedule this for the first three weeks in 
May.
    Question. Did the assessment of the command climate of the ship 
identify any additional measures that are warranted to deal with the 
high rate of suicides?
    Answer. Several command climate assessments have yielded 
progressively more positive results for the majority of the crew. Over 
the course of the past eight months, morale has appreciably increased 
with mission accomplishment and a sense of purpose and in many respects 
the crew is a family-like atmosphere with stressors being manageable. 
Those Sailors whose stressors were not manageable were removed from the 
ship to receive a higher level of care.
    The initial assessment one month after the second suicide 
identified severe stress and anxiety for a larger than normal number of 
Sailors onboard. That was what led to the SPRINT team employment and an 
increased number of esprit de corps initiatives, morale building 
activities, and other activities to build unit cohesion. The 
assessments conducted at the three, five, six and seven month point of 
deployment showed progressively more positive results with respect to 
anxiety, stress, and the ability of Sailors and their chain of command 
to manage such stressors and anxiety.
    There have been a handful of Sailors who have come forward with 
exceptional circumstances and situations in which they have been unable 
to cope (as referenced in earlier question about suicide-related 
behavior). They have been given the attention and care they need to 
include being transferred to a limited duty status.
    The command will continue to foster a culture of wellness and 
bystander intervention as well as conduct regular training and self-
assessment (as noted by the May workshop scheduled) and remain plugged 
in to shore-based resources offered by the Medical community, Chaplain 
Community and Military Family Support Center.

                           Suicide Prevention

    Question. In written testimony before the Subcommittee in 2013, 
Admiral Greenert wrote that the Navy had 123 programs addressing 
suicide and resiliency and planned to review those efforts. In 2014, 
Secretary Mabus and Admiral Greenert, in response to an inquiry 
requesting an update on the large number of suicide prevention and 
resiliency programs in the Navy, you both noted the creation of the 
21st Century Sailor and Marine initiative. The description of that 
initiative from its website states, ``The majority of the programs and 
policies under 21st Century Sailor and Marine are not new, but rather 
are now being grouped together in order to prepare our Sailors, Marines 
and families with the tools to face all challenges.''
    Can you explain to the Committee how the 21st Century Sailor and 
Marine initiative increased the efficiency of the Department of the 
Navy's resiliency programs? Specifically, we are interested in how the 
Navy and Marine Corps reviewed the 123 established suicide prevention 
and resiliency programs? What was kept, modified, let go, or expanded?
    Answer. The Department of the Navy (DON) remains focused on 
preventing suicide among service members. We are committed to 
leveraging effective resources to build resilience in our Sailors and 
Marines. The 21st Century Sailor and Marine (CSM) initiative is a set 
of objectives and policies integrated across a spectrum of wellness. 
The five key areas (readiness, safety, physical fitness, inclusion, and 
continuum of service) include multiple programs consolidated under one 
umbrella for building the resilience of the force.
    In January 2013, the Navy convened Task Force Resilient, which 
included a comprehensive review of suicide prevention and resilience 
programs, and exploration of factors impacting resilience. The review 
resulted in the establishment of the 21st Century Sailor Office to 
focus on creating and maintaining more coordinated and streamlined 
efforts in resilience programs to support Sailors and their families.
    The stand-up of the Navy's 21st Century Sailor Office has had the 
desired effect--better coordination and integration of resilience 
efforts. In the past year, Navy instituted an integrated communications 
plan, expanded Operational Stress Control Mobile Training Teams, 
developed Bystander Intervention to the Fleet training, and placed 
Deployed Resilience Counselors on aircraft carriers and large deck 
amphibious ships. In addition, the office is developing a Resilience 
Management System, to automate the collection and reporting of all 
destructive behaviors and resilience program data for a common 
operational picture. Navy is also reviewing its Total Sailor Fitness 
curriculum to develop a comprehensive curriculum. Navy's vision is a 
tightly integrated and effective portfolio of programs delivered with 
training scenarios tailored to where that Sailor is in his or her 
career.
    While a commensurate review of resilience programs has not been 
conducted, the Marine Corps has already adopted a holistic approach to 
addressing resilience. An example of an integrated program is the 
Marine Total Fitness program, which represents an institutional 
commitment to sustaining a ready and resilient force by focusing on 
fitness across four areas--mind, body, spirit, and social. The Alcohol 
Prevention Program is collaborating with Sexual Assault Prevention and 
Response (SAPR) to create effective prevention messaging in response to 
the correlation between alcohol and sexual assault. Additionally, when 
a Marine is referred to a Substance Abuse Counseling Center (SACC), he 
or she is screened for risk of suicide and intimate partner violence, 
as well as mental health and co-occurring disorders. Finally, the 
Marine Corps has implemented MAPIT, an integrated training approach for 
behavioral health programs, which is intended to improve the total 
fitness of all Marines.
    Question. As the 21st Century Sailor and Marine initiative enters 
its third year of existence, will it continue to evaluate each of the 
programs and policies under its purview? Should we expect additional 
reductions in the number of programs? If so, are there any impediments 
to making these reductions that the Committee should be aware of?
    Answer. While the Department plans to continue to evaluate the 
efficiency and effectiveness of programs, there is no specific formal 
review process identified. The overall goal is to implement integrated, 
evidence-based behavioral health programs, which may result in 
efficiencies through consolidation In some cases, there are programs 
that exist due to mandate, and cannot be further scoped down.
    Question. In Calendar Year (CY) 2014, there were 53 active 
component and 15 reserve component suicides in US Navy. In CY 2013, 
there were 41 active component and 5 reserve component suicides in US 
Navy.
    In 2014, the number of suicides in the Navy's active and reserve 
components increased. Understanding that it takes time to thoroughly 
investigate the causes of each incident, but the tripling of suicides 
in the Navy reserve component from 2013 to 2014 is most concerning. 
What mental health resources are currently available to Navy 
reservists? Will additional resources be directed to the reserve 
component this calendar year?
    Answer. The Navy Reserve remains very concerned about the increase 
in suicides in 2014. Even one suicide is too many. The Navy continues 
to raise awareness regarding the combination of indicators most common 
to suicide-prone individuals such as post-traumatic stress, 
relationship problems, legal and financial problems, periods of 
transition and mental health issues.
    Because there is no single solution to successful suicide 
prevention, the Navy Reserve relies on a command-led effort that 
leverages a comprehensive array of outreach and education elements to 
ensure our Sailors have the resources necessary to not only deal with 
the challenges unique to service in the Navy Reserves--but also to 
assist their Shipmates when necessary.
    We have launched several key initiatives including: (1) mandatory 
Operational Stress Control (OSC) skills training for units within six 
months of deployment, (2) new guidance for Navy unit commanders and 
health professionals to reduce access to lethal instruments under 
certain conditions, (3) an interactive, scenario-based suicide 
prevention training tool, (4) an OSC curriculum specific to our Reserve 
Sailors, and (5) specialized Chaplain Corps professional development 
training on suicide prevention. Our Sailors continue to learn about the 
bystander intervention tool known as ``A.C.T.'' (Ask-Care-Treat). We 
also invest in the resilience of our people to help them deal with any 
challenge.
    There are a number of mental health care and support resources 
available through which Navy leadership, Reserve Sailors and their 
families may assess and address signs and symptoms of suicide. The 
following is a summary of mental health resources available to Reserve 
Sailors:
    Navy Reserve Psychological Health Outreach Program (PHOP): 
Established in 2008, these teams are distributed regionally at each of 
the 6 Navy Reserve Component Command headquarters. PHOP teams are 
comprised of licensed mental health providers that offer outreach to 
Reserve Sailors and support Reserve commands. They provide mental 
health screening, Suicide Prevention training, and facilitate 
connections with effective resources and follow-up support for Sailors 
with mental health needs. PHOP team members conduct regular site visits 
for deployment preparation and family events, and can assist with 
crises as needed. They also conduct resiliency check-ins (RCI), a non-
stigmatizing screening of all Reserve Sailors. A Reserve Sailor can 
access a PHOP counselor at any time--24/7/365. Additionally, command 
leadership can request PHOP team members engage specific at-risk 
individual Sailors, and can request on-site PHOP support during events 
that impact the mental health of their community, such as natural 
disasters.
    Military One Source, Suicide Prevention Lifeline, and All Military 
and Veterans' Crisis Lines: Phone numbers to these confidential help 
lines are widely advertised on a variety of materials provided at the 
Navy Operational Support Center or group events, posted on the Navy 
Reserve website, and highlighted in publications such as The Navy 
Reservist, on a variety of social media sites, and on multiple other 
media platforms.
    TRICARE: Reserve Sailors and their families have the same TRICARE 
coverage as the Active Component during mobilization, which includes 
mental health assessment and treatment services. When not mobilized, 
Reserve Sailors may elect to enroll in TRICARE RESERVE SELECT, which 
provides coverage similar to TRICARE.
    Veterans Administration (VA) and Military Treatment Facilities 
(MTFs): Reserve Sailors who are in their post-deployment period or on 
active duty orders greater than 30 days can access support via the VA 
or MTFs.
    Fleet and Family Support Centers (FFSCs): All Reserve Sailors are 
able to access support services offered by FFSCs which are located on 
all major Navy installations.
    Behavioral Health Integration Program (BHIP): Mental health 
professionals are being integrated in primary care settings to improve 
access and outcomes through the BHIP. Reserve Sailors who are in their 
post-deployment period or on active duty orders greater than 30 days 
can access behavioral health services via primary care providers at the 
VA or MTF.
    Navy Reserve Chaplains: A Reserve Sailor can access this 
confidential resource available 24/7 for Reserve Sailors and families.
    Question. In CY 2014, there were 35 active component and 11 reserve 
component suicides in Marine Corps. In CY 2013, there were 45 active 
component and 11 reserve component suicides in Marine Corps. In CY 
2013, the USMC had a suicide rate of 23.1 suicides per 100,000 service 
members; the Navy's rate in CY 2013 was 13.4.
    In recent years, the active component of the Marine Corps has 
unfortunately had a greater rate of suicide than the US Navy. Has the 
creation of the 21st Century Sailor and Marine initiative allowed the 
Corps to make improvements to its resiliency and operational stress 
control programs?
    Answer. The number of active component Marine Corps suicides has 
been on the decline, down 22% from 2012 to 2014. Though only two months 
of data are currently available for 2015, Marine Corps suicides are 
down 60% compared to the same two month period in 2014. There is not 
one specific cause for changes in the number of suicides. There is a 
complex, dynamic relationship among the many variables that lead up to 
suicide. The Navy and Marine Corps continue to target reduction of 
known risk factors for suicide and to enhance protective factors that 
may prevent suicide.
    The 21st Century Sailor and Marine initiative supports Marine Corps 
prevention programs directly, indirectly, and through a strong 
conceptual foundation. All Marine Corps efforts to make Marines more 
resilient, manage operational stress, enhance safety, fitness, and 
readiness are fully congruent with 21st Century Sailor and Marine 
values. While maintaining consonance with 21st Century Sailor and 
Marine, the Marine Corps also develops distinct prevention programs and 
policy to identify programs that will be most effective for the Marine 
Corps culture. Our programs are supported by research; evidence based 
practices, data collection, surveillance, and accepted standards of 
program evaluation.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Mr. Israel and the answers 
thereto follow:]

                         Base Security in Iraq

               [Classified response--provided separately]

    Question. Please describe the mission of the U.S. Marines currently 
stationed in Iraq? Does this budget include everything you need to 
accomplish that mission?
    Answer.    -- -- --
    Question. How does this budget reflect the need to protect our 
forces who are forward deployed, and specifically those involved in 
counter-ISIL operations?
    Answer.    -- -- --
    Question. Please comment on the recent incident whereby militants 
penetrated the outer perimeter of the Ain al-Asad airbase. 
Specifically, I'd like to know what you are doing to bolster security 
around this base in order to ensure another breach does not occur.
    Answer.    -- -- --

                                  P-8A

    Question. The Fiscal Year 2016 budget indicates an increase in the 
number of P-8A antisubmarine warfare aircraft that the Navy wants to 
procure. This is a change from last year's budget request. Can you 
explain this change and why it is important to purchase the P-8As at 
the rate that the Navy is this year?
    Answer. The request for sixteen (16) P-8A aircraft in the 
President's Budget request for Fiscal Year 2016 returns the Navy's P-3C 
to P-8A transition plan to the optimal procurement profile required to 
complete the transition in the minimal amount of time, at the least 
cost and warfighting risk.
    The P-8A optimum transition plan is based on a steady procurement 
profile of 16 aircraft per year in FY-14/15/16. Buying aircraft at this 
rate enables the government to gain significant savings in ``per unit'' 
cost pricing under the Full Rate Production (FRP) schedule. It prevents 
future transition and warfighting gaps and returns the fleet to planned 
fatigue life utilization rates. This request also enables the prime 
contractor (Boeing) and its sub-contractors to execute and maintain 
steady state production schedules and to achieve other manufacturing 
efficiencies, which all translate to lower overall costs to the Navy.

    [Clerk's note.--End of questions submitted by Mr. Israel. 
Questions submitted by Mr. Ryan and the answers thereto 
follow:]

                             Ship Lighting

    Question. You have previously stated that just by changing the 
lighting on ships to LED's, 3% of total energy on ships can be saved. 
It is my understanding that to date, almost 13% of the Navy fleet has 
converted to tubular-LED (T-LED) lighting, which has been successful 
and yielded cost savings. In this regard, can you please advise on the 
Navy's efforts to bring T-LED lighting to shore on bases?
    Answer. The Navy believes strongly in the potential for new 
technologies, including LED lighting, to improve lighting quality and 
reduce energy and maintenance costs on our shore bases. In order to 
enable our adoption of these technologies as quickly as possible, we 
have expanded our use of Energy Savings Performance Contracts (ESPC). 
These contracts allow contractors to identify and install, where 
appropriate, technologies that provide energy savings and also share in 
those savings. We expect LED's to be widely evaluated and used in these 
contracts. We also intend to work with industry to address any 
technical issues relating to the compatibility of existing fixtures 
with T-LEDs. We hope that engagement will enable us to more broadly and 
quickly adopt the technology.
    Question. Given the significant cost savings and energy efficient 
benefits that can be realized from tubular-LED (T-LED) technology, as 
exhibited by its successful adoption onboard Navy ships, would you 
agree that this warrants the Navy to consider revising the Unified 
Facilities Criteria (UFC) to allow for the option of T-LED technology 
on bases?
    Answer. The existing Unified Facilities Criteria (UFC) supports the 
installation of T-LED systems in new construction. The UFC also 
supports the replacement of existing lighting systems with T-LED 
systems (full fixture and tube replacement). In the case of 
retrofitting non-LED fixtures with T-LED bulbs, we intend to work with 
industry to address any technical issues relating to the compatibility 
of existing fixtures with T-LEDs. We hope that engagement will enable 
us to more broadly and quickly adopt the technology.

    [Clerk's note.--End of questions submitted by Mr. Ryan. 
Questions submitted by Mr. Ruppersberger and the answers 
thereto follow:]

                                 UCAS-D

    Question. The X-47B Unmanned Combat Air System Carrier Demonstrator 
(UCAS-D) program has accomplished a number of historic firsts for Naval 
aviation--including the first unmanned catapult launch and the first 
arrested landing on an aircraft carrier. The Navy has invested well 
over $1.5 billion in this program. However, now, despite the fact that 
there is considerable life left in both planes, the Fiscal Year 2016 
budget zero funds the program. Considering the uncertainty with the 
Unmanned Carrier Launched Airborne Surveillance Strike (UCLASS), 
wouldn't the nation be better served by continuing to utilize UCAS-D to 
inform future programs and reduce risks rather than retiring these 
state of the art planes?
    Answer. All risk reduction activities within the scope of the 
$1.47B program with these air vehicles have been completed to the 
fullest extent possible. Over the past two years, the Navy has 
extensively reviewed all UCAS-D continuation options and concluded 
there are no viable, cost effective solutions for continued UCLASS risk 
mitigation. We have conveyed this to OSD AT&L and both OSD and the Navy 
are in alignment with this conclusion.
    The X-47B is strictly a demonstrator air vehicle, with no 
operational utility. As a demonstrator, the X-47B implemented a 
different technical architecture from UCLASS, which will be the first 
operational sea-based capability for the Navy. The X-47B has a 
different control station, landing system, data link, and network 
interface. The X-47B has no sensors such as an EO/IR turret and no 
weapons carriage or release capability. As such, using the X-47B for 
further UCLASS risk reduction would provide limited return on 
investment, as many hardware and software modifications would be 
required to convert the X-47B to a UCLASS representative architecture.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger.]

                                         Friday, February 27, 2015.

               FISCAL YEAR 2016 AIR FORCE BUDGET OVERVIEW

                               WITNESSES

HON. DEBORAH LEE JAMES, SECRETARY, UNITED STATES AIR FORCE
GENERAL MARK A. WELSH III, CHIEF OF STAFF, UNITED STATES AIR FORCE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order. This morning the subcommittee continues a series of 
defense posture and budget hearings with our military services, 
our combatant commands and other major components of the Armed 
Forces. Our hearing this morning focuses on the Air Force 
budget request for fiscal year 2016.
    It is my honor to welcome back to the subcommittee the 
Honorable Deborah Lee James, Secretary of the Air Force. 
Welcome back, Madam Secretary. And General Mark Welsh, III, 
chief of staff of the Air Force. Welcome back, General.
    General Welsh. Thank you, sir.
    Mr. Frelinghuysen. Welcome to you both and thank you for 
your leadership and service to our great Nation, and our thanks 
to all the men and women that you represent, both in uniform 
and civilian.
    The Air Force budget request this year reflects a 
determined commitment to modernization. There are several key 
investments in the future fleet of fighters and bombers, the 
nuclear enterprise and other important missions, from the KC-46 
tanker to the combat rescue helicopter. At the same time, this 
budget seeks to recover readiness in the wake of recent budget 
turbulence and reverse years of decline in end strength. 
Unfortunately, the variable that will have the biggest impact 
on your budget next year and for years to come is not part of 
your request. The subcommittee has heard me say this before and 
yesterday morning, and I will say it again, that unless there 
is some dramatic legislative change, the law of the land will 
require the Appropriations Committee to mark up bills this year 
to the level dictated by the Budget Control Act, aka, the BCA.
    In the case of the Air Force, the President's base budget 
request is roughly $10 billion above the funding level 
projected under the BCA, as projected under the law. So I need 
to say right up front that we will all need to work extremely 
closely together to ensure that funding appropriated for the 
Department is sufficient to take care of our airmen and 
maintain your readiness at the highest possible level.
    As we build our fiscal year 2016 bill, we would like to 
have your input. And make no mistake, and as I said yesterday 
morning, we do have to cut $10 billion with you or we will cut 
$10 billion without you, but we need to do it. I must also 
mention the budget makes some decisions that many in Congress 
will resist, and you know this well as a former A-10 pilot, 
General Welsh, that there will be a resistance on many in 
Congress to divest the A-10. I understand that the defense 
appropriations bill is a zero sum product and every money 
saving proposal Congress declines will have to be made up 
elsewhere, taking money from some other priority. Throughout 
the process, our committee is committed to ensuring that the 
decisions we have to make are fully informed by the best advice 
our military leadership can provide, and we will continue to 
call on you to give your most frank assessment of how living at 
the BCA levels over time might affect our national security and 
how that would have to be managed. And on a personal level, I 
certainly, and I think most members are very interested and, 
hopefully, in the course of questions your frank assessment of 
the defense posture of both China and Russia that relate to air 
matters.
    Again, I welcome you both. Your written testimony will be 
entered into the record, and we look forward to a dynamic and 
informative discussion this morning. And happy to yield to Mr. 
Visclosky for any comments that he may wish to make.

                   Opening Comments of Mr. Visclosky

    Mr. Visclosky. Thank you very much, Mr. Chairman. 
Appreciate you holding the hearing. And, Secretary General, 
appreciate your service, appreciate your hard work and 
enthusiasm for those under your command and direction, and look 
forward to your testimony. The chairman alluded to the 
budgetary situation we face, and I would point out that there 
were a number of issues last year that I congratulate the 
chairman for having the intestinal fortitude to suggest to the 
broader membership of the House of Representatives, while 
people look at the defense budget and think there is an 
infinite amount of dollars, there is a finite cap, and we have 
to prioritize. The chairman did, but the broader body still 
believes we can be all things to all people. Hopefully people 
become a bit more enlightened as we proceed and understand that 
you, as well as we, have to make some very difficult 
prioritization decisions, but again, look forward to your 
testimony.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    And Secretary James, good morning, welcome.

                  Summary Statement of Secretary James

    Ms. James. Good morning, Mr. Chairman and Ranking Member 
Visclosky, and to all of the members of the committee. It is 
certainly my honor and privilege to come before you this 
morning. It is also my honor and privilege to be able to sit 
with this gentleman to my left and your right, General Mark 
Welsh, who I have gotten to know so well over the last year or 
so. Just a phenomenal Airman and a leader and a great partner 
for me. So thank you for having us here.
    Mr. Frelinghuysen. Madam Secretary, could you move the mike 
a little bit closer? I am not sure that is picking up there. 
Thank you. Excuse me.
    Ms. James. Mr. Chairman, when I testified before all of you 
last year as a brand new Secretary of the Air Force, I outlined 
my three priorities, and just to review them with you is, 
number one, taking care of our people; number two, balancing 
and getting the right balance between readiness of today and 
modernization for tomorrow; and number three, making every 
dollar count, and that is to say, we get it in the United 
States Air Force that we have to treat the taxpayer money as 
precious, we can't afford to waste a single dollar of it, 
certainly not in these tough budgetary times, and so we are 
working hard to make every dollar count.
    That was then, and those three priorities have not changed, 
but what has changed for me personally is I have now had 14 
months in the seat and I am way smarter and way more 
experienced than I was 14 months ago, and I have also traveled 
extensively across the country and to a number of locations 
around the world, 60 bases in 28 states and territories as well 
as 12 foreign countries.
    And what I want to tell you is that in each of these 
visits, I talked to our leaders on scene and I listened very, 
very hard to our rank and file Airmen and I asked them a lot of 
questions about people issues, about readiness issues. I looked 
at the aircraft, the platforms. And I want to summarize some of 
my key takeaways from the last 14 months.
    First of all, today, we are the smallest Air Force that we 
have been since our inception in 1947. I was in government in 
the 1990s, and when I look back at the size of the Air Force in 
the 1990s, which to me was a less complicated period of time 
than the time we have today, it is stunning the amount we have 
come down in terms of manpower. This has happened at a time 
when demand for our services is at an all-time high.
    Furthermore, we have the oldest Air Force in terms of our 
platforms since our inception in 1947. The average age of our 
aircraft is about 27 years old, but there are many fleets that 
are substantially older than that. And here is, to me, the most 
pressing issue of all: More than half of our combat air forces, 
half, are not sufficiently ready for a high-end fight, that 
means a fight where we would have interference, people trying 
to shoot us down, people trying to interfere with us in space 
and in the air.
    Yet as we sit here this morning, I want you to know our 
Airmen are providing two-thirds of America's nuclear arsenal, 
performing intelligence surveillance and reconnaissance, strike 
missions in Iraq and Syria in the fight against ISIL, we are 
flying mobility missions in the Pacific, we are reassuring our 
European allies, and guarding the homeland, all at the same 
time, and all of these missions are very critical and they are 
performing admirably. But my key takeaway from the last year is 
we are a force under strain, and we are working hard to meet 
the combatant commanders' most urgent needs, but a budget 
trajectory that results in sequestration, Mr. Chairman, simply 
will not allow us to sustain this pace.
    So if we must--and I listened very carefully to what you 
said. If we must live under sequestration, I am here to tell 
you, I fear we are either going to break or we absolutely will 
not be able to execute the defense strategic guidance that has 
been laid out for us. We cannot do it under sequestration. Now, 
we have said many times over the last couple of years that 
sequestration is damaging to our national security, and so, as 
you know, rather than living with that level, we are proposing 
in our budget figures that are higher than what sequestration 
level would allow us. Specifically for the Air Force, it is 
about $10 billion more than what sequestration-level funding 
would give us. And I am, again, here to tell you as 
passionately as I can that that $10 billion represents the 
difference between an Air Force which is much closer to what 
the combatant commanders need and what our Nation expects and 
the ability to do our strategy than we would have under 
sequestration, and it also recognizes just how important the 
Air Force is to every joint operation around the world.
    Now, even if we get that $10 billion more, I don't want to 
tell you that that solves every ill and solves every problem, 
because it does not. This increase provides both the forces 
needed to meet our most pressing needs for the combatant 
commanders, and it also allows us to fulfill those top three 
priorities I told you about in the beginning.
    Now, let me talk briefly about each of the three. People, 
taking care of people. Listening to our Airmen over the last 14 
months, there is no question in my mind the number one issue on 
their minds has been the downsizing. And given the state of the 
world, given everything I just told you, General Welsh and I 
agree, the number one thing is we have to stop this downsizing. 
Enough is enough. And, in fact, we need to upsize a little bit, 
modestly, both Active, Guard and Reserve, to a total end 
strength of 492,000. This would allow us to redirect some 
people to the nuclear enterprise, increase our cyber mission 
teams, plug some holes, such as maintenance, that we have 
across the entire Air Force, which are so very, very important. 
And part of that, as I said, will be for the Guard and Reserve, 
to buy back some capability and increase our reliance. By the 
way, we will be reporting to Congress on March 4, just a few 
days from now, on our efforts to fully address the Commission's 
report, the National Commission on the Future Structure of the 
Air Force.
    Also in the people rank, I want you to know we are 
expanding services to include our sexual assault prevention and 
response program. So we are upping the training, switching the 
training out, we are expanding our SVC program, Special Victims 
Council, and we are providing full-time Sexual Assault Response 
Coordinators (SARCs) in the National Guard community. Currently 
they are only part-timers. We also have support for childcare, 
fitness centers, educational benefits, and 1.3 percent pay 
raise for all. So that is some of what we are doing to take 
care of our people.
    Second priority is getting the balance between readiness 
today and modernization for tomorrow's fight. And as I said, 
very important, because only about half of our combat air 
forces are fully ready for that high-end fight. Therefore, our 
proposal will fully fund flying hours to the maximum executable 
level. We will invest properly in weapon systems sustainment 
and ensure that our combat exercises, like the Red Flag and the 
Green Flag programs, remain strong.
    I want you to know General Welsh, in particular, myself as 
well but not as much as he, we consulted closely with the 
combatant commanders as we put together this budget. So it 
reflects more than just our best military judgment; it reflects 
theirs as well. And so part of this budget and part of this $10 
billion extra will allow us to support their most urgent needs, 
which I can tell you is Intelligence, Surveillance, and 
Reconnaissance (ISR), ISR, ISR, and that is 60 steady state ISR 
patrols as well as extending the life of the U-2 and the 
Airborne Warning and Control System (AWACS) program. So, again, 
just a little bit about how we are meeting their most urgent 
needs.
    We also need to support vital space programs, strengthen 
the nuclear enterprise by adding funding to our 
Intercontinental Ballistic Missile (ICBM) readiness and a 
number of other areas. So that is the readiness of today.
    For modernization, very important that we continue to place 
nuclear now at number one when it comes to modernization, so we 
are developing the follow-on to the Minuteman III ICBM as part 
of our 5-year plan and accelerating the long-range standoff 
weapon by 2 years. We have got additional investments for 
cyber, ISR, preferred munitions and space as well. And of 
course, we have our top three programs, the KC-46, the F-35, 
and the long-range strike bomber. All of these will remain on 
track with our budget profile as we have presented it to you.
    My third priority, make every dollar count. Again, we don't 
want to waste a single dollar, and so we are doing a number of 
things. We are driving steadily toward auditability of our 
books in the United States Air Force and in the military at 
large. We took an aggressive 20 percent reduction in our 
headquarters funding, which includes civilians, contractors, 
and redirecting military personnel. We didn't have to do it in 
1 year, but we did, because we could get the savings more 
quickly. Keeping those top programs on track and looking for 
cost savings is part of our program as well, maximizing energy 
savings. We have got a whole list of initiatives in this area.
    So all of this is the good of the budget, but not so good, 
because, as I told you, even under our figures. It doesn't 
solve all the issues, you already named it, Mr. Chairman and 
Mr. Visclosky, we are, once again, proposing with reluctance, 
but nonetheless, the retirement of the A-10 aircraft over time. 
We are also proposing to slow the growth in military 
compensation, and we ask all of you once again if you would 
please consider a new round of base realignment and closure 
(BRAC). And we realize none of these are popular, they are all 
difficult, there are difficult circumstances, we get that, but 
if sequestration remains the law of the land, it is going to be 
way, way, way worse. As I said, we won't be able to do the 
defense strategy. Something simply has to give.
    So here are some of the things. We have talked about this 
before, and I realize all of this is highly unpopular, but if 
we had to live with sequestration, we would have to divest our 
KC-10 refueling fleet. We would have to reduce some of our 
total force flying hours, our weapons system sustainment, 
ranges, simulators, all the types of things we need to get 
readier, to get that 50 percent to higher levels of readiness 
for the high-end fight. We would have to reduce F-35 
procurements by 14 in fiscal year 2016. The adaptive engine 
program, which holds great promise for fuel efficiencies and 
the future of engines for the United States Air Force, would be 
cancelled. And our program for ISR would also suffer. So a lot 
of that good I just told you about, we would have to cancel 
Global Hawk Block 40, the U-2 would have to go, AWACS 
reductions, fewer of those combat air patrols.
    So sequestration, bottom line, it threatens everything, and 
I am just certain in this country we can do better than this. 
And I know the difficulties, but I certainly hope that we will.
    In conclusion, I want all members of this committee to 
know, and the American people who may be listening today, that 
your United States Air Force is still the best on the planet, 
but we mustn't take that for granted, because we are a force 
under strain, as I just said, and we mustn't let our edge slip 
away. So, Mr. Chairman, with all of the difficulties, I ask all 
of you to please consider hang in there and try to make the 
case for us that sequestration needs to be lifted, lifted 
permanently, lifted across the whole of government. I am no 
expert in the domestic agencies, but the Department of State, 
and the Department of Homeland Security are key partners for us 
in national and Homeland Security. It would be very difficult 
on them as well. So, again, I thank you, sir, and I would now 
yield to General Welsh.
    Mr. Frelinghuysen. General Welsh, the floor is yours.

                   Summary Statement of General Welsh

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Visclosky, and members of the committee. It is always an honor 
to be here with you, and it is a pleasure and an honor to sit 
here beside Secretary James, who, as you can tell, has become a 
very passionate advocate for our Air Force and Airmen.
    My pride in our Air Force and the Airmen who give it life 
hasn't changed since the last time I testified to you, but my 
level of concern has. We wrote the blueprint in this country 
for the world's greatest Air Force and we know what it looks 
like, and other nations have been watching and they are now 
trying to follow the model. The capability gap that separates 
our Air Force from others is narrowing, and as it does, the 
asymmetric advantage that air power provides the United States 
military is shrinking.
    We must modernize our Air Force. We want to work with you 
to do so. We know it won't be easy and it will require 
accepting prudent operational risk in some mission areas for a 
period of time, but the option of not modernizing isn't really 
an option at all. Air forces that fall behind the technology 
curve fail, and joint forces without the full breadth of 
airspace and cyber power that modern air power brings to the 
battle space will lose.
    When we deployed to Operation Desert Storm in 1990, our Air 
Force had 188 fighter squadrons in the inventory. This budget 
will take us to 49. There were 511,000 active duty Airmen 
during Operation Desert Storm. We have 200,000 fewer today. And 
as those numbers came down, the operational deployments and 
tempo went up steadily.
    The Air Force is fully engaged, and now more than ever, we 
need a capable and fully ready force. And we can't continue to 
cut force structure to pay for the cost of that readiness and 
modernization, or we risk being too small to succeed. Our 
smaller aircraft fleet is also older than it has ever been. In 
1991, it would have been ludicrous for us to talk to you about 
considering using World War II's venerable B-17 bomber to 
strike targets in Baghdad during the first Gulf War, but if we 
had used it, it would have been younger than the B-52, the KC-
135 and the U-2 are today. We currently have 12 fleets of 
aircraft, entire fleets of aircraft that qualify for antique 
license plates in the State of Virginia, and we have four 
fleets of aircraft that could very happily enroll in American 
Association of Retired Persons (AARP) today.
    If we remain at Budget Control Act (BCA) funding levels, 
the Air Force will no longer be able to execute the strategic 
guidance. It is pretty straightforward. Our short-term 
readiness recovery will stall, our long-term infrastructure 
investment will remain a dream, we will be forced to recommend 
the dramatic fleet reductions that the boss recommended, and 
modernization will be further delayed, allowing our adversaries 
to further close that capability gap. You understand it is an 
ugly picture, we just want to make sure it is clear.
    We understand that we must be part of the Nation's solution 
to the debt problem and we are ready to do that, but we do need 
your help in some areas so that we can be ready for today's 
fight and still be able to win in 2025 and beyond. Our Airmen 
deserve that, our joint team needs it, and I believe the Nation 
still expects it.
    I would like to take this opportunity to extend my personal 
thanks to each of you for your persistent support for our Air 
Force, for Airmen and their families, and we would be happy to 
answer your questions.
    Mr. Frelinghuysen. Thank you, General.
    [The joint statement of Secretary James and General Welsh 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frelinghuysen. We have a full house this morning, and 
not an antique among us here, with all the members and their 
keen interest in your budget in this process.
    First line of questioning, Vice Chairman Granger.

                    AIR NATIONAL GUARD MODERNIZATION

    Ms. Granger. Thank you both for being here and for your 
opening remarks. Before I ask my question, you know, I have 
been on this subcommittee for quite some time, and for years we 
have heard the military come in and they say, we will do it 
with what you give us, you know, we are professional, do it. 
So, Secretary James, to have you say, we cannot do it, really 
brings it home about how very, very serious this situation is, 
and I think everyone on this panel certainly understands that. 
I hope you are reaching out and trying to make others that 
don't serve on these panels and these subcommittees really 
understand what will happen if we continue this law.
    My question has to do with the National Commission on the 
Structure of the Air Force has called for concurrent and 
proportional modernization across the Air Force; however, the 
Air National Guard continues to operate aircraft that are on 
average over 5 years older than those for the active duty 
squadrons. I am concerned this is slowly pushing the Guard 
toward a second tier status.
    So, Secretary James, General Welsh, what is your plan to 
ensure that the Air National Guard is modernized so they can 
continue their significant contributions to both national and 
Homeland Security?
    Ms. James. So maybe I could start, Ms. Granger, and then 
the Chief can jump in. So I want to assure you that the Air 
National Guard and the Air Force Reserve for that matter are 
absolutely full partners and they are integral to everything 
that we do, and as we build our budget plans, they are right 
there at our side around the conference table and we are 
building these things together, which means as we introduce new 
aircraft into the inventory, and you are aware, I know, of the 
Joint Strike Fighter, the F-35 and the KC-46, as an example, we 
have agreed that as we roll out some to the active duty, some 
will be to the Reserve components as well, and, of course, we 
are making those basing decisions over time. So that is one 
example.
    When I say they are at the table with us, of course, they 
are at the table with us for the difficult judgments as well. 
And so much of your question goes to at what pace do we 
modernize? And who gets what when? And so it is very much a 
balancing act, but I want to assure you that we are fully 
behind our National Guard and Reserve. And when you see our 
report, which will be rolled out on March 4, our response to 
the Commission, you know, blow by blow, each of their 
recommendations and what are we doing about it, you are going 
to see that huge agreement across the board. A lot of it comes 
down to money and pace.
    General Welsh. Yes, ma'am. Just three quick things to add 
to that. First is that when we talk about squadron numbers, I 
mentioned we are going to 49 squadrons, every time the Air 
Force talks on number, it is total force. Those are Active Air 
National Guard and Air Force Reserve forces. And so it is all 
included in one discussion all the time.
    The big difference in fleet ages is based on the C-130 
average fleet age. That is the big impact on this. The way we 
got here is instructive, I believe, because there really was no 
evil intent that created it. The active Air Force and the Guard 
and Reserve had C-130 E models for years. The Guard and the 
Reserve had the oldest E models in the fleet, so when the new H 
models appeared, we filled the Guard and Reserve units first to 
replace the oldest airplanes first. So for a period of time, 
the Guard had all the new C-130s. And then when the J models 
came along, we put those into the oldest squadrons, which are 
the active duty C-130 E model squadrons that were remaining, so 
the active duty got the newer J models. That is who we got to 
where we are, and we will continue this rotation to replace the 
oldest airplanes.
    So, you know, all the State Adjutant Generals are meeting 
with the Commander of Air Mobility Command. If they have C-130s 
in their States or C-17s in their States or C-5s in their 
States, and all the Reserve wing commanders will have those 
things during the same meetings. The Commander of Air Combat 
Command has done the same thing by the combat air forces, the 
fighter and bomber fleets.
    All the modernization we are planning is now being done 
collectively. Everyone is seeing the plan from the day we start 
it, and it is vetted. I vetted it with the TAGs last week again 
in their national get-together to make sure that everybody is 
connected, everybody has a voice, and we are not doing things 
on our own. We will continue to work this way.

                       F-35 JOINT STRIKE FIGHTER

    Ms. Granger. Good. I had one other question. It has to do 
with the joint strike fighter. This is, of course, a very 
important year, and in your opening remarks you talked about 
the Air Force plan to reduce the buy from 44 to 30 under 
sequestration. And so I would ask you, what impact will that 
have on the cost of the F-35 and what would the longer-term 
impacts be on the program?
    Ms. James. So the most direct answer to your question is 
whenever you reduce your quantity, it ups the cost. I couldn't 
tell you maybe off the top of my head exactly how much, but at 
a time when the F-35 Joint Strike Fighter is just around the 
corner from being Initial Operational Capability (IOC), we are 
so close and we have been working so hard to make sure that the 
costs are trending down, it would be a shame to have it go in 
the opposite direction.
    Now, what impact could that have on partners and so forth? 
One possible impact is if we reduce our buy because of tough 
budget, maybe they do the same, and that drives the cost up 
even more. So I think it is too early to tell, but, again, we 
don't want to do it. We want to keep that buy up.
    Ms. Granger. Thank you. Thank you.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Ms. McCollum.

                         EXCESS INFRASTRUCTURE

    Ms. McCollum. Thank you, Mr. Chair. And thank you to the 
ranking member as well for the ability to ask my question early 
in the sequence.
    Madam Secretary, the gap between the President's budget and 
the Budget Control Act levels only grows larger if Congress 
rejects the cost savings proposal reforms in this budget. It 
makes no sense to me to cut funding for readiness and 
modernization so Congress can protect outdated weapons systems 
and excess facilities. In a briefing this week, which I 
appreciate the Air Force coming in and giving me, I was told 
almost 30 percent of the Air Force's facilities are excess to 
your mission. That is stunning. 30 percent. What is even more 
stunning is Congress continue to protect and pay for all these 
unnecessary facilities. There isn't a company in America that 
would carry 30 percent of their facilities as underutilized or 
non-productive and stay in business. And so you are constantly 
being asked, you know, where's your business model. We need to 
work with you in providing that business model.
    Madam Secretary, so I am going to ask you to outline the 
Air Force cost saving proposals in this budget and what they 
achieve over the 5-year defense plan. We need to be making 
long, hard, tough choices.
    And then the other thing is I am learning in the military 
budgets, you carry a large portion of your budget which is a 
pass-through, 20 percent of it almost in non-blue. So at 
sequestration levels and not putting this forward, does that 
even have a larger impact? Because if people are looking at the 
big number and thinking, oh, this is just an across-the-board 
cut, and I see the general shaking his head, this non-blue 
pass-through of 20 percent is even more important.
    Mr. Chairman, I will submit a question for the record on 
sexual assault. Thank you for your kindness.
    Mr. Frelinghuysen. Madam Secretary, would you care to 
respond?
    Ms. James. Yes. So, Congresswoman McCollum, first of all on 
BRAC, I used to be one of those business people before I came 
back into government. And you are absolutely right, I was in 
one of those companies that would have never spent money on 
excess buildings or excess capacity. And the figure that you 
stated is about right. That is our latest capacity analysis, I 
would say. So, you know, we want to be able to move forward on 
the next round of base closures so that we can free up dollars 
to be able to plow back into other important areas. In BRAC 
2005, according to my figures, as difficult as that was, and 
this is just for the Air Force, took us about $3.7 billion of 
an investment to do those actions, and we are now saving about 
a billion dollars annually, and we project a billion dollars 
going forward. So as a former business person, that is a pretty 
good return on investment. So we do need the BRAC, and thank 
you for bringing that up.
    We have a variety of cost savings, everything from regular 
program reviews over our major programs to make sure that we 
don't let those costs tick up, so keeping those costs under 
control. We have--I told you we are attacking headquarters 
reductions, which are hard, because when you are talking about 
civilians or contractors or military people who are working at 
headquarters, those are important jobs too, but we are trying 
to redirect our military personnel, reduce civilians and 
contractors where we can, especially now.
    I will say on the contractor side, we are holding what we 
call contractor court. So every contract now at a headquarters 
level, we are insisting that the major commanders come forward 
and literally justify, do you still need this, do you still 
not--can you do without it, and so forth, and we are finding 
savings there as well.
    Energy, there are great opportunities for savings in 
energy. And the last one I will give you is something called 
Airmen Powered By Innovation. So this is putting the word out 
across the Air Force, you are on the flight line, you know your 
job better than we know your job. Come forward with some ideas, 
because we want to implement your ideas whenever possible to 
save money and to save time. And that is getting some traction 
and our airmen really like it, and we are picking up a lot of 
ideas.
    As for the pass-through question on the non-blue and would 
that be subject to sequestration, I am not sure the answer to 
that. Do you know, Chief?
    General Welsh. That would be subject to, I believe, the 
Congress and the other agencies who benefit from it, the 
National Reconnaisance Office (NRO), the Director of National 
Intelligence (DNI); it is mostly national intelligence program 
and NRO funding, a little bit of combatant command support 
money, but your point, ma'am, is perfect. If you look at the 
Air Force blue budget, just the Air Force budget that we spend 
on Air Force modernization, readiness, et cetera, we have had 
the lowest share by service percentage of the DOD budget since 
1987. And it looks like we are equivalent to the others, but 
that flow-through has grown from 7 percent years ago in the 
early 1960s to 20 plus percent today. It is $30 billion in the 
2016 budget.
    Ms. McCollum. Thank you.
    Mr. Frelinghuysen. Thank you. Mr. Crenshaw.

                             ROCKET ENGINES

    Mr. Crenshaw. Thank you, Mr. Chairman. And welcome back to 
you all.
    Let me ask you a question about rockets and satellites. You 
know, the Air Force depends on satellites. In fact, our 
national security pretty well depends on our ability to have 
satellites and I guess you could say that the economy as well, 
GPS, all those kind of things. And one of the things that this 
subcommittee has tried to do is certify more rockets and 
launches and to kind of broaden that base. And as I understand 
it now, we have basically got two rockets, we have got the 
Atlas 5 and the Delta 4, and those are the rockets that we use. 
And then I think everybody knows by now that the Atlas 5 rocket 
engine is made in Russia. I was surprised to learn that about a 
year ago, and then now that the Ukraine and all that business, 
it probably creates a little bit of a problem, a lot of 
negative issues about that.
    And so I was one of the members that in 2014, 2015, we put, 
I think, $45 million in 2014 and $220 million in 2015 to try to 
help develop and certify some new rockets that had different 
engines.
    And I guess my question is, Secretary James, has the Air 
Force continued to try to develop different rockets, et cetera, 
et cetera? I mean, how are we--what are we doing with that $265 
million?
    Ms. James. So the short answer is yes, absolutely, and we 
are trying to be as aggressive as we possibly can be about 
this. So as you pointed out, sir, the issue is we don't want to 
continue a reliance like this on a Russian-produced engine. So 
the question is how do we get off of that reliance as quickly 
as possible? And the appropriation that you all gave us is 
going to help us do that.
    So as we speak, we are funding with those dollars what are 
called technology maturation and risk reduction initiatives. So 
stated another way, this really is rocket science, this is hard 
stuff, and so the beginning dollars out of that $220 million 
are doing some research into how do we create materials that 
are strong enough to resist enormous temperatures and resist 
enormous pressures that are involved with space flight. So 
doing an engine for space flight is not like doing a jet engine 
for a jet aircraft, and certainly way beyond, what most of us 
know as Comprehensive Cost and Requirement System (CCAR), for 
example. So it really is tough science, and so technology 
maturation and risk reduction is step one.
    We also will be using some of the money that you have 
already given us, and remember, we have budgeted money from 
here on out as well, to begin to fund several launch service 
providers to start developing actual engine alternatives. And 
what we want to do is we want to make sure that the 
alternatives that they start developing for us would ultimately 
be made available for other companies to buy. So this would 
have to be encompassed in, you know, a Request for Information 
(RFI), a Request for Proposal (RFP) and so forth, the 
documentation to put it out to industry. So that would be the 
next step. And, again, this will be over years that we are 
going to have to try to get this done.
    As, you know, there is a law now that the National Defense 
Authorization Act (NDAA) from last year says that we can't use 
the RD-180, the Russian engine, for competitive launches beyond 
2019 unless they were bought prior to the Russian invasion of 
the Crimea.
    Mr. Crenshaw. I was going to ask you about that. So that is 
congressionally mandated after 2019. Are we on track to be able 
to have something other than that?
    Ms. James. We are on track to be aggressive, but what the 
technical experts have said to me is because this truly is 
rocket science, this is hard problems, that is an extremely 
aggressive schedule and we may not make it. So we are going to 
try, but it is highly questionable. And that is not my opinion, 
that is the opinion of technical experts.
    Mr. Crenshaw. So in your opinion, we may not be able to, 
you know, kind of meet that deadline?
    Ms. James. It is questionable.
    Mr. Crenshaw. Okay. Thank you.
    I yield back.
    Mr. Visclosky. Would the gentleman yield for one moment?
    Mr. Frelinghuysen. Yes. Mr. Visclosky.
    Mr. Visclosky. You have $85 million in your budget request 
for 2016. And following up on the gentleman's line, 
understanding the difficulty in hitting 19, because you have 
technical issues to deal with, is 85 enough?
    Ms. James. Well, it is 85 in 2016, it is 295 if you add it 
all up over the 5-year Future Years Defense Plan (FYDP). And 
part of the program that we envision is a public-private 
partnership. So you say is 295 enough? The answer is probably 
not, but in public-private partnerships, private money comes 
into the equation as well. So, you know, we may have to adjust 
this as we learn more, but we thought that was a good starting 
point.
    Mr. Visclosky. Thank the gentleman for yielding.
    Mr. Frelinghuysen. Before going to Mr. Ryan, the Budget 
Control Act is a law too, and it mandated, and that is why it 
is important, and I think you have given us some help here, it 
is important to set some priorities here. These are all 
things--we certainly want to wean ourselves away from the 
Russians, but in reality, you know, every dollar does count. So 
I am appreciative of the fact of the second service that has 
come here for the public hearing, that you have sort of laid 
out a game plan of what you might do and what the consequences 
would be if we stick to the BCA, which that is the law.
    Mr. Ryan.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. Thank you, Mr. Chairman.
    Welcome. Thank you. I know you are obviously in a very 
tough spot here to try to meet the obligations that we have 
with the resources that you are getting, and hopefully we can 
get you more than I think we are on line to get you at this 
point.
    First, I want to say thank you. We have a program that you 
helped us fund to the Air Force Research Lab and the American 
Makes, which is the Additive Manufacturing Institute in 
Youngstown, Ohio, in a partnership with the University of 
Dayton and Youngstown State University to help figure out how 
to 3D print parts for the Air Force. This is obviously a very 
cutting-edge program. And Ms. McCollum brought up capacity with 
our bricks and mortar, also with energy savings. I think this 
is a huge opportunity for us to save the taxpayer money, save 
your budget money, and help bring our country into a new wave 
of innovation and technological advancement that could spur 
whole new industries, like the Defense Department has done so 
many times over the course of its history.
    So if you could talk a little bit about what your further 
plans are maybe in additive manufacturing to help with reducing 
costs and where the Air Force wants to go with that. If you 
could talk about that for a minute, and then I have just one 
quick follow-up question on readiness.
    Ms. James. So I would like to just begin, Congressman, by 
associating myself with everything you just said. I mean, we do 
think that there is great potential in this, we intend to keep 
with it. I can't give you more full details at this point, but 
certainly could do so for the record.
    [The information follows:]

    The Air Force is helping lead advancements in additive 
manufacturing (AM) technology for aerospace and appreciates 
opportunities to work collaboratively with the other Services, 
agencies, and industry and academia. We appreciate congressional 
support for the Air Force's AM efforts. As cited by Mr. Ryan, the Air 
Force is partnering with America Makes, the National Additive 
Manufacturing Innovation Institute, and has several on-going and 
planned projects to accelerate the adoption of additive manufacturing 
and 3-D printing technologies in the United States manufacturing sector 
and to increase domestic manufacturing competitiveness.
    AM can potentially decrease lead times and costs, enable complex 
geometries for improved performance, and reduce weight for Air Force 
air and ground systems leading to improved readiness, affordability, 
and energy efficiency. We are actively performing research, 
development, and implementation of a variety of classes of AM 
technologies, including both structural and functional applications. 
Current AM implementation paths include tooling, prototyping, low-
volume production, reverse engineering, and repairs. As a specific 
example, we have a sustainment focused effort on identifying, 
baselining and transitioning AM best practices for the Air Force Air 
Logistics Complexes (ALC). We see this as an opportunity to shorten 
lead times and increase system availability by incorporating AM into 
ALC processes and procedures.
    There are cost saving opportunities using additive manufacturing 
for part replacement, repair, and tooling. Our general approach is to 
first identify and evaluate candidate components that are cost and 
readiness drivers that lend themselves to AM processing, next build 
demo articles for comparison and identification of technical gaps in 
the AM process, and lastly develop the rest of the infrastructure, 
training, etc. needed for full implementation.
    AM implementation is not straightforward and poses unique 
challenges for many Air Force applications. In almost every 
implementation path, some aspect of material, process, or component 
qualification is necessary to ensure that system requirements are met. 
Therefore, our implementation strategy is a staged approach, and will 
follow established and best practice systems engineering discipline and 
processes. Today, we are advancing the science and, at the same time, 
recommending implementation of AM for design iteration, prototyping, 
and tooling applications. Soon we will be applying AM for niche 
applications, including short-life and attritable parts. In longer 
term, we see success in challenging applications such as embedded 
electronics/sensors and aircraft structural components.

    General Welsh. Congressman, let me give you--the most 
excited person I have met yet about the concept of 3D printing 
was an Air Force special operations aviator, who is responsible 
for maintenance in places, remote places on the African 
continent and the Southwest Pacific, places where we chase bad 
guys. His idea is printing spare parts for airplanes off a 3D 
printer. And he has already got the concept figured out, how 
they are going to do it, how much he thinks it will cost, what 
he will be able to not pack into the load-out that they carry, 
how much weight that will save, especially when they have to 
carry it from a location that where they can land a bigger 
airplane and then truck it into a smaller location.
    This guy can't wait for this to be proven to the point 
where he can put one into some kind of big case and carry it in 
somewhere to use it and to fix airplanes that come in and meet 
him on the ground and then go do their mission.
    This is an exciting technology, and technologies like this 
are the lifeblood of a service that is born from technology. We 
love this stuff.

                         READINESS AND TRAINING

    Mr. Ryan. Great. Well, thank you.
    And Mr. Chairman, I would love to take anybody from the 
committee who would like to vacation in Youngstown, Ohio, to 
come see what is happening in the additive manufacturing space 
in the country. If I could slide in a quick question on 
readiness. I know, General, you spoke to the point of squadrons 
and more related to the equipment. Can you talk a little bit 
about readiness with training, with regard to training, because 
I know when we were going through the whole sequestration 
debate, we were talking about airmen and airwomen not getting 
trained, going off-line for a certain amount of months and how 
that would kick in a full retraining that would need to happen? 
So where are we with regard to that issue with training of the 
men and women in the Air Force?
    General Welsh. Congressman, we can't afford for what 
happened in 2013 to happen again. We can't ground 33 squadrons, 
we can't cancel Red Flags, we can't cancel weapons school 
classes where we develop our Ph.D. Warfighters, we can't do 
those things, so we will prioritize even at BCA, as much as we 
can, training.
    The Balanced Budget Act over the last 2 years allowed us to 
focus on individual and unit readiness and begin to bring it up 
from a place where roughly 25 percent of our pilots and 
squadrons were fully combat capable, up to less than 50 
percent, but approaching 50 percent now, because of the 
progress over the last 2 years.
    If we remain at BCA, then that will stagnate. It won't 
collapse, because we prioritize it, but it will stagnate there, 
the climb won't continue.
    We have a different readiness problem that is a longer term 
problem and gets to the training piece that you mentioned, and 
that is that over the last 10 to 15 years, we have prioritized 
investment and operational activity because of the demand 
signal we have had. And as a result, we haven't been investing 
steadily in those types of infrastructure that I will call 
mission critical infrastructure that produce combat capability 
over time: nuclear infrastructure, training ranges, test 
infrastructure, space launch infrastructure, satellite command 
and control architectures, and simulation infrastructure. We 
took money from flying hours because we were going to train 
more in simulators, and then didn't fund the simulators. That 
investment in infrastructure at BCA will continue to be a 
dream.
    Mr. Ryan. And I know we are seeing it in Youngstown at the 
Air Reserve station in Youngstown. So I appreciate it, and 
let's figure out how to keep working together to make sure we 
don't have to deal with that any further.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Ryan.
    Mr. Calvert.

                          ATLAS 5 AND DELTA 4

    Mr. Calvert. Thank, Mr. Chairman.
    Madam Secretary, going back to Mr. Crenshaw's comments on 
launch, there are two certified launch vehicles in the ELVs, as 
was mentioned, an Atlas 5 and a Delta 4. On its own, Delta 4 
can achieve, as I understand, 100 percent of DODs launch 
requirements and uses American propulsion systems, obviously 
made in the great State of California, but you have also said 
confidently that the Falcon 9 vehicle will be--probably should 
be certified in the coming months.
    So I would hope that with these two vehicles, there would 
be no loss of capacity for the United States and we can end our 
reliance on Russia, and be careful in the future about putting 
in the supply chain critical needs that may not work out so 
well in the future with countries that may not be such a 
reliable partner.

                           CIVILIAN WORKFORCE

    But the main discussion I want to talk about here is that 
we are all having to make difficult decisions as we move 
forward to reduce costs. Being a business person such as 
yourself, I look at the Department of Defense, and I certainly 
recognize that we need to protect our depots and maintenance 
operations here in the United States, but I also believe that 
reducing civilian end strength at the Pentagon is vital to 
addressing some of the funding concerns that the Department is 
voicing. Right now our military continues to cut end strength, 
as being testified here from several folks, but support staff 
is yet to experience a corresponding reduction.
    In 2003, there was one civilian supporting 2.25 active duty 
personnel. The current ratio is one civilian supporting 1.71 
active duty personnel. If we reduce that to the historic 
average, that would save approximately $82.5 billion every 5 
years. And this is not an across-the-board cut; this is giving 
the Secretary discretion to make managerial determinations, 
DOD-wide, not making these across-the-board cuts and--but how 
do you feel about that? And are you making those types of 
decisions at the Pentagon presently?
    Ms. James. So, Congressman, I am not in favor of these 
across-the-board cuts. I am in favor----
    Mr. Calvert. I am not talking about across-the-board cuts.
    Ms. James. Okay. So let me just--I will give you my 
thoughts about our civilian workforce. So we have been paring 
back our civilian workforce since fiscal year 2012. I believe 
we are down about 24,000. All these statistics, it is always 
hard to keep track of. Your statistics are a little different 
from mine, but be that as it may, the workforce has gone up and 
down over time. Since I was last in government, as compared to 
where our civilians are today for the Air Force, we are down, 
by my calculation, upwards of 50,000. So----
    Mr. Calvert. Well, let me--if I can correct you, Madam 
Secretary. In 2003, there were 636,000 civilian employees; 
today there are 776,841. In 2003, there was 1,434,377 uniformed 
personnel; today it is down to 1,332,991. So civilian employees 
have gone up and military employees have gone down. That is a 
fact.
    Ms. James. From that baseline, that is a fact.
    Mr. Calvert. And if you look over since 2003, the number of 
civilian employees has consistently gone up every single year.
    Ms. James. That is a fact.
    Mr. Calvert. And the number of military personnel has gone 
down every single year.
    Ms. James. So, sir, you heard me say I think the downsizing 
on the military has gone far enough. So you heard me say we 
want to upsize that a bit. We are constantly scrutinizing our 
civilian workforce. We are going to continue to do so. 24,000 
cut since the baseline of fiscal year 2012. I mean, I heard all 
your baselines. I am just trying to give you progress here. But 
I do want to point out that upwards of 90 percent of our 
civilian personnel are not in Washington, D.C., they are not 
headquarters types. They are doing very important work around 
the country----
    Mr. Calvert. And I understand. Madam----
    Ms. James [continuing]. Part of depots and part of Reserve 
and so forth.
    Mr. Calvert. Madam Secretary, in 2012, you had 730,000 
civilian employees; in 2014 it was 776,000 defense-wide. Now, I 
know the services are different than DOD-wide. I get that. You 
know, the marines that testified here yesterday have one 
civilian per every 10 military personnel. Now, every service is 
different. I don't know what the Air Force is. But we are 
talking about DOD-wide, giving discretion to managers to make 
managerial determinations and bringing this ratio back to 
historic averages. I don't understand the resistance to doing 
that through attrition and other managerial, you know, 
operations over a period of time.
    General, do you have any comments?
    General Welsh. Just one comment, sir. I don't think anybody 
would argue with your premise here. In the Air Force, we have 
actually cut 24,000 civilians over the last 3 years. We have 
also cut about 30,000 full-time contractor equivalents. We are 
doing--we are taking this very seriously.
    We are looking for everywhere we can trim. Our civilian 
workforce is just under 180,000. About 74,000 of those are 
mainstream Air Force mission area folks. They are doing 
maintenance on Air Education and Training Command (AETC) flight 
lines, they are running financial management shops, they are 
running depots. And then there are a number of other people. 
The other 55 percent are covered by restrictions that we can't 
easily push aside. They are covered by working capital funds, 
requirements, they are covered by being Air National Guard 
technicians. They are people that we just can't cut. Some of 
them take some pretty involved action, including some requiring 
action from the Congress. So we will continue to work at where 
we can limit this growth and----
    Mr. Calvert. Let me mention that I have a bill that will do 
exactly that, so--thank you.
    Mr. Frelinghuysen. Well, one thing about Mr. Calvert, he 
has persisted on this issue. And as we look around and address 
issues of acquisition and procurement, I mean, we obviously 
hear from our defense industrial base. There are more green eye 
shades, more checks. And obviously we need to check every box, 
because we are not going to send anybody up into any sort of a 
plane without having made sure that every safety feature, but 
there is a general feeling here, and to some extent, I think it 
is worthy of our attention.
    Ms. James. And I think----
    Mr. Frelinghuysen. He certainly has brought it to your 
attention.
    Ms. James. Yes. And, Mr. Chairman, I think an awful lot of 
that, at least I believe an awful lot of that, is concerned 
with sort of headquarters staff, what we would call overhead in 
the private sector. And there is where we aggressively took a 
20 percent reduction in our funding in 1 year, not 5, so we are 
on the case when it comes to that.
    Mr. Frelinghuysen. And I know that Mr. Ruppersberger is 
next, and I am sure he will weigh in on this subject.
    Mr. Ruppersberger. Well, I will change the subject.
    Mr. Frelinghuysen. Oh, good.

                             SEQUESTRATION

    Mr. Ruppersberger. I think the number one subject is 
sequestration, and I think we have to keep on focusing, because 
it is a system that is making us weaker as a country. I don't 
think the public are aware how serious this issue. And when you 
have the Air Force, we had the Navy yesterday, I am sure the 
Army will say that it makes us weaker. When yesterday we had 
testimony saying there will be a gamble of whether or not our 
military can protect us. I don't think anyone who was elected 
to Congress wants that, so it is important, I think, that we 
get the facts out to the American public, and I appreciate your 
candor in where we are.

                      CYBER WARFARE/ISLAMIC STATE

    Just to follow up on that issue, I would like you to 
discuss the Air Force's ability to coordinate and assist with 
our allies and partners around the world, and what impact the 
sequestration would have on the Air Force ability to support 
our partner nations who are fighting ISIS and Operation 
Inherent Resolve.
    Also the same question so we can move it quicker, the 
chairman would like that, cyber warfare is constantly changing 
and an evolving field. There is a--the 175th Network Warfare 
Squadron. I am not sure, where are they located?
    General Welsh. Which number was that, sir? 170----
    Mr. Ruppersberger. 175th Network Warfare Squadron.
    General Welsh. I don't know.
    Mr. Ruppersberger. They are at Fort Meade. Located in Fort 
Meade.
    Mr. Frelinghuysen. It is a--he is relating to his 
congressional district, General.
    Mr. Ruppersberger. I didn't say it. These cyber war--I 
finessed it. These cyber wars were engaged in active defense on 
finding threats before they find you. How would sequestration-
level budget affect the Air Force ability to stay ahead of the 
curve on cyber warfare and continue to find these threats 
before they have an opportunity to strike? If you could answer 
those two questions on the cyber and also on the ability for us 
to work with our allies in dealing with the issue of ISIS and 
other terrorist threats.
    General Welsh. Sir, on the fight against the Islamic State 
of Iraq and Syria (ISIS) issue, I don't think our ability to do 
that will be impacted. I believe the Congress will provide the 
funds required to continue the activity.
    Mr. Ruppersberger. Why do you think that?
    General Welsh. Well, I am hoping that, and you have till--
you have till now. I hope you wouldn't leave this in the middle 
of this activity.
    Mr. Ruppersberger. I would too, I am just asking the 
question.
    General Welsh. And so my assumption is that activity will 
continue. And Overseas Contingency Operations (OCO) funding 
will probably be what drives the support we provide to that.
    Now, the impact will be on our people, because what the 
rest of the Air Force will be dealing with when you talk about 
the cuts the Secretary mentioned, if we are at BCA cap levels, 
is that we are going to have a smaller Air Force in every 
mission area, so the people who deploy and rotate to support 
this activity will be doing so more often. That will just add 
more stress to the force over time and make the readiness 
problem and all the rest of the mission sets even more 
difficult.
    On the cyber side, sir, the same thing. We will support the 
cyber activity no matter what level of funding we get this 
year. We will continue to be participants in the joint 
information environment development in supporting standup of 
the cyber mission teams that your squadron that you mentioned 
are part of. That will not slow down.
    Mr. Ruppersberger. You know, we had a session with a Member 
of Congress, former military in the Air Force, who said that 
because of the issues of sequestration, that squadrons really 
are brought home when they are rotating and told to sit for 6 
months, which sets them back maybe a year to 6 months. Is that 
an example of what is going on?
    General Welsh. I don't know of that happening today in the 
Air Force. In 2013, it certainly did happen.
    Mr. Ruppersberger. Okay. It was a statement that was made 
by one of our Members who was formerly in the Air Force.
    And I just want to say this: I said yesterday that it is 
important, I think, for this committee, for the Armed Services 
Committee, for the Senate Armed Service and the Appropriations 
Committee that we know these threats, and you are telling them 
what this is. We are supposed to expertise in this oversight. 
And it is important, I think, that we all--and this is not a 
Republican or Democratic issue. This is an issue of the United 
States of America and the safety of our citizens. And I think 
it is important that we have to get the message out to our 
leadership on both sides of the aisle how serious this 
sequestration is, and not allow management, you know, through 
priorities versus across the board.
    But I just want to point out today that Mac Thornberry, who 
is a good friend of mine, we served on Intelligence for 12 
years, has just--is sending a budget to--sending his budget, 
the Armed Services budget, which will include $577 billion for 
defense spending and would bust the sequestration cap by more 
than $50 billion. And the reason he is doing that is what we 
are talking about today. And I also know that he has the 
support of 31 of his 36 Republicans on that committee. I also 
know that Chairman McCain has said that sequestration level is 
unacceptable, and he is moving on to do the same thing. Our 
chairman and ranking member understand how serious it is, they 
have addressed this issue, heard testimony, as have Members on 
both sides of the aisle. So, you know, we will hopefully be 
able to re-evaluate where we are. It is not about--we have to 
deal with the issue of cost, there is no question, and 
spending, but we need the right formula. We don't need an 
incompetent formula, that if you are involved in a trial or 
lawsuit would probably be super malpractice, because how 
incompetent a sequestration system is versus the priority of 
budgeting.
    Yield back.
    Mr. Frelinghuysen. Okay. Thank you.
    Gentleman from Oklahoma, Mr. Cole.

                             SEQUESTRATION

    Mr. Cole. Thank you very much, Mr. Chairman.
    I want to agree with my good friend from Maryland. We all 
agree, frankly, around this table about the consequences of 
sequester, and we very much appreciate you pushing, you 
educating, frankly, not only the committee, but through modern 
technology the American people and hopefully the leadership on 
both sides. I will say this, though: I mean, our problem here 
is nobody around here can fix this around this table. It is not 
a policy, it is the law of the land, it was a law passed by 
Congress, signed by the President, actually recommended by the 
President. It was his suggestion in the budget negotiations in 
2011.
    And the budget he submitted that you are basing your budget 
on, frankly, is politically, you know, fantasy. It is not going 
to pass, and he knows that. So at some point we are going to 
have to get to something we did 2 years ago successfully, 
something like a Ryan-Murray, you know, negotiated budget. 
Sadly, I don't think that will come until after the 
appropriations process. So, I mean, this committee is going to 
be forced to live by the law unless there is a negotiation that 
begins sooner, which I would prefer happen, and I think, again, 
everybody around here would, but we are going to have to live 
within the numbers that we have under the law, and sadly, that 
means we are going to have to make a lot of tough decisions.

                      PUBLIC-PRIVATE PARTNERSHIPS

    I do have a couple of questions beyond that point, and one, 
I am privileged to represent a district that hosts Tinker Air 
Force Base, and we are very, very proud to have the facility 
and we think it is great, we think it is wonderful leadership. 
It is no question, it is a tremendous economic boost for our 
area, and we have tried to be generous in return. I think the 
original--I know the original land that the base is located on 
was donated by the community to then the United States Army Air 
Force at the--we recently, or a few years ago purchased at $54 
million a shuttered GM facility and donated that to the Air 
Force, we lease it to you for a buck a year for 100 years. I 
don't think--and we just purchased a $40-odd million land tract 
from a local railroad to help with the KC-46 mission there, all 
at the local community's expense, and we are happy to do that. 
We think that is a bargain for us, frankly.
    Can you tell me, are there other efforts like that 
underway? Because you have so many facilities that are 
wonderful contributors and people are proud to host, so I 
presume other communities are willing to do the same thing. Do 
we have a formal program to try and encourage them to do those 
sorts of things?
    Ms. James. We do, Mr. Cole, and we call it public-private 
partnerships. And so there are other great examples. You gave a 
terrific one there, but there are other great ones around the 
country where we are increasingly partnering with local 
communities near military bases, and it is usually a sharing of 
dollars and resources and a sharing of access to a particular 
facility so that our airmen benefit and perhaps so does the 
community. So there is that going on. And there is also 
enhanced use leases, where we enter into agreements, you just 
mentioned one, and either there is some Air Force land that is 
utilized for some purpose, which would be of mutual benefit, 
things of that nature.
    And by the way, this is another way we are trying to find 
efficiencies through both public-private partnerships as well 
as enhanced use leases.
    Mr. Cole. I would really appreciate just for the record 
another time if you could send me a list of those kind of 
examples. I think they are wonderful to know and, frankly, to 
remind other people that those kind of opportunities exist.
    Ms. James. We will do that.
    [The information follows:]

    Budgetary constraints are motivating the Department of Defense, its 
installations, and community partners to re-evaluate the way we do 
business and seek alternatives to the status quo. Air Force Community 
Partnerships, both public-public and public-private (P4) partnerships, 
offer opportunities to leverage resources and capabilities of 
installations, state, and local communities or commercial entities to 
achieve mutual value and benefit. Benefits include reducing operating 
and service costs and risks and achieving economic goals and interests.
    There are now 48 installations in the Air Force Partnership Program 
who have identified over 1,000 initiatives across the spectrum of 
installation services and mission support; many of these initiatives 
are undergoing further refinement and development with potential 
application AF-wide. Initiatives identified to date undergoing 
refinement and development include: agreements with communities 
pertaining to operation of a water, waste water treatment plant; 
medical, security, emergency response, and civil works training; refuse 
management; ground or pavements maintenance; construction/maintenance 
of ball fields; operation of Airmen support services like libraries, 
golf courses and youth programs; and air field operations and 
maintenance services. Initiatives are truly the ``tip of the iceberg'' 
as partners are now developing more technically complex initiatives 
requiring at times a mixture of leasing, Federal Acquisition Regulation 
contract and financial parameters.
    Specific examples include: Shared water/waste water treatment 
systems; city salt brine application service; emergency pole 
replacement response and training; medical training and skill 
certification; emergency response, police and civil engineer training 
consortium; national incident management system training, exercise 
collaboration and communication interoperability; shared small arms or 
long range weapon firing range; refuse management and other operations 
and maintenance agreements with local cities; military and dependent 
workforce transition assistance; shared sports fields; air shows; UPS 
mail delivery; morale, welfare, recreation funding increase/reducing 
cost to provide Airmen support programs; environmental mitigation cost 
reduction; electrical cost and renewable energy reduction; aircraft 
operations; medical care facility and Air Force prisoner confinement.

                    OPERATIONS AGAINST ISLAMIC STATE

    Mr. Cole. Last question. We are putting a tremendous strain 
on your resources and right-of-ways, but right now obviously 
you are heavily engaged in air operations against ISIL, and I 
am just curious if you could give us some sense of how much 
that is costing, how many resources that we have tied up in 
doing that, and, frankly, do you have what you need to complete 
the mission, what are the additional things you might need?
    Ms. James. Well, not to sound like I am bragging, but your 
United States Air Force very much is in the lead within this 
joint force and within----
    Mr. Cole. You are allowed to brag, Madam Secretary.
    Ms. James. Am I allowed to brag? Okay.
    Mr. Cole. Yes, you are.
    Ms. James. All right. So, you know, we are doing everything 
from fighter missions, to refueling, to mobility missions and 
so forth. I can safely say between 60 to 70 percent of the 
total strike missions have been the United States Air Force. 
Well over 90 percent of the ISR, the refueling, mobility, this 
is the United States Air Force. I believe the costs are about 
$1 billion to date, but I am looking at the Chief for 
verification. Okay. About $1 billion to date for the overall 
cost of the operation. And, again, this is a coalition, it is 
15 member nations, but this is the----
    Mr. Cole. Could you give me an idea of the relative ratio, 
I mean, how much are--and I appreciate each and every one of 
them, but how much of the countries that are working with us in 
this actually providing, I know there is a certain amount of 
symbolism here, but again, every plane helps, every pilot 
helps, so how much of the load are they carrying?
    Ms. James. I believe there are, if my figures are correct, 
about 600 or so coalition aircraft, of which 300 would be the 
United States Air Force, if you are just looking at the 
aircraft.
    Mr. Cole. Could you give us the overall American effort? 
Because I know it is not just the United States Air Force. But 
we obviously have naval aviators and I would assume marine 
aviators involved.
    General Welsh. Yes, sir. They are. The aircraft off the 
carriers are flying about 10 to 11 percent of the sorties that 
are being flown right now. The coalition is flying for strike 
sorties in Iraq in particular and for some in Syria between 25 
and 35 percent depending on the target areas. It is a great 
coalition effort actually. Everybody is performing well. The 
cooperation and the coordination has been outstanding. As you 
know from reading the papers, there is some independent efforts 
that are being thrown in that are now being coordinated with 
our Air Operation Center in the Middle East. The majority of 
activity is being coordinated through and by our Air Component 
Commander there, supporting the Army Ground Commander. The task 
force is doing this. There is a lot of great work being done. 
It is not a huge air effort in terms of big air campaigns. If 
you think about 15 to 25 strikes a day, compare it to 950 to 
1,000 in the first Gulf War per day.
    So the level of effort is focused. It is a very controlled 
effort because of the situation on the ground. And we are just 
waiting for the ground force to be developed and then we will 
support them in a robust way.
    Mr. Cole. Appreciate that very much. I yield back, Mr. 
Chairman.
    Mr. Frelinghuysen. No plug for the AWACS today?
    Mr. Cole. Do you want to give me another round here?
    Mr. Frelinghuysen. Ms. Kaptur.

                       STATE PARTNERSHIP PROGRAM

    Ms. Kaptur. Thank you, Mr. Chairman. Thank you both for 
your service to our country and all those that work for us at 
Air Force. I won't have time for you to answer this question, 
but I want to state it publicly, related to our nuclear weapons 
program. And I will ask, for the record, what measures are 
included in the 2016 budget, our request to improve the state 
of our nuclear enterprise, asking you to distinguish between 
funds that will be devoted to sustaining the existing force 
versus modernization. There have been so many problems in that 
program, shocking actually. We would ask you to develop an 
appropriate reply in the record for that. But I would like to 
focus on the cost savings related to the relationship between 
the Air Force and the Air Guard.
    And I agree with what my colleagues here have said about 
sequestration, sort of a guillotine approach with no thinking 
as to where we are going to place funds inside the important 
budgets that you manage. Let me first turn to the F-35. I 
represent a fighter wing and a Guard wing in Ohio, the 180th, 
just a phenomenal unit. And as you look at the cost savings 
requirements that you are forced to in both your acquisition 
and operation, how thoroughly has the Air Force analyzed the 
cost savings related to Guard-based operations versus Air 
Force? So my first question relates to the F-35 program and the 
Guard. And then, secondly, on the State Partnership Program, 
which is something I have a great deal of interest in because 
of what we are facing in many parts of the world, including in 
Ukraine right now, I am interested in ways to support and 
improve that program. I have watched it in operation on many 
levels. It is underfunded. And changes in your budget 
regulations have removed the flexibility of the Air Guard to 
mix funds with Air Force to pay for the total cost of the 
program.
    In prior years, the Guard would fund payroll and Air Force 
paid travel. But our State Partnership Program can't operate in 
the same way anymore. Ohio is partnered with Hungary. 
California is partnered with Ukraine. What can Air Force do to 
remove barriers to promoting the American relationships so 
vital to us through the State Partnership Program, so on F-35 
and the State Partnership Program?
    General Welsh. Yes, ma'am. Let me start with the State 
Partnership Program and start by thanking many of you for the 
participation of your Guard units in this program. This is a 
phenomenal program that has been going on for more than 20 
years and has built long and enduring personal and professional 
relationships with about 79 different countries around the 
world now. This is a remarkable multiplier for our Air Force 
and for our United States Military--because the Army does the 
same kind of programs. The travel pays that you are talking 
about, ma'am, on State Partnership Programs in the past, it 
depended on what status you were traveling under. If a State 
unit was traveling under Title 32 authorizations, then the 
Active Duty Air Force could not pay travel for Guard members. 
If they traveled under a Title 10 authorization on the State 
Partnership Program, then we could pay travel expenses.
    I am not aware that that has changed. But I will go find 
out. Because if that has changed, it is a surprise to me. Those 
have been the rules for as long as I have understood them. And 
if it has changed, I just missed this one. And I will check. I 
will let you know.
    [The information follows:]

    Although Air Force Instruction 65-601, Volume 1, Budget Guidance 
and Procedures, was updated on March 26, 2015, the authorities for the 
State Partnership Program (SPP) funding have not changed. For SPP 
events conducted overseas, National Guard members are typically placed 
in a duty status by orders issued under the authority of 10 U.S.C. 
12301. For SPP events conducted within the United States, National 
Guard members are placed in a duty status by order issued under 32 
U.S.C. 502. The biggest help would be to ensure pay and allowances are 
accounted for when using the National Guard to perform security 
cooperation activities under the authority of Title 10 U.S.C. 12301.

    Ms. Kaptur. Thank you. Thank you very much. I appreciate 
that, General. I think there has been some type of change. I 
don't know what spurred it. But I would be very grateful for 
your attention to that. If we look at long-term relationships 
that we have been developing with several countries around the 
world, I just think this State Partnership Program is one of 
those important efforts that can help us bridge the development 
work that needs to be done on the ground and relationship 
building that is going to have to occur over a long period of 
time. So I thank you very much for that.

                    EUROPEAN REASSURANCE INITIATIVE

    Let me finally ask in view of what is occurring in Ukraine 
with Russia's invasion of Ukraine in violation of Ukraine's 
sovereignty and territorial integrity, looking forward in the 
2016 budget at our relationships through NATO and Air Force's 
participation in various aspects of that, what presence does 
your budget anticipate in the Baltic states and also in Poland? 
What types of flyovers or joint maneuvers, how are you thinking 
about 2016 in terms of that region of the world?
    General Welsh. Ma'am, we have fully funded the U.S.-
European Command commander's request for presence both in the 
aviation detachment in Poland and for North Atlantic Treaty 
Organization (NATO) air policing support in the Baltics for 
support-to-ground exercises in both Eastern and Southeastern 
Europe. We have also fully funded the European Reassurance 
Initiative that kept an F-15 squadron on active duty in Europe, 
as opposed to closing it down and bringing it back to the 
States. So we were fully committed to supporting General 
Breedlove in his role both as commander of U.S. European 
Command and as the Supreme Allied commander of Europe (SACEUR).

                     F-35 AIR NATIONAL GUARD BASING

    Back to your initial question, just to close it out, the F-
35 bed down for the Guard, the next two units to be selected 
for F-35 bed down will be Guard units, the 5th and 6th base 
will be Guard units. And those bed down time periods are 2022 
and 2023. So you will see more F-35 bed down in the Guard here 
in the early 2020s. The cost model you referred to has been 
where we have been working on this together for the last 
several years----
    Ms. Kaptur. General, may I interrupt? Could you provide 
some of those cost savings to the record? Is there a way for 
you to do that?
    General Welsh. What we can provide you is the information 
on the Individual Cost Assessment Model (ICAM) model that 
covers everything from cost of an individual operating F-35 at 
a Guard base versus activity duty, to the cost of bedding it 
down and doing supporting infrastructure. I will be happy to 
get you that, ma'am.
    [The information follows:]

    The Individual Cost Assessment Model (ICAM) estimates annual home 
station operations and maintenance manpower costs for Air National 
Guard (ANG) F-35 Unit Type Code (UTC) packages to be approximately 59 
percent of the cost of an equivalently manned regular Air Force 
component UTC packages. A 24-Ship UTC package in the ANG would cost an 
estimated $23.5 million annual compared to $40.1 million for regular 
Air Force UTC packages. This is attributed to the lower costs of a 
primarily drill status ANG workforce. In addition to the annual cost 
savings, a Drill Status Guardsman cost approximately 42 percent for 
officers and 40 percent for enlisted compared to their Active Duty 
counterparts on average over the entire life cycle of the Airmen 
(including pay and benefits over both the career and retirement).
    ICAM is a simulation model providing high-fidelity estimates of 
individual Active Duty, Air National Guard, and Air Force Reserve 
Airmen pay, benefits, and compensation costs. It models Airmen through 
their careers from accession to end-of-life and calculates the annual 
and burdened life-cycle manpower cost. ICAM models the major career 
events and associated cost implications of accession, permanent change 
of station, promotions, deployments, component changes, separations. 
Cost elements include pay and allowances, medical and retirement 
accruals, incentives, training, Medicare accrual to name a few. Being a 
simulation, ICAM can support experimentation on changes to pay and 
compensation assumptions and policy. ICAM is provisionally approved for 
the Air Force Standard Analytical Toolkit. AFRC/A9 developed ICAM in 
close collaboration with AF/A9, SAF/FM, and NGB. The annual cost 
estimates can be applied to unit constructs as described below using F-
16 Unit Type Codes (UTCs).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Ms. Kaptur. Thank you. Thank you.
    Mr. Frelinghuysen. Mr. Womack.

                              ISR DEMANDS

    Mr. Womack. Thank you, Mr. Chairman. And my thanks to the 
Secretary and to the chief for their testimony this morning and 
their great service to our country. I truly appreciate their 
commitment. And it is obvious in listening to Secretary James 
in her address this morning, it was more than just a document 
that was read. I couldn't help but notice that you were into 
it. And I appreciate your passion. These are times that we are 
going to have to all be passionate about what we do. I want to 
go back to ISR for just a minute. You really can't get enough 
of it. My experience--even though it was before the current ISR 
technological platforms were in place, but it just drives so 
much of our success on the battlefield. My numbers could be a 
little off here, but I think in 2014, according to my data, 
there were 35,000 ISR missions alone in the CENTCOM area. These 
threats are terribly dangerous. They are growing by the day.
    So let me ask you this question: Is the Air Force need for 
ISR increasing in order to complete the missions in the Middle 
East? And is our ratio of ISR to conventional capability 
changing in that area of activity.
    Ms. James. Let me start, Congressman. And then the Chief, I 
want him to jump in on this as well. As you said, the desire 
for more ISR, it is going up, up, up, on the part of the 
combatant commanders. And I can understand why. ISR provides 
precious information. It can avoid loss of life, innocent life 
if you really are persistent in knowing who is who and what is 
what. You can actually do in some cases attack missions. It 
provides a lot of information. And that information is power. 
So I get that.
    The problem is several-fold. Our job is we have to make 
sure that we have priorities in our Air Force, but we have to 
have a balanced portfolio. In other words, if we swing too hard 
in one way and let everything else go by the wayside, then we 
won't be doing our job properly. So we try to always maintain 
the balance. And so sometimes the ISR challenge becomes 
enormous for us. But with that said, like I said in the 
beginning, part of that extra $10 billion did allow us to buy 
back some ISR that we were otherwise going to retire or to 
invest in more of these combat air patrols. And that was a good 
statistic that you have about the value of ISR. I have it 
slightly different. But we are making the same point.
    In support of Central Command alone, ISR missions have 
identified more than 1,700 Improvised Explosive Devices (IEDs) 
which otherwise might have killed U.S. and allied combatants. 
We have responded with ISR to 1,500 troops in contact events. 
18 million images have helped provide that information. And, 
finally, in the Iraq-Syria campaign, 22 high-value individuals 
have been removed from the battlefield thanks to ISR. And I 
think that is military speak by they are either dead or 
captured. So it is a very valuable thing. But, of course, our 
job is we have to have the balance.
    General Welsh. Intelligence information to support 
decision-making has become the coin of the realm in warfighting 
today. It just is. That is where the demand is coming from. The 
ratio has clearly changed. In fact, in the Air Force, roughly 7 
years ago, we actually shut down 10 fighter squadrons to 
provide the manpower and resources to stand up more ISR. It is 
part of the capacity problem. And now we have many combatant 
command demands for fighter squadrons. But we did it because 
that was the only place we had to go to get resources. We build 
to combatant command requirements, not to Air Force 
requirements. So when the combatant commanders tell us that 
their number one priority is ISR, as we build our budgets each 
year, we go back to them and we will sit with them, as I did 
again this year, and ask each of the regional combatant 
commanders would you prefer for us to invest in more ISR or 
would you prefer for us to invest in maintaining things like 
close air support capacity for you.
    That is where we come to these very difficult decisions on 
recommending things for, like, the A-10 fleet to go away. We go 
to them for their priorities. And we try and fund those and 
meet them. That is who we build an Air Force to support.
    Mr. Womack. Are we going to be adding more ISR space here 
in the country, more State-wide based programs? Is that in the 
plan to keep up with the demand for more ISR?
    General Welsh. Sir, we have expanded the ISR mission in 
both the Air Force Guard and the Air Force Reserve 
significantly over the last 5 years. And we will continue to 
look for opportunities to do that. Right now, there is no 
additional demand for more multi-piloted aircraft because about 
7 percent of our aircraft fleet is actually remotely piloted. 
And that probably won't climb dramatically any time soon.
    Mr. Womack. Are we having any trouble finding the analysts 
and doing the training for the State-side missions?
    General Welsh. We are having trouble retaining the pilots 
for the Remotely Piloted Aircraft force. But other than that, 
this is an exciting career field. We have a lot of people who 
want to come into the Air Force to do it. They really enjoy the 
work. The pace of the work is what has been crushing the pilot 
force because we haven't got it fully manned, only because the 
requirement keeps going up. So we have been chasing this 
training problem for the last 8 years. And we just can't get 
ahead of it because operational demand won't slow down. And we 
will continue to do the best we can. But we are just about at a 
breaking point in the pilot force if we don't stabilize the 
demand for a period of time to let us get ahead of the training 
problem.
    Mr. Frelinghuysen. Thank you. All set?
    Mr. Womack. Am I out of time?
    Mr. Frelinghuysen. I am glad that the gentleman from 
Florida turned off his radioactive iPad. There is some time 
before we go to Mr. Diaz-Balart.
    Mr. Womack. I thought we were being jammed and Admiral 
Greenert had sent some growlers over here to kind of jam us.
    Mr. Frelinghuysen. Make it quick. We want to make sure that 
Mr. Graves gets in some questions.
    Mr. Womack. I will hold this question until the next round. 
I yield back.
    Mr. Frelinghuysen. Didn't mean to pick you on, Mr. Diaz-
Balart. The floor is yours.

                 FOREIGN SOURCES FOR WEAPONS COMPONENTS

    Mr. Diaz-Balart. Thank you, Mr. Chairman. It is good to be 
with all of you. As one of the newest ones here, please pardon 
my ignorance. There is a lot of conversation about the Russian-
built rocket engine. Are there other key components of weapons 
systems that are built by other nations and other nations that 
are potentially either unstable or problematic and what would 
those be?
    Ms. James. Well, the one that is high on my list at the 
moment is the RD-180. Now, of course, we do have other 
components--in fact, it has been the policy of the United 
States Government for some years to try to have 
interoperability with our allies. And so there are various 
other things that are produced by Europeans and the like. There 
is none other that quite rises to the occasion of the RD-180 
that gives us pause at the moment though.
    General Welsh. Not at the moment. But, sir, the Department 
of Defense, specifically the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (AT&L), Mr. Frank 
Kendall and his staff, along with the Under Secretary of 
Defense for Policy and their staff, actually have a review 
process by which they look at this routinely, to try and ensure 
that we don't run into problems like this.
    Mr. Diaz-Balart. So we don't have key components built by 
China for example? We don't have key components built by China, 
for example, for weapons systems? I understand the European 
Union. But some potential adversaries like Russia, obviously, 
is problematic as you just mentioned. But how about China?
    Ms. James. To the best of my knowledge, we are not doing 
that, no.

                 OVERSEAS CONTINGENCY OPERATIONS (OCO)

    Mr. Diaz-Balart. Okay. We all understand how difficult your 
budget situation is and we are all concerned about that. OCO, 
which we understand also gives some flexibility and is 
essential, but that is also one of those things that is 
constantly targeted by, frankly, all of our colleagues because 
there have been reports of waste, et cetera. I understand the 
importance of OCO. And I understand how it is fundamental for 
you to do your mission. But what steps have been taken or are 
you looking at taking, if any, to make sure that it becomes 
less of a target for our colleagues? And in order to do that, 
obviously, you have got to make sure that it is as efficient 
and effective as possible. So what steps are being taken to 
make our job easier to defend your funding vis--vis OCO.
    Ms. James. As a general proposition, and we can get you an 
exact numbers, but, of course, OCO has been coming down over 
the years, as you would expect, as the situation in Afghanistan 
has transitioned to a new level. But with that said, it is kind 
of an interesting point of fact that the Air Force's piece of 
this is more of what I will say a steady state situation. So it 
might not be exactly steady state, but the point is what we are 
doing in the Middle East and the kinds of refueling and 
mobility, this is kind of the day-to-day work of ISR. So we 
project that this is going to be continuing for the foreseeable 
future. So I don't think you are going to see a dramatic, 
dramatic fall-off in OCO. And in terms of how do we make sure 
we make every dollar count, it is kind of the same sort of 
rigor that we are trying to apply to the contracts and the work 
that takes place in OCO as we are trying to apply to the base 
budget types of contracts and work.
    General Welsh. Sir, I would add that we have made a good-
faith effort to try and move OCO funding into our base budget 
over the last probably 5 to 6 years. We will get you the exact 
numbers of how we tried to do that. Not having the reset as we 
came out of Afghanistan that everybody was anticipating has 
made that difficult to continue along the path we were on. But 
we have been building the path and we are moving down it to 
move those things that should be in our base budget into our 
base budget and get them out of your job jar for OCO, unless 
you consider it in terms of the base support for the Air Force.

                             ISLAMIC STATE

    Mr. Diaz-Balart. And, lastly, if I may, Mr. Chairman, just 
very briefly, General, when you mentioned the number--so this 
is kind of, pardon the pun, at the 30,000-foot level--you 
mentioned the number of sorties that the United States and the 
coalition is doing versus what we did in, you know, in Iraq, 
for example. Is that number sufficient to destroy ISIL? Is it 
sufficient to--one of the criticism that you hear out there is 
that potentially we are not doing enough as ISIL continues to 
potentially expand. So, in other words, it is pretty 
dramatically less when you put it in those terms. And I know 
they are efficient and effective strikes. But it's not that 
many of them. And it almost seems that is not a totally--it is 
not a serious effort to destroy it, to eliminate it. It might 
be an effort to contain.
    So, again, how does that compare? How can you with whatever 
you said, 25 I think was the number you said, is that not part 
of the problem, why we keep seeing them in the news all day?
    General Welsh. Without arguing the strategy here, the 
strategy that is in place, sir, laid forth by General Austin 
and endorsed by the Secretary of Defense and the President, was 
to try and do everything you could to deny ISIL the ability to 
mass, the ability to take more territory, the ability to 
continue to grow unobstructed and move unobstructed across the 
battle space that they are operating in while a ground force 
was put together, that we would then support from the air as 
they went in to do the very hard work on the ground, to do 
things like clear out the city of Mosul and actually recover 
and maintain control of territory from ISIL.
    Air power can do lots of great things for you. It can 
influence all kinds of behavior on the ground, which it is 
doing today. It can destroy things. It can affect people's 
opinions and their moods every day. But it is not going to 
control terrain over time in a way, especially urban terrain, 
the way ground forces can. And so our job--in this particular 
case, we have the lead for now. We are seeing that they don't 
mass any more. We are seeing them move into defensive 
positions. We are seeing them form defensive structures, that 
helps with targeting. We are seeing them change their behavior. 
All of which shows that air power has had an influence even 
when applied at this level. And we have got to get the rest of 
the strategy online to conduct the defeat part of the 
operation.
    Mr. Diaz-Balart. Exactly. If you could just give me those 
numbers once again because it was rather dramatic. I hadn't 
heard that before.
    General Welsh. I am just talking, this is right of the 
newspaper, sir. The average number of strike sorties a day, I 
saw an article the other day, was roughly 15 to 25 a day. I 
think that has been fairly accurate. There is a lot of other 
sorties being flown, but it is about 15 to 25 actual targets 
being attacked a day.
    Mr. Diaz-Balart. Versus?
    General Welsh. Versus the first Gulf War, which some people 
have asked me well, why doesn't it look the same? We were 
flying literally 1,000 plus strike sorties a day in the first 
Gulf War. It is just a completely different level of effort.
    Mr. Diaz-Balart. Thank you, General. Thank you, Chairman.
    Mr. Frelinghuysen. Thank you. And before I go to Mr. 
Graves, one of the issues here--I know we do some remarkable 
things with the Air Force. And what personally interested me is 
the issues of rules of engagement. Because obviously 
containment is one thing. But if we are supporting our ground 
troops, we need to be able to support them night and day. And I 
do know there's some issues there that are of deep concern to 
me, that we are not at times doing the things we ought to be 
doing. Mr. Graves.

                       A-10 AND CLOSE AIR SUPPORT

    Mr. Graves. Thank you, Mr. Chairman. Secretary James, 
General, thanks for being here and for your testimony and for 
your explanations and your willingness to work with this 
complete as we all work to comply with the law and the BCA, as 
difficult as that may be. The chairman mentioned in his opening 
remarks a spirited debate that will likely rise over the next 
several weeks, if not months, about the proposed PB 2016 
retirement of the A-10, a spirited debate probably in this 
body, in this room, in the House, but probably likely also 
internally with you all as you came up with the proposal, 
noting that the General is quoted as saying the A-10 was my 
first fighter and he loves that airplane.
    So I know he has a deep passion for it as well. But that 
aside, the replacement is proposed for over 4 years. And I 
guess the F-35 is proposed to make that replacement over time. 
How can you ensure us that the 4-year retirement of the A-10 
and the replacement plan that is in place will continue to 
provide the close support that will be needed over the next 4 
years or 5 years? Can you help us understand how that might 
happen?
    Ms. James. This is another one where I would like to start 
but for sure want the Chief to jump in. So the original 
proposal to retire the A-10, I am going back a year now, the 
original proposal to retire the A-10 over 5 years or so, I had 
no piece in making that decision. Because by the time I arrived 
in the Pentagon and got sworn in and confirmed and so forth, 
pretty much the budget materials had already been established.
    So last year, I didn't have a particular piece in the 
decision. But this year, I do have a very strong part of the 
decision to go forward and continue to propose it. So I just 
want to point out that with the greatest of reluctance for 
budgetary reasons that we are proposing it, not because we 
don't believe in close air support. We do. It is a sacred 
mission. And we got it. And over the course of the last several 
years during the war effort in Iraq and Afghanistan, it is on 
the order of I want to say about 70 percent of the close air 
support missions have been flown by the other aircraft who are 
also contributing to that mission. So I am talking about F-16, 
F-15, B-1 and so forth. Whereas, the A-10 has also been a very 
strong contributor. But my point is we have other aircraft that 
can do the mission.
    So during this period, if our proposal goes forward and we 
are allowed to gradually retire, we would continue to use the 
A-10 for as long as we have it in the inventory to be a 
contributor to the mission. We would continue to use these 
other aircraft. And then gradually as the F-35 comes on board, 
that could also be used for not only close air support but for 
other missions as well. Because that is designed to be a multi-
role platform.
    Mr. Graves. So you are confident that close air support 
will not be diminished over the next 4 years in this proposed 
retirement over the next 4 years of the A-10?
    General Welsh. Congressman, what the BCA means, and 
sequestration would be more of this, what BCA means is less 
Close Air Support (CAS). It means less air superiority. It 
means less strike. It means less command and control. It means 
less ISR. So we were going to have less capacity to do every 
mission we have in our Air Force. That is just what the law 
does to us. So what we do is go to the commanders and say where 
do you want to take your risk? We have a fleet of other 
aircraft who can do close air support in this environment well.
    We would like to have every tool we have right now. But 
they want more ISR before they want more CAS. 18 percent of the 
CAS sorties since 2008 have been flown by the A-10. The 
workhorse of our CAS fleet today, in reality, is the F-16. It 
has flown thousands more CAS sorties over that time period than 
the A-10. There are some scenarios the A-10 is much better at 
than other airplanes. There are some scenarios the AC-130 is 
best at. There are some scenarios the B-1 is best at. But we 
have aircraft that can do this mission in this environment. The 
F-35 will not be a great CAS platform at IOC in 2016. It was 
not intended to be at that point in time. It won't be fully 
developed.
    In 2021, when it reaches full operational capability, it 
will be a different story. We are in the process of developing 
new weapons capabilities for it. We are looking at how we move 
the CAS culture from the A-10 into our F-16, F-15E, and the F-
35 units as they stand up, both active and Guard units and 
Reserve units. This is a mission we have been doing since the 
Second World War. We will not slow down. So you know, I am a 
Marine Corps infantry officer's son. We are not walking away 
from close air support.
    Mr. Graves. That is very good. I think that is what the 
committee wants to hear is that that support and confidence is 
still going to be there. And then from a basing perspective, do 
you anticipate that as the F-35 comes online that it will 
replace the A-10 at the bases at which they are being retired 
from? Or is there a base selection process?
    General Welsh. That is the plan. And one of the concerns we 
have is the transition plans we have built for the units, 
especially in the Reserve component, we are worried that if we 
don't transition on schedule, then those transition plans are 
now going to be at risk. And we don't want that to happen 
either.
    Mr. Graves. Thank you again for your testimony.
    Mr. Frelinghuysen. Thank you, Mr. Graves. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. I would like to 
talk about readiness if I could. And, Madame Secretary, I found 
it interesting that you mentioned the average aircraft. The B-
52 is 27 years old. And I could be wrong, but my assumption is 
that the average Air Force person in uniform is younger than 27 
years old.
    Ms. James. You are right.

                        FULL SPECTRUM READINESS

    Mr. Visclosky. So I appreciate the need to procure 
equipment. But I am struck in the budget request--and I would 
acknowledge, first of all, that on the procurement line for 
aircraft, there are other procurement lines for missile and 
space, the base is much smaller so percentages can be 
misleading--but there is almost a 30-percent increase in 
procurement. Given the testimony on readiness, the increase is 
just about 11 percent. And I would also acknowledge for the 
record that the absolute dollar amount is a higher increase for 
operation and maintenance. Is it true if you are at current-
year levels and not operating under the caps that it may take 
until 2023 to recover full spectrum of combat readiness?
    General Welsh. It is, sir. And the reason it doesn't show 
up in that readiness account and why that number is 11 percent 
is because, the reason that we will have to wait another 8 to 
10 years even to recover full combat readiness for the Air 
Force is something I mentioned earlier--it is the 
infrastructure that produces combat capability. And that is in 
multiples accounts. Some is in a nuclear account. Some is in 
our Facilities Sustainment Restoration and Modernization (FSRM) 
accounts, our Military Construction (MILCON) accounts. It is in 
other places. But it is things like developing training ranges 
with current threat simulations. It is developing the 
simulation infrastructure that allows us to create a virtual 
constructive environment to train our new 5th generation 
aircraft in, because we can't afford to do it in the live 
world. We can't afford to build that threat base and keep it 
current.
    And so there is a lot of things that go into the 
infrastructure of an Air Force that allows you to train and 
develop your people the right way and give them full combat 
capability that we have not been funding well enough for the 
last 10 to 15 years.
    Mr. Visclosky. Chairman, I would make an observation, I 
thought the chairman did it very well yesterday in his opening 
remarks, that all of us, in our own fashion, blame 
sequestration for a lot of the world's ills. But there are 
other events that take place as well. I am struck that this 
time last year, when you were before the panel, we were not 
dropping ordnance on the country of Syria. There are always new 
demands. And I understand within the last 2 years, the Air 
Force has also been forced to cancel its red flag exercises and 
an entire weapons school class. I started--when you enumerated 
to an earlier question all of that infrastructure that you need 
for that readiness and the fact just, I guess, over 50 percent 
of our pilots are, if you would, they are all capable but fully 
ready. Do you have a list, do you have a breakdown as far as 
the investments needed in each one of those infrastructures you 
have mentioned to accelerate that?
    And my question also fundamentally is--and I am not arguing 
the procurement side--but that person that is using whatever 
that equipment, plane, munition is, for their safety, for their 
effectiveness, as well as the welfare of our country, they got 
to be as ready as possible and trained as ready as possible. 
And if it is going to take us to 2023, I think we need to 
invest more on that side of the ledger. Do you have a breakdown 
as to if there was an increase in some of those accounts, that 
we could squeeze that date to the left instead of to the right.
    General Welsh. Yes, sir. We can give you the breakdown of 
that. The individual readiness stuff is what we have been 
focused on. The BBA has helped us start that recovery. But if 
we can't continue that momentum, it will stall again. But we 
can give you the numbers with regard to each of those things, 
sir. And the infrastructure thing is what I would call critical 
mission infrastructure. It is a limited group of things. We 
haven't added a whole bunch of excess things to that list. It 
is not a get-well across the board. And some of the reasons for 
that lack of investment are Air Force reasons. We have 
prioritized other things and now it has caught up with us.
    Mr. Visclosky. My desire is to push that to the left 
instead of the right. If you could provide that for the record, 
I would appreciate very much. Thank you, Mr. Chairman.
    General Welsh. Yes, sir.
    [The information follows:]

    The Air Force's fiscal year 2016 President's Budget request 
includes the following infrastructure investments:
    $3,183.1 million for facility sustainment, restoration and 
modernization (FSRM) which supports, provides, and enables 
installations as power projection platforms for our forces. The FSRM 
programs ensure built assets are kept in good repair to meet mission 
needs. We resourced our facility programs to reach a maintenance and 
repair floor of 1.9 percent of our facilities plant replacement value. 
Industry studies indicate maintenance and repair investments should be 
between 2 to 4 percent of the entire plant replacement value. We 
minimize our risk through the disciplined use of asset management 
principles to ensure critical mission infrastructure is maintained 
adequately and accept greater risk in other areas.
    Military Construction (MILCON) is one of three critical components 
of maintenance and repair. For fiscal year 2016, we requested $1,592.9 
million for MILCON which supports, provides, and enables mission 
critical infrastructure that contributes to combat capability over 
time: nuclear infrastructure, test infrastructure, space launch 
infrastructure, satellite command control and communications 
architectures, as well as simulation infrastructure. The fiscal year 
2016 MILCON request includes three nuclear projects, $144.2 million; 
one test project ($12.8 million); one space launch project ($21.0 
million); one satellite command control and communications project 
($36.4 million); and four simulation projects ($54.1 million).
    The fiscal year 2016 President's Budget request preserves the 
minimum requirement to meet the Department of Defense's current 
strategic guidance. Even at the President's Budget request level, the 
Air Force remains stressed and shortfalls exist. A return to 
sequestration-level funding, as dictated by the Budget Control Act of 
2011, carries great risk and will negatively impact the critical 
infrastructure components listed above.

                            CHINA AND RUSSIA

    Mr. Frelinghuysen. I would like to have your view of our, I 
hate to use the expression near-peer competitors, but where do 
we stand relative to Russia and China? When I first got on the 
committee, we had the ability to fight two wars. We had the 
notion, and I believe that we continue to have overwhelming 
superiority. But we work pretty closely with the Armed Services 
Committee and we monitor their hearings. And you invoked Frank 
Kendall in your earlier comments. And I hope we are keeping an 
eye of what our, these countries are doing. Could you comment 
on that?
    Ms. James. Yes. I will start, Mr. Chairman. There have been 
actions and then there have been investments, I will say, on 
the part of China and Russia which are very worrying to the 
United States. Certainly they are worrying to me. If we look at 
China, for example, there have both been air and sea incursions 
in the Pacific, I will say in the South China Sea which are 
worrying. There have been investments in space and anti-
satellite capabilities which are worrying.
    Similarly with Russia, wow, who would have predicted the 
invasion of Ukraine a year ago? I would not have predicted it 
for one. So those are very serious actions. And Russia has 
investments as well. As we always say, God forbid we should 
ever really have to engage in a conflict of this high-end 
nature. But if we do, we don't want it necessarily to be a fair 
fight. We want to be able to prevail in an overwhelming----
    Mr. Frelinghuysen. So where are we on that sort of 
technical edge here? I don't want to get into policy. But, in 
reality, we could ask you how many times your pilots have had 
to deconflict their missions with people rising to meet them.
    Ms. James. Right. So I would say the gap is closing. So if 
we are not careful, we could lose our technological edge is the 
way I would put it.
    General Welsh. As you know, both Russia and China----
    Mr. Frelinghuysen. We are on your side.
    General Welsh. Yes, sir.
    Mr. Frelinghuysen. And this is the one most worrisome 
things here. And often with the Navy, numbers do matter. Go 
ahead.
    General Welsh. Yes, sir. In warfighting, quantity does have 
a quality all its own. That has always been true. Russia and 
China are both upgrading their air forces. They are a couple of 
the countries that have watched the model very carefully. 
China, in particular, is accelerating that development. The 
concern we have, the major concern we have is as they develop 
new aircraft and new defense systems, those systems will be 
more capable than the things we currently have in our fleet in 
many ways. And so if we don't continue to modernize, we will 
find ourselves within the next 10 years, I believe, at a 
disadvantage in a number of scenarios against not just Russia 
and China--I hope we don't fight Russia or China anytime soon, 
or anytime ever ideally--but they do export equipment. And 
within 3 to 5 years typically after they market something, they 
put it out to the rest of the world for buying.
    There are about 53 countries today that fly top-end Russian 
and Chinese aircraft. And I assume that 10 years from now, that 
will be the case again. And those aircraft will be better than 
everything we have on the ramp today except our 5th generation 
capability in the F-22. That is where the F-35 is operationally 
mandatory for us to be successful in those scenarios in the 
future.

                        LONG RANGE STRIKE-BOMBER

    Mr. Frelinghuysen. It is mandatory. And I am highly 
supportive of probably the most expensive endeavor we have ever 
made. And that is sort of why we serve on this committee. We 
want to invest in the long-range bomber. I see some figures 
that seem to be, considering the history of other bombers, 
comparatively low. What is the estimate these days for the new 
stealth bomber?
    General Welsh. We have remained with a cap of $550 million 
recurring flyaway costs in constant fiscal year 2010 dollars. 
We believe we are on track for that. In fact, I believe we are 
going to beat that. We will see. The source----
    Mr. Frelinghuysen. The numbers you are suggesting that we 
might have to invest are pretty considerable. And if history is 
any indication, the numbers will probably come down 
considerably.
    General Welsh. Clearly the unit cost is based on a contract 
buy of 80 to 100 aircraft. If we buy 10, the unit flyaway costs 
will be much higher.

                     NEXT GENERATION AIR DOMINANCE

    Mr. Frelinghuysen. You are identified with what is called 
the next generation of air dominance. I know that is sort of a 
DARPA-related area, but it is pretty important. What do you 
foresee in that scheme of things, that type of looking ahead 
into the future? Is this another aircraft? Or is this maybe a 
greater reliance on UAVs? What do you see in the future in that 
envelope?
    General Welsh. Mr. Chairman, we don't know what it is yet. 
That is why we are just starting the developmental planning 
effort. Defense Advanced Research Projects Agency (DARPA) has 
been working this for a while. We are beginning a formal 
development and planning effort in the Air Force where we will 
include people like DARPA, Air Force Research Labs, Air Combat 
Command, a number of advisers from both industry and threat 
experts from around the country. The intent is to look at what 
should air dominance look like 30, 50 years from now. It could 
included manned aircraft, unmanned aircraft, cyber 
capabilities. We don't know what it looks like yet.
    Mr. Frelinghuysen. I am going to go--have you voted? Has 
anybody voted here? Mr. Visclosky is here. I guess I need to 
remain in the chair. Maybe some of you could vote and we can 
continue. Mr. Crenshaw.
    Mr. Crenshaw. Just real quick, the chair mentioned the 
long-range stealth bomber. And that is highly classified, I 
know. But I think there are a lot of doubters. I am not a 
doubter. You hear that as well. It might be a good idea 
sometime on a classified basis to hear more about why that is 
important to our national security. And the other thing, the 
other program I want to ask you about was the combat rescue 
helicopter. That is the program we have now. We want to have 
the best trained, best equipped military. We also want to make 
sure everybody comes home safe and sound.
    I think because of Afghanistan and Iraq, they say that 50 
percent of the rescues can kind of take place because they are 
all worn out from all those missions. And I think there is a 
time maybe last year you all were thinking about not replacing 
that. And you would said it would cost $430 million. We put 
$100 million. And so my question is, it seems to me that is 
pretty important. You look at that Jordanian pilot, maybe he 
had a search and rescue--those are the kind of things that are 
really important to bringing people home safe.
    So how committed are you all to making sure we have the 
replacement and you are filling that hole? And if we have to go 
to the spending caps, is that going to be one of the 
casualties? Because we would all like to know what the impact 
of all the sequestration is. And it seems to me that is really 
important. It is not optional. But where are we, how committed 
are we to make sure that we replace that program?
    Ms. James. So we agree on the importance. And even if we 
have to live with sequestration, our best advice would be do 
not touch that program.
    Mr. Crenshaw. Great. So you are filling that hole and you 
are still working----
    Ms. James. That would be our best advice. But, of course, 
we don't want sequestration, as you know, sir.
    Mr. Crenshaw. Thank you.
    Mr. Womack [presiding]. Mr. Visclosky.

                           NUCLEAR ENTERPRISE

    Mr. Visclosky. Thank you very much, Mr. Chairman. I would 
like to talk about the nuclear enterprise if I could. Has the 
relevance of the two legs of the triad you oversee changed? 
Over the years, has their evidence changed?
    Ms. James. They remain extremely relevant. All three legs 
of the triad remain extremely relevant, just as they have for 
the last 60-plus years.
    Mr. Visclosky. Is there any discussion in the 
administration as to whether or not going forward it will be a 
triad or there configuration will be different? And I must tell 
you, the impetus of my question is we talk about having a 
nuclear strategy and often we get wedded to programs; and we 
have a bomber program; we have a missile program; we have a 
submarine program, and they just have a life of their own into 
infinity.
    Ms. James. All discussions that I have been privy to, Mr. 
Visclosky, suggest to me that we are going to absolutely stand 
behind a nuclear triad. It remains very important. And, as you 
know, we are taking steps in our Air Force to kick it up a 
notch with respect to making sure that we modernize, that we do 
different things for people in training and revitalize.
    Mr. Visclosky. Do you have an overall estimate for your 
modernization program? NNSA suggests that theirs would be about 
$50- to $60 billion.
    Ms. James. I can tell you what is different in this fiscal 
year 2016 budget and the accompanying 5-year plan. I am afraid 
I cannot, off the top of my head, give you beyond that. But we 
can try to do that for the record.
    [The information follows:]

    The Air Force 2016 Future Years Defense Plan includes $25.6 billion 
for nuclear modernization. This includes research, development, test 
and evaluation costs for B-2 and B-52 bombers, Minuteman III, nuclear 
weapon life extension programs such as the B61-12, and service life 
extension programs for the air launched cruise missile. Also included 
are costs for the long range strike bomber, long range standoff 
missile, ground-based strategic deterrence, UH-1N replacement, F-35 
dual capability integration, nuclear command control and communications 
initiatives (NC3), and procurement of NC3 infrastructure. Finally, 
military construction investments, including weapon storage facility 
recapitalization at F.E. Warren Air Force Base, WY, Barksdale Air Force 
Base, LA and Malmstrom Air Force Base, MT are also included.

    Mr. Visclosky. And as far as the potential change in 
strategy as it relates to the Life Extension Program, is the 
Air Force comfortable with that?
    Ms. James. Well, we certainly recognize that we have to do 
something about the Minuteman III, that it is not going to last 
forever. And so the program that we are working on we call the 
Ground Based Strategic Deterrent. And we have got to fund what 
that future will be. And this 5-year plan begins that effort 
and how precisely it is accomplished is still a bit of a point 
that we are exploring. But whether it is a brand new weapon 
system altogether or whether there are elements of it that are 
rebuilt, I will say, this is the part that remains to be 
explored.

                        LONG RANGE STRIKE-BOMBER

    Mr. Visclosky. And if I could, Mr. Chairman, ask about the 
issue of the bomber. We continue to invest in Standoff 
munitions and weaponry. I certainly appreciate the age of some 
of our bomber assets. But given the estimate of the cost and 
the historical experience we have had--I would point to the B-2 
and the cost per aircraft and the original estimate as to how 
many were going to be bought and how few, in fact, were 
procured--what is the justification for a new bomber?
    Ms. James. We feel that the new bomber will take us into 
decades to come in an anti-access, anti-denial type of an 
environment. So the most complex and difficult type of threat 
environments that we might encounter in the future years. So 
that is the overall purpose.
    General Welsh. So we actually--the operational analysis 
that went into the number that was procured takes into account 
the requirement to do nuclear deterrence alert with the B-52, 
if you are required conduct nuclear activity and support a U.S. 
Strategic command, and also the capacity of weapons sorties 
required to win a major theater fight and do the Air Force 
piece of that. The number of fighter squadrons that I mentioned 
before is about a third less than what it was before. So you 
don't have the same capacity to do fighter bomber-type sorties 
as we did in the past. It will take us 80 to 100 bombers to 
provide the sortie rates and the weapons capability to complete 
a major theater fight. And we would be glad to share that 
analysis with you. But that is what went into developing the 
80-to-100 number.
    Mr. Visclosky. Relative to the overall budget, because, 
obviously, you have a huge procurement program that is underway 
with the joint strike fighter, you have got the tanker 
replacement, combat rescue helicopters, trainers, JSTARS, 
AWACS. The estimate on the bomber has been fairly static at 
$550 million. And I don't want to be skeptical but I would be 
for purpose of an answer. What is the degree of certainty that 
that is going to be the range per plane going forward with all 
of the other stress as far as the procurement budget?
    Ms. James. Well, we are very committed. And we have kind of 
learned some lessons from the not-too-distant past about what 
happens when you don't keep stressing affordability, 
affordability, affordability. But to echo something that the 
chief said, this is a unit flyaway cost which is dependent on a 
certain quantity that is bought. So, you know, between that 80 
to 100 is the quantity we are projecting. If suddenly the 
system were to be curtailed and we would only buy 30 aircraft, 
that unit cost would go through the roof.
    Now, like with all units costs, that doesn't necessarily 
include all the costs. It doesn't include the sustaining costs 
and all the other costs that go into it. But that is, you know, 
the way that we measure these different weapon systems is by 
that unit cost.
    Mr. Visclosky. Thank you, Mr. Chairman.
    General Welsh. Sir, can I make one last comment on that?
    Mr. Frelinghuysen [presiding]. Yes, please, General Welsh.
    General Welsh. If we don't replace the bomber fleet 
eventually, by 2035 to 2040, we will have 16 B-2s or we will 
have a 100-year-old airplane flying by the middle of the 
century with a B-52. That makes absolutely no sense, 
Congressman, none.
    Mr. Visclosky. Thank you, Mr. Chairman.

                      B-61 LIFE EXTENSION PROGRAM

    Mr. Frelinghuysen. The Air Force is on the cusp of flight-
testing a new tail kit assembly for our nuclear fleet. Can you 
talk a little bit in general terms about that? I know the issue 
has always been the ability to integrate the bomb into whatever 
the aircraft is. Can you talk a little about that? It is not 
exactly inexpensive.
    General Welsh. No, Chairman, it is not. This is actually a 
joint program between the Department of Defense and the 
Department of Energy in support of a U.S. Strategic Command and 
a NATO requirement. We currently have four different variants 
of the B-61 bomb that has been around, as you know, for a long 
time. We are consolidating the two parts of the program, our 
Life Extension Program for the B-61 that will consolidate those 
four into a single variant that we have for common use. And 
then the tail assembly is a U.S. Air Force development program 
under the Department of Defense to try and give more precision 
capability to the actual nuclear delivery which U.S. Strategic 
Command (STRATCOM) hopes it will allow them to use different 
operational approaches in that mission set.
    The testing is ongoing now. The program is on track. We 
don't know of any major issues with it at this time. We have 
been doing tail kits on bombs here for a while very 
successfully. And so I think this program, unless something 
really unusual happens, will probably proceed apace.

                                  F-22

    Mr. Frelinghuysen. It is one of those expenses that is out 
there. And it is obviously--the whole issue of historic nuclear 
deterrent is something which we still need to consider and 
embrace. On the F-22, I was always a supporter of the Raptor. I 
haven't heard much about it, although there was something in 
some of the newspapers that it has been, some of those planes 
have been active recently. Tell me where it is in the overall 
scheme of things. There again, a lot of planes promised and 
then not that many delivered. How many do we have at the 
moment? How many are actually, you know, ready to fly?
    General Welsh. Yes, sir. We have about 120 operational F-
22s. We have 187 total. So the training enterprise, the test 
infrastructure uses the rest of them. Typically about two-
thirds of a fleet will be operational. That is the way it is 
with the F-22. They are actually flying regularly now in Iraq 
and Syria, particularly flying into Syria. We use the F-22 now 
in ways that we have never been able to use an airplane before.
    Mr. Frelinghuysen. Satisfy my curiosity: For the time and 
investment we made in Iraq and Afghanistan, the Raptor was 
surprisingly absent from the battlefield. Why is it such a key 
component now when before it was not?
    General Welsh. The threat architectures in Iraq and 
Afghanistan didn't require the F-22 quite simply.
    Mr. Frelinghuysen. They do now?
    General Welsh. Well, in Syria, they have a very capable air 
defense system. They have an integrated air defense system over 
portions of the country. When we are flying sorties into that 
area of the country, we like to have the F-22 airborne in case 
that system activates.
    Mr. Frelinghuysen. Let's hope it doesn't activate. But it 
is good for the public to know why. They certainly have a 
pretty capable system unless it has been degraded in some way. 
Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Again, thank you both 
for your testimony today. General Welsh, I have a request, in 
the counsels that you keep, if there is any way that you can be 
a voice for the Ukrainian military and their ability to receive 
telecommunications equipment so they don't constantly face the 
threat of the Russians jamming their inadequate communications 
system. I really think it is necessary. And perhaps you will be 
in a place where you can make a difference.
    General Welsh. Thank you.
    Ms. Kaptur. Also I wonder, General Welsh, if you or the 
secretary could provide for the record comparative U.S. Air 
capability versus other countries as a part of your testimony 
today, in terms of personnel, their readiness, and also 
equipment, and the amount of money spent by various nations. 
That would be very valuable for us for comparative purposes. Is 
that possible?
    Ms. James. Yes.
    [The information follows:]

    Russia and China continue to place significant importance on 
airpower to mitigate US aerospace and regional air superiority. Both 
countries have expressed an intent to not only achieve parity with the 
US Air Force, but to surpass it in some notable areas (such as in 
advanced fighter aircraft). The Russian Forces Air Force's military 
modernization goal is centered on the 2020 State Armament Plan and 
places emphasis on new aircraft such as the fifth-generation PAK-FA 
fighter and long-range PAK-DA strategic bomber. Additionally, Moscow is 
manufacturing newer, more accurate long-range munitions, including air-
launched land-attack cruise missiles. Modernization for China's Peoples 
Liberation Army's Air Force (PLAAF) is progressing at a steady pace, 
with the goal to improve the service's capability to conduct offensive 
and defensive operations, such as strike, power projection and early 
warning and reconnaissance. Key areas of importance include continued 
production of fourth-generation multirole aircraft (i.e., J-10), 
development of the fifth-generation J-20 fighter and production of new 
bombers (i.e., H-6K) to increase PLAAF strike capabilities. While 
Moscow and Beijing have made progress in some key areas, limited 
numbers of special mission aircraft (AWACS and tankers), will remain 
near-term obstacles to modernization/force protection.

    Ms. Kaptur. Thank you. I also wanted to go back and say, 
Secretary James, you have particular background in Guard and 
Reserve affairs. I really can't stress enough how important I 
think that is as we look to the future and we look at what 
these incredible Americans do all over the world and to look at 
the pressure that is on us in terms of budget, and to really 
think hard about how to better integrate those cost savings 
units into our operations. They are not second class. And they 
do a great job. And they save a lot of money. And I have never 
seen, in my entire career, a real comprehensive look at how 
those capabilities can help us do the job but also save money. 
It is always sort of an add-on or an attachment or is cordoned 
off here. But you really have particular insight there. I would 
just ask you to apply it. And I know you will.

                          ENERGY INDEPENDENCE

    Finally, on the energy front, you have referenced that in 
your remarks today, Madame Secretary. And I am very interested 
in America's energy independence. Other members are interested 
in her energy security. I am interested in that too. This past 
year was the first year we produced more oil domestically than 
we imported. Over the last decade, American has hemorrhaged 
$2.3 trillion in what we have spent on importing fuels into 
this country. So could you tell me, as the largest user of 
energy in the Department of Defense, what your strategy is to 
reduce your energy footprint. You have referenced that. What 
can you provide for the record to show us the progress that you 
are making in that regard?
    Ms. James. And we will provide you a more fuller 
explanation for the record. But I will tell you that in terms 
of energy consumption, we spend billions of dollars on our 
energy. And sometimes that is for operational reasons, for 
example, the jet fuel that we consume. And sometimes it is for 
our base operating support, the types of energy that drive our 
military bases around the country and around the world. So we 
have initiatives in both regards.
    I will just throw one out for you, one that is providing 
some hope for the future and that is the area of renewable 
energy. So one of the problems on the battlefield is when we 
are trying to transport petroleum or gasoline from Point A to 
Point B, number one, that is a logistics challenge; and number 
two, the people who are doing it can become a target because to 
take out that logistics type of a transport is something that 
enemies would wish to do. So to explore how we can do more 
renewable types of approaches, even including on a battlefield, 
is something that we are exploring more. Again, we will get you 
a more fuller explanation for the record.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Can tell me what is the highest individual 
tasked at the Air Force to think about the entire Department 
and energy?
    Ms. James. Ms. Miranda Ballentine. She is the Assistant 
Secretary of the Air Force for Installations, Environment, and 
Energy.
    Mr. Frelinghuysen. Invite Ms. Kaptur out to Nellis too. I 
think we are fully self-sufficient out there.
    Ms. Kaptur. Well, Mr. Chairman, you know my interest in 
this issue. So I also would ask for the record a listing of 
those research projects done at our Air Force Research Labs--
obviously I am from Ohio, so we got Wright-Pat--how Air Force 
perceives the research pathway forward and what your major 
projects are in helping America restore her own independence on 
the energy front.
    Mr. Frelinghuysen. If you could get that for the record for 
Ms. Kaptur. Mr. Womack.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              SPACE LAUNCH

    Mr. Womack. I know we are in our second vote and time is 
going to run out so I will be very brief. I have one other 
question, I want to go back into space for just a minute. There 
has been a lot of talk here this morning about the RD-180, so 
the engine issue has been discussed at length here. But also, I 
want to go back to the certification of another launch 
provider. And you said in the Senate Appropriations Committee 
earlier this week that you expected certification to come, I 
guess, this year, even though that is moved to the right.
    And I am a huge believer in competition. And I think that 
will lower overall costs, no question about that. But I have 
some concerns about national security payloads, as we introduce 
them to this discussion and as the certification of a new 
provider kind of inches to the right, what ramifications that 
has for some of our payloads that we don't talk about too much 
through open sources. Can you fill me in?
    Ms. James. So let me begin by saying I absolutely agree 
with what you said about competition and we are trying to get 
down that path as quickly as possible. Because, as you said, we 
need it for our national security, and we believe it will 
deliver us additional cost savings. With that said, we want to 
do it safely. We want to make sure that we continue what has 
been a spectacular record, I think, of 79 or 80 successful 
launches. And that is important because these are precious 
payloads. They are expensive. They have major national security 
implications. So we want both, we want competition, cost 
savings, and we want mission assurance. So we are trying to 
walk through this as quickly as possible. It shouldn't be too 
much longer until we certify that new entrant that we have been 
discussing. And you may have, you may know, sir, or you may 
not, but I have actually also asked for an independent review 
of our certification process to see, now that we have 18 months 
of it under our belt, are there lessons learned, are there ways 
that we can streamline, speed it up, because, of course, there 
will be other new entrants coming down the pike as well.
    Mr. Womack. Given the importance of the west coast launch 
capability, is it feasible that there would be a new launch 
provider certified that may not have the record, if you will, 
of west coast capacity launch capability? Is that possible that 
that certification could come without that?
    Ms. James. Well, of course, the company that is closest to 
certification is SpaceEx. And they certainly have done launches 
from the west coast if I am not mistaken. So I am not sure if 
that answers your question. But SpaceEx is the one that is 
getting very, very close.
    Mr. Womack. Okay. I am going to go vote. I yield back.
    Mr. Frelinghuysen. Madam Secretary, General Welsh, thank 
you for being here with us. We have spent a lot of good time. 
We have learned a lot. Good luck to you. Thank you for your 
close work with us in the coming weeks and months to get us 
across the finish line. We stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Cole and the 
answers thereto follow:]

                          Launch Capabilities

    Question. As you know, Congress authorized and appropriated $220 
million dollars for the development by 2019 of a rocket propulsion 
system to replace the Russian launch engine on Atlas V the money was 
not provided for the development of a new launch vehicle--why does the 
Air Force want to discard the Atlas V? It is clear we need a new 
engine, but where is the requirement that the nation needs a new launch 
vehicle?
    Answer. The nation's requirement is for a launch capability to 
place national security space (NSS) payloads into the required orbits. 
While the Air Force is very satisfied with the Atlas V performance and 
100 percent success rate, it is committed to moving away from the RD-
180 engine, which is at the heart of the Atlas V.
    The Department's ultimate goal is two domestic, commercially viable 
launch service providers able to support the entire NSS manifest. 
However, simply replacing the RD-180 with a new engine is not the 
answer, as we ultimately need a launch system and rocket engines are 
not a drop-in type of solution. We essentially build the rocket around 
the engine to address systemic technical challenges.
    Question. I am told that there are companies capable of developing 
a state of the art engine that could replace the Russian engine with 
minimal changes to the Atlas vehicle. If these solutions are out there, 
why is the Air Force still sitting on $220 million dollars now nearly 
half-way through fiscal year 2015?
    Answer. An engine development alone does not improve assured access 
to space. Significant launch vehicle development is required to use it, 
even if an engine is designed as a replacement. In anticipation of a 
fiscal year 2015 congressional add to get an early start on the 
solution, the appropriations and authorization bills were signed in 
December 2014, the Air Force Space and Missile Systems Center issued a 
request for information (RFI) on August 20, 2014 addressed to launch 
system and engine providers. A second RFI was released to selected 
providers on February 18, 2015 and formal requests for proposal are 
expected in the next few months. Please note that if the Air Force 
establishes a requirement for an engine to minimize changes to the 
existing Atlas V launch vehicle, this would provide United Launch 
Alliance an advantage in competing for national security space 
missions, and ignore potential innovative, less costly alternatives to 
meet our launch requirements.
    We are applying $60 million of the fiscal year 2015 funds to on-
going combustion stability projects and combustion tools development at 
Stennis Space Center and the Air Force Research Laboratory. These tasks 
all support hydrocarbon boost technical maturation, the key enabling 
technologies for the development of an engine. We plan to release 
requests for proposal in summer 2015 to execute the remaining $160 
million. Those plans are being finalized now.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                         RD-180 Use on Atlas V

    Question. To follow up on the questions of some of my colleagues, I 
want to ask several questions about the engines used for the EELV 
program. I am strongly in support of developing a new engine, but I 
also want to ask about the status of near-term competitions. In the 
process of creating opportunities for competition, we must ensure that 
we do not temporarily create an even less competitive situation, and 
ensure that we do not endanger the ability to get our national security 
payloads launched on schedule. It is unrealistic to expect a rocket the 
size of the Delta IV to compete with the smaller Falcon 9. Is it the 
understanding of you and the Air Force legal team that the language of 
the FY2015 NDAA bill allows RD-180 engines to be the Atlas V engine as 
part of the contract competition for Phase 1A? If the answer is no, is 
the Air Force asking for a legal fix through bill language?
    Answer. Yes. However, due to the way the language is written, ULA 
does not have enough qualifying engines to cover requirements for Phase 
1A and subsequent Phase 2 competitions. ULA may choose not to compete 
for Phase 1A missions which would leave SpaceX as the only bidder. A 
modification in the language would allow additional engines to be 
utilized and promote competition for Phase 1A missions.
    Question. Other than an extension of the date in the NDAA regarding 
use of the RD-180, please provide the bill language you believe would 
allow an RD-180 powered Atlas V to compete in Phase lA of the EELV 
contract competition.
    Answer. The department is submitting a legislative proposal for the 
fiscal year 2016 President's Budget request that will in DoD's view, 
expand the number of RD-180 rocket engines that the Department of 
Defense could certify for ULA's use in future EELV competitions or sole 
source awards when a new entrant into the EELV program is not capable 
of performing that particular EELV mission. It should be noted that 
even with this change in statute, the amount of RD-180 engines 
available to ULA for use on the EELV program would remain limited, but 
it would give ULA additional time to transition to a different rocket 
engine.
    Question. If the Delta IV is not used to compete against the Falcon 
9, are there enough RD-180's in the country for the Atlas V to compete 
in Phase 1A?
    Answer. As the Section 1608 language currently stands, there are 
not enough qualified RD-180 engines available to cover Phase 1A 
requirements. Another significant concern is readiness for Phase 2. 
Without the RD-180/Atlas V or the single core Delta IV (which ULA has 
stated they plan to phase out), Phase 2 will need to address a 
potential supplier shortfall, which poses significant risk to assured 
access to space.

                          Dual Launch Payloads

    Question. Given the need to explore all ideas which would perhaps 
cut launch costs, please provide information on how many payloads might 
be eligible in the next 6 to ten years as a dual-launch payload. I 
understand there is potential savings in this idea when two satellites 
are to be placed in the same orbit.
    Answer. Up to 10 GPS III payloads could potentially be dual 
launched in the next 6 to 10 years based on the fiscal year 2016 
President's Budget request Buy Profile. However, while GPS III has been 
considered for possible dual launch to save money when two launches are 
required in the same year, the Air Force currently has no requirement 
or funding for GPS III dual launch capability.

                           Launch Competition

    Question. Why is the Air Force not moving to immediately create a 
competition for designing an engine which meets these requirements?
    Answer. The Air Force immediately moved out on technology 
maturation and risk reduction activity with NASA's Advanced Booster 
Engineering Demonstration and Risk Reduction and the Air Force Research 
Lab's Hydrocarbon Boost existing programs. The Air Force released a 
request for information last fall and released a follow up request for 
information in February 2015 to engine and launch providers to assess 
business case approaches and willingness to enter into public-private 
partnerships. We plan to release a request for proposal this spring 
based on feedback from the February request for information. 
Competition is important in this endeavor and we intend to leverage the 
marketplace to produce a new cost-effective engine.

                    Budget for New Launch Capability

    Question. The President's budget request for the Evolved Expendable 
Launch Vehicle RDTE, AF for FY16 requests $84 million in a budget sub-
line titled, ``Next Generation Liquid Rocket Engine''. After 2016, the 
planned funding goes down to $60 million in FY17 and then $50 million 
in 18, 19, and 20.
Funding profile FY15-20:
    FY15--$220M (provided entirely by Congress)
    FY16--$84.4M
    FY17--$59.5M
    FY18--$49.6M
    FY19--$49.6M
    FY20--$49.6M
    The budget document notes a total of $512.7 million for development 
of a new engine. 43 percent of that comes in FY15, as the result of 
last year's Congressional action that added $220 million to begin a 
rocket engine development program. Secretary James, I am concerned that 
the proposed funding profile for Fiscal Years 2016 through 2020 is 
insufficient to have a domestically-sourced engine by 2019. I look at 
these numbers for out-year funding and by all accounts from industry it 
is about half the expected cost. We could spend the correct amount, 
create a strict set of milestones, and have an engine available to 
multiple companies, or we can spend $500 million on a diluted, subsidy 
type of plan and end up with a handful of partially completed 
propulsion systems.
    If the Air Force is serious about complying with the Congressional 
mandate to have an engine certified flying by 2019, how does this 
multi-year budget request get us there?
    Answer. The figures you mention above were our best estimates 
available at the time. We plan to release a request for proposal this 
spring based on feedback from the February request for information. The 
information obtained from these request will help determine the budget 
needed to complete the effort and will inform the fiscal year 2017 
President's Budget request.

                        Risk Reduction Contracts

    Question. Do your plans for Fiscal Year 2014 and Fiscal Year 2015 
spending utilize the two existing risk reduction engineering contracts 
which have already been competed as assigned to reach the goal of a new 
engine?
    Answer. Yes. NASA's Advanced Booster Engineering Demonstration and 
Risk Reduction and Air Force Research Lab's Hydrocarbon Boost contracts 
are being utilized for risk reduction activities with fiscal year 2014 
and 2015 funding. The data and analysis from these activities will be 
available to all interested domestic engine providers.

                    Control of Intellectual Property

    Question. Secretary James, I am concerned about the state of our 
liquid rocket engine industrial base. It is safe to say that in the 
past several decades, the Russians perfected the combustion cycle in 
their liquid-fueled engines, and Americans perfected the less efficient 
gas generator type of liquid fueled engines. Meanwhile, methane-based 
rockets have been in the news, but they are not new. Propulsion 
engineers have largely rejected them since the necessarily large size 
of the rocket eventually cancels out any advantage in the lifting of 
large payloads. Methane rockets would also require millions of dollars 
in new launch infrastructure work. The Chinese are testing an engine 
similar to the Russian one, and India is also starting development. I 
think these are additional, important reasons for us to have a liquid-
fueled rocket engine which is domestically produced, with intellectual 
property managed by the government and thus available always to 
American launch vehicle companies.
    Given the importance of space launch engines for national security, 
shouldn't the government control the intellectual property surrounding 
their development? Under the current acquisition model--I don't believe 
that is the case.
    Answer. In accordance with Department of Defense guidance, the 
program manager is required to establish and maintain an intellectual 
property strategy that identifies and manages the full spectrum of 
intellectual property and related issues (e.g., technical data and 
computer software deliverables, patented technologies, and appropriate 
license rights) from the inception of a program and throughout the life 
cycle.
    The Commercial Space Launch Act requires that launch services be 
procured as a commercial service. Therefore, the Government acquires 
intellectual property rights at the appropriate level needed for low 
risk mission assurance.

                           Space Acquisition

    Question. In your view does the current Air Force model for space 
acquisition stimulate or inhibit innovation and development of modern 
advanced space launch engines?
    Answer. Stimulates. Strategies are being developed for future 
launch services in a partnership with government and industry, using 
industry innovation to provide commercially viable launch systems that 
can also meet National Security Space requirements.

                          Launch Capabilities

    Question. I think I am correct when I say that when the Air Force 
acquires a new aircraft, the Air Force procures that engine through a 
competitive process and provides it to the interested aircraft 
manufacturers. And that if we are developing a nuclear submarine, the 
Navy buys the reactor through a competitive process separate from the 
shipbuilder contracts. There is competition both in the design and 
procuring of the engine, but also in the opportunity for companies to 
submit vehicles to use those engines. And the engine itself is procured 
in a way that protects the taxpayers investment.
    Why are we not protecting our launch capabilities and the taxpayer 
investment by using the same development and procurement process for 
National Security Space launch?
    Answer. The Commercial Space Act requires that space launches be 
procured as a commercial service. As such, the Air Force does not own 
or operate the launch vehicle hardware but instead, buys it like a 
transportation service with appropriate technical oversight.

                           RD-180 Replacement

    Question. How does the time frame and costs for multiple 
certifications (multiple companies' engines and launch vehicles, i.e., 
the engine + the rocket) compare to the possible certification time and 
cost of an engine which could be offered as government IP and designed 
to work as a replacement for the RD-180?
    Answer. Since certification is done with the launch service 
provider, the most time efficient method would be to engage with the 
service provider at the earliest opportunity in their design. A service 
provider waiting for a government furnished engine is likely to be 
faced with a longer schedule. The start of their design activities must 
wait for government deliveries and approvals before they begin, since 
they would not be able to engage directly in the design of the engine 
and make launch system design trade-offs.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Israel and the answers thereto 
follow:]

                       Operation Inherent Resolve

    Question. What level of physical threat does ISIL currently pose to 
your Airmen conducting operations in Iraq? What is your desired end-
state for Operation Inherent Resolve? Have you been given the resources 
to achieve this end-state and to keep your Airmen safe?
    Answer. Air Force aircrews operating against ISIL in Syria and Iraq 
accept the same risk faced by all Servicemen and woman operating in 
hostile environments. Those Airmen deployed in Iraq are largely 
operating from established bases, relatively safe from direct fire. 
Attacks have occurred, but are uncoordinated and sporadic. Air Force 
and Joint Security Forces personnel have been successful in mitigating 
and neutralizing these threats to our personnel through superior 
training and equipment, supported by manned aircraft and remotely 
piloted vehicles for base defense.
    The Air Force is working diligently to train and equip Airmen 
carrying out U.S. Air Forces Central Command (AFCENT) and U.S. Central 
Command (CENTCOM) missions in support of our Iraqi partners in 
degrading and eventually destroying ISIL. Additionally, in coordination 
with AFCENT and the Department of State, the Air Force enables both 
Title 10 and Title 22 missions for building a strong, enduring 
international air coalition and building partnership capacity in 
support of CENTCOM's focus on multilateral solutions to regional 
security concerns. The Air Force continues to resource and prioritize 
AFCENT and CENTCOM requirements to degrade and destroy ISIL while 
assuming additional risks in other regions and mission sets.
    Question. The budget request includes significant increases for 
certain munitions--split between the base and OCO accounts. What is 
driving these increases for these munitions?
    Answer. The increases in munitions for fiscal year 2016 support an 
increase in demand for training, readiness, and combatant commander 
requirements. The Hellfire missile and Joint Direct Attack Munition 
quantities specifically, increased by $534.6 million and $330.7 million 
(base and Overseas Contingency Operations funding). This is a direct 
result of low inventory quantities compounded by increased usage in 
support of OPERATION Freedom's Sentinel and OPERATION Inherent Resolve.
    In addition, production quantities for other munitions such as 
Joint Air-to-Surface Standoff Missile, Small Diameter Bomb, AIM-9 
Sidewinder and AIM-120 Advanced Medium Range Air to Air Missile are 
higher than previous budget submissions to recover inventories to 
proper readiness levels.
    Question. We've been told a significant number of U.S. munitions 
have been transferred to allies or partners because the FMS process is 
too slow for the increased demand, so some of this request is to 
restore what we have given away. To what extent has this issue reduced 
the Air Force's inventory?
    Answer. Munitions sales to coalition partners have thus far been 
moderate. Foreign military sales requests are expected to increase as 
coalition partners come back for ``round two'' during OPERATION 
Inherent Resolve, and new cases are developed in support of operations 
in Yemen. While those sales by themselves are not a major impact to Air 
Force munitions stockpile, combined with past, current, and projected 
Air Force combat expenditures, the munitions stockpile has decreased.

                        Iran/Nuclear Deterrence

    Question. Given the current threat environment, does the U.S. have 
a credible nuclear deterrence strategy?
    Answer. Yes. The President's National Security Strategy and Nuclear 
Weapons Employment Strategy direct the Department of Defense to 
maintain credible and effective nuclear forces capable of meeting the 
full range of U.S. deterrence and assurance commitments. Both our 
current force structure and the New START Treaty-compliant force 
structure the U.S. is transitioning to are fully aligned with and 
support this strategy.
    Question. What message would reducing our nuclear arsenal send to 
Iran and other bad actors throughout the globe?
    Answer. Consistent with U.S. National Security Policy, the 
Department of Defense (DOD) maintains nuclear forces capable of meeting 
the full range of deterrence and assurance commitments that are vital 
to our security and that of our allies and partners. Both the U.S.'s 
current nuclear force structure and the New START Treaty-compliant 
force structure DOD is transitioning to are fully aligned with and 
support this strategy. This capable, survivable, and balanced force 
preserves strategic stability and remains a highly credible and 
effective deterrent to potential adversaries who seek to threaten the 
U.S. or our allies and partners.
    Question. I believe that we should have an ``all options on the 
table'' approach when dealing with Iran. How confident are you that you 
can gain and maintain air superiority against Iran, if required? How do 
current BCA levels affect that capability?
    Answer. In any contingency scenario involving aggressive air action 
against the U.S. or our interests, we will likely be forced to 
redistribute deployed Air Force forces due to the limited amount of 
available force structure. In the process of addressing an emerging 
threat, we would increase the risk to missions and forces in the areas 
that would be vacated. BCA-level funding will exacerbate the readiness 
challenges we already face.

                        Long Range Strike-Bomber

    Question. What are the LRS-B program objectives compared to the 
current bomber fleet?
    Answer. The program's objectives are to provide operational 
flexibility for Joint commanders through long range, significant 
payload and survivability while allowing the option to hold any target 
at risk at any point on the globe. With a broad geographic coverage, 
LRS-B can operate deep and from long range, allowing it to penetrate 
modern air defenses to accomplish objectives despite adversary anti-
denial/anti-access (A2/AD) measures. Even with updates, the current 
bomber fleets are increasingly at risk to modern air defenses. 
Additionally, LRS-B will have a wide mix of stand-off and direct attack 
munitions and be built with the features and components necessary for 
the nuclear mission to ensure nuclear certification 2 years after 
conventional initial operating capability. The LRS-B will also enable 
adaptability that allows the system to evolve as threats change and 
mature. Finally, the LRS-B program is leveraging 30+ years of 
developing, operating and sustaining highly advanced, stealthy 
aircraft.
    Question. Will the LRS-B give us the capability to destroy 
adversary hard sites that include nuclear facilities? If you can't 
answer this in writing, I would appreciate hearing about this in a 
classified setting.
    Answer. The LRS-B capability provides the President with the option 
to hold any target at risk at any point on the globe. Additionally, the 
aircraft's long range, significant payload and survivability provide 
operational flexibility for Joint commanders. We can provide more 
details in a classified setting, if you wish.

    [Clerk's note.--End of questions submitted by Mr. Israel. 
Questions submitted by Mr. Ruppersberger and the answers 
thereto follow:]

                        Long Range Strike-Bomber

    Question. Can you discuss the complementary nature of these stealth 
bombers and their roles in the evolving family of systems? 
Specifically, can you address--though I acknowledge the topic is 
somewhat sensitive--how a new long range strike bomber will add to the 
Air Force's arsenal?
    Answer. Our current bomber fleet is an aging but capable force. 
However, our adversaries understand the advantage stealth gives us and 
have been working on ways to diminish that advantage. Consequently the 
fleet will become more susceptible as our adversaries improve their 
anti-access capabilities. To enhance our global power projection 
capabilities across the full spectrum of conflict, the Air Force 
requires a new generation of stealthy, long-range strike aircraft that 
can operate at great distances, carry substantial payloads, and operate 
in and around contested airspace. The Long-Range Strike Bomber (LRS-B) 
is intended to provide this needed capability.
    Until the aircraft becomes operational, we will continue working 
diligently to maintain our technological and capability edge with the 
current fleet. Since delivery of the last B-2 stealth aircraft in 1997, 
we have made significant strides in all areas of combat aircraft 
technologies and are leveraging those improvements in the development 
of the LRS-B.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger. Questions submitted by Mr. Frelinghuysen and the 
answers thereto follow:]

                           Nuclear Enterprise

    Question. The Air Force's budget request includes new resources for 
the nuclear mission, some of which is devoted to sustaining and 
improving the existing force, and some of which is devoted to 
modernization, such as the Ground Based Strategic Deterrent and the 
Long Range Standoff programs. How would the Air Force prioritize 
nuclear enterprise funding under the funding levels of the Budget 
Control Act?
    Answer. This is the U.S. Air Force's prioritized requirements for 
the nuclear enterprise. The ``Increase'' column represents the most 
critical and prioritized elements of the nuclear enterprise made in the 
fiscal year 2016 President's Budget request.

------------------------------------------------------------------------
            Program (# in millions)               Increase     FY16 PB
------------------------------------------------------------------------
ICBM Force Improvement Plan...................           65        2,600
Ground-based Strategic Deterrent (Incl Solid             58           75
 Rocket Motor)................................
ICBM Fuze Modernization.......................           62          156
Air-Launched Cruise Missile Modernization.....           22           28
B-2 Common Low-Frequency Receiver Inc.\1\.....           16           61
ICBM Transport Security (UH-1, Payload                   16           20
 Transporter Replacement).....................
B-2 Defense Management System Modernization...           46          272
Nuclear Command, Control and Communications              13           13
 Modernization \1\............................
ICBM Airborne Launch Control System...........           43           59
Military Construction (Weapons Storage                   95           95
 Facility, FE Warren, WY).....................
------------------------------------------------------------------------
                                                       $436       $3,379
------------------------------------------------------------------------
\1\ Inclds Strategic Air Command Automated C2 System, Low Frequency
  Cable

                       A-10 and Close Air Support

    Question. The Air Force has emphasized that close air support (CAS) 
is a mission, not a platform. How will the Air Force ensure that CAS 
remains a priority for training and investment as you shift more of the 
CAS mission from the A-10 to multi-role fighters and bombers which need 
to fulfill a broad spectrum of mission areas?
    Answer. We have an unparalleled track record of supporting ground 
forces through a variety of capabilities we bring to the joint fight. 
The last U.S. soldiers killed by enemy air-to-surface fire were lost in 
1953--safety from air attack is a direct result of our unrivaled 
ability to establish and maintain air superiority. Similarly, CAS has 
been a vital Air Force mission since before our inception in 1947. It's 
ingrained in our doctrine and training, and is--just like air 
superiority--part of who we are.
    We've made solid investments in CAS capability with investments 
such as Advanced Targeting Pods for B-1 bombers, Laser-guided JDAMs, 
and low collateral damage bomb bodies such as the BLU-129, as well as 
our advancements in CAS tactics, techniques and procedures, and 
integration across Services and between our ground and air forces. 
Another example is the recent Air Force Chief of Staff-sponsored Joint 
Future CAS Focus Day on March 6, 2015. Three Joint working groups 
comprised of CAS experts from the U.S. Air Force, Army, Navy, Marine 
Corps, Joint Staff and other defense agencies spent over a week 
researching and preparing to answer the questions, ``What is the 
current CAS state of affairs?,'' ``Is there a gap?,'' and ``What do we 
do next?'' Results and recommendations from these working groups were 
very well received across our sister services, were out-briefed to the 
four Service Chiefs, and approved by General Welsh for action. The 
approved recommendations address key issues such as identifying 
investment requirements, identifying CAS training priorities, changing 
Department of Defense culture to address CAS as a mission vice 
platform, and exploring methods to specifically maintain the CAS 
culture.
    We would be happy to brief you or your staff at any time as we 
implement recommendations from our Joint Future CAS Focus Day and as we 
continue protecting the Soldiers, Sailors, Airmen and Marines engaged 
in ground operations.
    Question. Some have suggested that the Air Force should not retire 
the A-10 until a dedicated CAS replacement aircraft is identified. Does 
the Air Force have any plans to initiate an analysis of alternatives to 
consider such an aircraft?
    Answer. We do not have enough funding in our projected topline to 
start a new program for a close-air support replacement aircraft, so we 
have no plans to conduct an analysis of alternatives at this time. We 
are examining potential options to mitigate any possible shortfalls in 
the close air support mission until the F-35A becomes operational. 
Until that time, the current combination of fighters and bombers will 
continue to fulfill all combatant commander requirements in this area.

                Global Hawk, U-2, and High Altitude ISR

    Question. The Committee understands that the Air Force has 
finalized an updated Capability Production Document for the Global Hawk 
Block 30. What capabilities does the Air Force need for Block 30, and 
how much money and time will it require to achieve those capabilities?
    Answer. The capability production document for RQ-4 Block 30 was 
signed on November 20, 2014 and documented the ``as built'' capability. 
The fiscal year 2015 President's Budget request and 2014 Consolidated 
Appropriations Act restored RQ-4 Block 30 aircraft and funded all the 
modernization activities necessary to keep the entire RQ-4 fleet viable 
throughout the envisioned life cycle. The fiscal year 2016 President's 
Budget request maintains the modernization posture that includes 
several key efforts: ground segment modernization, communications 
system modernization, ASIP Increment 1, enhanced weather capability, 
and sensor modularity. The current projected cost is approximately $1.2 
billion over the next 8 years. Additional Block 30 modernization 
efforts may be required before U-2 divestiture in fiscal year 2019 and 
will be detailed to Congress in the High Altitude ISR Transition Plan.
    Question. Even with the Air Force's extension of the U-2 fleet to 
2019, a solution needs to be found with regard to the Optical Bar 
Camera carried by the U-2 and the specific missions it is used for. 
Does the Air Force still plan to integrate the OBC with the Block 30, 
or has some other solution been identified?
    Answer. The Air Force is currently exploring options to maintain a 
broad area imagery capability as part of the High Altitude ISR 
Transition Plan. The Consolidated Appropriations Act of 2014 funded a 
study on the potential adaptation of U-2 sensors to the RQ-4 Block 30. 
Phase 1 concluded that it is feasible to adapt the U-2's Optical Bar 
Camera onto the RQ-4B. The Secretary of the Air Force will deliver 
feasibility details to Congress this summer in fulfillment of fiscal 
year 2015 congressional direction. The Air Force and Undersecretary of 
Defense for Intelligence are reviewing all options to determine the 
best system for integration.
    Question. The Air Force's fiscal year 2015 budget request pulled 
investment funding for the U-2 because of the plan to retire the fleet 
in 2016. Now that the Air Force has extended the U-2 fleet to 2019, 
some of that funding has been restored. How much funding has been 
returned to the budget for U-2 operations and investments? What does 
the investment funding provide?
    Answer. The Air Force has restored a total of $143.7 million across 
the Future Years Defense Plan (FYDP) in U-2 investment funding in the 
Air Force fiscal year 2016 President's Budget request: $60.3 million in 
Air Force Research, Development, Test and Evaluation funding and $83.4 
million in Air Force Procurement. Additionally, $1.2 billion in 
Operation and Maintenance funding and $333 million in Military 
Personnel funding was restored across the FYDP.
    These funds support ongoing peacetime and combat operations with 
the U-2 ISR system to sustain the current configuration and capability 
as required by the National Defense Authorization Act and 10 U.S.C. 
Sec. 2244a. Programs include the Pylon Equipment Group beyond line of 
sight tech refresh, AN/ALQ-221 electronic warfare system low band 
processor update, SENIOR YEAR electro-optical reconnaissance 2C 
integration, multi-program Deep Look Advanced Synthetic Aperture Radar 
System development, and safety of flight systems.

                                  F-35

    Question. The Air Force plans to reach Initial Operating Capability 
(IOC) for the F-35 as early as August 2016 and no later than December 
2016. Do you have a more specific date for IOC at this point?
    Answer. We do not yet have a specific date on which we expect the 
Commander of Air Combat Command to declare initial operational 
capability, but the program is tracking to the August through December 
2016 timeframe. We will have more certainty as the program continues to 
progress in development and flight test through 2015.
    Question. The Air Force has defined IOC for the F-35A as 12 to 24 
aircraft able to conduct limited air-to-air and air-to-ground missions 
along with certain logistical and other support elements in place. Do 
you believe that at IOC the Air Force will have a meaningful F-35A 
combat capability that you would be willing to deploy?
    Answer. The Air Force is confident that the F-35A will have 
sufficient and meaningful combat capability at the time of initial 
operational capability (IOC). As the Air Force's F-35A decision 
authority, the Commander of Air Combat Command has established the set 
of capability criteria he will use to determine whether to declare the 
F-35A fleet ``IOC''. These criteria include weapons inventory and 
mission system capability to conduct the specified mission sets of 
close air support, interdiction, and limited suppression/destruction of 
enemy air defenses. IOC-status for the F-35A fleet will not be 
established until these criteria are satisfactorily completed.
    Question. A media report in December 2014 (``Newest U.S. Stealth 
Fighter `10 Years Behind' Older Jets'', Dailybeast.com) cited an 
unnamed Air Force official affiliated with the F-35 program declaring 
that the F-35 will be 10 years behind legacy fighters largely due to 
the aircraft's electro-optical targeting system, which was described by 
yet another Air Force official as a big step backwards. The author of 
this report apparently was able to find yet more anonymous Air Force 
personnel who openly disparaged the F-35's gun, its flight performance, 
and the prime contractor. It is disturbing to see this many Air Force 
representatives lambasting one of the Air Force's top modernization 
programs, even if they lack conviction to do so in their own names. 
What is your response to this report?
    Answer. Overall, the F-35 program is executing well across the 
entire spectrum of acquisition, to include development and design, 
flight test, production, fielding, and sustainment. While the Daily 
Beast article does accurately highlight some of the ways electro-
optical targeting system (EOTS) baseline capabilities lag currently 
fielded external targeting pods, maintaining the baseline F-35 
development requirements as new targeting pod capability was evolved 
was an informed decision by the Services and partners to minimize the 
overall development risk of the broader F-35 program. The EOTS does 
incorporate significant air-to-air infrared search and track 
capabilities that do not exist in air-to-surface optimized targeting 
pods. Upgrading and improving the second generation targeting pod 
capabilities of the F-35 EOTS to leverage the significant investment in 
targeting pod capabilities over the past decade is planned for the F-35 
in Block 4 follow-on development. In Block 4, the EOTS will be upgraded 
to current third generation capability based on Service and partner 
warfighting priorities.

                        Long Range Strike-Bomber

    Question. Many people find it hard to believe that the Air Force 
can produce the new Long Range Strike-Bomber for $550 million or less 
in per-unit production costs, and they can point to history to justify 
their skepticism. The B-2 program originally envisioned 132 aircraft; 
we ended up with 21, in large measure due to the fact that each B-2 
cost about $1.5 billion in 2010 dollars (the same benchmark used by the 
Air Force for the $550 million figure). The Air Force says that it has 
learned lessons from past procurement programs that will help keep the 
LRS-B cost under control. In your view, what went wrong with the B-2 
program in terms of cost control?
    Answer. The B-2 production costs were primarily driven by three 
contributing factors. First, the quantity was decreased from 133 
aircraft to 21. Based on the 1998 GAO report (GAO/NSIAD 98-152), the 
program in 1986 expected to produce 133 aircraft at an average 
procurement unit cost (APUC) of $329 million (in then-year dollars). By 
1998 the planned buy was reduced to 21 aircraft at an APUC of $933 
million (1996 SAR actuals were closer to an APUC of $1.1 billion for 15 
aircraft). Second, state-of-the-art technology contributed to cost. The 
B-2 pushed the state-of-the-art in mission systems, low observable 
configuration, and manufacturing processes. Finally, there was 
significant concurrency between development and production generating 
additional costs in engineering change orders and aircraft 
modifications.
    With regard to the LRS-B, the Air Force has set affordable, 
achievable, and realistic requirements balanced by cost considerations 
that have been stable for years. The program has minimized new 
development to allow for the integration of mature technologies and 
existing systems to reduce risk. Informed design trades were made to 
meet the unit cost target to ensure sufficient production and a 
sustainable inventory over the long term. The APUC target is $550 
million in base year 2010 dollars to provide a constant requirement and 
is applicable to 100 aircraft procurement.

                              MQ-9 Reaper

    Question. Former Secretary of Defense Gates established the 65 
Combat Air Patrol (CAP) objective in 2010. The Committee understands 
that this has driven the requirements of the MQ-9 procurement program. 
Please explain what this CAP goal requires in terms of aircraft, and 
how this in turn drives the size of the objective Reaper fleet.
    Answer. The 2010 requirement of 65 MQ-9 CAPs required 401 aircraft. 
This number equates to enough aircraft to meet combat, training, test, 
back-up inventory and attrition reserve requirements.
    The fiscal year 2014 Defense Appropriations Act MQ-9 program of 
record was 65 combat air patrols. This was changed in the fiscal year 
2015 Defense Appropriations Act to 55 combat air patrols requiring 346 
aircraft. The fiscal year 2016 President's Budget request requests 60 
combat air patrols requiring an increase to 364 aircraft.
    Question. At one time the Air Force's MQ-9 fleet objective was over 
400 aircraft. Last year, it was reduced to a little over 340. In this 
year's budget the number is increased to 361. Do you consider your MQ-9 
fleet objective to be settled?
    Answer. No. The Air Force is unable to provide a final aircraft 
procurement total without a validated requirement for a finite number 
of combat air patrols (CAPs). Outside agencies have influenced the 
final CAP count over the last three budget cycles. AII indications are 
that this CAP volatility will continue for the foreseeable future.

                     Next Generation Air Dominance

    Question. ``The Air Force's budget request for fiscal year 2016 
includes $8.8 million to continue the Next Generation Air Dominance 
(NGAD) program begun last year. The Department of Defense also has 
announced an Aerospace Innovation Initiative (AII), described by the 
Under Secretary for Acquisition, Technology, and Logistics as ``a new 
DARPA led program in partnership with the Navy and Air Force, intended 
to develop technologies and address the risks associated with the air 
dominance platforms that will follow the F-35''. What is your 
understanding of the AII and how will this initiative interact with 
NGAD?
    Answer. The Undersecretary of Defense for Acquisition, Technology, 
and Logistics initiated the Aerospace Innovation Initiative (AII) to 
ensure that the United States can maintain air dominance in future 
contested environments. AII will develop and demonstrate technologies 
enabling cost-effective air warfare capabilities necessary to defeat 
future near-peer threats. AII builds on the earlier Defense Advanced 
Research Projects Agency-led/Air Force/Navy Air Dominance Initiative 
(ADI) that determined that no single new technology or platform could 
deter evolving adversary systems.
    Next Generation Air Dominance will leverage the developed and 
demonstrated AII capabilities that enhance persistence, survivability, 
lethality and connectivity in 2030 and beyond. Primarily through the 
Air Force Air Superiority 2030 Enterprise Capability Collaboration 
Team, NGAD will interact directly with AII as an essential complement 
to program efforts to pursue potential game-changing technologies and 
capabilities needed to maintain U.S. strategic advantage in air 
superiority.

                    Aggressor Training Requirements

    Question. Budget constraints and recent Air Force actions such as 
the deactivation of the 65th Aggressor Squadron raise concerns about 
the Air Force's ability to provide adequate ``red air'' training for 
pilots to achieve full-spectrum readiness. The Committee understands 
that the Air Force has taken some steps to consider the use of 
commercial air services to provide such training. Please provide a 
status report on the consideration of such services and the Air Force's 
intentions in this regard.
    Answer. The Air Force is considering commercial air services as a 
part of the solution to our current shortfall in aggressor capacity. 
Meanwhile, the F-16 Aggressors from the 64th Aggressor Squadron will 
continue to provide professional dedicated aggressor flying and 
academic support from Nellis Air Force Base. Air Combat Command has 
been leading a working group investigating solutions to the Nellis Air 
Force Base Adversary Air (ADAIR) deficit in the absence of the 65th 
Aggressor Squadron. The Air Combat Command Director of Operations is 
considering a potential trial to better ascertain the costs and 
benefits of a short-term ADAIR contract.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]

                                            Tuesday, March 3, 2015.

                          U.S. AFRICA COMMAND

                                WITNESS

GENERAL DAVID M. RODRIGUEZ, USA, COMMANDER, U.S. AFRICA COMMAND

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The committee will come to order.
    From the onset, I would like to recognize the ranking 
member, Mr. Visclosky, for a motion.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered.
    Thank you, Mr. Visclosky.
    It could be a rather short hearing this morning.
    And, General Rodriguez, thank you for being here. Members 
will come in as they are available. I explained to you that 
there are quite a lot of chairs and ranking members on this 
committee. But you have an important command, and we look 
forward to hearing from you.
    This morning, the subcommittee conducts a closed hearing on 
the posture of the United States Africa Command, a full-
spectrum combatant command responsible for all of the defense 
operations, exercises, and security cooperation on the African 
continent and surrounding waters.
    The command is important, primarily due to the growing 
presence of Al Qaeda, ISIL, and other terrorist organizations 
among the command's area of responsibility of 53 nations. The 
reality is that the African continent has become the new haven 
for extremism, presenting significant opportunities and 
challenges, including those associated with military-to-
military relationships.
    Regional instability within AFRICOM, combined with the 
expanded responsibilities for protecting U.S. personnel and 
facilities, have increased operational requirements.
    Today, we are pleased to welcome General David Rodriguez, 
AFRICOM Commander, a military leader with a very impressive 
understanding of his AOR.
    General, thank you for testifying again before our 
committee.
    Of course, the committee is concerned that certain African 
countries offer readymade havens for terrorist training and 
recruitment activity during a time in which our way of life has 
been threatened by those with radical beliefs. The area within 
your command is a prime target for terrorist activity because 
of its vastness and the large number of countries, many of 
which are ungovernable, dysfunctional, or have all of the above 
plus unmonitored borders.
    General, as you know, we face a truly challenging fiscal 
environment, but we must make sure that the budget we pass 
provides you with the tools and trained personnel you rely on 
to do your job. We look forward to getting your thoughts today 
on how we might best do that.
    We look forward to your testimony, but, first, I would like 
to call on my ranking member, Mr. Visclosky, for any comments 
he may wish to make.
    Mr. Visclosky. Chairman, I appreciate you bringing us 
together today.
    And, General, I appreciate your service and look forward to 
your testimony. Thank you very much.
    General Rodriguez. Thank you.
    Mr. Frelinghuysen. General, welcome, on behalf of the 
committee. And we have your summarized statement, and that will 
be put--we have your entire statement. That will be put in the 
record, and appreciate any comments you care to give to the 
committee.
    General Rodriguez. Okay, sir.
    Chairman Frelinghuysen and Ranking Member Visclosky, 
distinguished members of the committee, thank you for this 
opportunity to update you on the efforts of United States 
Africa Command.
    First, let me express my gratitude to you for your 
unfailing support to our servicemembers and their families. 
Their service and sacrifice underwrite our Nation's security in 
an increasingly complex world of accelerating change.
    Today, our Nation faces heightened strategic uncertainty. 
Strategic and military risks are significant and increasing. 
Evolving threats include the expansion of the Islamic State of 
Iraq and the Levant, a resilient Al

           *       *       *       *       *       *       *

    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]
    [The written statement of General Rodriguez follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       

                                          Wednesday, March 4, 2015.

         FISCAL YEAR 2016 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. ASHTON B. CARTER, SECRETARY, DEPARTMENT OF DEFENSE
GENERAL MARTIN DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS OF STAFF
HON. MIKE McCORD, UNDER SECRETARY OF DEFENSE, COMPTROLLER

                 Chairman Frelinghuysen Opening Remarks

    Mr. Frelinghuysen. Good morning. The committee will come to 
order. We are pleased to welcome the 25th Secretary of Defense, 
Ashton Carter. This is Mr. Carter's first appearance before our 
subcommittee as Secretary, although we know him well from his 
many years of service to our Nation.
    We also welcome back General Martin Dempsey. Thank you for 
your service as 4 years as the head of the Joint Chiefs of 
Staff. You are over close to, what, 41 years in the U.S. Army, 
your Jersey City roots and your--obviously your attendance at 
our premiere--one of our premiere military academies, West 
Point.
    I also welcome Mr. Michael McCord, who is making his first 
appearance before the subcommittee as the Comptroller of the 
Department. Gentlemen, welcome.
    As you know, our committee has, as always, two principal 
responsibilities: First, to provide the Department of Defense 
and the intelligence community with the resources they need to 
carry out their missions to protect America and our allies.
    The second responsibility is to ensure that our men and 
women in uniform, every one of whom has volunteered to serve, 
have the resources they need to defend our Nation and support 
their families.
    As we gather here this morning, both of those tasks are 
becoming more difficult. The threat environment facing America 
is complicated and more dangerous. The fiscal challenges are 
worse than ever before. As the Budget Control Act of 2011 
remains the law of the land, we find ourselves staring down the 
barrel of renewed tight budget caps.
    Mr. Secretary and General Dempsey, I completely agree that 
the BCA needs to be modified to avoid dramatic consequences and 
long-term negative impacts on our military capability. But 
unless and until the law is changed, this committee has no 
choice but to draft our bill to comply with the BCA caps, at 
least $37 billion below the President's budget request. So we 
will need to work very closely together to ensure the funding 
you are appropriated is sufficient to take care of our 
uniformed and civilian personnel, maintain your readiness at 
the highest possible level, and sustain our technological 
advantages. The decision this committee makes will help set the 
foundation for America's defense capabilities, not just for 
fiscal year 2016, but for many years to come.
    While there is much public focus and concern on the BCA and 
the sequester, choices are made or not made by our Commander in 
Chief every day that have a direct bearing on our defense and 
intelligence posture and this defense budget. After all, 
sequester did not create ISIS, that depraved, barbaric force 
that grew as a result of our premature withdrawal from Iraq. 
Sequester is not responsible for over 200,000 deaths in Syria, 
millions of refugees and displaced families throughout the 
Middle East.
    Sequester had nothing to do with the President's State of 
the Union declaration that the United States is no longer on a 
war footing. Sequester did not loosen sanctions on Iran and let 
that nation advance to the brink of a game-changing nuclear 
weapons capability. Sequester did not prompt Vladimir Putin to 
annex Crimea and send his troops to fight alongside separatists 
in eastern Ukraine. Sequester did not lead us to liberate Libya 
and then turn our back while the country devolved into a 
dangerous breeding ground for terrorists.
    Mr. Secretary, General Dempsey, we look forward to your 
comments and an informative question-and-answer period. In 
addition to your assessments of the Middle East and Persian 
Gulf, the subcommittee also wants to hear your views on the 
conventional and unconventional threats posed by China, Russia, 
Iran, North Korea, and nonstate actors, a/k/a terrorists 
groups, such as ISIL, al Qaeda, al-Shabaab, Boko Haram, and 
others, and the costs of meeting those challenges.
    In closing, Mr. Secretary, we must make certain that in 
meeting the demands of the fiscal austerity, we do not leave 
any question about our will and our ability to defend ourselves 
and our interests around the world. Without objection, your 
written statements will be introduced, entered into the record. 
So feel free to summarize your statements this morning. And 
with that, let me turn to my good friend, Pete Visclosky, the 
ranking member, for any comments he may wish to make.

                    Opening Remarks of Mr. Visclosky

    Mr. Visclosky. Mr. Chairman, thank you very much.
    Thank you very much, Mr. Chairman. I do appreciate you 
holding the hearing. Defense Secretary Carter and Under 
Secretary McCord, we do look forward to having your testimony 
before the subcommittee today, the first time in your current 
roles.
    General Dempsey, I do understand, as the chairman alluded 
to, today may be your last official appearance before the 
Defense Subcommittee as chairman of the Joint Chiefs. I would 
point out that your steady leadership has helped the services 
navigate some very turbulent years, and I and all of us thank 
you for your dedication and sacrifice both you and your family 
have made over the last 40 years.
    The crux of the challenge facing the subcommittee will 
undoubtedly be reconciling the Department's fiscal year budget 
request for 2016 with the significantly lower spending caps 
established by the Budget Control Act. While I am sure we will 
see attempts at finding relief from the constraints of BCA, I 
do not anticipate a significant change between now and when 
this bill is marked up, as there appears to be insurmountable 
obstacles blocking every path forward.
    Since it is our role to prepare legislation according to 
the law as it is today, I believe this subcommittee will be 
required to mark at a level that is $33.3 billion below the 
President's request. In order to accomplish that feat, having 
open lines of communication between the Department and Congress 
will be imperative. We need to make difficult and deliberate 
decisions to prioritize the limited resources available in 
order to minimize the risk to our Nation and the men and women 
in uniform.
    One area where we may need to find a consensus is the 
balance between readiness and modernization. It is my opinion, 
and my opinion alone, that the Department's budget favors 
modernization over readiness. This is best evidenced by the 
proposed growth in procurement and research and development 
versus more modest percentage increases in the accounts that 
tie directly to the readiness of forces.
    Last week we heard from the Navy, Marine Corps, and Air 
Force leadership regarding their ongoing struggles to recover 
readiness following the sequestration of 2013. For example, the 
Secretary of the Air Force, Secretary James, stated more than 
half of our combat Air Forces, half, are not sufficiently ready 
for a high-end fight. Further, the service leaders warned that 
returning to the BCA caps in fiscal year 2016 will only 
exacerbate the readiness deficit.
    Additionally, in the fiscal year 2016 budget request, the 
Department of Defense again proposes some significant 
initiatives to stem the growth in personnel-related expenses. 
These include proposed changes to basic allowances for housing, 
the commissary benefits, and TRICARE. In past years, with a few 
exceptions, these proposals have gained very little traction 
within the Congress. Again, my opinion only, I hope that as 
more Members of Congress accept the actuality of limited 
resources, that we will be able, Congress, to seriously 
consider some of these proposals that you have brought forth, 
as well as those brought forth by the Military Compensation 
Retirement Modernization Commission. Congress has a 
responsibility in this area as well.
    Finally, I am pleased that the budget sustains funding for 
financial audibility improvements. I wholeheartedly support the 
Department's reaching the 2017 goal for auditable financial 
statements, a tool that will help manage the finite resources 
that we have. And, again, gentlemen, I look forward for your 
testimony. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Mrs. Lowey, the ranking member of the full committee.

                         Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you very much, Mr. Chairman. I want to 
thank Chairman Frelinghuysen and Ranking Member Visclosky for 
this hearing. Also, I want to join my chairman in welcoming 
incoming Secretary Carter, General Dempsey, Under Secretary 
McCord, and the rest of our distinguished guests.
    The President's fiscal year 2016 budget submission for the 
Department of Defense is roughly $33 billion above the BCA 
level. Some of my friends on the other side of the aisle have 
stated their opposition to the funding levels and revenue 
portions of the budget request. I would respond that after this 
committee has cut $1.5 trillion in discretionary spending, 
excluding sequestration, are we really unwilling to close tax 
loopholes in order to invest more in transportation, 
infrastructure, education, job training, biomedical research 
and other R&D efforts, and the military?
    The world is quickly changing, requiring our continued 
commitment to the defense of this Nation, our allies around the 
world. Currently, we are fully committed in multiple operations 
on various continents. However, we struggle to provide funding 
that reflects this commitment. We face a determined and 
expanding presence with ISIS, decisions in Ukraine, policy 
decisions combating cyber threats, and training and assistance 
missions in Iraq and Afghanistan.
    Many of the personnel issues we faced in the past are still 
a concern to the military. Although sexual assault numbers seem 
to be improving, the overall problem still exists. We have 
several recommendations on force structure changes and military 
compensation reforms to consider. We are still working to 
prevent suicides, integrate women into combat positions, and 
obtain a fully interoperable electronic healthcare record 
system between DOD and the VA.
    I must tell you, I know there are major challenges in the 
world today. But I cannot understand how it has taken this long 
for DOD and the VA to get together. And as I understand, sir, 
you are still out. You still haven't selected a system, and why 
you can't use the same system as the VA is beyond me. The 
private sector, as I understand it in my conversations with 
many people, you get a chip, you go onto your next job, your 
whole record is there. We charge you with the responsibility of 
fighting wars, yet you can't get together with our own VA 
system and do it expeditiously.
    And, yes, I understand, you are about to make a decision. 
It has only been a year or more, but members of this committee 
and this Congress are very frustrated with the fact that this 
can't proceed more efficiently and expeditiously. The results 
of these efforts will ensure quality of life for servicemembers 
and their families, whether they stay in the military or 
transition to civilian life.
    So let me conclude by saying, fiscal uncertainty aside, we 
owe it to our military, the Nation, and our allies to ensure we 
prioritize and fund the most critical defense-related budget 
items. So thank you very much for being here. We look forward 
to hearing your testimony.
    Mr. Frelinghuysen. Thank you, Mrs. Lowey. Before turning 
the floor over to the Secretary, let me associate myself with 
your comments on the medical records. Department of Defense is 
about to embark on a multiyear $13 billion contract, and I 
think all of the committee members feel that that contract 
needs to be integrated with whatever the VA has and is looking 
forward to investing in itself.
    Mr. Secretary, good morning. Thank you for being with us. 
Congratulations on your new assignment.

                 Summary Statement of Secretary Carter

    Secretary Carter. Thank you, Mr. Chairman. And thank you 
and thank Ranking Member Visclosky for having me here this 
morning, and thank all the members of the committee for 
inviting me to be here with you today. While I have had the 
opportunity to speak with many of you before, this is my first 
time testifying to this committee as the Secretary of Defense. 
My care and respect for the men and women of the finest 
fighting force the world has ever known is as boundless as 
their skill and dedication. I know this committee shares the 
same devotion to them and shares responsibility for them and 
for the defense of our great country. And I hope that my tenure 
as Secretary of Defense will be marked by partnership with you 
on their behalf.
    I am here to present the President's budget for the 
Department of Defense for fiscal year 2016. And since I have 
been in the job for exactly 2 weeks and a day, it is plain that 
I did not have a role in shaping this budget. But I have 
studied it carefully, and I am fully prepared to answer your 
questions about it, and to work with you to find common ground 
where you have concerns.
    Most importantly, I strongly support the President in 
requesting a defense budget above the artificial caps of the 
Budget Control Act, that is, above so-called sequester levels. 
Next year and in the years thereafter, I share the President's 
desire to find a way forward that upholds the fundamental 
principles behind the bipartisan Budget Act of 2013. And I 
support the President's commitment to vetoing any bill that 
locks in sequestration, because to do otherwise would be both 
unsafe and wasteful.
    Before I turn to the budget to explain what I mean by that, 
allow me to share some observations from my short time on the 
job, observations that help reinforce my testimony here. 
Shortly after I was sworn in, I spoke to the people at the 
Department of Defense, military, civilian, and contractor, and 
I told them I had three commitments as Secretary of Defense. 
The first is to them and their families, to their safety, their 
welfare and their effectiveness, and equally to those who came 
before them and will come after them.
    The second commitment is to assist the President as he 
makes difficult choices about how to defend the country in a 
turbulent world, as the chairman has affirmed, and then to 
carry out those decisions where they involve the use of 
military force.
    And the third commitment is to the future, to make sure our 
military remains the very best in an ever changing world, amid 
fast moving technological and commercial change and, as we seek 
to attract new generations, to the wonderful mission of 
national security in our Department.
    Because of those commitments, I traveled at the end of my 
first week on the job to Afghanistan to visit our troops and 
commanders, and also the leaders of Afghanistan and some of 
their military leaders. I wanted to assess the conditions on 
the ground there as we enter a new phase of our long campaign 
and as we carry out the transition to an enduring presence that 
will ensure, as the President says, that our progress in 
Afghanistan sticks.
    Next, I traveled to Kuwait, where I met with the Emir 
before convening with senior American diplomats and military 
leaders from throughout the region, ambassadors from several 
countries, our commanders from Central Command, European 
Command, Africa Command, and Special Operations Command, and 
the commanders of the campaign in Iraq and Syria against ISIL. 
I wanted to hear directly from them about the complex political 
and military situation in the entire region, and about the best 
approaches to leveraging U.S. leadership of the broad coalition 
combating this ugly scourge.
    And this morning, I would be pleased to discuss these 
challenges or any others in addition to the defense budget. But 
the point is, that in these regions of the world, just as in 
the Asia-Pacific, in Europe, and elsewhere, it is America's 
leadership and America's men and women in uniform who stand 
between disorder and order, who stand up to militias and 
destabilizing actors while standing with those who believe with 
us in a more secure, just, and prosperous future for all our 
children.
    But this Congress will determine whether our troops can 
continue to do so. The administration is proposing to increase 
the defense budget in line with the projections submitted to 
Congress last year. By halting the decline in defense spending 
imposed by the Budget Control Act, the President's budget would 
give us the resources we need to execute our Nation's defense 
strategy. But--and I want to be clear about this--under 
sequestration, which is set to return in 211 days, our Nation 
will be less secure.
    Mr. Chairman, as you and your colleagues have said, 
sequestration threatens our military readiness--and that was a 
point that Ranking Member Visclosky made very accurately and 
pointedly a few moments ago--threatens our military's 
readiness, the size of our warfighting forces, the capabilities 
of our air and Naval fleets, and ultimately, the lives of our 
men and women in uniform. The Joint Chiefs have said the same 
before the Congress, and they could not have been more clear in 
their assessment of how sequestration would damage our national 
security.
    The great tragedy is that this corrosive damage to our 
national security is not the result of objective factors or 
logic or reason. It is not that we have some new breakthrough 
in military technology or a novel strategic insight that 
somehow provides the same security for a smaller budget. It is 
not that sequester is forced upon us by an economic emergency 
or a dire recession that makes taking grave security risks 
absolutely necessary. It is surely not the case that the world 
has suddenly become more stable or that America has less to do 
to keep it safe, allowing us to take a peace dividend of some 
kind. It is not even that these cuts solve the Nation's overall 
fiscal challenges, because the sad math is that they are large 
and sudden enough to damage defense, but fail to resolve our 
long-term fiscal issues and the real drivers of the deficit and 
debt.
    So sequester was not the result of objective factors. 
Sequester is purely the fallout of political gridlock. Its 
purpose was to compel prudent compromise on our long-term 
fiscal challenges, a compromise that never came. This has been 
compounded in recent years because the Defense Department has 
suffered a double whammy, the worst of both worlds, that has 
coupled mindless sequestration with constraints on our ability 
to reform. We need your help with both.
    I know that Chairman Frelinghuysen, Ranking Member 
Visclosky, and others on this committee are as dedicated to 
reform as I am. We at the Pentagon can and must do better with 
getting value for the defense dollar. Taxpayers have trouble 
comprehending, let alone supporting the defense budget when 
they hear about cost overruns, insufficient accounting and 
accountability, needless overhead, excess infrastructure and 
the like. There are significant savings to be found across DOD, 
and we are committed to pursuing them.
    But at the same time, I must note that in the past several 
years, painful but necessary reforms proposed by DoD, reforms 
involving elimination of overhead and unneeded infrastructure, 
retirement of older force structure, and reasonable adjustments 
in compensation have been denied by Congress at the same time 
that sequestration looms. I will work with Congress to resolve 
concerns and find common ground in these matters, but we must 
have your support.
    Sequester cuts don't help us achieve meaningful reform. In 
fact, the nature of sequester frequently leads to waste as, for 
example, when it forces a reduction in contract production 
rates, driving up unit costs. If confronted with sequestration 
level budgets and continued obstacles to reform, I do not 
believe that we can simply keep making incremental cuts while 
maintaining the same general set of objectives that have 
anchored our defense strategy. We would have to change the 
shape and not just the size of our military, significantly 
affecting parts of our defense strategy. We cannot meet 
sequester with further half measures.
    As Secretary of Defense, I will not send our troops into a 
fight with outdated equipment, inadequate readiness or 
ineffective doctrine. But everything else is on the table, 
including parts of our budget that have long been considered 
inviolate. This may lead to decisions that no Americans, 
including Members of Congress, want us to make. Now, I am not 
afraid to ask the difficult questions, but if we are stuck with 
sequestration budget cuts over the long-term, our entire Nation 
will have to live with the answers.
    So instead of sequestration, I urge you to embrace the 
alternative, building the force of the future powerful enough 
to underwrite our strategy, equipped with boldly new 
technology, leading in domains like cyber and space, attracting 
and retaining the best Americans to our mission, being lean and 
efficient throughout this enterprise, and showing resolve to 
friends and potential foes alike. I think we can all agree that 
the world in 2014 was more complicated than anyone could have 
predicted. Given today's security environment, the President's 
proposed increase in defense spending over last year's budget 
is responsible and it is prudent.
    I hope we can come together behind a long-term budget 
approach that dispels sequester and provides stability rather 
than doing this 1 year at a time. I hope we can again unite 
behind what our great Nation should and must do to protect our 
people and make a better world. And I hope we can provide our 
magnificent men and women of the Department of Defense, who 
make up the greatest fighting force the world has ever known, 
what they need and what they fully deserve.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The written statement of Secretary Carter follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    Mr. Frelinghuysen. General Dempsey.

                  Statement of General Martin Dempsey

    General Dempsey. Thank you, Mr. Chairman, Ranking Member 
Visclosky, other distinguished members of this panel and 
subcommittee. I appreciate the opportunity to provide you an 
update on the Armed Forces and to discuss our defense budget 
for 2016. Let me--I wasn't prepared, or I haven't even 
confronted the fact that this might be my last appearance 
before this committee, so let me thank you for the very kind 
words. And it has been a tumultuous 4 years with many 
challenges, but I have been surrounded by a great team made of 
service chiefs, service secretaries, Secretaries of Defense, 
and the great civilians that support us in the Office of the 
Secretary of Defense. And I can't think of another time in our 
history when I would rather have served, because I think 
service is a blessing and, in particular, when you feel like 
you can actually make a difference for our country and for the 
men and women who volunteer to serve. So thank you very much 
for the kind words.
    Our military remains strong today, but we can't and must 
not take that for granted. I will actually abbreviate my 
statement--I was doing that while you were speaking, Mr. 
Secretary--by deferring the many security challenges we face to 
the Q&A, to the question and answer. And I will just jump 
straight to a brief comment on the budget itself.
    The global security environment is as uncertain as I have 
seen in my 40 years of service. And we are at a point where our 
national aspirations are at genuine risk of exceeding our 
available resources.
    We have heard the Congress of the United States loud and 
clear as it has challenged us to become more efficient and to 
determine the minimum essential requirements that we need as an 
Armed Force to do what the Nation asks us to do. PB-16 is that 
answer. In my judgment, this budget represents a responsible 
combination of capability, capacity, and readiness. It is what 
we need to remain at the bottom edge of manageable risk to our 
national defense. There is no slack left. We have been working 
on the slack for the last 3 years. There is no margin of error 
nor any buffer built in to strategic surprise.
    Funding lower than PB-16 and a lack of flexibility--and 
what I mean by that is the reform measures that we have--
internal reform measures that we have proposed. By the way, 
this group of chiefs has made more proposals on changing pay 
compensation, healthcare, infrastructure, and weapon systems 
than any in history. It has been a difficult journey and a 
difficult debate on doing that. It has been difficult to 
communicate to our men and women serving why we have to do it. 
But we have taken that responsibility on and have made several 
recommendations to you on internal reforms, and we certainly 
need both the top-line increase that the President has 
provided, but just as importantly, the reforms that we have 
requested.
    If we get anything lower than PB-16 or if we don't get some 
of the flexibility that we have baked into the budget, then we 
will have to change our strategy. Now, that may not--that may 
be a bit abstract to you. I would be unhappy to unpack that a 
bit today. We think our strategy is what the Nation needs. And 
if we can't execute it, what I will be saying to you is that we 
are not doing what the Nation needs us to do.
    For the past 25 years, the U.S. Military has secured the 
global commons. We have been very effective at deterring 
adversaries. We have reassured our allies. And we have 
responded to conflict and crises by maintaining our presence 
abroad. It has been our strategy to shape the international 
security environment by our forward presence and by building 
relationships with regional partners. In general terms, one-
third of our force is generally deployed, one-third is just 
back, and one-third is getting ready to go. Of necessity, 
certain of our capabilities have actually deployed with half of 
the available capability forward and the other half back, 
recovering. This, as you know, puts a significant strain on 
those who serve in those particular specialties and their 
families.
    Sequestration will fundamentally and significantly change 
the way we deploy the force and shape the environment. We will 
be almost 20 percent smaller when all is said and done from 
where we started, and our forward presence will be reduced by 
about a third. We will have less influence and we will be less 
responsive. Conflict will take longer to resolve, and it will 
be more costly in both dollars and in casualties. In an age 
when we are less certain about what will happen next but we are 
very certain that it will happen more quickly, we will be 
further away and less ready than we need to be. Simply stated, 
sequestration will result in a dramatic change in how we 
protect our Nation and how we promote our national security 
interests.
    Mr. Chairman and members of this committee, our men and 
women in uniform are performing around the globe, as the 
Secretary said, with extraordinary courage, character, and 
professionalism. We owe them and their families clarity and, 
importantly, predictability on everything from policy to 
compensation, healthcare, equipment, training, and readiness.
    Settling down uncertainty--and, by the way, the reason I am 
so passionate about asking you to settle down our budget and to 
do as the Secretary said, get us out of this cycle of one year 
at a time is that I would like to have at least one variable in 
my life fixed. And I think the one that is most likely to have 
an opportunity to be fixed is, in fact, our resources. But in 
any case, if we do that, if we successfully settle down our 
budget uncertainty, get some flexibility and some time to 
absorb the reductions we have already been given, then, I 
think, we will keep the right people who are really our 
decisive edge in the all-volunteer force and maintain the 
military that the American people deserve and, frankly, expect.
    I am very grateful for the continued support of our men--
that our men and women in uniform receive from you and the 
Congress of the United States, and I look forward to your 
questions. Thank you.
    [The written statement of General Dempsey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                 RELATIONSHIP WITH IRAN REGARDING IRAQ

    Mr. Frelinghuysen. Respectfully, it may be implied in my 
opening statement, is clarity of foreign and military policy. I 
think members who looked at their Wall Street Journal headline 
yesterday, ``Iran Backs Iraqi Offensive As Pentagon Steers 
Clear.'' I know you were before the Senate yesterday. And I 
have to say, well, the untold story is that not only did we 
leave a vacuum for ISIS, but we have Iran in Iraq in a way that 
most Americans are totally unaware of.
    We have a public commitment to train and equip a complex 
group of Sunnis and Shiites. And what are the Iranians doing 
with the Quds force. They have trained and equipped and 
motivated thousands of people. And there is a strong 
likelihood, as they move on Tikrit and perhaps on Mosul, that 
you could have a total disintegration of the entire country. So 
there is a mixture of policy and resources. And so I do have a 
few questions.
    Are we neutral with Iran these days, considering the crimes 
that have been committed against humanity, not only our own? Is 
anybody ever going to hold Iran accountable? I know we are 
keeping our distance physically from them in Baghdad. Have we 
ceded most of the governance of Iraq to Iranian choices? It is 
a good question. And will the military operations that are 
undergoing, which we are watching, divide the country and 
require us in some ways to spend more of our resources?
    So I would like to talk about just a case in point. We can 
point to what is happening in Ukraine, our evacuation from 
Yemen, the terrible mess in Libya. But a lot of it is 
associated with a lack of clarity as to where we are, what our 
leadership position is. Could we focus on Iran?
    Mr. Secretary.
    Secretary Carter. Surely. First of all, Mr. Chairman, let 
me say that I absolutely share your concern about the role of 
Iran in Iraq and the wider region.
    Mr. Frelinghuysen. Yeah.
    Secretary Carter. But just to focus on Iraq for a moment, 
the--what created the vacuum and the opportunity for ISIL in 
Iraq was the re-emergence of sectarianism. And I think that, 
going forward, what we are trying to support, including in our 
train and equip, is a strong multisectarian Government of Iraq. 
That is our objective.
    Now, if you ask me, is that a sure thing, I would say no, 
and I would say that that is our objective; that is our hope; 
that is the only thing that can bring stability to Iraq, and I 
think it is the fastest route to the defeat of ISIL.
    Mr. Frelinghuysen. Some would suggest--I say this 
respectfully again--that the Shiites and the Sunnis, that there 
was--you didn't have to go too far below the skin to find the 
resurgence. I mean, the killings that were perpetrated in the 
period of time after we left Iraq would never be forgotten by 
those who--those in the country who were killed or maimed or 
kidnapped or slaughtered.
    Secretary Carter. No. I completely agree with you. And 
sectarianism is one of the things that concerns me very much. 
And, of course, it is the root of the Iranian presence in Iraq. 
And to get to around and around the region, you mentioned 
several other places where Iranian influence is concerning to 
us and we need to watch very closely. So I just share your 
concern about----

                    OVERSEAS CONTINGENCY OPERATIONS

    Mr. Frelinghuysen. And about the only area that we have to 
look for funds is the Overseas Contingency Operations, OCO. It 
used to be called the war on terrorism. Now it is the OCO fund. 
That is the only area where we have the flexibility to meet all 
these various challenges and enemies.
    Secretary Carter. Yes. Thanks in part to this committee, 
OCO has been a major source now for many years of the budgetary 
flexibility that we need to respond to new contingencies. So 
this year we are asking for OCO funding for the campaign 
against ISIL. We are asking OCO funding to continue the 
campaign in Afghanistan and make sure the success there 
sticks--again, not a sure thing, but something that we need to 
make sure sticks. And you mentioned Ukraine as well, the 
European reassurance initiative, all those----
    Mr. Frelinghuysen. Well, the issue here--my point is, and I 
will turn to Mr. Visclosky. What are our plans? I mean, hope is 
not a plan. We hope things go well in Iraq. In other parts of 
the world, things have not gone so well and people are sort of 
looking to us to see whether we are going to step in and 
provide some degree of leadership.
    Mr. Visclosky.

                     AUDITABLE FINANCIAL STATEMENTS

    Mr. Visclosky. Thank you, Mr. Chairman. The first comment I 
would make, and both Secretary and General Dempsey also alluded 
to it in referring back to my opening statement, Secretary, in 
your prepared statement you say, at the same time, Congress--
talking about the need to make decisions, particularly in the 
arena of personnel issues, has sometimes fought to protect 
programs that DOD has argued are no longer needed or required 
significant reform. Again, I agree with your assertion. I 
wouldn't suggest that the Department is always right in every 
characteristic. On the other hand, we simply cannot continue 
down this road as far as the allocation of your resources, 
whether at BCA level or we are $33 billion above. So certainly 
agree with that.
    Mr. McCord, I think my first question would be directed to 
you. I was very pleased to see that the statement of budgetary 
resources for the Marine Corps received an unqualified opinion. 
And, as I do every year when the Comptroller appears, I ask 
about the goal of achieving auditable results for the 
Department by 2017 and wonder where we are in that regard?
    Mr. McCord. Thank you, Congressman. We have taken a big 
step in December. We put--we went on contract, the Army, the 
Navy, and the Air Force had to follow in the steps of the 
Marines to do the statement of budgetary resources stage 1, 
which is called a schedule of budgetary activities. So we have 
gone from years of thinking about it, planning for it, to 
actually being in the game, having auditors on the ground who 
are now working with our military departments to tell them 
where we are up to par and where we are not up to par. And I am 
not sure we are going to like all the answers that we hear from 
that. But it is a big change to actually be doing it as opposed 
to planning for it. So that is really the big thing that we are 
working with our military departments on this year, is actually 
being under audit for not just the Marines, as important as it 
is, but the much bigger other three departments, other three 
services.

                    HEALTH OF THE NUCLEAR ENTERPRISE

    Mr. Visclosky. Appreciate it very much.
    Just one other question, Mr. Chairman, and that is on the 
nuclear component of the Department of Defense. The focus of 
much of the work that we do in relationship to the Department 
of Defense are from threats from powers we would not consider 
major powers, as lethal and as destructive as they are. And as 
we proceed, if you would, with the issue of modernization, you 
look at some of the issues that the Air Force has confronted as 
far as their bomber fleet, as far as the control of the silos. 
Are some of the triads, are we in danger of some hollowing out 
of them? And is there a reconsideration, given limited 
resources, as to whether or not a triad is what is still called 
for in the future?
    General Dempsey. Thank you, Congressman. The Joint Chiefs 
and I remain committed of the belief, and it is our advice that 
the triad remains an essential factor in our nuclear 
deterrence. And as you are well aware, I think the former 
Secretary of Defense conducted or directed a review of the 
nuclear enterprise. Because over the course of time when we 
were focused on, as you said yourself, on nonstate actors, that 
enterprise had--we failed to take appropriate attention to it 
in terms of its leader development, of its infrastructure, and 
its modernization.
    You will see in this budget, of course, that at the end of 
that review, the Secretary went forward to the President and 
requested additional top line for that very reason, and the 
President agreed to provide it. So if you are asking me about 
nuclear strategy--by the way, the man sitting to my left 
probably knows more about nuclear issues than anyone in the 
government. But from the military perspective, we remain 
convinced that the triad is the appropriate formulary for the 
nuclear enterprise.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.

                       ELECTRONIC HEALTH RECORDS

    Mr. Frelinghuysen. Chairman Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Gentlemen, welcome to the hearing. Mr. Secretary, 
congratulations----
    Secretary Carter. Thank you, Chairman.
    Mr. Rogers [continuing]. On your elevation. We wish you all 
the best in the world.
    Secretary Carter. Thank you, Chairman.
    Mr. Rogers. Let me briefly ask you--and I think it has been 
touched on already. I am sorry I am late to the hearing. We 
have had two others----
    About the electronic record system, medical records. People 
have heard me tell this before, and I apologize for that. But a 
young veteran came to me a few years ago from my district. He 
was severely injured in Iraq, lost one eye. The other eye was 
severely disabled, but he could still see. So he is discharged. 
His good eye begins to act up as well, so he goes to the VA 
Hospital in Lexington, and they do nothing because they 
couldn't get his records from the military, from DOD, from the 
operations that took place in Germany after he was injured. So 
they were afraid to operate because of what they didn't know 
was in there. So he lost his eye simply because the VA could 
not get the medical records of his service in the military. 
That is completely unacceptable to cause a young man to lose 
the sight in his eyes because of bureaucratic ineptitude.
    We have been on a tear on this committee now for a few 
years to straighten that out. DOD says, oh, yes, we are going 
to fix it. VA says, oh, yes, we are going to fix it. But they 
still keep to their own systems. And for the life of me, I 
can't understand why you can't interoperate between VA and DOD 
on medical records, of all things, because people's lives are 
depending on it. Could you help me out with that, Mr. 
Secretary?
    Secretary Carter. Well, I can help you out to the following 
extent. I completely share your frustration with this. I don't 
know this particular case, but the way I think about it is a 
Soldier, Sailor, Airman, or Marine, there is only one soldier, 
but there are two cabinet departments. They shouldn't have to 
worry about that.
    Mr. Rogers. Exactly.
    Secretary Carter. They shouldn't have to worry what we are 
doing here in Washington and so forth.
    Mr. Rogers. Yeah.
    Secretary Carter. And I am familiar with this situation 
from previous service, but I really want to work with Bob 
McDonald, our Chairman of Veterans Affairs. I think it is very 
important that they not see two different cabinet departments.
    And with respect to the electronic health records, we can 
make them interoperable. This is not something that is not done 
every day out in our society. There are lots of medical systems 
that merge, one bought by the other. It happens every day all 
over the country. It is a very dynamic part of our economy. It 
is a large piece of our economy. And there are many, many 
medical record systems that need to be merged. So, this is 
something that can be done and needs to be done so that there 
aren't cases like the one you cite. There is no technological 
barrier to making the two electronic health records 
interoperable.
    Mr. Rogers. Well, you know, Mr. Secretary, I thank you for 
that sentiment, but I have heard that for 8 years now from 
different Secretaries, VA Secretaries as well as DOD 
Secretaries. And nothing happens. And we have poured money into 
this. How much money have we put into it?
    Secretary Carter. There has been money.
    Mr. Rogers. Since June of 2008.
    How many billions?
    Mr. Visclosky. Several billions.
    Mr. Frelinghuysen. At least $2 billion.
    Mr. Rogers. So we are pouring money at the problem and why 
can't we get it fixed?
    Secretary Carter. I think we can get it fixed. I think we 
have to get it fixed, and I share your frustration about all 
those years and all of those dollars. And the work that has 
been done needs to be leveraged into a final solution here. It 
doesn't have to be the case that VA and DOD have the same 
system. They have to have interoperable systems. And again, 
this is something that the private sector wrestles with all the 
time, and there is no reason why we can't do it. And I just 
come back to the fundamental starting point, which is it is 
unfair to the servicemember to make them have to worry about 
how our government is organized.
    Mr. Rogers. I thank you, Mr. Secretary. And we will stay in 
touch with you on this, if you wouldn't mind.
    Secretary Carter. Absolutely. And I invite you to. And, 
believe me, I will pay attention to it.
    Mr. Rogers. Less than a year ago, the chairman and I called 
a meeting between the DOD Secretary at the time and the VA 
Secretary at the time, both of whom have since left, and they 
promised this immediate, speedy action. And I have yet to see 
one marble roll down the hill. So I know how tough this issue 
apparently is to the bureaucracies to give up a little bit of 
their turf to get a common system. But I have confidence that 
you will do this, Mr. Secretary.
    Secretary Carter. It shouldn't be tough, Chairman. And it 
is a fair question, and I will make sure I work it readily.

                    AUTHORIZED USE OF MILITARY FORCE

    Mr. Rogers. Let me switch gears completely and talk about 
AUMF. Two weeks ago, the President called on Congress to issue 
a formal authorization for the use of military force against 
the Islamic State, including authorizing the use of Armed 
Forces in the fight against ISIL, but with certain limitations, 
reporting requirements, and for only 3 years. Specifically, the 
draft would ``not authorize the use of United States Armed 
Forces during offensive ground combat operations.'' What is 
enduring?
    Secretary Carter. Excuse me. Thank you, Mr. Chairman.
    First let me just say, as I understand that there is going 
to be a debate over the terms of the AUMF, and I just want to 
say about something where I come from on that as Secretary of 
Defense. There are two things that are important to me in the 
AUMF, and the first one is that it give us the flexibility we 
need to defeat this opponent. That is the most important thing.
    And the second important thing to me is that the AUMF that 
emerges from this discussion be something that is widely 
supported so that our people who are conducting that fight see 
a country united behind them. That is terribly important. And 
so those are the two things that most important to me. You 
mentioned the 3-year item. That is not something that I would 
have deduced from the Department of Defense's necessities, the 
campaign's necessities, or our obligation to the troops. I 
think it has to do with the political calendar in our country. 
I understand that. That is a constitutional issue wherein the 
executive branch and the legislative branch share 
responsibility for the conduct of military operations.
    I wouldn't assure anyone that this will be over in 3 years 
or that the campaign will be completed in 3 years. The 3 years 
comes from the fact that there will be a presidential election 
in 2 years and so forth, and I respect that. That is not a 
military or defense consideration, but I respect it as a 
constitutional consideration.
    Mr. Rogers. Yeah. Do you anticipate putting additional U.S. 
troops on the ground in Iraq or introducing troops to Syria?
    Secretary Carter. I think that with respect to American 
ground troops, that is a question that will hinge upon what is 
required for success there. I think the Chairman has said--and 
I will let him speak for himself--but I would say the same 
thing, that we will make recommendations for the character of 
American assistance to this campaign that guarantee its 
success, and we will do that as the need arises. And that is 
certainly my view. And let me just ask the Chairman to----
    General Dempsey. What you can be assured of, Chairman, is 
that if the commander on the ground approaches either me or the 
Secretary of Defense and believes that the introduction of 
Special Operations Forces to accompany Iraqis or the new Syrian 
forces or JTACs, these skilled folks who can call in close air 
support, if we believe that is necessary to achieve our 
objectives, we will make that recommendation.
    Back to the AUMF, we believe we have that authority to make 
that request within the AUMF as it is currently crafted. And I 
get the question about enduring as well. The word ``enduring'' 
is not a doctrinal term in military lexicon. But I also have a 
master's degree in English literature from Duke University. 
``Enduring'' is clearly an expression of the Commander in 
Chief's intent within the document.

                       COUNTER TERRORISM STRATEGY

    Mr. Rogers. Mr. Secretary, at your conference last week at 
Camp Arifjan, reports were that you were seeking a deeper 
understanding of the strategy. You have previously said that 
you believe the U.S. must rethink its approach to countering 
terrorism in general, partly in light of the emergence of the 
Islamic State in Iraq and Syria.
    Given your concept of the U.S. strategy with regard to 
countering terrorism, would you please walk the committee 
through our current strategy and explain whether you have 
determined that alternatives are necessary?
    Secretary Carter. Certainly, Mr. Chairman, I will. Let me 
do it in three pieces: the Iraq piece, the Syria piece, and the 
regional or wider. All three of those were part of our 
discussions last week. That is the reason to have our 
diplomatic folks and our military folks from the entire region 
who worked this problem get together. And let me just say right 
at the beginning, I was so impressed with the wisdom at that 
table. I mean, you would be very proud, I certainly was, of 
team America in that region.
    And ISIL is obviously a difficult challenge. But our 
approach to it is in Iraq to work with the Iraqi security 
forces and the Iraqi Government to support a multisectarian 
government in Iraq that can, over time, reclaim the territory 
lost to these extremists and drive them out of the country.
    We were discussing earlier the issue of sectarianism and 
the problem of sectarianism in Iraq, and I am not sanguine or 
casual about that, but that is what we are trying to get the 
government of Abadi to pursue, and that is the spirit in which 
we are working with the Iraqi security forces.
    On the Syrian side of the border, we are also trying to 
train and equip moderate Syrian opposition. That is not as 
large an established institution as the Iraqi security forces 
is, nor is it--is there a sovereign government there that we 
are willing to support. On the contrary, the sovereign 
Government of Syria is the government of Bashar al-Assad, whom 
we think needs to go. That creates a much more difficult 
situation wherein we are trying to create a third force that 
can both combat ISIL and set the conditions for the eventual 
removal of Bashar Assad. So that is the effort on the Syrian 
side.
    In the region as a whole--and this gets to your larger 
question about the nature of counterterrorism--ISIL is now, we 
see, we observe popping up in other places. In fact, I was in 
Afghanistan and talking to President Ghani there, who is quite 
concerned about ISIL in Afghanistan. Why? What is going on 
there?
    Well, in his telling--and I think this is our understanding 
as well--there are a lot of extremists who--and terrorists who 
are rebranding themselves as ISIL who previously belonged to 
other groups, and they find that those groups don't offer them 
the same inspiration and ardor and radicalism that they crave. 
Some of these are younger people. And so they are turning to 
ISIL precisely because of its ugly nature. And so we are seeing 
that around, and that represents a social media-fueled 
phenomenon. And I think that that is a new dimension to it that 
we need to take into account. So I am sorry to go on so long, 
but it is obviously a complicated situation and evolving 
strategy.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Mrs. Lowey and 
then Ms. Granger.

                             CYBERSECURITY

    Mrs. Lowey. Thank you very much. Before I go on to my 
question, I just hope we have an opportunity to explore another 
time--and I know Ms. Granger and I are very focused on it in 
our committee--the social media fueling the terrorists. It 
seems to me that we should be able to combat that. And I know a 
new department was created at State, and we have BBG, but 
somehow we are failing at the task. But on to this committee, 
and one of the issues that has concerned me is the budget 
having to do with cybersecurity, $5.5 billion to increase both 
the defensive and offensive cyberspace operation capabilities 
and fund the development of the cyber mission force initiated 
in fiscal year 2013. This is a much-debated concern for DOD and 
our national security. However, I would like more clarity on 
the most critical areas of concern, and I would just like to 
list them quickly. And please comment if you will.
    If you could describe the primary risk faced by the 
Department of Defense in the cybersecurity realm? How will DOD 
work with other organizations, both government and 
nongovernment, to share cyber-related information? The budget 
indicates that measures are taken to increase the capabilities 
of the cyber mission force initiated in fiscal year 2013. If 
you can comment on that, the primary elements of the fiscal 
year 2016 budget in that regard. And is DOD able to recruit and 
train personnel with the requested skills to develop an 
effective cybersecurity force or do you find yourself in a 
position where you are subcontracting to the Apples and the 
Yahoos and the Googles, et cetera? If you could just explain 
the strength and weaknesses of our current force.
    Secretary Carter. I think----
    Mrs. Lowey. And I know we don't have an hour to respond, so 
please pick each question as you will.
    Secretary Carter. I will be brief as I possibly can. And at 
the risk of extending it even further, perhaps ask General 
Dempsey, who has also been working on this problem for a long 
time, to comment. I would say the primary risk is a cyber 
penetration or attack of our defenses, our defense systems. We 
depend abjectly upon our networks working for the effectiveness 
of our force. We use it all the time. It is what makes our 
planes, ships, and tanks, and all the other tangible equipment 
work together on today's battlefield. So we have to have 
protected networks because that makes all the rest of our 
military work. And by extension, we have to help protect the 
country, its critical infrastructure and its critical safety 
from cyber attack from outside. So defense is job one, defense 
within our own Department and playing our role in defense of 
the country, which gets to your second point.
    This is a whole-of-government thing. That is always 
awkward. It gets back to the health records, you know. You have 
several different departments involved in this. I believe 
strongly that--that we need to work in the Defense Department 
with law enforcement, the FBI, which has great capability in 
this area, with the intelligence community, with Department of 
Homeland Security, and--this gets to your last point and on 
this point I will close--with the private sector.
    Secretary Carter. Because the private sector owns and 
operates a lot of the networks that we work on. It is the 
source of a lot of the technology that we use and will use in 
the future. And we need to be open to the information 
technology industry so that we are using the best of what is 
there in the Department of Defense.
    And that gets to your last point, which is people. We are 
going to have to reach out. This is a domain or a field where, 
yes, we can train people for the cyber mission force, and we 
have been training them, but I think we will also continue to 
draw upon and rely upon the Silicon Valley, so to speak, 
community to support us in defense, as American high-tech 
industry has done for decades and decades and decades, 
supported the Department of Defense and been one of the reasons 
why we have had the technological lead as a military around the 
world.
    General Dempsey. And I will be brief, but this may be one 
that you would be interested in having us come visit you or 
send a piece of paper over to.
    We have--in fact, when Secretary Carter was DepSecDef, he 
and I collaborated 2 years ago on several initiatives that are 
coming to fruition.
    We are building a force within the Department of 6,800 to 
man our cybersecurity force. And that is in the CYBERCOM; it is 
also out in our combatant commands. You can think of it this 
way: We have a national mission force, if you will, or an 
organization into which private sector and military can plug, 
if you will, when cyber events occur.
    Of course, on the civilian side, they do so voluntarily, 
because we have not achieved legislation on information-sharing 
that incentivizes them to do so. I will come back to that in a 
second.
    And then we have response forces. Think of that as CSI, 
after-the-fact groups that go out and do the forensics of a 
cyber attack. You have had some examples of that recently.
    And then, finally, we have at the regional level in 
combatant commands, we have forces that conduct what is 
essentially cyber reconnaissance, if you will.
    So we have layered defense, and we do a pretty good job of 
protecting our own network. The challenge, of course, for us is 
that our network, especially in the unclassified domain, is 
largely dependent upon the welfare of commercial cyber 
architecture, which is very vulnerable.
    And that brings me to the issue of legislation, where, 2 
years ago, we made some recommendations on standards in 
information-sharing, unsuccessfully. I think that has been 
resubmitted recently.
    In the interim, the President issued an Executive order, 
which was very helpful and which we have implemented entirely. 
In fact, in some cases, the Secretary has raised the standard. 
So, for example, we had a problem with, quote/unquote, 
``cleared'' defense contractors who were working for us but who 
had no incentive to have certain standards of hygiene. And we 
have closed that gap within the Department. The Secretary and 
our director of acquisition, Mr. Kendall, have actually baked 
into every contract in which we engage now requirements for 
cyber standards and information-sharing.
    So we can do that internal to the Department. But, as I sit 
here today, my concern is that we are dependent upon commercial 
infrastructure, and it is not bulletproof, I promise you.
    Mr. Frelinghuysen. All right. We are going to try to 
tighten it up.
    Ms. Lowey.
    Mrs. Lowey. Let me just say thank you very much, and I look 
forward to getting a more in-depth briefing.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Well, thank you, Ms. Lowey.
    Ms. Granger.

                             SEQUESTRATION

    Ms. Granger. Thank you.
    Mr. Secretary, you and General Dempsey both have talked 
about sequestration. And I am going to tell you, I hate the 
thought of it. I think we are in the process of devastating our 
military. But the reason we are there is because of enormous 
frustration. And I thought as we started talking about the VA 
and DOD and what we have asked to happen--and it hasn't 
happened. And that frustration of not being able to move ahead, 
instead continuing spending, spending, and spending, is what 
got us to this, to the process of sequestration.
    I talked to Secretary Panetta personally several times and 
said, you must speak out and explain to people what this is 
going to do to our defense. And he said, it will never happen, 
and so I am not going to do that. It will never happen. And I 
think most of us thought it will never happen, and here it is.
    I listened so carefully, Mr. Secretary, to your opening 
remarks. And what you said, and given specifically, is: We can 
find the reforms. We shouldn't just cut and leave us without 
the money for cybersecurity, for instance, without the money 
for research and development. And that is what will happen. I 
mean, we will save personnel, we will save what we can. You 
say: Instead, do it the right way.
    Sometimes there is a person for the time. And your history 
and what you have done, your career, you can do that, because 
you have seen how it is put together. You are in a unique 
position to say, here is what we need to do. And it will take 
over several years; it is not going to be done in the first 
year.
    I would beg you to be the person that says, tear up that 
President's budget because it assumes that there is no 
sequestration. And, to us, stop what you are doing as you are--
we are designing a budget that follows the law, and 
sequestration is enacted.
    And, instead, you work--and we are doing it right now. The 
two men to my right, the chair of Appropriations, the chair of 
Appropriations Defense, the chair of the Budget Committee, and 
the leadership in the House--I plead with you to say, we can do 
this a different way, and we can do the savings, and we can 
look ahead.
    I can't believe that we are going to do this when the world 
is so dangerous. And you certainly know that, General. I mean, 
we have listened to everyone who has appeared before this 
committee, and all you have to do--you can't turn on the 
television any night that it is not just really a horror story, 
and I am not exaggerating.
    So, with your background, please do that. Give us another 
way forward. We really can prepare for the future, meet our 
risks, but take those things that don't work, like the medical 
records, which is so simple if you are committed to do it, but 
look at all the rest of it. You have been in acquisition for 
years, and you know what we spend. You know, if it took for the 
V-22, if it took over 20 years, well, you know that is the 
wrong way to do it.
    But what we are doing is we are cutting budgets, and then 
we are saying to the military, we are not going to leave you 
any flexibility just to do what is right and what we need to 
have done.
    So it is not so much a question as--I beg you, please, to 
do that. We have to be saved from ourselves.
    And if you would like to respond, you can. If not, you can 
say, we will move on.
    Secretary Carter. I very much appreciate the spirit of the 
question. I promise you that, when it comes to reform and waste 
in the defense budget, there is no one more committed to 
eliminating that than I.
    And with respect to flexibility, there I would simply say: 
I need your help. We all need your help. Because we have asked 
for flexibility now in past years in certain areas that I know 
were painful and have had that denied. And we need the support 
of Congress. At the end of the day, the power of the purse 
resides here. I know that we only propose a budget and that you 
will make the final decisions.
    And the last thing I would hope is that we can discuss our 
strategy, as well. We tried to put this budget together 
beginning with what the country needed, rather than with the 
history of recent years or budget discussions and so forth, but 
instead be strategy-driven.
    And I think that is an important principle, that we put 
what the country needs first, the many problems that the 
chairman has noted, the complicated world that we live in, and 
what our people actually need to succeed. Start there, and 
deduce the budget that we need from that.
    Mr. Frelinghuysen. We are going to go right to Ms. 
McCollum.
    Thank you, Ms. Granger.
    Ms. McCollum. Thank you, Mr. Chairman.

                      THREATS TO NATIONAL SECURITY

    I think we are going to get a chance to hear some more 
about this. I support the President's budget. It ends 
sequestration, and it is paid for. And if Congress really 
chooses to end sequestration, we can do that. We made it the 
law of the land; we can unmake it the law of the land.
    We have heard from some Members here quoting a statement 
from Admiral Mullen, who said in 2011 that ``I believe the 
single biggest threat to our national security is our debt. I 
also believe we have the responsibility to eliminate that 
threat.''
    So I have a question for each one of you gentlemen.
    General Dempsey, when you wake up in the morning, do you 
consider our Nation's debt our single biggest threat to our 
national security today? Does that trump ISIL, Iran, North 
Korea, or Russia in threats in your mind currently?
    General Dempsey. No, it does not.

                  EXCESS INFRASTRUCTURE AND FACILITIES

    Ms. McCollum. And before we were having a conversation on 
what we need to do with our defense budget, I want to be clear 
that, even though I believe in miracles, it is becoming very 
clear to me that the chairman has stated that the Budget 
Control Act funding levels will be the law of the land.
    Now, as I said earlier, I support the President's framework 
of his budget, and it is paid for. But what I don't support is 
lifting sequestration for defense and not doing it for the 
other parts of our national security--a quality education, good 
health care, and that--that our military men and women and all 
of us depend upon.
    So, I am kind of paraphrasing what you said, Mr. Secretary, 
and I agree with you, that every time Congress rejects an 
opportunity for the Department to save money by closing excess 
facilities--and I have a recent article that says you have 25 
percent bigger, you know--you have a huge footprint that you 
need to get rid of with excess facilities.
    When we fail to terminate outdated weapons that you have 
put forward to Congress or to make compensation reforms, we 
force you, then, we force you to go back and cut modernization, 
readiness, or personnel.
    So could you please maybe point out to us why it is 
important, especially with BRAC, that we are not having you 
carry excess facilities that no private-sector business would 
carry on their books, for example, and what this glut really 
means to you, with the weapons systems and that, about moving 
forward? Because we have to make some hard choices, not just 
you, Mr. Secretary.
    Thank you.
    Secretary Carter. Thank you.
    You have stated it very, very clearly, Congresswoman. We do 
have excess capacity. And it is true that, in the private 
sector, a continuing effort to cut costs and lean out an 
operation is just part of life and is part of competitive 
success. And here, of course, there is only one Defense 
Department in the country, so we are competing with ourselves 
to be more excellent and be more economical.
    And we do believe that we have excess capacity. That is one 
of the reasons why we have asked for help with BRAC and other 
things from the Congress. And we understand why those things 
are tough, but we have to move down this road to leaning 
ourselves out. It is important in order to get the most 
military capability for the dollar. I think it is also 
important to show our citizens that we don't ask for funds that 
are not directly related to the implementation of our strategy.

                               READINESS

    Ms. McCollum. Mr. Chair, if I could ask General Dempsey, 
with some of the weapons systems that we keep renewing and 
reauthorizing, how is that affecting your ability to really do 
readiness?
    General Dempsey. When the service chiefs approach me and 
say that, based on their restructuring initiatives, that they 
believe a certain weapons system has exceeded its useful life 
and the capability is being provided in some other way, I 
support them.
    And so when the Chief of Staff of the Air Force comes and 
says, we can provide close air support--I am a ground guy, I 
love close air support--when he can provide close air support 
and not have any gap in capability by retiring the A-10, I 
support him. Because we hold him accountable for building the 
force we need, and then he turns it over to the combatant 
commanders, with my help, to meet our war plans.
    So if we are keeping force structure that the service 
chiefs say is unnecessary to execute our strategy, it just 
consumes more of the Defense Department's budget, which could 
and probably should go someplace else.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Crenshaw.

                STRATEGIC DISPERSAL OF AIRCRAFT CARRIERS

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Mr. Secretary, since you have been on the job 2 weeks now, 
I think it would be appropriate that I initiate you into the 
group of new Secretaries of Defense about a lingering concern 
that other members of this subcommittee have heard me express 
from time to time. That is about the dispersal of our nuclear 
carrier fleet on the East Coast.
    Because in 2005, when our carrier fleet went all nuclear, 
we went from having two carrier homeports on the East Coast to 
only one. And the Navy decided they would do a study, which 
they did, because this consolidation--what impact it would have 
on our national security. And after a 2.5-year study, they 
decided that they should disperse these nuclear carriers on the 
East Coast because, as Secretary Gates had said, it has never 
been acceptable to have only one homeport on the West Coast and 
it should never be acceptable to do that on the East Coast.
    And so the Navy set out to create another nuclear homeport, 
called Naval Station Mayport. And after 3 years of doing 
construction projects--they had two more to do--the 
administration halted that program based on all these tight 
budget constraints.
    Now, the Navy hasn't changed their mind. They still stand 
by the goal of strategic dispersal.
    And so I just wanted you to be aware of that, go through 
the rite of initiation and hear that early in the job. And I 
hope you will take a look at that as we--I don't have any 
questions about aircraft carriers.

                      BALLISTIC MISSILE SUBMARINES

    I do have questions about submarines. And so, very quickly, 
I wanted to ask you about the Ohio-class submarine replacement 
program. This year, I think, in the budget there is almost $1.4 
billion for some research and development in that program.
    And I think that is going to be a program that is going to 
have implications not only for our strategic deterrence 
capability, but it could have implications for our entire 
shipbuilding program. Because we heard Admiral Greenert last 
week before this subcommittee talk about the fact that this was 
a huge priority for him and he would like to see it carried 
out, maybe even at the expense of some of the other 
shipbuilding programs. It would kind of suck all the air--all 
the money out of that program. And that is concerning, I think, 
to all of us in terms of the long term, that 30-year 
shipbuilding program.
    But I read, maybe before you got here, before you went on 
the job, the National Sea-Based Deterrence Fund was set up. And 
I guess that is a fund that recognizes that this submarine 
replacement program is not just a Navy problem, it is kind of a 
national defense program. I think they have done that before. 
And I guess that is good news, because that will help--if the 
DOD is partnered with the Navy in that, then they can continue 
their shipbuilding program.
    So the question is, that deterrence fund was set up but 
hasn't been funded yet. And so I wondered if you could tell the 
subcommittee what went into the creation of that fund and when/
if you plan on funding that. Because, you know, if you do, I 
think that would help us. I think some of the responsibilities 
the Navy has would be shared with DOD.
    So could you talk about that, how that is all going to work 
out? Because I think this whole Ohio-class replacement program 
is going to be really, really important.
    Secretary Carter. Thank you, Congressman. And I may not 
know all of the history, so I won't try to recount that, 
because I wasn't there, but I can learn more about that if you 
would like to talk about that further.
    But the fundamental thing you are raising, I completely 
share your and the Navy's and I think all of my predecessors' 
in this job and this department--we need a safe, secure, and 
reliable nuclear deterrent. The submarine force is a key leg of 
the triad.
    The Ohio-class ages out in the decade of the 2020s to 
2030s. There is nothing we can do about that. It has to do with 
hull life and the number of times it has contracted and 
expanded as it submerged and surfaced. So it has to be 
replaced. These things are expensive. We are trying to get the 
cost of them down so that it is not as big a bill, but it is 
still going to be a substantial bill.
    And you are right. It is so big during the period 2020 to 
2030 that it threatens other aspects of the shipbuilding 
program that the Navy has. That is a big problem for all of us 
going forward, because this is a critical need.
    The only thing I would say is how we label the money, it is 
still the money. It is still part of our defense budget. So if 
we need to do this, as I believe we do, we need to have the 
money for it.
    And that is something, like everything else in the defense 
budget, that--it shouldn't be in the defense budget in the 
first place if it is not a national priority, anything, 
including this. But it is. And this is a national priority, and 
it ought to be funded out of the defense budget.
    And, as I said, it doesn't matter so much how the money is 
labeled so much as that the money is there in that decade 
between 2020 and 2030 so that we can replace this leg of the 
triad that we really have to replace.
    Mr. Crenshaw. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Crenshaw.
    Mr. Israel.

                       IRAN'S NUCLEAR CAPABILITY

    Mr. Israel. Thank you, Mr. Chairman.
    Gentlemen, I want to shift the focus to an issue that has 
been in the news recently, and that is Iran.
    There has been a lot of talk about Iran's desire to acquire 
a nuclear capability. As Prime Minister Netanyahu stated last 
night, it is not just the weapon, it is the deliverables. You 
can have the best pilot in the world, but if a pilot doesn't 
have a plane, it is just a pilot.
    And I believe that both in the negotiations and in the 
public discourse there hasn't been sufficient attention given 
to Iran's missile program. And they have a very advanced and 
developing program.
    And so I would like to ask the Secretary, in particular, 
what is your assessment--and the General--what is your 
assessment of Iran's long-range and intermediate missile 
program? And what initiatives is the Missile Defense Agency 
taking to improve the overall performance of ballistic missile 
defense systems?
    And then I have another question about the funding in the 
President's budget for Arrow 2, Arrow 3, Iron Dome, and other 
programs with respect to Israel.
    Secretary Carter. I will start, and then, Chairman, if you 
would.
    This is a longstanding concern, the ever-growing, 
expanding-in-numbers-and-range Iranian ballistic missile 
program. It is the reason for our very close cooperation with 
Israel in missile defense, as we cooperate with Israel in 
everything in defense.
    This is a very important ally to us, our most important 
ally in the region. I have been doing this a long time, and we 
have a relationship that close with the Israeli Defense Forces. 
And that needs to continue. And missile defense has to--and 
will continue.
    And missile defense, an important part of it--you mentioned 
Iron Dome, you mentioned Arrow. I could mention Patriot, lots 
of other things that we do together, and we share capability 
there. It is a longstanding joint effort, and it will continue.
    Let me ask the Chairman if he wants to add anything.
    General Dempsey. Thanks, Mr. Secretary.
    So, on our side, Congressman, first of all, the ballistic 
missile capability of Iran is one of about five things that 
cause me great concern from a national security perspective--
you know, weapons, trafficking, surrogates and proxies, 
activity in cyber, ballistic missiles, and their nuclear 
aspirations.
    On our side, of course, the European Phased Adaptive 
Approach was an effort to anticipate that at some point they 
would achieve the ability to, you know, strike either our 
European allies or the homeland. And so we have shore-based 
ballistic missile defenses. We have ballistic missile defenses 
afloat with our Aegis cruisers and capable vessels, with the 
SM-3 missile, that are essentially geared to intercept these 
things at different phases of their flight. We have enormous 
ballistic missile defense capabilities in the Gulf, in Kuwait, 
in Bahrain, in Qatar, and in the United Arab Emirates. And so 
we are very much alert to that.
    I believe there are specific sanctions in place against 
their ballistic missile program that wouldn't be affected by a 
nuclear deal. But, yeah, we take it really seriously.
    Mr. Israel. Okay.
    Thank you, Mr. Chair.
    Mr. Frelinghuysen. I understand, Mr. Secretary, your staff 
advises me you might have to take a short break, which might 
put General Dempsey in the hot seat, relative to your recovery 
path for your----
    General Dempsey. I am going with him, sir.
    Mr. Frelinghuysen. There is no way in hell we are going to 
let you out of here.
    Secretary Carter. I don't want to leave my----
    Mr. Frelinghuysen. Yeah. We don't want it to be said that 
you turned tail and left, but if you need to take a break----
    Secretary Carter. I appreciate your consideration. I had 
surgery on the back. There is nothing I can do about it now. 
What is done is done. And there is a cut that big down the back 
of my back.
    Mr. Frelinghuysen. Yes.
    Secretary Carter. So I think that is why we asked to be 
able to take a few minutes----
    Mr. Frelinghuysen. If you care to take a few minutes, that 
is fine. I am sure that Mr. Calvert can handle--or, hopefully, 
General Dempsey can handle Mr. Calvert.
    Secretary Carter. No, let me just--let's just go ahead. 
That is fine. I will be fine.
    Mr. Frelinghuysen. Okay.
    Mr. Calvert. Thank you.

                           CIVILIAN WORKFORCE

    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    Good morning, Secretary and General Dempsey. First, I want 
to thank you for being here and thank you for your service. I 
have known you both for a long time, and I know you are up to 
the challenges, and we look forward to your continued support 
of the men and women in the military.
    And, as has been discussed thoroughly here, unless there is 
some kind of miracle that happens between the White House and 
those of us in the House and the Senate, we are going to be 
operating under the budget caps. And I hope the miracle occurs, 
but, as my dad used to say, hope is not a planning option. So I 
think everybody knows what I am going to talk about today.
    During your testimony this morning and the testimony we 
heard last week, the same message was delivered from each of 
the service chiefs and the Secretary: The President fiscal year 
2016 budget is the minimum amount of funding required to 
execute the Defense Strategic Guidance. Anything below that 
will imperil the military's ability to properly execute the 
President's strategy.
    At the same time, the BCA is the law of the land. Until 
that is changed, we must abide by it. So we have a serious 
funding gap between the strategy and the law.
    I do believe there are savings that exist inside the 
Department and should be part of the solution to alleviate the 
funding pressures on DoD. This is why I want to give you, Mr. 
Secretary, the mandate that will provide the savings and the 
authority to properly manage the civilian workforce, focus on 
attrition, targeted reductions in places, emphasis on 
performance.
    Now, there are other reforms, acquisition reform, which I 
know you have been working on for some time. I think you have a 
compensation board that has some ideas that I think would help, 
I think, in retention down the road and help in many ways and 
also save money and other ideas.
    But since 2001 we have cut the Active Force by 4 percent 
and we have grown the civilian workforce by 15 percent. 
Currently, the ratio of civilian employees to Active Duty 
personnel is at an all-time high--the highest since World War 
II. Bringing that ratio down to the historic norm, just the 
historic norm, would save the Department $82.5 billion over 5 
years. All these savings could be reinvested right back into 
the Department to help alleviate the impact of the BCA.
    We have not hesitated to cut our Active Duty force, and cut 
it too far in my opinion, but I cannot get a public concession 
out of anyone at DoD that we should have a proportional right-
sizing of the civilian workforce. As the new Secretary of 
Defense, I would like to hear your thoughts on that.
    Mr. Frelinghuysen. You may want to take your break now.
    Secretary Carter. No, no, no. I appreciate your 
consideration, Mr. Chairman. I will be fine. Thank you.
    Well, I, actually--I am with you. I think we should go 
after excess wherever we find it in the Department. And the 
civilian workforce, like the military personnel end strength, 
has to be something that we scrutinize and reduce. And I think 
we can reduce the civilian workforce, and I will give you a few 
reasons why I say that.
    The civilian workforce grew from about 700,000 to up 
towards 800,000 in the decade since 9/11, so about 100,000 
people. That wasn't just a random increase. These were 
specifically targeted things, which made a lot of sense, like 
cyber, like our acquisition workforce, like in-sourcing, if you 
remember in-sourcing, which was to bring jobs into the 
government specifically so that they weren't conducted by 
contractors, and so forth. So, for all these perfectly good 
reasons, 100,000 people were added.
    My problem with that is that 100,000 people weren't--nobody 
reached in to the existing force and said, well, let's add 
these people, but let's meanwhile see whether there aren't some 
jobs that can be eliminated and reduced. That didn't happen, 
because there was lots of money throughout that decade. Now we 
need to change that dynamic.
    And I think that it particularly affects--and this, I 
think, is where you were on--the headquarters, I will call them 
some staff functions. Because remember, most of our civilians--
we tend in Washington to think of a civilian DoD employee as 
someone who sits at a desk in the Pentagon. Eighty-five percent 
of our civilians don't live in the Washington metropolitan 
area. They fix airplanes. They are not sitting at desks. They 
are repairing ships and so forth. And so they perform essential 
functions.
    But where the headquarters staffs are concerned, both 
military and civilian, I think we can make cuts there, and we 
have to make cuts there. So I am with you in that regard.
    Mr. Frelinghuysen. Would you yield to Mr. Visclosky?
    Mr. Calvert. Sure. I would be happy to yield.
    Mr. Frelinghuysen. No, I thought we might be doing----
    Mr. Calvert. I just wanted to make a point, that most of 
the 100,000 additional employees have been brought up since 
2008, over 100,000 personnel, civilian workforce. And I am not 
talking about depots and wrench-turners and folks working in 
shipyards. And I don't know if, General--I would just like to 
give you the flexibility.
    I am not talking about across-the-board cuts. I am not 
talking about that type of activity. But, as a private-sector 
guy, you are managing a pretty good size enterprise, that you 
ought to be able to have the flexibility to look at 
performance--that is a part of it--but also be able to buy out 
contracts and have reductions in force if it is necessary and 
give people the opportunity to retire if they choose to.
    That is what we are talking about. Because we need to keep 
the money in the Pentagon to give it to General Dempsey and to 
the other service chiefs to keep the end strength up and to 
procure.
    Mr. Frelinghuysen. If we could get an answer for Mr. 
Calvert, a more specific answer.
    And thank you, Mr. Calvert.
    We are going to Ms. Kaptur via the ranking member for----
    Mr. Visclosky. Just to follow up, because the gentleman's 
point of anyone who is working for the Department or any other 
Federal agency, including Congress, ought to have a 
justification for their existence is part of the tension as far 
as whether it is a Federal employee or a contractor, the issue 
of the inherent nature of the governmental work, as well?
    Mr. Frelinghuysen. A short response if----
    Secretary Carter. That is relevant. That is one of the 
reasons why in-sourcing was initiated. And that did contribute 
to the increase in the civilian workforce, and that is a 
perfectly legitimate reason. But I also believe what was just 
said, which is we need to be disciplined about this.
    Mr. Visclosky. Thank you.
    Mr. Frelinghuysen. Okay. Thank you.
    Ms. Kaptur and then Mr. Womack.

                                UKRAINE

    Ms. Kaptur. Thank you, Mr. Chairman.
    General Dempsey, thank you for your service to our country.
    And, Secretary Carter, thank you so very much for your 
service, as well.
    I will just ask my questions, and then I would appreciate 
your response.
    First, General Dempsey, you refer in your statement to 
heavy-weights, middle-weights, and other weights. And in terms 
of the heavy-weights, Russia being at the top of the list, in 
the event of movement by Russia deeper into Eastern and Central 
Europe, who is responsible for the command of joint forces in 
that instance?
    Last year, Congress directed $75 million to the European 
Reassurance Initiative for programs, activities, and assistance 
to support the Government of Ukraine. It is my understanding 
none of those funds have been obligated thus far. Could you 
please explain the status of that funding, the reason for the 
delay, and how this assistance will be provided moving forward? 
And is the European Reassurance Initiative the primary 
mechanism, or is there other funding, as well?
    Then my second arena of questioning deals with ISIS. As I 
observe the ongoing battle in Tikrit, how do we beat ISIS 
without defaulting into an alignment with the Shia and Iran? It 
seems to be a most combustible situation, not just militarily 
but politically.
    General Dempsey. Thank you, Congresswoman.
    The C2, command and control, of NATO forces resides with 
General Phil Breedlove, the Supreme Allied Commander in Europe, 
who is dual-hatted as the European Command Commander. And in 
the event of an Article 5 issue with regard to whatever it 
happens to be, he would have control of U.S. forces, and he 
would also have responsibility for coordinating our activities 
with NATO.
    Ms. Kaptur. What has happened to the $75 million to this--
--
    General Dempsey. First of all, we appreciate that. And what 
we have been doing is working with our European partners on the 
menu of reassurance activities, the growth of a very high 
readiness task force, additional equipment, prepositioning, all 
of which takes collaboration and coordination with our European 
allies.
    I want to make sure you know that we haven't been idle in 
the interim. What the services----
    Ms. Kaptur. You mentioned NATO very prominently in your 
testimony.
    General Dempsey. Absolutely, because I think anything we do 
in European should be by, with, and through NATO, because that 
is the foundation of NATO's purpose.
    But, anyway, the services have been cash-flowing from their 
account activities that they are doing. We have soldiers in 
Latvia, Lithuania, Estonia right now, and Poland. Services are 
cash-flowing it. We are catching up with it, using the European 
Reassurance Initiative.
    So I assure you we have--although you may not see on the 
books that this money is being committed, but it will be 
committed.
    Ms. Kaptur. I will tell you, I am befuddled by the fact 
that, for example, in the area of telecommunications, the 
Ukrainians are completely underserved. I, frankly, don't 
understand it. And you would think that, you know, at least you 
ought to give them a fighting chance.
    So I just see that that particular--and the advance of 
Russia, in many ways setting up within some of our NATO-allies 
countries new Internet and radio sites in the native language, 
Russia, and an obvious aggressive move in that part of the 
world in telecommunications and other ways.
    I see us as very--and I understand the danger of this, but 
it just seems to me we could be a little more directed.
    And I know General Breedlove is coming up here, I think, 
Mr. Chairman.
    Mr. Frelinghuysen. He is, yep. And I share your sentiments. 
We should be giving non-NATO allies support to Ukraine. I have 
written the President three times; we don't get any answers 
back. But we need some activity in that regard.

                               ISIS/ISIL

    Ms. Kaptur. Thank you, Mr. Chairman.
    On the Shia and Iran, could someone address that? How do we 
beat ISIS without aligning with the Shia and Iran, which 
appears to be happening, certainly in the Tikrit operation?
    General Dempsey. Well, if I could, Congresswoman, let me--
by the way, I think we spoke past each other in the last 
question. I was talking about NATO and Article 5. You were 
actually focused on Ukraine.
    We have given $100 million in nonlethal assistance. We are 
in active discussion right now about training nonlethal and the 
possibility of lethal aid. And that is an active conversation 
ongoing right now inside of the interagency.
    Shia. The real key to defeat ISIL is actually convincing 
the Sunni that they should not embrace this group because they 
have a future in Iraq. And we are actively working, our 
diplomats over there--General Allen, Ambassador McGurk--are 
working to ensure that the governance piece of this in Iraq is 
progressing as rapidly as the military piece of it, because----
    Ms. Kaptur. Well, General, if I could just insert----
    General Dempsey. You can.
    Ms. Kaptur. Going to Tikrit, which is a Sunni tribal 
homeland, right----
    General Dempsey. Right.
    Ms. Kaptur [continuing]. With Iranian forces and Iranian 
generals----
    General Dempsey. Right.
    Ms. Kaptur [continuing]. Is going to send a message that is 
going to create deep political problems, don't you think?
    General Dempsey. It could. Right now, the Sunni members of 
parliament and the local tribal leaders, the mayor of Tikrit, 
are all supportive of this because they want to rid the terrain 
of ISIL.
    You are exactly right, though. We are watching carefully. 
And if this becomes an excuse to ethnic-cleanse, then our 
campaign has a problem and we are going to have to make a 
campaign adjustment.
    Ms. Kaptur. I wanted to just finally say, Mr. Chairman, as 
I view that part of the world, people on the ground are afraid 
to commit.
    I heard what you said, Mr. Secretary, about Afghanistan and 
changing, the people going to ISIL as opposed to Taliban and so 
forth. They go to the strongest force. And so, if X force is 
the strongest, those young men will go there. At least, that is 
my experience.
    So I just wanted to put that on the record. I am very 
concerned about what is happening.
    Mr. Frelinghuysen. Thank you, Ms. Kaptur.
    Mr. Womack.

                    STRATEGY IN IRAQ AND AFGHANISTAN

    Mr. Womack. Thank you very much, Mr. Chairman.
    And I thank the gentlemen.
    Congratulations, Secretary, for your appointment and your 
new duty.
    I have a couple of things.
    One, you said in your opening remarks, Mr. Secretary, that 
when you took the helm, that you said to the people of the 
Defense Department that you were going to take care of them, 
that you were going to keep them safe. That was--I am 
paraphrasing--that was your first priority.
    Help me understand how telegraphing what we will do or what 
we won't do in a potential conflict contributes to the safety 
of the men and women that are going to go downrange for this 
country.
    Secretary Carter. Well, I mean, as a general proposition, I 
am not in favor of telling people what we won't do. Let them 
guess.
    And on top of which, when you are carrying out a campaign 
like this, you are constantly deciding what you are going to do 
and what you are not going to----
    Mr. Womack. The AUMF has kind of a 3-year timeline. We have 
talked about the political calendar. I am not real sure that 
that is appropriate, given the conditions that we are dealing 
with over there.
    But, General Dempsey, you yourself, I kind of captured, 
were a little measured in your remarks about what we would be 
willing to commit to doing with regard to boots on the ground. 
Because you specifically limited it or didn't say anything 
beyond special operators or JTACs. Those were the two things 
that you mentioned that we would consider that would 
effectively be literally boots on the ground.
    Are we saying that we are not willing to put a brigade 
combat team on the ground? Are we willing not to put other 
types of unit force structure on the ground?
    General Dempsey. I don't consider that the AUMF limits the 
size of the force that we would put on the ground.
    Frankly, if we have to put a brigade combat team on the 
ground, then the campaign as currently designed has failed. 
Because the campaign as currently designed relies on them to do 
the work that they need to do--that is, the Iraqis and the 
Peshmerga and the Sunni tribal leaders. And I think that the 
more we can reinforce with our messaging that this is their 
fight, we will enable it and support it, the better off we are.
    Mr. Womack. It has been my opinion that we have telegraphed 
some of our military moves down through the years, and I don't 
know that that has worked to our advantage.
    You also said, Mr. Secretary, that you believe that a lot 
of the conditions with which ISIS or ISIL, whatever we--IS--
whatever we refer to the organization--was enabled by a 
proliferation of sectarianism, in so many words.
    Did we not contribute to that? I mean, we did pull out. We 
didn't have a security agreement. We didn't have a status-of-
forces agreement. We just basically left--a very popular move 
that was based on a lot of political promises that were made, 
but we left.
    Now, as we start this process--in the middle of the process 
of drawing down in Afghanistan, we have apparently changed 
course just a little bit. Maybe we have had some lessons 
learned. Is that true?
    Secretary Carter. Well, sectarianism is the reason why ISIL 
was able to overrun western Iraq. And the fact of the matter is 
that the Government of Iraq, in the way it governed and the way 
it managed the military over the last few years, has fueled 
sectarianism by driving out competent leaders, by certainly 
appearing to the Sunni tribes to be biased against them. That 
is the legacy of the last few years.
    Now, you asked--I mean, if I contrast it with the situation 
in Afghanistan today, where I just saw President Ghani, they 
are asking us to stay. They have signed a bilateral security 
agreement. We did not have a bilateral security agreement. But 
the critical factor was sectarianism under the previous 
Government of Iraq.
    And this is why in response to an earlier question I said 
we really have to watch this very closely, because this is--and 
I think General Dempsey said we would have to rethink the 
campaign under some of these circumstances. This is why we need 
to watch very careful what is going on in Tikrit.
    It is true that Sunni leaders have expressed support for 
what is going on in Tikrit. That gives me some visibility into 
the multisectarian nature of this particular offensive. But 
this is something we really have to watch, because it is the 
key to getting control over territory of Iraq again and getting 
these guys, this ISIL thing defeated.
    Mr. Womack. I thank the gentleman.
    Mr. Frelinghuysen. Better be watching Iran and the Quds 
Force, too.
    Mr. Ryan.

                        DEFENSE INDUSTRIAL BASE

    Mr. Ryan. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. Bad backs are awful things to 
have to deal with, so thank you for sucking it up for us here.
    And I know Ms. Granger mentioned that this is a moment for 
you and you are uniquely prepared. So I looked at your history, 
and I was reading through, and I am not sure if she was 
referring to the fact that you have a bachelor's degree in 
medieval history and that makes you uniquely prepared to deal 
with the United States Congress.
    With the Presidential request, the budgetary request, I am 
just looking through the procurement and modernization 
programs: 57 Joint Strike Fighters, $10 billion; 16 P-8 
Poseidon naval surveillance/antisubmarine warfare aircraft, 
$3.4 billion; Hawkeye aircraft, 5, $1.3 billion; 9 ships for 
$11 billion; a bunch of retrofitting, overhaul refueling of USS 
George Washington; R&D for Ohio-class replacement, $1.4 
billion; KC-46 tanker, continuing to develop that for $3 
billion; long-range strike aircraft development, $1.2 billion; 
Ground-Based Interceptor reliability improvement, $1.6 billion.
    These all, to me, seem like essential needs, given the fact 
that I have been on this committee for a few years and was on 
the Armed Services Committee and have seen the deterioration of 
our capabilities in so many different ways. The issue: We don't 
have the money.
    And so part of it is to try to get the message out of 
exactly what is happening. And I don't think any of us have 
done a very good job communicating to the American people that 
these needs are essential for us. You know, all these questions 
that go up and down the line--Iran, ISIL, Ukraine, Syria, on 
and on and on and on--are all urgent needs. And we are in the 
middle of all of this, and we don't have the dough.
    So part of this has got to be for us, at a moment where we 
have a huge concentration of wealth in our country--and you 
can't have this discussion without having the broader 
discussion of, where are we going to get it? But I think if the 
American people knew exactly where we were and the road we are 
going down, I think it may be easier for us to make an argument 
for how we maybe generate the revenue and make the cuts 
primarily to help make this happen.
    One area that we are working on in my district in 
Youngstown, Ohio, is the President's first additive 
manufacturing institute. Seeing that we have made some 
investments with the Air Force program, Youngstown State 
University, University of Dayton, with AmericaMakes, I am 
seeing huge possibilities for cost savings with the military 
making the kind of investments needed to drive down cost for 
procurement and replacement parts and all the rest through 
these investments in additive manufacturing.
    If you would talk to that briefly.
    And then another question--I will just throw them out at 
you now so you can kind of hit them both--the defense 
industrial base. And I know that does hit your background, the 
S2T2 study, sector by sector, tier by tier. Is this something 
that is going to continue?
    To me, we are spending a lot of money. How do we keep it in 
communities that we represent to make sure we have the supply 
chain available and qualified to delivered the kind of 
equipment at the quality that you need it?
    So additive manufacturing, AmericaMakes, and the supply 
chain.
    Secretary Carter. Very briefly, the defense industrial base 
is a critical--it is, next to the excellence of our people in 
uniform, what makes our military the best in the world. And 
that is something that you could take for granted. The way we 
do things in this country is we count upon the private sector 
to provide us with technology and with systems, and we need to 
make sure that we continue to be supported by a robust 
industrial base. That is a concern and a preoccupation of mine, 
and I share that, absolutely, with you.
    Manufacturing institutes are an example of a step we are 
taking to make sure that excellence in production remains part 
of our defense industrial base. Additive manufacturing is one 
new type of manufacturing. And, of course, it is related to the 
bigger question of making sure that America's role in the world 
economy remains a leading one, a strong one, and one that all 
of our people manage to share in.
    So it has a bigger national purpose, but for us in defense, 
it is in order to make sure that we continue the excellence in 
production.
    Mr. Ryan. The S2T2 study is--do we have status and outcomes 
that have come from that, their weaknesses within the context 
of how we evaluated what is happening and, you know, what can 
we do better?
    Secretary Carter. There are. And so, just to define that 
study, that was a study that tried to look at the tier-by-tier 
part, which is the prime contractors and the subcontractors, 
parts suppliers and so forth, as well as different sectors--
aerospace, shipbuilding, and so forth.
    The tiers are relevant because you can have a situation 
where the prime contractors are very healthy--which, in 
general, ours are today--but down at the lower tiers there is a 
diminution in number of suppliers, technology competence or 
sophistication of the supplier base, and so forth. And that is 
something that was uncovered by this study and, therefore, 
something also of importance to us.
    Mr. Ryan. And I am running out of time, but I would love to 
talk----
    Mr. Frelinghuysen. You actually have run out of time.
    Mr. Ryan. I see that red light on there, Mr. Chairman. 
Thank you.
    Mr. Frelinghuysen. Okay. Well, thank you very much, Mr. 
Ryan.
    Judge Carter.

                         SEQUESTRATION IMPACTS

    Mr. Carter. Thank you, Mr. Chairman.
    And welcome.
    Secretary Carter, I like your name and hope you are very 
successful, so if you are, I will go back to Texas and claim 
you as a cousin.
    General Dempsey, good to see you again. Thank you for your 
service.
    I am all about the soldier, the ground forces. I have Fort 
Hood in my district. We talked about it; I think it has been 
made clear. We know your position on the President's budget and 
the numbers, but BCA is the law of the land. And, therefore, if 
we exceed the caps, we are going to be talking about sequester, 
which I hate, everybody at Fort Hood hates, and everybody in my 
district hates.
    But I need to know--I am curious. Our current national 
security strategy, it is flexible, but is it flexible enough, 
in light of what we may be facing with BCA, that we will have--
what is the strategy that you envision--and either one of you 
can answer this--if we have to cut the Army and the Marine 
Corps to an unacceptable ground force? And I think we are 
verging on the edge of that, in my opinion, right now.
    And then I want to point out, and I think you all know 
this, you don't just go out and hire sergeant majors and you 
just don't go out and hire lieutenant colonels. We are 
hollowing out the force. And the concern is, what is the 
strategy about that real problem?
    And I learned about something from folks at Fort Hood 
called Task Force Smith, and we don't want any Task Force 
Smiths.
    So I want to know the plan if we are in that situation. 
Not, "We need more money." We know you need more money. But 
what is the plan if we have to be there? Because I am worried 
about the individual soldier.
    Secretary Carter. Well, you should be, because that is one 
of the consequences of a budget reduction as rapid and as 
sudden as called for by sequester.
    Task Force Smith was an example, a historical example of 
troops being sent into battle who were not ready and were not 
adequately trained.
    Mr. Carter. Right.
    Secretary Carter. But we never should do that. That is an 
unconscionable thing to do.
    You mentioned attrition among some of our very best people 
because of the forces having to downsize--another casualty that 
cannot be quickly reversed of the suddenness and severity of 
the cuts of sequester.
    The connection to strategy is this: We are going to have to 
go back to our strategy, and if the time for squeezing, 
squeezing, squeezing is over, we are going to need to look at 
our fundamental defense strategy and our national security 
strategy and ask ourselves difficult questions about what we 
can't do, or can't do to the extent this country has become 
accustomed, if we have sequester.
    That is the warning that I am trying to sound and I hope is 
understood and heeded not just here by people like yourself who 
are expert but by the country as a whole.
    Let me ask General Dempsey to join in.
    General Dempsey. Yeah. Real briefly, sir. Because we have 
worked this for 4 years, the chiefs and I. And it has been our 
current strategy--we have built in a degree of simultaneity. We 
can do more than one thing at a time. So the first thing that 
begins to erode and disappear is simultaneity. We are going to 
be less likely to be able to do more than one major thing at a 
time.
    Secondly, I mentioned in my opening remarks that right now 
our paradigm, if you will, for the deployment of the force is 
that we try to have about a third of the force forward deployed 
to shape events so that we are not reacting but rather shaping. 
And that is going to be reduced by, we think, about 40 percent.
    The last thing--and if you want to plant something in your 
head on this, I am going to guess that you are probably a 
Longhorn football fan. I am just guessing.
    Mr. Carter. That is a questionable, but go ahead.
    General Dempsey. Are you an Aggie fan?
    Mr. Carter. Texas Tech, but that is all right.
    General Dempsey. Okay. So----
    Mr. Frelinghuysen. You didn't do your intel before you 
came.
    General Dempsey. Yeah, I know, I know.
    Mr. Frelinghuysen. Judge Carter is a very tricky man.
    General Dempsey. A Red Raider fan. But I will tell you, the 
analogy works nevertheless. Unlike football, where teams love 
to play a home game, our job is to make sure that everything we 
do is an away game.
    Mr. Carter. Right.
    General Dempsey. And I am telling you, Congressman, we are 
at risk of starting to play a bit more of a home game than we 
should be comfortable with.

                       ELECTRONIC HEALTH RECORDS

    Mr. Carter. And that was the reason I was asking. And I 
knew that the Pentagon does scenarios, worst-case-scenario 
situations, and I have talked to General Odierno about that. 
But I want to make sure you are planning for it, because until 
we fix the Budget Control Act, we are not going to be able to 
do much with what we have.
    I want to make one more suggestion to you on the medical 
issue that--I have been up here for all this, too. I come from 
a high-tech area of Texas, where we have a lot of techies. And 
I have talked to some folks, and they say that one of the big 
stumbling blocks between DOD and the VA is nobody wants to go 
to a modern platform, IT platform. They are playing with Model 
A's and Model T's and trying to put new engines in them, when 
reality is they need to have a Cadillac and a Lexus. And they 
are available.
    If you could break that culture that says we want to fix 
what we have, not replace it, you might find it will be cheaper 
and it will work better.
    Mr. Frelinghuysen. Okay. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, General Dempsey and Secretary 
Carter--Secretary Carter, I think you are the right person in 
the right place. You are experienced. You seem to know what you 
are doing. You are focused, and you are a good leader. And we 
hope we can work with you.
    Secretary Carter. Thank you, sir.

                   CYBERSECURITY AND SPACE OPERATIONS

    Mr. Ruppersberger. I am going to be redundant here, but I 
think it is important to say because I think the American 
people need to know how serious we are in providing national 
security to our country.
    We have had in the last couple hearings the Secretaries and 
head of the Army, Navy, Marines, and Air Force all talking 
about what this sequestration is doing to us, making us weaker. 
We know it is the law, and I am calling out to leadership on 
both the Republican and Democratic side to focus on this issue, 
to try to find a way to repeal this law.
    If the American public knew what the testimony was in the 
last week about how we are weaker in the area of dealing with 
terrorism, dealing with cyber threats, dealing with Russia/
China threats, dealing with space threats, I think the American 
people would be very upset at all of us for not doing something 
to protect us.
    You know, we had a good, bipartisan, yesterday, vote on 
Homeland Security, and that is just the beginning. This is a 
bigger issue than that, as far as what we are doing to protect 
our country.
    Now, I just have--I got something from staff here, 
Associated Press article today saying, "China to boost military 
budget by 10 percent." You have India increasing 11 percent. 
And when we have so many threats in this country, probably as 
dangerous as this world has been in a long time, probably since 
World War II, we are going the wrong way, and we need to turn 
that around. So I would hope that we could deal with that.
    Now, I want to get in real quick--and then the chairman is 
going to knock me out as soon as my time is up--the issue of 
cyber. You talked about a cyber bill. We have legislation that 
passed this house on two occasions, and it stalled in the 
Senate. And we have to move to forward on information-sharing.
    General Dempsey, you talked about cyber and the issue, the 
private sector. What people don't realize, 80 percent of the 
private sector in this country is controlled by--I mean, 80 
percent of the network is controlled by the private sector. So 
we have to work in partnership between our military, between 
our intelligence community, and the private sector.
    Hopefully we can move these bills now, because the threat 
is there. The American public were not aware of the threat of 
the attacks until Sony and Target, and it goes on and on. So we 
have to move forward.
    The other thing I want to get into, though, real quick, is 
space. We haven't talked about it a lot, but space is one of 
the most important things we deal with. We are the most 
powerful country in the world probably because we committed to 
space years ago. But now Russia and China are really gaining. 
They are putting in money, and it is a very serious issue.
    Could you discuss the threats of space and what we need to 
do?
    Secretary Carter. Yes. I will be very quick, and then, 
Chairman, if you want to join in.
    China, Russia--you talked about budget increases. There is 
a technological and qualitative dimension to their march ahead 
also. And that is concerning to us. Actually, we have some 
pieces I don't have time to go into here, and maybe we can't--
--
    Mr. Ruppersberger. Also, in your answer, can you say why 
space is so important? Because most people don't realize how 
important it is.
    Secretary Carter. Because it is the only way, in many 
cases, to be able to carry out a mission, like surveillance 
over denied territory, like GPS satellites, like over-the-
horizon communications that don't depend upon cables. There are 
just things that can't be done in another way than by using 
space.
    General Dempsey. I would just add, precision, navigation, 
and time. Everything we do in the military, as you know--you 
have seen us become very precise. We are exquisitely good at 
navigation. And the fact that we all operate on the same clock 
allows us to coordinate activities. And all of that is done 
from space. Precision, navigation, and time are all space----
    Mr. Ruppersberger. All coming back to the ground.
    General Dempsey. Absolutely.
    And I will just leave this thought with you. Space is 
congested, it is incredibly congested. When you see images that 
our Space Command provides, it is incredible how much stuff is 
in space. It is contested, in particular, by Russia and China. 
And it is competitive. And we had better keep up with the 
competition.
    Mr. Ruppersberger. Okay. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Mr. Graves.

                    MILITARY FORCE AGAINST ISIL/ISIS

    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Secretary, General, thanks for being here. And I 
appreciate this very important discussion we are having today.
    And if I could just follow up on Chairman Rogers' comments 
about the request for use of military force. And I think this 
is a very important topic that we all need to be discussing, 
and it is of vested interest for each of us. And I appreciate 
the two points, Mr. Secretary, that you mentioned were 
important to you.
    In the request, there is a line that says to use the Armed 
Forces of the United States as the President determines to be 
necessary and appropriate against ISIL or associated persons or 
forces.
    A question from me would be: Do you interpret this as 
providing any geographical limits whatsoever, or is it 
boundless?
    Secretary Carter. No. No geographic limitations.
    Mr. Graves. Okay. Thank you.
    Secretary Carter. Which is important.
    Mr. Graves. Good. Thank you. That is. And then, maybe 
another question about limits, when it comes to going after 
supporters of ISIL or state supporters and section 5--and 
again, I don't know the answers to these. I am just trying to 
understand maybe your interpretation--Section 5 says the joint 
resolution, the term ``associated persons or forces means 
individuals and organizations fighting for, on behalf of, or 
alongside ISIL or closely related or any closely related 
successor entity in hostilities against the United States or 
its coalition partners.''
    Do you interpret that section as allowing use for military 
force against those who fund or support that might be a state 
supporter of ISIL?
    Secretary Carter. I can't unpack the legal side of it, so 
let me kind of give a commonsense answer to the question. It is 
important, the way these organizations morph over time and the 
way that they associate with others and the way that we see 
ISIL, for example, popping up in Afghanistan, really as an 
offshoot or, I guess, more accurately, recruiting members of 
other groups, it is important that we have the flexibility and 
the language there that when we are designing a campaign to 
combat ISIL, people can't relabel themselves and escape from 
it. So I think that is the critical point, commonsense point.
    And it is important that the AUMF that ultimately emerges 
from the Congress take that into account because that is the 
nature of terrorist groups in today's world.
    Mr. Graves. Would it be important to you--and, again, 
helping us as we craft this, as you described it--to include or 
make sure that any organization or group or foreign entity, 
government, or state that supported ISIL or ISIS in any way was 
drawn into this request for military force? Be declarative, so 
to speak.
    Secretary Carter. Again, I don't want to get into the 
business of crafting the language here, but I will try once 
again to give a commonsense answer. We need this thing to be 
elastic enough that we can do our job. That is the most 
important thing to me. Does it allow us to do our job? And as I 
said before, the second thing that is very important to me is 
that we speak clearly to our troops. They need to hear us all 
saying, hey, this is really serious and we are behind this. And 
that is much more important to me as a nonlawyer than the 
language itself, as I am sure you appreciate.
    Mr. Graves. And I agree with you. We want to make sure you 
have as much latitude as possible. That is very important.
    And then that leads to my last question to General Dempsey. 
It seems I recall one point last year you made a statement that 
struck me--and I don't know where it was publicly, in the press 
or where I might have seen it--but you made the statement that 
arming the rebels or training the rebels was necessary but 
potentially insufficient. And that was a powerful statement, a 
very powerful statement.
    Do you sense that this resolution or request for use of 
military force completes that sufficient criteria that you 
might be looking for in your experience?
    General Dempsey. I don't think that what I am looking for 
will be provided by the AUMF. The AUMF really relates to the--
literally the use of the military instrument of power.
    And what I was referring to was as we--in fact, this is one 
of the things that I have provided my advice about, which is, 
as we build this new Syrian force, for example, or as we 
rebuild the Iraqi security forces, there has to be a companion 
effort to link it into some responsible political structure or 
else you have just got--you have just managed to build a bunch 
of folks who are going to change their loyalties as the 
situation, you know, evolves.
    So the piece I am looking for is what is this military 
capability we are developing? What does it plug into that makes 
it responsible over time to inclusivity and representative 
government?
    Mr. Graves. Great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Graves. Batting cleanup, Mr. Diaz-
Balart.

                    AUTHORIZED USE OF MILITARY FORCE

    Mr. Diaz-Balart. Thank you, Mr. Chairman. And I apologize 
for being late. I was in a meeting with some other budgeteers, 
trying to make sure that what they do doesn't----
    Mr. Frelinghuysen. Mr. Diaz-Balart serves on the Budget 
Committee. It is not a committee you want to serve on, but it 
does--
    Mr. Diaz-Balart. I will----
    Mr. Frelinghuysen [continuing]. I like to put our oar in 
the water. The time is yours.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I was very 
grateful when I got put on the Budget Committee. You know that 
is true. Gentlemen, great to have you here. A couple of the 
points also on the authorization of force. Obviously, 
flexibility is something that you want and you need. And I 
think--at least, I can speak for myself--that is something that 
I want to give you. My understanding, and there is a 3-year 
limit, in essence. And so we have had a lot of conversations 
about sequester. We were never supposed to get there, but we 
got there. So here is my concern: I guess, I mean, do you think 
3 years is going to be--we are going to be able to defeat our 
enemy in 3 years? I think I know the answer to that. And if 
not, does that 3-year limitation not send, frankly, a confusing 
message to our troops, Mr. Secretary, which I agree with you, 
we have to be--to the American people, to our enemies and to 
our foes and also to our allies?
    So, in other words, does it not limit us? Now, all right, 
maybe we will never get there, but we have seen this movie play 
out before.
    Secretary Carter. It is an excellent point. And I think 
that I cannot and would not assure you that the war against--
the campaign against ISIL will be over in 3 years. I don't 
think that is the origin of the 3-year limit. The origin of the 
3-year limit, as I understand it, doesn't have to do with 
whether we have the latitude to conduct the campaign. It has to 
do with the constitutional nature of the responsibility for 
using military force in our country and the recognition that it 
is a joint responsibility of the executive branch and the 
legislative branch, and the recognition that in 3 years there 
will be another President of the United States. Not that the 
campaign is going to be over then, but that in view of the way 
our country works--and again, this isn't my responsibility. It 
is certainly not the Chairman's responsibility--but I respect 
the timetable built in as one that has to do with the nature of 
this body and its relations with the executive branch.
    So as long as nobody thinks it is all going to be over in 3 
years--I would dearly love that if we could do that in 3 
years--but I cannot predict that we can. The 3 years has 
something to do with something else entirely, which is the 
Constitution, the legal system.
    Mr. Diaz-Balart. And I get that. And I don't want to put 
you in a highly uncomfortable position. But it could be a 
limiting--in other words, if we got there in 3 years from now 
and if your job was not done, ISIL was still there, it could 
be, then, a pretty serious limitation?
    Secretary Carter. Well, I----
    Mr. Diaz-Balart. Your ability to do what it takes.
    Secretary Carter. The only thing I can say to that is I 
hope now that 3 years from now people have their eyes open as 
wide as they seem to have them open now, which is that ISIL has 
to be defeated. So I would hope that doesn't--doesn't occur.
    Mr. Diaz-Balart. Right. Again, I don't want to put you in 
an uncomfortable position. I believe this is--I understand this 
is not your decision, but I just want to make sure that--I 
think I got the point, which is--so you would not complain if 
that 3-year limitation was not there?
    Secretary Carter. No. I have no reason to complain on the 
campaign right now.
    Mr. Diaz-Balart. A couple more issues.
    Ms. McCollum. Mr. Chairman, would the gentleman yield for a 
question?
    Mr. Diaz-Balart. Yes.
    Ms. McCollum. Do you think we are incapable of doing a 
reauthorization if ISIL was a threat 3 years from now?
    Mr. Diaz-Balart. Reclaiming my time. None of us thought 
that we were going to be at the sequester. Remember, we were 
never supposed to get there and, all of a sudden, we are. And I 
just think that we have to be very careful to not limit our 
armed services to the job that they are being asked to do.
    Air strikes on ISIL. And I have read that somewhere about 
15 to 20 air strikes a day. And to put that in contrast, I 
learned during Desert Storm I guess it was over a thousand.
    Is it 15 or 20 a day, whatever the number is, because we 
just can't--since it is not a sitting army necessarily that we 
can't find the targets, or why is--why are those numbers, why 
limit it to 15 or 20? Is it military? Why?
    General Dempsey. We are not constrained. If I had 300 
targets, we would deal with 300 targets. It is a matter of 
developing targets in an enemy that is a learning enemy. They 
don't sit around waiting to be struck any longer. And both our 
coalition support--you know, our aircraft and the coalition and 
I are flying close-air--or combat air patrols. When we find a 
target, we attack it.
    Mr. Diaz-Balart. Great. Thank you.
    And lastly--and, Mr. Secretary, I would just like to join 
the words of Mrs. Granger.
    You know, we--sequester is the law of the land. I don't 
like it, but it is the law of the land. And if we were to mark 
up, as I heard today in Budget, if we were to mark up at a 
different number, at a higher number, it is fake, because then 
the sequester would kick in and it would just automatically 
take it right out. So I just--you can't control what Congress 
does. Many of us sometimes are wondering if we can control what 
Congress does.
    But I would just urge you to--it is going to require 
congressional action. It is going to require Presidential 
leadership as well, and you can't do anything about us here. 
But I would just urge you to, please, we have to get those 
conversations going. We have to get, frankly, those 
negotiations going. I don't think that is going to happen 
before the budget is marked up, or potentially even before the 
appropriations bills are marked up, but we have to have that 
conversation. It is going to require House leadership, Senate 
leadership, and it is going to require Presidential leadership.
    So I would just, also, urge you to make sure that you 
spread the word here, which you are doing, but also that you--
that we do everything we can to make sure that the President 
also engages.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Diaz-Balart.
    Just one personal comment on the authorization issue. We 
used to focus now on al Qaeda, but tomorrow we may be focused 
on the Quds force. So I know this is ISIL-centric, but in 
reality, we need to be prepared for every eventuality.
    On behalf of the committee, I want to thank you gentlemen 
for your time, and thank you for representing the best fighting 
force in the world.
    We stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                             Cyber Security

    Question. The fiscal year 2016 Department of Defense budget request 
contains $5.5 billion for cyber activities, a growth of $500 million 
from the 2015 enacted level. Fiscal year 2016 will be the fourth year 
of the U.S. Cyber Command Cyber Mission Team (CMT) development. The 
CMTs are comprised of military, civilian, and contractors that will 
pursue defending the Department's networks from cyber-events and 
initiate offensive cyber activities against adversaries. The CMTs will 
reach full capability in fiscal year 2017 and it is estimated that 
6,000 people will be required to fully staff the various teams.
    Secretary Carter, does the Department of Defense currently have the 
organic capability to ensure the security of our supply chain from a 
cyber perspective, meaning, does the Department of Defense have the 
internal ability to dismantle motherboards, computer chips, and other 
hardware that exist within our supply chain to ensure no backdoors 
exist? If not, how are you partnering with industry to build such a 
capacity?
    Answer. Yes, the Department of Defense (DoD) has organic facilities 
and technical expertise to perform analysis and reverse engineering of 
computing hardware and integrated circuits.Recently, in response to 
section 937 of the National Defense Authorization Act for Fiscal Year 
2014, DoD established the Joint Federated Assurance Center (JFAC) and 
initiated an effort to federate its capabilities to facilitate support 
to acquisition program offices with software assurance (SwA) and 
hardware assurance (HwA) expertise, tools, policies, guidance, and best 
practices. The JFAC mission is to coordinate HwA and SwA capabilities 
across DoD that develop, maintain, and provide vulnerability detection, 
analysis, and remediation support. The report required by Section 937 
contains a further explanation of the organization and operation of the 
JFAC. The DoD also leverages related Department of Energy (DOE) 
capability. The JFAC recently completed an assessment of DoD and DOE 
microelectronics analysis capabilities. The results are classified and 
can be made available in an appropriate forum. The JFAC is working with 
other federal agencies, private industry, and academia to improve tools 
and techniques for assessing the security and reliability of hardware 
and software.

                Conventional Prompt Global Strike (CPGS)

    Question. The goal of the CPGS Program is to give the President the 
ability to strike a powerful, non-nuclear blow precisely on any target 
anywhere in the world within 30 minutes. I think that goal has been 
`softened' to within 60 minutes. The warhead in the Army concept 
(Advanced Hypersonic Weapon, AHW) is carried on a glide body that 
skates along the atmosphere at many times the speed of sound. The Army 
concept is the only one that has had a successful test flight. However, 
the CPGS office insists on changing the glide body and scaling the Army 
concept down to an untested and unproven design--necessarily prolonging 
the testing timeframe and pushing to the right, by many years, 
deployment of a limited operational capability. Last year, Congress 
added $25 million to the DoD budget for the specific purpose of 
supporting the progress of the AHW (Army) concept.
    Secretary Carter, as you are aware, our potential adversaries are 
moving full steam ahead with operational testing of hypersonic weapons 
while we dither with changing and altering the design of a successfully 
tested prototype. I think I am correct in saying that we could have one 
more demonstration test, and then operational tests and limited 
deployment of the Army SMDC's AHW concept in five years or less. A Navy 
deployment would be 15 years--or more. In response to suggestions to 
move ahead with such a path, the CPGS office suggestion seems to be to 
deploy a land-based version of the untested Navy path version of this 
weapon which is smaller, less powerful, and with a much smaller range. 
It seems unusual to me for a program office to be so determined not to 
follow up on its one successfully flown prototype. Whereas an 
eventualNavy-deployed weapon might offer some value because of the 
maneuverability of submarines, this suggestion to deploy a land-based 
version of something which has never flown, and which has a limited 
range, seems to me to be counter-productive. I am not supportive of the 
media-reported 900 million dollar-plus five-year path to develop this 
smaller version of a hypersonic weapon, which even at that point would 
not be ready for deployment for years. Do you believe that it is in the 
Nation's national security interest to deploy, as soon as possible, an 
operational hypersonic system in order to deter our enemies?
    Answer. DoD carefully monitors and assesses the hypersonic 
technology developments of other nations, and we balance these 
developments against the prioritized operational requirements of our 
Combatant Commanders, treaty commitments, and national policies in a 
resource-constrained environment. In the case of hypersonic boost-glide 
technology development, as exemplified by Conventional Prompt Global 
Strike (CPGS) efforts, there are tradeoffs between explosive power, 
glider/booster size, weight, range, operational flexibility, 
survivability, and affordability.
    The CPGS Defense Wide Account uses a national team, to include 
experts from the Army, Navy, Air Force, and DARPA, to mature critical 
technology elements and reduce technical risks ahead of a potential 
Materiel Development Decision, selection of a basing mode, or possible 
investment in an acquisition program. Recent classified and 
unclassified reports to Congress, reports in progress, and engagements 
with authorization and appropriation committee staff have reiterated 
the technical approach and flight test objectives of the CPGS effort.
    The CPGS flight test in November 2011 was an important step for the 
Nation to address some of the technical challenges related to 
hypersonic boost-glide flight, but the test was not representative of 
an operational system. The successful 2011 test yielded valuable 
flight, ground, modeling, and simulation data in the areas of 
aerodynamics, thermal protection systems, and navigation, guidance, and 
control, and this data is being fully leveraged as the CPGS program 
moves forward. Through the preparations leading up to the CPGS launch 
attempt in August 2014 (FT-2), and ongoing preparations for the next 
CPGS flight test (FE-1), the national team is making tremendous 
progress in the areas of first-ever live warhead integration with a 
hypersonic glider, flight control software improvements, higher G-loads 
for flight maneuverability, increased reliability and 
manufacturability, and greater prime contractor involvement to 
recommend improvements to the government's design.
    Additional information will be provided in the FY 2015 CPGS report 
to Congress, which will be submitted in late Spring 2015.

    Question. Secretary Carter, I would appreciate a detailed review of 
several aspects of the proposed FE-1 test. A) Although it has recently 
been suggested that this is not necessarily a Navy-path test and that 
the test is beneficial to an Army or Navy path in the future, in fact I 
think this test was planned and named five years ago or more, has 
always been a Navy-path test, and creates a lot of operational and 
flight risk as compared to the glide body flown in 2011. Please confirm 
whether this is essentially the third test in the Navy-path, which goes 
back to the CTM concept. B) What is the total cost of this test? I 
believe the amount of $170 million may not cover all of the 
development, acquisition, range, and other costs. C) How much of this 
test duplicates what was already learned from the FT-1 test of the 2011 
version of the glide body? D) How many of the same objectives (of FE-1) 
could be achieved by using the 2011 glide body and designing a near-
term FT-3 flight test? E) What would be the cost of doing that FT-3 
test and following operational tests if the most economical booster 
were used, as suggested by the studies written by SMDC? I ask that your 
office obtain those studies in their entirety.
    Answer.
          A. The Conventional Trident Modification (CTM) concept was 
        not a boost-glide concept. The CPGS FE-1 glide body has a 
        different geometry, flight trajectory, and warhead design than 
        CTM. Recent classified and unclassified reports to Congress, 
        reports in progress, and engagements with authorization and 
        appropriation committee staff have reiterated the technical 
        approach and flight test objectives of the CPGS effort, to 
        include the differences from the abandoned CTM concept.
          B. The cost for the FE-1 flight test is estimated to be 
        approximately $160 million. This includes support from the 
        Army, Navy, Air Force, and national laboratories for test 
        planning, design, glider and booster development, component 
        testing, fabrication, test range assets, and test execution.
          C. The FE-1 test is focused on new objectives, such as 
        warhead integration. With the exception of the range (distance) 
        of the test flight, there is no duplication of FT-IA in FE-1. 
        FE-1 is leveraging knowledge gained from FT-1A and dramatically 
        advances Critical Technology Efforts that will benefit future 
        flight tests.
          D. Additional information, to include the number objectives 
        of FE-1 that could be achieved on a FT-3 flight test, will be 
        provided in a report to Congress the Department plans to 
        deliver in late May 2015 after review and approval from 
        USD(AT&L). The CPGS common technology development approach may 
        give DoD options for land, sea, or air basing. Under 
        consideration are tradeoffs between explosive power, glider/
        booster size, weight, range, operational flexibility, 
        survivability, and affordability.
          E. The Department is currently preparing a separate report to 
        Congress that will address potential costs for various CPGS 
        concepts. We plan to deliver that report before the end of the 
        fiscal year.

    Question. Secretary Carter, in the opinion of some people, since no 
service has taken budgetary ownership of the hypersonic mission, the 
program is stuck in a technology demonstration cycle rather than being 
on a path to producing, as soon as possible, an operationally 
deployable system. What language would help your Department clarify 
Congressional support for the CPGS program to produce an operational 
hypersonic weapon of the full-range possible with the 2011 glide body 
within five years?
    Answer. As the Chairman of the Joint Chiefs of Staff conveyed last 
year, the U.S. hypersonic boost-glide strike capability was recently 
addressed by the Joint Requirements Oversight Council (JROC) in 
November 2012. It was determined that the existing portfolio of fielded 
strike systems or modifications to current systems can meet the interim 
long-range-strike requirements identified in the prompt strike Initial 
Capabilities Document with acceptable risk.
    The JROC did recognize that potential future circumstances may 
require a capability to address high value, time sensitive, and 
defended targets from ranges outside the current conventional 
technology. However, the Department is not confident that a realistic, 
affordable hypersonic strike concept capability can be fielded in the 
near future. As a result, congressional language to produce an 
operational hypersonic weapon of the full range possible with the 2011 
glide body within five years is not warranted. Continued congressional 
support for funding CPGS efforts as requested in the President's Budget 
is needed, however. The CPGS effort continues to address critical 
technology elements to reduce risk ahead of a potential material 
development decision.

    Question. Secretary Carter, perhaps it is time to re-examine the 
best way to achieve the original goals of PGS. Would the Department of 
Defense be able to better utilize taxpayer dollars through the 
dissolution of the CPGS office and establishment of an Army-led joint 
program office to rapidly advance hypersonic weapon technology with an 
explicit goal of a near-term operational deployment of a ground-based 
system and follow-on technological demonstrations of alternate 
deployment options? Please notify the Committee of the closeout costs 
of terminating the CPGS office.
    Answer. The Department provided a report to Congress in October, 
2014 entitled, ``Conventional Prompt Global Strike: Assessment of 
Reassigning Management Responsibility.'' In the report, we concluded 
maintaining the Defense-Wide organizational architecture was important 
for program momentum and continuity. The Defense-Wide effort has worked 
to eliminate redundancies among Service efforts, illuminate 
opportunities for collaboration between them, and make efficient use of 
limited DoD resources.

    Question. My understanding is that a JROC classified document may 
include a requirement for PACOM for a weapon of the capacity of the 
original PGS plan--a capability which could be achieved with further 
testing of the 2011 glide body. Can you clarify whether this 
requirement does exist?
    Answer. As the Chairman of the Joint Chiefs of Staff conveyed last 
year, the U.S. hypersonic boost-glide strike capability was recently 
addressed by the Joint Requirements Oversight Council (JROC) in 
November 2012. It was determined that the existing portfolio of fielded 
strike systems or modifications to current systems can meet the interim 
long-range-strike requirements identified in the prompt strike Initial 
Capabilities Document (ICD) with acceptable risk. The JROC did 
recognize that potential future circumstances may require a capability 
to address high value, time sensitive, and defended targets from ranges 
outside the current conventional technology; however, there is no 
requirement in the JROC for a weapon of the capacity of the original 
CPGS plan.
    A hypersonic strike capability, not necessarily limited to or 
explicitly defined by the 2011 glide body, is supported by U.S. 
European Command, U.S. Central Command, U.S. Pacific Command, and U.S. 
Strategic Command; however, the Department is not confident that a 
realistic, affordable hypersonic strike concept capability can be 
fielded in the near future. Technology risk must be reduced, projected 
costs driven down, and operational considerations addressed before the 
Department commits to funding and fielding this kind of capability.

                          EELV Engine Program

    Question. Last year Congress authorized and appropriated $220 
million for the development of an advanced American-made liquid rocket 
engine, to replace the imported Russian-made RD 09180 rocket booster 
engine. The Joint Explanatory Statement accompanying the Fiscal Year 
2015 National Defense Authorization Act (P.L. 113-291) states: We note 
that this provision is not an authorization of funds for the 
development of a new launch vehicle. This provision is for the 
development of a rocket propulsion system to replace non-allied space 
launch engines by 2019. In the President's fiscal year 2016 budget 
request, the Air Force included $84.5M for research and development 
(RDT&E) for the Evolved Expendable Launch Vehicle Program (EELV) in a 
sub-line entitled ``Next Generation Liquid Rocket Engine''. However, 
the justification documents submitted with the budget reference the 
planned expenditure of funds for development and upgrades to ``domestic 
launch systems'', not to a launch engine. Specific examples from the 
budget documentation include: In FY2016, the Department of Defense will 
build off FY15 efforts and fund a program to invest in the development 
of new or upgraded domestic launch systems via a shared investment 
approach with domestic launch providers. This program funds research 
and development activities and related studies support to reduce risk 
and mature domestic rocket propulsion technologies to enable our long-
term rocket propulsion/launch system national security space 
requirements and shared investments in the development of new or 
upgraded launch systems. Invest in two or more launch service 
providers' new launch system development and/or upgrades to existing 
launch systems to provide two or more domestic, commercially viable 
launch providers that also meet NSS requirements available by the end 
of FY2022. The Air Force appears to be heading towards the development 
of a new launch vehicle instead of a new engine. Further, the Air Force 
does not appear to be heading towards establishment of a competitive 
rocket engine development program as directed by Congress in P.L. 113-
291, Section 1604.
    Secretary Carter, why is the Air Force not moving to immediately 
create a competition for designing an engine (not a launch vehicle) 
that meets the requirements as laid out by Congress, specifically 
compatibility with Atlas V and availability for other companies to use?
    Answer. We fully support the transition off the RD-180 rocket 
engine as quickly as possible for launch of National Security Space 
(NSS) missions. The Department's ultimate goal is two domestic, 
commercially competitive launch service providers able to support the 
entire NSS manifest However, simply replacing the RD-180 with a new 
engine is not the answer, as we ultimately need a launch system and 
rocket engines are not a drop-in type of solution. We essentially build 
the rocket around the engine to address systemic technical challenges, 
such as: engine vibrations, launch vehicle structures, fuel storage and 
flow, and combustion stability. We know from our prior experience in 
developing rockets throughout the past several decades that a rocket 
engine and its associated launch vehicle must be designed concurrently. 
Furthermore, since the beginning of the EELV program, and consistent 
with both the commercial space act and national policy, the government 
has procured launch services, and has not taken ownership or liability 
for individual components or hardware.

                    National Security Council (NSC)

    Question. Secretary Carter, according to a recent article, the 
White House's National Security Council (NSC) has grown significantly 
under this administration and now totals more than 300 staff How many 
Department of Defense employees--broken down by military and civilian--
currently serve and have previously been detailed or otherwise assigned 
to work for the NSC?
    Answer.

 
------------------------------------------------------------------------
                                                                 2015
                                                              (Current):
------------------------------------------------------------------------
Military =.................................................           19
Civilian =.................................................           22
------------------------------------------------------------------------
    Total =................................................           41
------------------------------------------------------------------------

    From 2005 to present, approximately 395 DoD personnel have been 
detailed to the staff of the National Security Council.
    On average, there are approximately 40 DoD personnel detailed per 
year. The actual number fluctuates based on new requirements identified 
by the NSC and/or due to attrition.

    Question. Please provide a detailed breakdown, by year, since 2005 
of the number of military and civilian DOD personnel assigned to work 
for the NSC in any capacity.
    Answer.

 
------------------------------------------------------------------------
                                                                   2015:
------------------------------------------------------------------------
Military =......................................................      19
Civilian =......................................................      22
------------------------------------------------------------------------
    Total =.....................................................      41
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2014:
------------------------------------------------------------------------
Military =......................................................      18
Civilian =......................................................      20
------------------------------------------------------------------------
    Total =.....................................................      38
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2013:
------------------------------------------------------------------------
Military =......................................................      17
Civilian =......................................................      16
------------------------------------------------------------------------
    Total =.....................................................      33
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2012:
------------------------------------------------------------------------
Military =......................................................      21
Civilian =......................................................      21
------------------------------------------------------------------------
    Total =.....................................................      42
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2011:
------------------------------------------------------------------------
Military =......................................................      21
Civilian =......................................................      20
------------------------------------------------------------------------
    Total =.....................................................      41
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2010:
------------------------------------------------------------------------
 
Military =......................................................      25
Civilian =......................................................      12
------------------------------------------------------------------------
    Total =.....................................................      37
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2009:
------------------------------------------------------------------------
Military =......................................................      24
Civilian =......................................................      13
------------------------------------------------------------------------
    Total =.....................................................      27
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2008:
------------------------------------------------------------------------
Military =......................................................      25
Civilian =......................................................      07
------------------------------------------------------------------------
    Total =.....................................................      32
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2007:
------------------------------------------------------------------------
Military =......................................................      26
Civilian =......................................................      12
------------------------------------------------------------------------
    Total =.....................................................      38
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2006:
------------------------------------------------------------------------
Military =......................................................      18
Civilian =......................................................      19
------------------------------------------------------------------------
    Total =.....................................................      37
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                                   2005:
------------------------------------------------------------------------
Military =......................................................      14
Civilian =......................................................      15
------------------------------------------------------------------------
    Total =.....................................................      29
------------------------------------------------------------------------

    Question. Secretary Carter, when a DOD employee is assigned to NSC, 
does the Department continue to pay for their salary or is it covered 
by the Executive Office of the President or other government agency?
    Answer. Yes. For DoD personnel detailed to the staff of the 
National Security Council, the respective component within the 
Department continues to compensate their employees for pay and benefits 
while they are detailed.

    Question. How much money is spent by DOD to cover the salaries of 
military and civilian personnel assigned to NSC? Please provide a 
detailed breakdown of those costs, and summary, by year since 2005.
    Answer. The ``Annual Department of Defense (DoD) composite Rate'' 
is used when determining the military personnel appropriations cost for 
budget/management studies, but should not be considered as the fully-
burdened cost of military personnel for workforce-mix decisions.

                                          TOTAL ESTIMATED COST BASED ON DOD COMPOSITE RATE & LEVEL 5 PAY SCALE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Annual DoD Composite Rate        *Cost Based on Annual Pay Scale
                    Year                                  (Military)                      Level 5 (Civilian)                         Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
2015........................................                          $1,889,725                          $2,989,411                          $4,879,136
2014........................................                           3,719,172                            2720,650                           6,439,822
2013........................................                           3,725,219                           2,071,211                           5,796,430
2012........................................                           4,332,030                           2,541,415                           6,873,445
2011........................................                           4,334,091                           2,479,866                           6,813,957
2010........................................                           4,979,995                           1,468,133                           6,448,128
2009........................................                           4,658,099                           1,545,770                           6,203,869
2008........................................                           4,674,526                             772,752                           5,447,278
2007........................................                           4,059,593                           1,480,404                           5,539,997
2006........................................                           2,649,720                           1,981,242                           4,630,962
2005........................................                           2,228,813                           1,457,506                           3,686,319
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Civilian amounts referenced are calculated based on the individual detailee's military rank or civilian pay grade (level 5) for the purpose of
  providing an 'estimated' cost as salary information is not available to this office.

    Question. Secretary Carter, the so-called Islamic State (IS or 
ISIS), poses a significant threat to regional security as well as the 
U.S. Homeland. Since 2013, their expansion has surprised the West and 
their power was and continues to be underestimated by President Obama. 
We know that the seizure of weapons and ammunition during their early 
expansion contributed to the rapidity with which they have been able to 
secure territory. What is not clear, is how IS continues to expand. (A) 
How is ISIS getting weapon and ammunition resupply? (B) What is your 
department doing to identify and stop IS' weapon/ammunition suppliers? 
(C) What can Congress do to assist you in this important matter?
    Answer. ISIL obtained significant weapons, materiel, and funding 
following seizure of territory in Syria and Iraq. ISIL further expanded 
its resource base through robbery, extortion of local populations, oil 
revenues, and ransom from kidnapping. A prime example of this is the 
approximately $400 million dollars stolen from banks in Mosul. ISIL 
uses this revenue and its continued extortion and economic activities 
to fund operations and weapons procurement. ISIL also relies on foreign 
contributions for both fighters and monetary support.
    Coalition military forces have attacked ISIL's command and control 
structure, leaders, field forces, supply lines, and military and 
economic infrastructure and resources in Iraq and Syria. These attacks 
have destroyed a significant portion of its capability, including 
tanks, vehicles, and weapon systems. We have struck more than 150 oil 
infrastructure targets that ISIL uses to generate revenue and continue 
to pressure its control over key lines of supply throughout Iraq and 
Syria. DoD is also providing support to other departments and agencies 
to disrupt ISIL financing which can be used to purchase weapons and 
materiel.

    Question. In light of the previous question, what is the status of 
the arming of Syrian moderate rebel groups? Please submit a full update 
to the Committee on the status and backgrounds of these moderate 
groups. Additionally, describe to the Committee the process the 
Department of Defense is using to vet these groups.
    Answer. We plan to begin training and arming appropriately vetted 
Syrian opposition forces this spring. Saudi Arabia, Turkey, Jordan and 
Qatar will host the training of these forces and we are finalizing site 
improvements. More than 350 U.S. and coalition partner personnel have 
arrived in the region to finish preparations and commence training. 
Through our collaboration with the other U.S. departments and agencies 
and foreign partners, we have identified 2,800 Syrians who may be 
eligible to receive the training.
    The pre-screening process, which is already underway, begins with 
the compilation of biographical data on the potential recruits that is 
then run through a series of interagency and coalition databases. When 
the pre-screening process is complete, the recruits undergo a full 
biometric screening process, and physical and psychological 
evaluations. Although we have identified recruits, we cannot publically 
disclose the names of specific groups we are recruiting due to host 
nation sensitivities and operational security considerations. Screening 
of opposition fighters is a continuous process.

    Question. ISIS has committed horrific acts of violence and 
oppression against many groups in Iraq and Syria, but Christians and 
Kurds have borne a significant amount of that barbarism. To what extent 
has the Department of Defense provided support to Kurds, and to Syrian 
Christians?
    Answer. The horrific acts of violence committed by ISIL against 
ethnic and religious minorities in both Syria and Iraq, including 
against Kurds and Christians, is at the heart of why we are working to 
degrade and defeat ISIL. U.S. and coalition partners have conducted air 
strikes and humanitarian airdrops to protect and support innocent 
civilians. In Syria and Iraq, our air strikes have complemented the 
efforts of Kurdish ground forces to blunt ISIL advances and retake 
terrain in northern Iraq and in the Kurdish enclave of Kobane. We have 
also conducted air strikes in Hasakah Province, where ISIL has 
threatened Syrian Christians.
    Last summer the Department of Defense established the Iraq Resupply 
Task Force to expedite the delivery of critical equipment and munitions 
to Kurdish forces. The Task Force has facilitated the delivery of 
almost 2,400 tons of equipment, including more than 64 million rounds 
of ammunition and 21,000 weapons, into Erbil for the Peshmerga. We also 
provided 25 Mine Resistant Ambush Protected vehicles to Kurdish forces 
earlier this year. Kurdish forces are also participating in coalition 
training in Erbil. Several other Peshmerga units benefit from coalition 
advise and assist efforts in northern Iraq, and Peshmerga units will 
begin to receive equipment from DoD and coalition donations this 
spring.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

           January 2015 Report by the Defense Business Board

    Question. In January 2015, the Defense Business Board released a 
report entitled, ``Transforming DoD's Core Business--Process for 
Revolutionary Change.'' The report states that ``We can see a clear 
path to saving over $125 billion in the next five years'' and 
immediately follows that statement with ``The greatest contributors to 
the savings are early retirements and reducing services from 
contractors.''
    Secretary Carter, I realize that the report was only released 
recently, but has the Department considered implementing any of the 
proposed cuts in service contract spending recommended by the Defense 
Business Board? Do you anticipate these proposals being applied in 
future DoD Budget Requests?
    Answer. As in past efficiency initiatives in the Department, 
contract optimization will be part of my management reform approach. 
Additionally, the USD (AT&L) continues to implement better buying power 
initiatives that include contract reviews and optimization. Any 
reduction to these costs will allow the Department to continue to 
sustain investments in readiness and modernization activities.

                  Inventory of Contracts for Services

    Question. Mr. McCord, this question is to follow-up on the letters 
we exchanged earlier this year regarding the Inventory of Contracts for 
Services (ICS). As I think we both agree, given the extent to which the 
Department relies on service contracts, it is imperative that it have a 
reliable and comprehensive inventory of those service contracts. This 
would help identify and control those costs as we do already with the 
costs of civilian employees.
    In your February letter, you indicated that the Department remains 
committed to the continuous improvement of the ICS. As the inventory 
improves, how will your office ensure that components and defense 
agencies will actually use that inventory in order to reduce spending 
on service contracts, both generally and specifically?
    Answer. The Inventory of Contract Services (ICS) is a key tool in 
determining the right mix of military, civilians, and contracted 
services needed to reflect new strategic priorities and evolving 
operational challenges. The Department's internal ICS guidance directs 
all Components to use the inventory reviews and subsequent workforce 
shaping decisions to inform programming and budget matters, including 
requests to realign work, as appropriate, to military or civilian 
performance. During the upcoming fiscal year 2017 program and budget 
review, my office will continue to scrutinize contract services 
spending in order to remain in compliance with section 808 of the FY 
2012 National Defense Authorization Act, as amended, and section 955 of 
the FY 2013 National Defense Authorization Act.
    The Department's sourcing of functions and work among military, 
civilian, and contracted services must be consistent with workload 
requirements, funding availability, readiness and management needs, as 
well as applicable laws and guidance. Going forward, the Department 
continues to be committed to defining the right workforce mix and 
properly insourcing functions previously performed by contractors that 
are either inherently governmental functions or are more efficiently 
performed by civilians.

                               Insourcing

    Question. Mr. McCord, in prior year NDAAs there have been 
requirements for the Department to issue regulations that would make it 
easier for managers to take funding for contractors and instead use it 
to pay for civilian employees. Has the Department complied with the 
FY14 requirement?
    Answer. The Department has not yet finalized the regulations 
referenced under section 1108, ``Compliance with Law Regarding 
Availability of Funding for Civilian Personnel,'' of the FY 2014 
National Defense Authorization Act, but is working to do so. In the 
interim, the Department is continuously working to determine the right 
mix of military, civilians, and contracted services needed to reflect 
new strategic priorities and evolving operational challenges. The 
Department's sourcing of functions and work among military, civilian, 
and contracted services must be consistent with workload requirements, 
funding availability, readiness and management needs, as well as 
applicable laws and guidance. In-sourcing has been a very effective 
tool to rebalance the workforce, realign inherently governmental and 
other critical work to government performance, and in many instances, 
to generate resource efficiencies for higher priority goals.
    In-sourcing contracted services must meet the necessary criteria 
(consistent with governing statutes, policies, and regulations) by:
          <bullet> absorbing work into existing government positions by 
        refining duties or requirements, or
          <bullet> establishing new positions to perform contracted 
        services by eliminating or shifting
          <bullet> equivalent existing manpower resources (personnel) 
        from lower priority activities.

    Question. Your predecessor Bob Hale told our counterparts on the 
Senate Defense Appropriations Subcommittee in 2013 that service 
contractors generally cost two to three times what in-house performance 
costs, particularly for long-term functions. Given the need to reduce 
costs, what efforts has the Department undertaken to save costs from 
insourcing long-term functions performed by contractors?
    Answer. The Department continues to improve its accounting of and 
visibility into contracted services utilization as part of its annual, 
statutorily required Inventory of Contracted Services. As part of that 
process, DoD component heads are directed to conduct reviews of their 
use of contracted services to determine if more appropriate, or cost 
effective, performance of that function can be achieved by in-sourcing 
that work to an organic government workforce. Accordingly, the 
President's Budget FY 2016 reflects a total force and manpower mix 
strategy that aligns functions and work among military, civilian, and 
contracted services in a cost-effective and balanced manner consistent 
with workload requirements, funding availability, laws, and 
regulations.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky.]

                                           Tuesday, March 17, 2015.

                  FY 2016 NATIONAL GUARD AND RESERVES

                               WITNESSES

GENERAL FRANK J. GRASS, CHIEF, NATIONAL GUARD BUREAU
LIEUTENANT GENERAL STANLEY E. ``SID'' CLARKE, III, DIRECTOR, AIR 
    NATIONAL GUARD
MAJOR GENERAL JUDD H. LYONS, ACTING DIRECTOR, ARMY NATIONAL GUARD
LIEUTENANT GENERAL JEFFREY W. TALLEY, CHIEF, UNITED STATES ARMY RESERVE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order.
    Happy St. Patrick's Day, everybody.
    And a number of our members have other committee hearings, 
but I know they want to participate and they will be here in 
due course.
    This morning the committee will hold a hearing on the 
posture of the National Guard and U.S. Army Reserves. We will 
focus primarily on readiness issues related to personnel, 
training, equipment, modernization, reset, and the effects of 
fiscal constraints on the force.
    Ladies and gentlemen, we owe a debt of gratitude to the men 
and women of the Reserve component. The soldiers and the airmen 
of the Guard and Reserve performed magnificently in Iraq and 
Afghanistan, and some, of course, still do in Afghanistan and 
throughout the world. They have worked seamlessly with their 
Active-Duty colleagues in ways that allows mission after 
mission to be accomplished. And may I add they have paid a 
price.
    Of the 6,800 military personnel who died in the war zones 
of Iraq and Afghanistan, nearly 700 were Guard, Army Reserve, 
or Marine Reserve members. We also never forget that the 
military is an inherently dangerous job, even far away from 
combat. So this morning we note the loss of four members of the 
Louisiana Guard who, along with seven Special Forces marines, 
died in service of the country last week in a training accident 
off the coast of Florida. We mourn with their families and 
thank them for their services. And, gentlemen, please, extend 
our greatest sympathy to those families for their sacrifices.
    We would also like to thank your troops for their 
dedication to their communities, to their States, and to their 
country during a time in which our way of life continues to be 
threatened.
    We are pleased this morning to welcome four distinguished 
General officers as witnesses:
    General Frank J. Grass is the Chief of the National Guard 
Bureau, a permanent member of the Joint Chiefs of Staff, 
representing more than 460,000 citizen solders and airmen in 
the Army and Air National Guard.
    I would also like to extend the committee's appreciation 
for General Grass's better half, Pat, for being here this 
morning. And she sits behind him, but she does much more than 
sit behind him. She stands alongside him, working on behalf of 
all of those in the Guard and Reserve.
    I would also like to welcome Lieutenant General Stanley 
``Sid'' Clarke, III. He is a Director of Air National Guard. 
General, we appreciate the experience and expertise that you 
bring to this hearing.
    Major General Judd Lyons is the Acting Director of the Army 
National Guard. This is General Lyon's second year to testify 
before the committee. We welcome you.
    And, finally, we are pleased to welcome back the Chief of 
the U.S. Army Reserves, Lieutenant General Jeffrey W. Talley. 
Thanks, also, General, for your contributions.
    Welcome. We are eager to hear your testimony, which will 
assist the committee to better determine the needs of guardsmen 
and reservists, whether in their home State or deployed around 
the world.
    Of course, this committee is worried about the funds that 
will be made available for the Guard and Reserve under the 
Budget Control Act. Even given limited resources, this 
committee will continue to do everything possible to ensure 
adequate funding for the equipment, modernization, and 
readiness for both your homeland and wartime missions.
    We remain, as a committee, very concerned about the 
readiness of the National Guard and U.S. Army Reserves 
following over a dozen years of war and the likelihood of 
further conflict across the globe.
    End strength. How do we right size your forces to maximize 
your military effectiveness while making our national security 
dollars go as far as possible? The Army Aviation Restructure is 
the big Army's top priority. We look forward to your 
perspectives on the future of Apaches, Black Hawks, Lakotas and 
Kiowa Warriors.
    The committee also understands the NGREA has been a 
critically important tool in the modernization of the Guard and 
Reserve. We want to hear from you on how this fund is working, 
since we were very much involved in funding it.
    The committee is also eager to discuss your increasingly 
important role in the cyber world. It seems to many of us that 
guardsmen and -women bring critical skill sets from the private 
sector into their military job, and we must find a way to take 
advantage of those special skill sets.
    Generals, we look forward to your testimony. But, first, I 
would like to call on my ranking member, Mr. Visclosky, for any 
comments he may care to make.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Sorry for holding everybody up. I apologize.
    Thank you, Mr. Chairman, for holding the hearing and, 
gentlemen, for your service. I look forward to your testimony. 
Thank you.
    Mr. Frelinghuysen. General Grass, we welcome your 
testimony. Your entire statement will be put in the record.

                   Summary Statement of General Grass

    General Grass. Mr. Chairman, thank you.
    And, Chairman Frelinghuysen, Ranking Member Visclosky, and 
distinguished members of the subcommittee, it is a pleasure to 
be here today with my wife, Pat, and my fellow National Guard 
and Reserve leaders.
    I am honored to represent 460,000 citizen soldiers and 
airmen and their families, communities, and employers that 
support them. I would also like to echo chairman's condolences 
to the families of the Louisiana National Guard and the Marine 
Special Operations warriors who lost their life in the accident 
in Florida last week. This tragedy is a reminder of the 
sacrifices our members and families make on a daily basis.
    Over the past 13 years of sustained conflict, with the help 
of the Congress, the Guard has transformed into a premiere 
operational force, serving with distinction as the primary 
combat reserve of the Army and Air Force. The Nation's 
investment in the Guard has resulted in the best trained, led, 
and equipped Guard in history. It is the finest I have seen 
throughout my career.
    The Guard is tremendously appreciative of this committee's 
support. I want to thank you for funding programs, such as the 
National Guard and Reserve equipment account, improving Army 
Guard readiness, HMMWV modernization, new radars for our F-15 
fighters, Black Hawk helicopter procurement, and other critical 
dual-use priorities.
    As we look to the future, we face three realities shaping 
the security environment: the global realities, the fiscal 
reality, and the reality of change.
    A global reality that includes asymmetric adversaries and 
regional instability is intertwined with a fiscal reality that 
requires us to balance the need to provide security to the 
Nation with other domestic spending requirements.
    These realities exist aside the reality of change, change 
that has resulted in a borderless world and a more informed 
U.S. population that expects the government to respond to 
natural and manmade disasters at greater speeds.
    In view of these realities in the security environment, I 
am concerned that, with sequestration, the Nation will have its 
smallest National Guard since the end of the Korean war, 
despite the U.S. population approximately doubling since 1954.
    This will create challenges in responding to the needs of 
the Governors at a time the Army and the Air Force will rely 
more heavily on the operational Reserve to accomplish combatant 
command missions. If funding levels are below the President's 
budget request, we risk not being able to execute the defense 
strategy.
    The solders and airmen who serve and their families, 
communities, and employers who support them are our most 
treasured resource. The Nation's investment in developing 
combat and mission-ready guardsmen through a wide array of 
resourced, accessible, and effective programs is greatly 
appreciated, but must not be left to degrade or return to a 
strategic reserve. Moving forward, finding the right balance in 
our military, active Guard and Reserve will be more critical 
than it has been in history.
    Your National Guard is a proven option for rapid, cost-
effective and seamless expansion of our Armed Forces. Modest, 
but necessary, investments in training, manning, and equipment 
will maintain the readiness of the National Guard as an 
operational force.
    Thank you for allowing me, sir, to be here today. And I 
look forward to your questions.
    Mr. Frelinghuysen. Thank you, General.
    [The written statement of General Grass follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                  Summary Statement of General Clarke

    Mr. Frelinghuysen. General Clarke, good morning again.
    General Clarke. Good morning, sir.
    Good morning Chairman Frelinghuysen, Ranking Member 
Visclosky. Thanks for the opportunity.
    This is my third time to appear before this committee, and 
I remember how cozy it is here in here.
    Mr. Frelinghuysen. Very cozy in here.
    General Clarke. The broad shoulders of my Army colleagues 
makes it interesting here.
    We have over 105,500 members of the Air National Guard and 
just one member here, but I am very proud to be at the helm of 
leading the Air National Guard, part of the National Guard 
Bureau, but also working with the Air Force.
    And I want to tell you that the relationship between the 
Air National Guard and the United States Air Force is 
excellent. We get along very, very well. And we do things 
collaboratively, transparent, and we work with the States 
Adjutants General in almost everything we do in an open, 
transparent way.
    So we have--of the 105,500 consistently deployed members of 
the Air National Guard, in fact, over 2,000 are deploy-delayed 
today across the globe, doing a variety of operations. I see no 
slowdown whatsoever for the Air National Guard in the next 
year.
    Indeed, with 12304b mobilizations, volunteerism, and 12302 
authority, we see one heck of a lot of support of the Air 
National Guard supporting combatant commanders around the globe 
continuing to be a proven choice for the warfighting operations 
that we support.
    With regard to the homeland, the Air National Guard 
provides multiple capabilities that are used on a daily basis. 
Our firefighting capability, the explosive ordnance disposal 
capability, along with a variety of other things that we also 
dual-use for the overseas fight that we use at home, are 
consistently put to work on a daily basis, including the rescue 
operations and other capabilities.
    With regard to security cooperation, we continue to be 
supportive of the State Partnership Program around the globe. 
We also have bilateral relationships that don't even exist 
inside the State Partnership Program that we support. An 
example of that would be what we do for the air forces of Iraq. 
We are doing the training for the C-130Js that they have at one 
of our units. Additionally, the F-16 foreign training is all 
done at Tucson by the Air National Guard.
    And, finally, I would like to say that we are doing a 
variety of theater security cooperation package--cooperation of 
elements that are overseas supporting combatant commanders on a 
daily basis. What I just said is we are heavily invested in the 
operational Reserve concept in multiple ways.
    And let me tell you, our airmen love it. They love being 
operationally engaged. More than half of our people who have 
joined since 9/11, they know the future holds that they will be 
engaged. Their employers know that. Their families know that.
    There is a balance that has to be struck between all of it, 
but they like being a part of the operational Reserve and 
supporting the United States Air Force and the Nation when we 
do things overseas, and they love doing things at home 
supporting our citizens in need.
    Our priorities: First, taking care of our airmen. That 
always stays at the top of my list. I look at that from a 
variety of lenses, whether it is preventing sexual assault, 
diversity. Those kinds of programs are important.
    I do want to tell you that I am a bit concerned about the 
future with regard to MILPERS. That is an important funding 
stream, one element of our funding that we need to sustain in 
order to be able to get to the schools that they have to have 
and the follow-on courses for future education and training 
that make sure that they are good partners with the Air Force 
and the joint community.
    Another priority: We need to maintain a strong operational 
Reserve from perspective--not just the deployments I was 
talking about, but a concern of mine is being able to 
participate in the big exercises that we do as a part of our 
Air Force. These exercises are what makes our Air Force 
different from any other Air Force in the world, and I have to 
have funding in order to support those exercises in the future.
    Third priority: Modernization and recap of our legacy 
force. We operate a lot of old airplanes. I will give you one 
short vignette, sir, if you will bear with me.
    In January, the Secretary of the Air Force and I were 
invited down to Antarctica by the National Science Foundation 
to see what happens with our operations there. The New York 
Guard flies LC-130s. These are the Ski Birds, the only ones in 
the Nation that we have. We fly the Ski Birds down to McMurdo 
Station in Antarctica and further, all the way to the South 
Pole.
    The airplane that we flew the Secretary of the Air Force on 
from McMurdo Station to the South Pole was a 1972 model LC-130, 
originally purchased by the U.S. Navy, flown by the Navy, put 
into the boneyard into retirement, pulled back out into our 
inventory to fly, and, yet, we have enough confidence in the 
airmen and the weapons system sustainment the Air Force 
provides in order to fly that airplane in a most--fairly 
austere environment. I would invite you to come down and see 
that operation sometime.
    Mr. Frelinghuysen. I have been on it.
    General Clarke. Yes, sir.
    Mr. Frelinghuysen. We provided the--you know, the skis for 
the planes through our committee and, also, the crevasse 
finder.
    General Clarke. Yes, sir. Yes, sir.
    Mr. Frelinghuysen. It is that mountain division out of Fort 
Drum or something.
    General Clarke. And the crevasse is just one part of that 
austere environment I am talking about. So, since you have been 
there, you have seen it. But we have enough--the point being, 
with a 43-year-old airplane, at some point, that airplane is 
going to need to be recapitalized. We can continue to 
modernize. At some point, it has got to be recapitalized.
    And the last thing is I would say, beyond the NGREA part 
that you just talked about, we support and really appreciate 
your support on the NGREA funding that we received. A unit last 
year, for the last half of 2014, did 6 months of combat duty 
over Afghanistan modified with two important programs by NGREA 
funding.
    It changed the airplane from being a fair precision 
munition delivery capability to an outstanding delivery 
capability. It provided the center display units inside the 
cockpit so you could see the enhanced images, and it provided 
the helmet targeting capabilities that we did not have 
previously.
    So this NGREA money is very well spent. It makes a big 
difference for combatant commanders. It makes our airplanes 
safe, reliable, and compatible with combatant commander 
requirements and possibly with air space management and other 
concerns we have in the future. Again, we appreciate your 
support on that.
    Thank you.
    Mr. Frelinghuysen. Thank you, General Clarke.
    [The written statement of General Clarke follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                   Summary Statement of General Lyons

    Mr. Frelinghuysen. General Lyons.
    General Lyons. Chairman Frelinghuysen, Ranking Member 
Visclosky, distinguished members of the subcommittee, it is an 
honor to appear before you today.
    I would like to begin by echoing the condolences, Chairman, 
that you expressed and General Grass expressed for the families 
of the four National Guardsman and the seven marines who were 
taken from our ranks this last week. They will never be 
forgotten.
    I am here representing nearly 350,000 soldiers in the Army 
National Guard. Our force is manned, trained, and equipped to 
serve wherever and whenever the Nation calls. The Army Guard 
maintains facilities in nearly 2600 communities where we built 
relationships with local leaders and first responders. And it 
is this community presence that enables the Guard to react so 
quickly when civil authorities request our assistance.
    The Army Guard responded to 45 major disaster declarations 
in 32 States and territories in 2014. Our missions never cease, 
and they don't end at the water's edge. Through years of war, 
the Army Guard has trained and deployed with the Army as a part 
of the joint team. Since 2001, we have mobilized soldiers more 
than 536,000 times. Our units have performed every assigned 
mission, from counterinsurgency operations to peacekeeping. 
This experience has transformed the Army Guard from a Cold War-
era strategic reserve to a combat-seasoned operational force.
    I would like to thank Congress for providing the vital 
resources and specifically the committee for their continuing 
support of NGREA that has been needed to transform the National 
Guard. Through your efforts, our Total Army remains the most 
formidable, capable land force in the world.
    In an unpredictable and dangerous world, the Army Guard 
serves as a powerful hedge against uncertainty. The need for a 
ready, scaleable, and experienced force at home and abroad 
remains constant. Funding below the President's budget will 
further exacerbate readiness challenges in personnel, training, 
equipment, and facilities. If permitted to atrophy, the wide-
ranging capabilities of the Army Guard will be difficult to 
restore.
    The President's fiscal year 2016 budget increases funding 
for our operations and maintenance and personnel accounts, and 
this begins to restore vital programs and sustains readiness. 
While the President's budget presents less risk than we faced 
in fiscal year 2015, some readiness concerns remain, and I 
would just like to highlight a couple.
    The budget provides for Army Guard end strength at 342,000. 
That is 8,200 less from our current authorized strength. This 
could lengthen response times for domestic emergencies, and it 
leaves fewer forces available for overseas missions. The Army 
Guard achieved the highest level of medical readiness in our 
history in 2014. This readiness is beginning to trend down, 
though, due to the risk we have already accepted in these 
accounts in 2015.
    The budget calls for increased training funds which are 
essential for leader development and maintaining the Army Guard 
as an operational force. This funding provides for two combat 
training center rotations, but limits the majority of the force 
to individual crew and squad-level proficiency.
    Our soldiers' readiness and the well-being remains a top 
priority. I thank Congress for supporting our behavioral 
health, suicide prevention, sexual assault prevention, and 
other critical programs. The dedicated men and women of our 
Army Guard formations present tremendous value to our Nation 
and to the communities where we live, work, and serve. The Army 
Guard has proven our strength as a combat-ready operational 
force, a role that, with your support, we will probably 
continue to perform for the Army and for our Nation.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    Mr. Frelinghuysen. Thank you, General Lyons.
    [The written statement of General Lyons follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Frelinghuysen. General Talley, good morning again.
    General Talley. Good morning.
    Chairman Frelinghuysen, Ranking Member Visclosky, 
distinguished members of the committee, this is my third time 
before the committee, and I want to start by thanking you.
    Last year I testified that we needed help on getting our 
HMMWV ambulances, and you guys came through. I recently got 
$48.4 million of a $60-million Congressional markup, which will 
bring us up to 100 percent equipment on hand for ambulances. 
That is this subcommittee's work. I want to thank you up front 
for that.
    It is certainly an honor for me to represent soldiers, 
civilians, and family members of the Army Reserve. And on their 
behalf, I want to thank the committee for everything that you 
are doing today and you will do in the future to continue to 
support us.
    Also, with my background, I want to wish everyone a happy 
St. Patrick's Day, and may the luck of the Irish be with me 
today.
    Mr. Chairman, the decision to place the majority of the 
Army's combat support and combat service support capabilities 
in the Army's Reserve committed the Nation years ago to 
maintaining the Army Reserve as an operational force. It did 
not, however, anticipate the increased requirements that that 
structural shift would generate for the Army Reserve in terms 
of resourcing.
    The Army, as a service, integrates and synchronizes all 
services when sustained unified land operations are required, 
but they can only do so with the support of the Army Reserve. 
The Army Reserve has most of the Army's critical, technical 
enablers, such as logisticians, transporters, medical, full-
spectrum engineering, civil affairs, legal, and chemical 
capabilities.
    As a Federal force under Federal control and the only 
component of our Army that is a single global command, we are 
already embedded in every Army service component command and 
combatant command worldwide. This allows us to respond to any 
mission at home or abroad and, in many cases, with little 
notice.
    Currently, the annual demand signal from the Army in order 
for us to meet combat or contingent missions is 27,000 soldiers 
each year. In many cases, these troops and their units may be 
required to immediately deploy overseas. So they must be 
maintained at a higher level of readiness. Although we have 
historically received additional resourcing, the standard model 
of 39 base-funded training days per year produces only a 
strategic force. This is insufficient to train, equip, and 
maintain the Army Reserve as an operational force.
    In the past, readiness beyond the strategic level was 
purchased with overseas contingency dollars. That flexibility, 
as you know, no longer exists. And base budgets must reflect 
funding consistent with mission requirements. Readiness must be 
balanced with modernization and strength, which, again, require 
resourcing. If we lose that balance, our ability to support the 
Army and fulfill the Nation's global security requirements are 
at risk. We face that dilemma today.
    Sequestration and budget uncertainties have created a 
requirements resource mismatch and they threaten our ability to 
support our great Army and the Nation. Readiness is bought by 
robbing one unit, Peter, to fix or pay for another unit, Paul. 
This can't be a sustainable business model.
    While my posture statement discusses all of these concerns 
in greater detail, I want to highlight quickly three areas that 
are essential to generate readiness. The first is annual 
training and operational tempo accounts. Cuts to these accounts 
limit our ability to conduct individual, leader, and unit 
training. For example, reductions in school funding leave the 
Army Reserve unable this year to pay for 8,000 training and 
15,000 educational seats, negatively impacting our morale, 
endangering promotions and pressure and retention and 
increasing attrition.
    The second area of concern is equipping and modernization. 
Today, the Army Reserve comprises 20 percent of our Total Army. 
Yet, our share of the Army's equipping budget is less than 3 
percent. To illustrate this point, the Army Reserve provides 92 
percent of the Total Army bulk petroleum assets. Unfortunately, 
much of this capacity has not been modernized, reducing our 
interoperability within the force. Unchecked, the Total Army 
and the joint force literally could run out of gas.
    The third and final area of concern are the reductions in 
full-time manning. These great AGRs, MILTECHs, and Department 
of Army civilians execute the foundational requirements that 
range from paying our soldiers to facilitating training. 
Currently, the Army Reserve is filled only to 76 percent of our 
authorized requirements. That jeopardizes our ability to 
execute missions.
    Mr. Chairman, in closing, the Army Reserve is uniquely 
postured to support the Nation, but we can only maintain that 
capability when properly resourced. In order to sustain our 
current readiness levels, we need the committee's continued 
support with funding for full-time manning, individual 
collective and unit training, and equipment, including NGREA.
    Thank you again for the opportunity to appear before the 
committee today and for the outstanding support that Congress 
has always provided the soldiers, civilians, and families of 
the Army Reserve. With your help, we can stay twice a citizen 
and Army strong. I look forward to your questions.
    Mr. Frelinghuysen. Thank you, General.
    [The written statement of General Talley follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
       Mr. Frelinghuysen. And I thank all of the Generals for 
their testimony this morning.
    And thank you, General Talley, for raising the Irish 
profile a little higher today. May I say we probably wouldn't 
be an independent Nation unless George Washington were able to 
count on the Irish brigades.
    A very high percentage of those who fought with Washington 
were of Irish heritage. A lot of people don't know that. But we 
never would be the Nation we are today without that incredible 
contribution. So let me thank you for mentioning that.
    I yield to Mr. Crenshaw.

                        Remarks of Mr. Crenshaw

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all for being here today. Welcome back. We 
are going to discuss some of the challenges that you all face 
every day.
    And, first, let me pass along a message to you. I served in 
State government before I came to Washington. And a lot of my 
colleagues also served in State government. In fact, 5 days 
after I became president of the Florida Senate we had something 
called Hurricane Andrew, which, at the time, was the largest 
natural disaster in our Nation's history.
    And so I can tell you that me, along with a lot of the 
colleagues that served in State government, all sleep a little 
better at night knowing that the Guard and Reserve are ready at 
a moment's notice to deal with not only natural disasters, but 
just about any kind of problem that occurs around the world. So 
I wanted to pass that along to you.
    And now, as a Member of Congress that represents just about 
every area of the Guard and Reserve in my district in north 
Florida, I clearly see firsthand what you bring to our national 
security. And I think everybody in this room appreciates the 
work you do.

                              F-35 PROGRAM

    Let me ask General Clarke a question that deals with the F-
35 program.
    As you all know, there are plans to have F-35s at four 
units around the country with the Air National Guard, and it 
concerns me a little bit when you see the delays that have 
taken place in the F-35 program. Now we see the problems with 
the sequester that maybe is going to drastically cut what the 
Air Force has.
    And I guess I am concerned that the Air Force might 
sacrifice the Air National Guard F-35s before they reduce any 
of their active squadrons, and I think that would be a move 
that wouldn't be in the best interest of our national security. 
I don't think it would be smart strategically. I don't think it 
would be smart fiscally.
    But, General Clarke, I want you to talk about that, why you 
think that basing F-35s with National Guard units around in 
those four areas--why is that smart, both tactically and 
fiscally? And then tell us what you think the right number of 
F-35s that are needed with the National Guard so they can 
remain proficient.
    And then, finally, maybe this subcommittee will want to 
know any tripwires that you might see that--any signals that we 
might be seeing from the Air Force that maybe they are moving 
in a direction that would be against the plan to actually house 
them with you.
    So can you touch on those three aspects of that F-35 
program.
    General Clarke. Yes, sir. I would be happy to.
    Of course, the F-35 is an important airplane for the future 
of the Air Force and for the Nation. It is truly a fifth-
generation fighter. So it goes beyond what fourth-generation 
capabilities can provide today for the Nation.
    With regard to your first part about why it is important 
for Air National Guard units to have them, we are a warfighting 
component of the United States Air Force. That unit I was 
talking about in Afghanistan previously was an Air National 
Guard unit that did this deployment on their own with no 
support from anyone with regard to other units coming in and 
backfilling them, rounding them out. They mobilized from their 
home station, didn't go somewhere else to get spun up for this. 
They went direct to the combat fight, a proven choice for 
warfighting operations.
    Every single one of our units reflects that same 
capability. Why? Because previous senior leadership of the Air 
Force made sure that we could do that. So when we talk about 
the bed-down of new platforms, recapitalizing the old ones, 
replacing fighters that are approaching 30 years of age on into 
40 years by the time we get into the F-35 program where we 
start delivering the numbers, I think we are going to see the 
appropriate recapitalization of the Guard in parallel with the 
United States Air Force. That is a full part of the plan.
    In fact, the first unit has already been announced up at 
Vermont, where we are going to put in Air National Guard 
fighters there. What we are doing is we are wedding a lot of 
expertise that the Guard brings and experience with newer 
people that come into the regular Air Force at these units.
    So we will have active associations, Active-Duty members 
flying with the Air National Guard at every single location we 
bed these down, Air National Guard-assigned aircraft, largely 
Air National Guard doing it, particularly maintenance, which is 
important, and our pilots. But we will see regular Air Force 
bedded down with this, also, wherever those units are 
identified. So I think it is important that we do that for the 
future.
    And, by the way, we operate 15 of 16 air defense sites over 
the Nation, also. We nearly have 100 percent of all of the air 
defense capability over the Nation on a daily basis in the Air 
National Guard, another reason why it is good for the bed-down.
    With regard to the number of airplanes, the program of 
record is 17,063 for the Air Force at large. I think that we 
will see the Air Force recapitalize us on par. So we will have 
the appropriate percentage of airplanes given to the Air 
National Guard for all the great reasons I just talked about. 
And the Air Force counts on us for future operational reserve 
to support all the things we do at home and overseas.
    And with regard to the plan, I see nothing that breaks that 
plan apart for the future. The Air Force is fully invested in 
making sure that we do get the appropriate number of squadrons 
of F-35s as they deliver off the factory.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Ruppersberger.

                      Remarks of Mr. Ruppersberger

    Mr. Ruppersberger. Thank you, Chairman Frelinghuysen. I am 
glad to see your green tie today, acknowledging our Irish.
    Mr. Frelinghuysen. I actually wear green on other 
occasions, too.
    Mr. Ruppersberger. Oh, well, that is good.
    So I assume that you are very preppy, then, if you wear 
green a lot. Okay. Let me go into my question.
    Mr. Frelinghuysen. It is from your time.
    Mr. Ruppersberger. First thing. As Congressmen Crenshaw 
said, a lot of us served in either local government or State 
government. I was in local government for 17 years as county 
executive where we had to deal with the front lines, severe 
snowstorm, national disaster. And it was great to have the 
National Guard behind us at all times and your expertise and 
readiness. And, also, I acknowledge your readiness in Iraq and 
Afghanistan, too.
    I want to point out, in the severe snowstorm where this 
government was closed, all of my meetings were canceled except 
for one, and that was General Grass. So the National Guard 
comes out in really bad weather, too. And we discussed a lot of 
issues.

                        C-130 AND A-10 TRANSFER

    I am going to get into one of the issues that we did 
discuss, and that is the C-130 airframe. It is very important, 
I think, to the future. The C-130 airframe is very important--
and this is to you, General Grass--to the future of the 
National Guard.
    For my district, the Second Congressional District of 
Maryland, this airframe is especially important. If the A-10 
airframe is eventually divested by the Air Force, which I 
understand is what is happening, and the C-130s are not 
procured by the National Guard, the Air National Guard unit 
stationed, again, in my area, Warfield International Guard 
Base, will be without a flight mission.
    So my question to you: Please provide details on what 
efforts are underway to ensure that the National Guard can 
effectively compete with big Army for the updated C-130J model 
for this airframe?
    And, additionally, please explain to the committee the 
detrimental effects on airlift capability for the national 
capital region, this whole region, if the C-130J airframe is 
not procured by the National Guard.
    I am going to ask you a question, if I have time 
afterwards, about sequestration--I do it at every hearing--the 
negative effects it will have on the National Guard and your 
ability to do your job for the citizens of our country.
    General Grass. Congressman, I will ask General Clarke in a 
minute to talk more details on the C-130.
    But I will tell you that our relationship, as General 
Clarke mentioned, with the Air Force after the publication of 
the National Commission on the Future of the Air Force has been 
phenomenal. And I credit General Welsh and Secretary Deborah 
Lee James every step of the way.
    When we talk about modernization, recapitalization, it is 
not like the Air Force considers the Air Guard or the Air Force 
Reserve an afterthought. We are right up front. Not only are we 
right up front, we have a three-member panel that advises 
General Welsh, one active Air Force General officer, one 
Reserve Air Force General officer, and one Air National Guard 
General officer.
    They have been on duty now for almost 2 years. We rotate 
them. And they look across the board both for the overseas 
requirements for tactical airlift and combat airlift, as well 
as they look at the homeland for us. We have got a study 
underway right now taking a deep dive into what you mentioned, 
sir, and really taking a serious look at what timeframes do we 
have to respond in on some of the major disasters that we might 
get called into.
    And the C-130 is a workhorse. You know, originally, we were 
going to have the C-27J aircraft that's smaller than the C-130, 
but it was going to be a premiere for the homeland. The 
decision was made not to field that to the Guard. So the C-130 
now even becomes more important because we had a different 
aircraft in the Army Guard before called the Sherpa C-23, very 
small, but very capable for responding, moving people, moving 
equipment, moving supplies, emergency responders in a disaster. 
So we are heavily invested for the future in the C-130.
    I will ask General Clarke to talk more.
    General Clarke. Congressman, with specifically Warfield, 
the plan is, under the Total Force Proposal in 2015, if the Air 
Force is successful in divesting the A-10 fleet, they do plan 
to backfill capability at all of them, including your location 
that you are talking about, and the current plan is to put C-
130s, J models, into Warfield if they divest the A-10s.

                        NATIONAL CAPITAL REGION

    Mr. Ruppersberger. Now, how about the question I asked 
about the detrimental effect to the national capital region. 
Explain what the national capital region is and, if we don't 
move forward with the C-130J, how that can have a negative 
impact on this region.
    General Clarke. Yes, sir. In our discussions with FEMA and 
others, this is a complex problem here. Ground movement in the 
national capital region is----
    Mr. Ruppersberger. What is the national capital region, for 
the Members?
    Mr. Frelinghuysen. Could you move your mike a little closer 
so we could----
    Mr. Ruppersberger. What is the national capital region? If 
you could, define that and then the impacts.
    General Clarke. Pretty much, I think, where WTOP covers 
with their radio.
    Mr. Ruppersberger. Okay.
    General Clarke. You can almost be----
    Mr. Frelinghuysen. No advertisements here, please.
    General Clarke. So I think it is the broader area. It is 
the people who also support the national capital region. They 
may live immediately outside the national capital region.
    But in our discussion with FEMA and others, it is the speed 
of response that is important. It is not just in total number 
of airplanes out there across the Nation that can respond. It 
is the speed of response that we can get those airplanes to the 
location where either we are going to have to do the search and 
recovery efforts, immediate medical evacuation, other things 
that will have to be done.
    That is a fairly large footprint for us in the Air Force to 
do that. Having airplanes close by, it is actually quite 
helpful because they are already there. But it could be a 
staging location for other operations as well if it is not part 
of the collateral damage or the damage of the event that might 
happen in the national capital region.
    Mr. Ruppersberger. Yield back.
    Mr. Frelinghuysen. Thank you very much.
    Let me introduce one of your own, Congressman Womack from 
Arkansas.

                         Remarks of Mr. Womack

    Mr. Womack. Thank you, Mr. Chairman.
    And, again, what a great honor it is to have these four 
gentlemen and the folks behind them, including the Chief's 
beautiful wife.
    It is great to have Pat here today.
    And, Mr. Chairman, you and I and Mr. Calvert just recently 
returned from a trip overseas where we had an opportunity to 
spend some time with members of our National Guard, the first 
of the 112th Cav squadron down in Sinai, Egypt, my old stomping 
grounds.
    And I am happy to report that they are doing a great 
mission and the one that the National Guard has been blessed 
with now for a number of years and, I think, rotating back and 
forth with the Army. I think the Army has it again after the 
Cav squadron leaves. But they are doing remarkable work, and I 
think it is illustrative of the capability of this 
organization.
    I would like to call attention to--noteworthy is the fact, 
as we just talked about--the relationship between the Reserve 
components and our Active-Duty counterparts is a pretty 
remarkable relationship. I don't think anybody would disagree 
with that.
    There is, however, an ongoing discussion and a bit of a 
conflict brewing that I want to drill down on just a little 
bit. And I am going to throw this question to General Lyons.
    And, General Grass, if you want to weigh in, I certainly 
would like to hear your thoughts on it.

                   AVIATION RESTRUCTURING INITIATIVE

    But it is about ARI. It is about the Aviation Restructuring 
Initiative. And the Army is claiming in all of their reports of 
these several billion dollars that they are going to save. And 
so, on the surface, to me, this restructuring initiative looks 
like that it is kind of a bill-payer for the potential effects 
of sequestration and cuts in our defense structure.
    However, in kind of drilling down on this subject, it looks 
like--and, General Lyons, maybe you can help enlighten us a 
little bit--it looks like that a lot of savings, the vast 
majority of the savings, they are claiming aren't even going to 
be realized until out in the--beyond the 2019 and 2020 
timeframe. It is my strong opinion that there will be many 
changes to what we are doing in defense between now and then 
based on threats and budgets and what have you.
    So help me understand, General Lyons. If Apaches were to 
remain in the Army National Guard, would the Army truly be 
lacking in the capability entirely or are your Apache pilots 
able to perform the mission that involves the Army's manned-
unmanned teaming concept?
    It is a concern of mine that we have got a major change 
that is brewing. We have patched it a little bit in the 2015 
process. But in fiscal year 2016 and beyond, this is going to 
be a major issue. So help me understand.
    General Lyons. Congressman, thank you.
    The Aviation Restructure Initiative, as you have outlined, 
does have cost avoidances with it that are--that are scheduled 
as a part of that program. I will tell you, in answer to your 
question about the complex operations, our National Guard 
aviators have always conducted complex operations. They have 
spent the last 13--almost 14 years of doing that, and they are 
fully capable of doing that in the future.
    Mr. Womack. Very good at it.
    General Lyons. Yes, sir. They are extremely good at it.
    So as we speak to the Adjutants General, in particular, on 
this, one of the concerns is--that they have voiced is one that 
you have hit on, and that is the ability to have capability and 
provide strategic depth when that capability is needed. So as 
we are currently postured with the airframe in both components, 
we allot--that facilitates that strategic depth. That is what 
the Adjutants General have mentioned on numerous occasions.
    So we are fully capable of conducting those operations. We 
have over the course of the war here. And given the quality and 
experience of our aviators, we would continue to do so.
    General Grass. Congressman, if I could add that, you know, 
the bulk of the savings are already moving forward, the 
changeout of the trainer at Fort Rucker, which we all agreed 
to, the changeout of the Scout aircraft. We have 30 of them in 
the National--or we had 30 of them.
    Our last unit just got back. Tennessee Army National Guard 
unit came back. I saw them in November doing great work, but 
they knew that it was a platform that we would go along with 
the Army and divest them.
    The Adjutants General and the brigade and division 
commanders have expressed to me a concern that, when we bring 
our Apache fleet completely down to a level that is proposed in 
ARI, that they will not be able to train with them anymore in 
the future, which further pushes them to a strategic reserve. 
But the bulk of the savings will be realized in, really, two-
thirds of that program.
    Mr. Womack. Well, the math that they are using leads me to 
believe that it is not necessarily being done for fiscal 
reasons, but more for operational ones, and that deeply 
concerns me, as a Member. I will come back to this subject and 
others. I know I am out of time. But thanks for your response 
and for hearing me on the subject.
    Mr. Frelinghuysen. Committee shares your concern.
    Ms. McCollum.

                          C-130S MODERNIZATION

    Ms. McCollum. Thank you, Mr. Chair.
    I am going to go back to the airframe and a little bit on 
the C-130s. And I am very concerned----
    Mr. Frelinghuysen. Ms. McCollum, if you could just move 
your microphone a little closer, please. Thank you.
    Ms. McCollum. I am concerned about the older H models of 
the C-130s. They deliver the troops. They deliver the supplies. 
I mean, it might be the Air Force flying them, but the Army is 
dependent upon them getting there.
    And I am concerned because, for the past 13 years, the 
Avionics Modernization Program has been designated to upgrade 
the C-130H fleet to ensure that there is compliance with the 
national, national, and international regulations before 2020.
    Now, our Air Guard base is adjacent, as most Air Guard 
bases are--in close proximity to international airports. So I 
am concerned about the C-130 modernization efforts made under 
AMP.
    I would especially like to know if these modernization 
efforts are going to result in compliance with the FAA and 
international regulations before 2020.
    I want to know what is underway to make sure not only the 
Air Guard in Minnesota, but all across this country, are going 
to be in compliance where not only, as I said, here in the 
United States we need to be in compliance, but we need to be in 
compliance internationally, too, as we fly with our NATO 
partners and we fly in international air.
    So what can you tell me that is going to assure me that we 
are going to be on time in 2020 with all of the C-130 aircraft 
good to go?
    And what does this committee need to do to make sure it is 
there? Because we can't have you waived off an airport saying 
that you can't take off because you are not in compliance.
    General Clarke. Yes, ma'am. Important question.
    The Air National Guard operates a lot of the legacy 
airplanes, C-130Hs. So this is something that concerns us as 
well, recognizing that the mandates, like you mentioned, both 
domestically and internationally to comply with the management 
that is necessary for future air operations, requires these 
airplanes to be modified. There is no way around this. We have 
to do this. Indeed, there are multiple airplanes in the United 
States inventory that need the same modification, not just the 
H models in the C-130 fleet.
    The plan right now is that is top priority one for 
modernization of C-130s. We have got to get on with at least 
that part of the modernization in order to meet the compliance 
date of 2020 for operations in air space domestically and 
overseas.
    After that, then there is other modernization programs that 
would be, I would say, second tier to that one, but that one 
has got to come first. So the Air Force is committed to putting 
the resources behind this compliance issue in order to make 
sure that we are compatible with the requirements for domestic 
and international operations.
    And, in my mind, one way to make that happen is to not just 
count on, like, one vendor to do that. We are going to have to 
have multiple vendors in order to make sure that we can 
implement this program or modify the airplanes in time to meet 
that mandate. Otherwise, they won't be able to operate in this 
air space.
    Ms. McCollum. So we have got 5 years to do it and there is 
a plan? There isn't a plan unless we change the way we are 
doing it right now? Is that fair to say? If we keep doing stay 
the course, we will not make the 5-year deadline for all the 
aircraft?
    General Clarke. Right now we got a little bit behind 
because of the issue of whether or not the AMP program was 
going to be used or not. All of the Adjutants General that have 
them in their States today agree that we need to get this first 
compliance issue completed and then we will start worrying 
about other modernization programs. I believe this Nation can 
do whatever it really wants to in regards to modifying 
airplanes, depending on what the pressing priority is to make 
it happen.
    I know that the Air Force realizes that we have that 
capability, that they are going to make this modification 
alongside with us to make sure it happens in time to meet that 
2020 mandate. Ma'am, it is absolutely priority one for all of 
us in the Air National Guard.
    Ms. McCollum. Well, Mr. Chair, I am--you know, with 
sequestration, we don't know what the budget numbers are going 
to look like in decisions that we need to make. I would think 
that we would want to have all of our aircraft capable of 
flying within the United States and flying internationally, so 
to make sure that the committee knows what the schedule is 
going to be and we do what we need to do to make sure that this 
happens.
    This isn't about picking, you know, favorite bases or, as 
the General said, I used the C-130 as an example. It is about 
making sure that all of our aircraft are able to be up in the 
air and flying as needed.
    Thank you, Mr. Chair.
    Mr. Frelinghuysen. Thank you.
    Mr. Graves.

                             CYBERSECURITY

    Mr. Graves. Thank you, Mr. Chairman.
    Gentlemen, it is a privilege to have you before us today. 
And let me just, on behalf of the committee, thank you, as you 
have heard previously, for all you do in providing readiness to 
the good men and women in each of our States and as it relates 
to the Guard and Reserve units. And you have got a tough task 
ahead of you. I know we have discussed that.
    And I want to change gears a little bit. The committee is 
certainly concerned about a lot of the equipment of old and the 
past a little bit, and I want to step and look to the future 
some and talk a little bit about cybersecurity as it relates to 
a GAO report that recently came out--and I know you all are 
familiar with it--that they estimate that there is currently a 
need for 40,000 cybersecurity professionals just to satisfy the 
government's demand.
    And that is a tremendous number. That is a huge number. And 
I am sure each of you agree that these are skill sets in the 
cybersecurity realm and beyond that reservists and guardsmen 
are prime to fill based on the skills that they have developed 
in their own civilian careers.
    So, General Talley, you have commented in the past that the 
demand for cybersecurity professionals and cyber-experienced 
soldiers far outpaces the current inventory.
    Could you share with the committee and maybe elaborate on 
some of the Army Reserves' initiatives that are being pursued 
to help recruit some of the most talented individuals with the 
particular skill sets that are going to be required in the 
future.
    General Talley. Yes, sir, I will. And thank you for the 
question.
    Recently, the Army Reserve, as part of our private-public 
partnership, launched an initiative here on the Hill with 
support from members and their staff as well as six 
universities and the private sector where we have brought 
together the best from the private and public and academic 
sectors to say, ``How can we take the already strong capability 
in cyber in the Army Reserve and leverage it with, again, the 
academic and the private sector?''
    And that just started--we just launched that about a month 
ago, and it was at that event where I was citing the same 
report that you just cited that we are showing about a need for 
40,000 more professionals in this area.
    Well, the Active component has a plan to engage and train 
their own cyber warriors and are starting to recognize that the 
Army Reserve--and I think the Reserve components, in general, 
can contribute a lot more than we have been asked to 
contribute.
    In the case of the Army Reserve, to run the numbers real 
quick, I have almost 7,000 cyber warriors--or cyber-related 
warriors. That is my military intelligence capability under the 
only one-star MI command in the Army called the Military 
Intelligence Readiness Command. They provide offensive support 
to the National Security Agency, of course, above a TSI level.
    On the defense side, in protecting the platform, which is 
the Department of Defense Information Network, that is signal 
capability. And I have a two-star command, the 335th Signal 
Command, that has a lot of those cyber units under it. So they 
protect the platform. They do defense. And then the MI folks do 
offense. Put all of that together, we have a tremendous 
capability.
    Then we also have reinforced with subject matter experts 
the USMA West Point Cyber Institute with expertise. And in 
addition to the public-private partnership I mentioned, we are 
creating IMA billets, individual mobilization augmentees, in 
the private sector. So I would have an Army Reserve billet in 
Google, in Microsoft. And all of that together provides 
tremendous capability, and we are pretty pleased with the way 
it is going.
    Mr. Graves. That is good. Well, thank you for that 
clarification.
    And you feel comfortable with the path that the Reserve is 
on and moving towards filling that gap? I mean, that is a 
tremendous gap. I know that is in totality, 40,000 for 
government. But you feel good with the direction that you are 
able to work within?
    General Talley. Yes, sir. Absolutely.
    I want to highlight--there was a classified competition not 
too long ago at MIT's Lincoln Labs, and we had our Active 
component folks kind of paired up against our Reserve component 
folks, Guard and Reserve.
    And let's just say the Reserve component guys pretty much 
kicked butt because, during the exercise, the RC folks were 
actually writing code in their head during the competition as 
opposed to just responding.
    The expertise of the Army Reserve not just in cyber, but 
across all of our areas--the reason we are so sharp is because 
they stay sharp because they learn that and stay focused from 
private-sector experience and then they bring that in the Armed 
Forces. In my opinion, we have got to leverage a lot more of 
that capability.

                         CYBER PROTECTION TEAMS

    Mr. Graves. Right. Thank you. And I appreciate your focus 
on that area. I think that is an area that this committee and 
others will continue to point towards as a focus that is 
required of the defense side.
    And then one final followup, General Lyons, if you don't 
mind. I want to first thank you. We are very pleased in Georgia 
to have been selected as one of the locations for the National 
Guard cyber protection teams and strongly believe it was a 
right decision, good decision, given the talent pool by the 
universities and the industry in the State.
    In your view and maybe for our committee a little bit, can 
you describe to us what is the importance of guardsmen or the 
role, as you may see, in meeting the cybersecurity needs from 
your perspective on an ongoing basis and into the future?
    Because this is very new for a lot of our constituents, to 
know that--cyber warfare and cybersecurity. We all know it from 
a personal perspective. But from a national defense 
perspective, your view of the role there.
    General Lyons. Thank you, Congressman.
    As you noted, the Army National Guard, the National Guard 
at large, has made fairly substantial progress in 2015 year in 
what we call cyber protection teams. So we have currently one 
full-time Title 10 Active-Duty cyber protection team.
    And, as you have noted, we recently announced the first 3 
of 10 traditional Guard teams. So these are part-time men and 
women that will bring their civilian skill sets, like General 
Talley highlighted--bring those skill sets with them to these 
teams.
    Between the cyber protection teams and, in the Army 
National Guard, computer network defense teams that we have in 
the 54 States, territories in the district, which are really 
protect-the-network kinds of teams, we think that we are very 
well postured for the future in cyber defense. And I think that 
is important, Congressman, that we continue to have structure 
like that in the Reserve component.
    I will speak colloquially for the National Guard. As the 
Active component stands up their cyber mission force and we 
invest tremendous amount of dollars in training and education 
for those men and women, should those men and women decide that 
they want to continue service, but perhaps pursue a civilian 
career with information technology industry and industry like 
that, we offer them a place in the National Guard and the 
Reserve to continue their service, but do it on a part-time 
basis.
    And so we harvest those dollars, the training, the 
education, and development by allowing them to continue to 
serve. So the cyber protection teams in the Army National Guard 
are a part of that, and we look forward to standing up the 
remaining seven.
    Mr. Graves. Okay. Great.
    Well, thank you again for your service and, again, the 
adaptation to the future demands that we will see as a country. 
Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Graves.
    Mr. Ryan and then Mr. Calvert.

                         ADDITIVE MANUFACTURING

    Mr. Ryan. Thank you, Mr. Chairman.
    Two issues, two questions, one more of a comment and the 
other more of a question to all of you. In my congressional 
district in Youngstown, Ohio, we have President Obama's first 
Manufacturing Innovation Institute, it is additive 
manufacturing, three dimensional printing. We are working with 
the Air Force and the Air Force Reserve in partnership with the 
University of Dayton to figure out how to use this new 
capability, this new technology called additive manufacturing 
to help us reduce costs for replacement parts and to help save 
money for the military, and specifically, the good deal of 
money that we spend on replacement parts, whether it is in the 
Air Force or another branch.
    So I want to bring that to your attention, because I think 
it is ripe for a partnership with all of you as well, as we 
continue to move, because every hearing we have here, it is 
about money, it is about budgets, it is about what we don't 
have, and we have a technology coming online that the 
Department of Defense is in partnership with the Department of 
Commerce, Department of Energy to figure out how to drop the 
costs for a lot of this where you would be able to print, 
literally print a part for an airplane in theater or a truck or 
a tank or whatever. And when you factor this capability into 
our long-term budgets, I think we can save a lot of money.
    So I wanted to let you know that the Youngstown Air Reserve 
station, the 910th, is participating in that, the Air Force is 
participating in that in conjunction with the University of 
Dayton. So I wanted you to know that, because I think there is 
room for a broader partnership here throughout the military.

                                SUICIDE

    I wanted to ask about the issue that I know everyone cares 
about. First I want to associate myself with Mr. Graves' 
questions. I think the issue of cybersecurity is a huge one and 
I am glad he asked that and peeled off the onion a little bit 
on that. I want to talk about the issue of suicide, and I just 
want to pose one question to all of you. I am looking at, you 
know, some of the statistics that are here, Army Reserve had an 
increase from quarter two to quarter three of 2014 of 11; 
General Talley, and the National Guard has seen a slight bump 
as well.
    These numbers are still really high. And I wanted to ask 
each of you, are there programs that you have gotten rid of? 
Are there programs that you are highlighting now? Are you 
trying to push men and women into that you are seeing more 
benefit and seeing some impact, because it is still amazing to 
me today that these numbers are still this high, and it seems 
that we are not getting to the levels we certainly need to get 
at.
    So if each of you can just briefly comment on what is 
working, because I think it is important for us to know what is 
working as we are figuring out where to spend some of this 
money.
    General Lyons. Congressman, thank you for the question. And 
share your concern and the committee's concern with the 
behavioral health posture and support to our men and women that 
serve, and our efforts at suicide prevention. So I would like 
to address this in a couple different ways, if I could.
    First, I would like to say that this is a leadership 
priority in the Army National Guard, the adjutants general, 
myself, in the 54 States, territories, and the District. We are 
approaching this from a holistic and team-based approach. And 
thanks to Congress, beginning in 2014, we were able to hire 78 
full-time psychological health coordinators out in the 54 
States, territories, and the District. That gave us a ratio of 
psychological health coordinators to soldiers of 1 to 4,500 in 
2014. Again, thanks to Congress's support, in 2015, we were 
able to double that number to 157 psychological health 
coordinators. That reduced that ratio from 1 to 4,500 to 1 to 
2,000.
    Now, we think the Army actually has this right. The Army's 
goal is to get to a 1-to-333 ratio of psychological health 
coordinators to soldiers, so with continued support, we will 
continue to pursue that.
    I talked about the holistic approach. We see an at-risk 
population out there that is a younger generation, so we are 
rolling out a Guard-ready application for smart phones to try 
and tap into our most at-risk population, but it really goes 
beyond that. It is a team-based approach. And when I talk about 
that, I talk about our chaplain corps that is available 24/7 to 
help our soldiers and family members. It is those first line 
leaders in the units; it is those psychological health 
coordinators that I talked about; but most importantly, 
perhaps, it is their fellow soldiers, the young men and women 
that serve with them.
    We have devoted a tremendous amount of time in training so 
that they can recognize signs of stress, signs of crisis, 
escort that person to care. We have seen a 27 percent increase 
in interventions in suicides with folks that have suicidal 
ideations and we have increased our trained force by 25,000 in 
the last year in the intervention skills training.
    So we think that with the increase in interventions, we are 
seeing a decrease in the number of suicides. In calendar year 
2013, we had 120 suicides in the Army National Guard. In 
calendar year 2014, that was down to 76.
    So we continue to work to reduce stigma, we continue to 
work to train our men and women to be there when their fellow 
soldiers need them, and to support their families. And I want 
to thank Congress's support for our ability to do that.
    General Talley. Sir, thank you very much for the question. 
It is a very important area. I think we have some good news to 
report in the Army Reserve. This year, in calendar year 2015, 
we are at five suicides, which is a downward trend from where 
we were last year. At the end of calendar year 2014, I had 40 
suicides. That is a 30 percent decrease of where we were from 
calendar year 2013. In fact, our suicide rate and levels are 
the lowest now they have been in over 5 or 6 years.
    Having said that, we are not happy where we are, we have 
got to continue to drive those down. So--and I have testified 
to this a number of times, so I am actually real comfortable 
and pleased to get the question again. When I first got on the 
job as an engineer, business guy background, I thought I should 
be able to tease out where the population was, so I thought the 
people that are killing themselves in the Army Reserve are 
people that aren't actively engaged in the Army Reserve, they 
are not involved in family programs, you know, they are 
absentee employees.
    I was wrong. Spent about 6 months researching that. I own 
almost all the doctors and nurses in the total Army. They are 
in the Army Reserve. I own also most of the mathematicians. So 
as I drilled down on that, who is killing themselves in the 
Army Reserve: predominantly young males, never been deployed, 
and they come to drill, and you think they are model soldiers, 
and in some cases, their families may be participating in 
family programs. Why are they killing themselves? Number one 
reason, failed relationships with their--with a spouse or a 
girlfriend or a boyfriend; second reason, right there close, 
financial stress.
    So how have we been getting after it? Using the Army 
program, but also an Army Reserve program. So first off, we 
look at the Army Reserve as a family, and so part of the Army 
funding that is come from you and others have allowed us to 
create these directors of psychological health and our RSEs, 
also to put in place the suicide prevention program managers 
that Judd mentioned, but also we have a great program called 
Forward Family. 24/7 a day, you can call Forward Family. They 
are not part of the chain of command. So they might get a phone 
call for someone who is thinking about suicide, and they often 
do, or sharp issues, who won't feel comfortable for whatever 
reason going to their chain of command. That is showing 
tremendous success in having us intervene and help people 
before it is too late.
    The other program that we have implemented is a life skills 
coping program. So I had Dr. Bryan Kelly, who is a clinical 
psychologist who commands--a two-star that commands my Army 
Reserve medical command, I had Bryan look into this, and he 
looked at--it is really an issue of lack of coping skills. So, 
again, I don't want to hog more time than I already have, but 
we are trying--we have to create--teach people how to cope with 
stress today. For whatever reason, they don't seem to be able 
to cope the way that previous generations and populations have, 
according to the psychologist. So we have created a life skills 
coping skills program in partnership with academia, and we are 
starting that program throughout the Army Reserve. We are 
seeing success.

                      PSYCHOLOGICAL HEALTH PROGRAM

    Mr. Frelinghuysen. Okay. Briefly, General.
    General Clarke. Briefly indeed, because I am going to 
parrot both of their comments. What I get from my wing 
commanders is that the director of psychological health 
program, having these people embedded in each of our wings, we 
have 89 of them in the Air National Guard, is probably the 
keystone to all of it. They have made efforts, they ensure that 
there is appropriate focus, they talk to individuals. So that 
is a--but to go a bit further just on the--
    What General Lyons indicated about the soldiers themselves, 
you know, with the airmen, they all know that they are sensors; 
every single one of them is a sensor to what is going on, and 
they sense things either at drill, they also sense things when 
they are off with their civilian employees and with their 
families, and they are watching things like Facebook and all 
that.
    They know--we told them when to watch out. And we don't do 
this through computer-based training modules anymore, we don't 
send our airmen to go look at a computer to figure out whether 
it is how do you be a better sensor for things like suicide 
prevention. We tell them face to face now, eyeball to eyeball, 
what you need to know, how you need to respond, and who to 
contact. And that, we think, is a good intervention effort in 
itself.
    We are down-trending from our efforts, but even one of 
these suicides inside of a unit is devastating to the readiness 
and morale of that unit.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Ryan. It is a 
critical issue. It is one that the committee has invested in, 
and we will continue to invest in it. It is very important.
    Mr. Calvert.

                         UAVS FOR FIRE FIGHTING

    Mr. Calvert. Thank you, Mr. Chairman. And I apologize for 
my tardiness. We had an Interior Appropriations meeting on at 
the same time, so--but I appreciate General Lyons, General 
Clarke, General Grass and General Talley for being here, and 
thank you for your service. All of us understand your 
challenges you face, and we look forward to working with you to 
support the men and women of our Army and Air Force Guard and 
Reserve.
    In the job that I have on Interior Appropriations, we deal 
a lot with wildfire in the west. Wildfire is as catastrophic as 
a tornado or a hurricane or earthquake to many parts of the 
country. And in 2013, during the Rim Fire, which was over by 
Yosemite National Park in California, the MQ-1B Predator was 
utilized for fire mapping and perimeter spot fire detection. It 
was highly successful in aiding the firefighting efforts on the 
ground. The State of California was the first State to utilize 
UAVs in support of a State emergency. The after-action report 
showed that the UAVs took off several days of containment time, 
saving money and possibly lives in a fire as catastrophic as 
the Rim Fire, which the cost of that fire was well over $250 
million to extinguish that fire, days, not as extremely--not 
just the cost, but the amount of land that is consumed by fire.
    However, it did take a huge effort on the part of Congress 
to help move along the authorization process for the Predator 
to be utilized in a State emergency situation. Many members 
personally called the Secretary of Defense, I actually called 
him on an airplane going somewhere, and asked Secretary Hagel 
to personally, on a piece of paper on the plane, would he 
please sign off on this thing, because we need to get on this 
right away.
    It took 3 days to get the U.S.--use of the UAVs to be 
authorized, 3 days. And at that time, we said, look, that is--
you know, in a fire that catastrophic, that can take a lot of 
lives, a lot of land and a lot of money. And so there was talk 
about efforts to streamline that authorization process to 
utilize National Guard UAVs during a state of emergency.
    So I am going to ask the question, have we got that problem 
resolved so--this summer, I am afraid, we are going to have a 
lot of catastrophic fires.
    General Grass. Congressman, if I can start, and I will turn 
it over to General Clarke. I was on the other end of the phone 
when we got the approval to put the MQ-1 up there from 
California, and it was a game changer, as you said, sir. We 
worked with the National Interagency Firefighting Center, we 
worked with the FAA, with Cal Fire, and the Secretary's office 
and Northern Command to get approval. We learned so much about 
that, that platform and being able to take the live video feed 
and infrared feed some nights right into the command center so 
the incident commander knew when a flare popped out that they 
could get on it quickly versus waiting to see a large scale 
fire break out.
    We also found that the ability of the MQ-1 to rely on the--
a repeater that we put on it, a communications repeater so that 
the firemen on the ground in this very rough terrain where they 
can't communicate, can now communicate better.
    We are still working through the approval process. As you 
know, there are many concerns from a--you know, citizens of 
being able to--the military looking at the citizen on the 
ground and anything to do with the UAV, human protection, you 
know.
    The one thing that I think will make some progress on 
definitely with the Forest Service and others where there 
aren't much of a population out there, those will be much 
easier, but we have a lot of detail to work through. I will ask 
General Clarke to comment on this, but this is a game changer, 
and I know the National Interagency Firefighting Center is 
very, very concerned that we have it up and ready for this fire 
season.
    General Clarke. I agree with General Grass's comments about 
the sensitivity. We don't call it an ISR asset at this point, 
it becomes an incident awareness asset, and you have to go 
through the proper channels, the proper use memorandum has to 
be agreed upon, the Secretary of Defense has--anything that 
streamlines that, obviously we need to get the appropriate 
authorities to make that happen, but we do want to share that 
the citizen on the ground realize that our objective is to 
protect their life and property, and we have no interest in 
doing anything beyond that with these platforms.
    With the proper oversight, with the proper integration of 
the FAA and others, I think we can get there. As a former 
commander of 1st Air Force and Air Force's Northern, any Title 
10 asset, including the Predators that we used, would have fall 
on their own, but I think there is a way of doing this in Title 
32 under the same construct. And it would make a big difference 
if it was a little bit faster in the allowance for the use of 
these assets in the homeland for things like the fires, 
earthquakes, fires, flood--we see a lot of this throughout the 
year, so we are a little bit closer to that as the National 
Guard watching it. We would appreciate any authority to speed 
this up in order to respond appropriately.
    And the great thing about the Predator, by the way, because 
it is coming out of a training unit, it has an unclassified 
line that feeds its information to the training part of what we 
do, which then once it is hooked up to the network and global 
information piece, it can be exploited out to whoever needs to 
see it at that point. We have to be careful to make sure that 
that doesn't get into the wrong places, because people would be 
concerned about the overhead use of an asset like that, but I 
think we can control that also. So I think there is a way ahead 
on this, we just need to get the appropriate authorities to----
    Mr. Frelinghuysen. Will the gentleman from California 
yield?
    Mr. Calvert. Yes. Be happy to.
    Mr. Frelinghuysen. So to answer the gentleman's question, 
has this been worked out or is this still a work in progress?
    General Clarke. From my perspective and opinion, it is 
still a work in progress.
    Mr. Calvert. Well----
    Mr. Frelinghuysen. Thank you.
    Mr. Calvert. Thank you, Mr. Chairman. I hope it gets worked 
out pretty soon, because we are going into fire season in the 
West, and these--as you know, these Predators were able to 
locate, as the General mentioned, with the infrared camera, 
with the--and coordinate with the tanker fleet to pinpoint 
where the drops for fire retardants and to take these fires out 
very rapidly. And so this can save the taxpayer a lot of money 
and it can certainly save a lot of property from being burned 
up, so I would hope this can get worked out.
    And if any language we need to do in a bill, Mr. Chairman, 
I hope you would entertain such a thought, because we need to 
get this done. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Calvert.
    Mr. Visclosky.

                           F-16 MODERNIZATION

    Mr. Visclosky. Thank you, Mr. Chairman.
    The Air National Guard is the primary force provider for 
NORAD for the defense of the U.S. airspace. And as I understand 
it, the Air Guard is responsible for 15 of the 16 fighter alert 
sites, including Atlantic City that is responsible for 
Washington and New York, but some of these units fly the oldest 
F-16s in the Air Force.
    Generally what needs to be done to ensure that these 
aircraft remain fully capable? And secondly, is there 
specifically an R&D need as far as research and development as 
far as the upgrade of these aircrafts with the electronics and 
other assets?
    General Clarke. One of the sites, obviously in New Jersey, 
provides the 24/7 response for homeland air defense. What I 
wanted to tell you about these airplanes and the people who fly 
them and maintain them, it is not just air defense they do. 
They also deploy overseas. So anything we do to these airplanes 
will be used for both the war fight and homeland operations, 
the air defense mission. This--upgrades that we need would be 
important for the surveillance and the ability to detect target 
threats to the homeland, and in this session, that is about as 
far as I can take that conversation, but indeed, it is a 
deficit and we need to address this.
    And I think with regard to the R&D for that, the R&D has 
been pretty much done. Now it is an opportunity to purchase the 
equipment and start implementing it into the aircraft. So we 
have already tested some of this equipment out at our test 
center in Tucson, and we think that it is a perfect match with 
current capabilities. There are several vendors out there who 
would vie for a competition to implement new radars into the 
aircraft, but I think we are ready to go.
    Mr. Visclosky. So for 2016, you don't think there is a need 
for R&D, or if there is, it is not a significant amount?
    General Clarke. Sir, I will take that for the record with 
regard to 2016 for R&D.
    [The information follows:]

    To remain fully capable, F-16 aircraft require active 
electronically scanned array (AESA) radars. AESA radars provide a 
critical capability for aerospace control alert F-16s to detect and 
track multiple airborne targets of interest in dense civilian air 
traffic environments near major population centers. Simultaneously, 
AESA radars improve the capability of ANG F-16's in close air support, 
surface attack and defensive counter-air. AESA radars detect, track, 
communicate, and jam in multiple directions simultaneously. 
Additionally, AESA radars eliminate several components associated with 
mechanical radars, thus significantly improving reliability and 
reducing maintainability costs.
    Currently NORTHCOM has a Joint Urgent Operational Need (JUON) to 
put AESA radars on ANG aerospace control alert aircraft. We anticipate 
the USAF will fund the initial RDT&E requirement and procure a portion 
of the JUON required radars with current FY15 funding.
    In order to exploit the full capability of the radar, we estimate 
the need for an additional $75M of FY16 RDT&E for software development, 
and up to $150M of procurement funds to compete the JUON radar 
purchase.

    Mr. Visclosky. If you could, as well as the moneys that 
would be needed for the upgrades in 2016, that would be 
terrific.
    General Grass, for the fiscal year 2014 budget, the Army 
National Guard requested reprogramming of $101 million for 
military personnel training. As you know, and I think others on 
the panel know, the committee was not happy with the request, 
and just wonder what actions the Guard has taken to put 
controls in place to avoid a situation like that occurring 
again?
    General Grass. Congressman, thank you. And I thank the 
chairman and this committee for your great support that allowed 
us to get to the end of the fiscal year and still have a drill 
period for all of our National Guardsmen.
    In August of last year, we realized that we were on a path 
to run out of money before the end of the fiscal year, 
primarily because of our tracking, and we had--as we draw down 
the number of forces that are deployed overseas, what we found 
was that over 13 years of war, our inactive duty training 
periods, the money was not--it had been there, but we had moved 
it an offset because those forces were gone.
    As we come out of war, we found that we had created 
internally checks and balances that were lacking to be able to 
track that money down to the eaches by each State. So in the 
process, I have established a one star in the Army National 
Guard that works for General Lyons immediately. He went over, 
he is looking at all the processes we use. The material 
weaknesses that we found were probably a bit decentralized, 
because in the past, we have had significant amounts of money, 
but since that account gets smaller and smaller, you have to 
manage it much, much closer than we ever had before. You can't 
wait until the last month of the fiscal year.
    So what we have done, we have done an internal review with 
our plans programs chief, Mr. Carpenter, and he has briefed me 
and the adjutants general on the first phase of that internal 
review, and we have taken corrective action.
    The second phase now will be to look at the people that are 
involved to make sure they have the right training and that we 
implement the right checks and balances for the future. But I 
do plan to keep the one star there supporting General Lyons, 
you know, for the long-term.
    Mr. Visclosky. Thank you. If I could for the record, the 
Indiana National Guard is actually pursuing a partnership for 
peace relationship with Kenya. And, again, for the record, are 
you missing any required materials or need any additional 
information from the Department of Defense for Indiana to 
pursue that?
    And, Mr. Chairman, I don't know about time. I have one 
more. Would you like me to wait for a second round? I will 
wait. I will wait.

                         READINESS OF THE GUARD

    Mr. Frelinghuysen. Okay. Well, thank you for yielding. And 
may I thank Mr. Visclosky for raising the profile on the good 
work that is done out of Atlantic City for the east coast. They 
do some remarkable things. And I think the committee's focus of 
questions, we have covered a broad range here, including Mr. 
Calvert's observation relative to firefighting, that the width 
and breadth of what you do, and I know this sounds rather 
solicitous, is amazing, domestically and internationally.
    I would like to sort of talk a little bit about there is a 
feeling sometimes we are not at war, but if we are coming out 
of war, maybe we are getting into other wars, so I want to take 
a look at the role you will be playing. We seem to go back and 
forth in terms of whether we are reducing our force in 
Afghanistan or whether we are going to maintain the force or we 
are going to increase it, and then Congress is sort of in a--
has been tossed a hot potato in terms of the authorization of 
military force, and whatever the force is and whatever our 
decisions are, you are going to be a part of that force.
    General Grass, you sit on the--as a member of the Joint 
Chiefs of Staff, and I think Congress had quite a lot to do 
with that, not only because we thought it was important, but we 
obviously have a high regard for you and your professionalism. 
How do you--do you have a seat at the table as these types of 
issues are discussed? We know the Secretary of Defense has been 
over to the Middle East to sort of meet with the combatant 
commanders and all of the military brass over there. Where do 
you see your role in future hot spots, including what appears 
to be somewhat our more enduring role in Afghanistan?
    General Grass. Chairman, as a member of the Joint Chiefs, I 
do have the opportunity to participate in very senior-level 
discussions. And if you look back a year ago at what we knew 
about the world situation and what occurred within the last 
year was a surprise to everyone between the development, you 
know, of the Ebola outbreak, what was happening in eastern 
Europe, what happened in the Middle East almost overnight. What 
does that do for the Guard? Well, we have to be ready quicker. 
General Welch and General Odierno have told me, you have to be 
ready quicker. When the Ebola outbreak occurred, I mean, I got 
a call in a meeting from General Welch--I mean, from General 
Odierno, and he said, you need to be ready to go. Get us a 
unit. Well, luckily, you know, the response has mostly been 
international. The great work that the 101st airborne division 
that went in there, air assault division, but we would have 
been the next ones in.
    That is on every mission out there for the Army National 
Guard today, is there is not much depth left across the force 
to respond to this many crises around the world. And I think 
General Clarke will tell you as well, we are in every mission 
and General Welch has asked us to even mobilize more now just 
to meet the requirements around the map, and a lot of that 
deals with readiness of the force, but the size of the force is 
down to a point where your Reserve component has got to be 
ready in much shorter time frames than we ever were 15 years 
ago.
    Mr. Frelinghuysen. So you are really worried about the size 
of the force, you are very worried about end strength, and you 
have obviously let the powers that be know you are concerned?
    General Grass. Yes, Chairman, I have.

                               TURBULENCE

    Mr. Frelinghuysen. And in the mix with just the issue of, 
you know, military specialties, I think we have talked about 
some of the specialties here, what areas are you weak on that 
need to be part of any force that could be mobilized at a 
moment's notice? And since many of your men and women have been 
mobilized a lot under multiple deployments, you probably have a 
pretty good handle on where you have some major gaps, I 
wouldn't say deficiencies, but take a look at some of the 
military specialties here that are essential to join the fight.

                               READINESS

    General Grass. Yes. And, Chairman, it all comes back to 
readiness. On the Army National Guard, again, thanks to this 
committee and many others who have modernized our equipment, 
but the readiness of our individual soldiers, the ability for a 
soldier, a guardsman to go to a school, a 2-week school or to 
go to annual training, we have been able to do that throughout 
the war so they could stay at a very high level of individual 
qualification. That money is gone. So that starts right there. 
That means that most of our units will train, as General Lyons 
said, at the individual, crew and squad. We need them training 
at platoon, company, battalion level, but that is readiness 
dollars that make that happen.
    On the air side, sir, I think you came out very loud and 
clear here: It is modernization, recapitalization.

                                HUMVEES

    Mr. Frelinghuysen. Mention was made of the committee's 
congressional interest in Humvees, and special attention was 
focused on those medical equipped ones. You may have them be 
equipped, but in reality, you need people to man those 
specialized units. Can you talk a little bit about where we are 
here?
    General Lyons. Thank you, Mr. Chairman. As you have noted, 
what we call turbulence that is associated with drawdowns and 
end strength and force structure, there are costs of that 
turbulence, and we see that in two different areas, personnel 
and material. So as you have highlighted, thanks to NGREA, we 
have made tremendous--I mean, it cannot be overstated the 
support to allowing us to recapitalize and modernize our 
fleets, for example, Humvee ambulances. But what I am concerned 
about is as end strength and force structure comes down, people 
are still in units, they are out in the communities, but the 
unit's mission may change. That soldier then needs to be 
retrained into a different military occupational specialty. 
There are costs associated for that that is not programmed.
    If we have to move equipment from one State to another 
State as we rebalance the force at lower end strength and force 
structure levels, there are costs for that that is not 
programmed. The facilities themselves out in the 2,600 
communities, the average age is 43 years old. If there is a new 
mission in that community, perhaps that facility needs to be 
modified to accomplish that new mission. That cost is not 
programmed. So that is turbulence.
    But I am also concerned about, to your point, about our men 
and women, the intangible aspect of turbulence that is 
associated with end strength and force structure reductions. 
There is uncertainty that is introduced in their minds about, 
am I going to be a member of the same unit? Will I continue to 
serve with the same men and women that I have spent my career 
with? Will I still accomplish the same missions and the same 
equipment that I have been trained on? So that is the 
turbulence associated with end strength and force structure 
drawdowns that I think introduces both a tangible aspect, but 
also an intangible aspect of an uncertainty in the force, and 
we are concerned about that.

                       STATE PARTNERSHIP PROGRAM

    Mr. Frelinghuysen. Mr. Womack mentioned our visit to the 
Texas unit at the base of the Sinai, and Mr. Visclosky and I 
led a group to Egypt, a brief stop in Cyprus and Ukraine. Can 
one of you or all of you talk about your connectivity, military 
to military, around the world? I know from BG right to my left, 
that the National Guard had some very early relationships with 
what we used to call the captive nations, the Baltic nations, 
but as we see a disassembly in Ukraine and the leadership of 
the President, you know, trying to keep his country together 
and Russians mobilized in the country, you know, not just 
separatists, but Russian command and control, and we see Egypt, 
you know, looking for supplies, military support that actually 
has been set aside for them but hasn't been delivered, talk to 
us just for a few minutes about how the role that all of you 
play with your military counterparts, and how, given what is 
happening in the world, how that is something which we need to 
enhance rather than drawback on.
    General Grass. Chairman, if I could open it, the State 
Partnership Program that the National Guard has been a part of 
now for 22 years, we are getting ready to kick off our 75th 
partner here, probably within the next 2 months, but we have 74 
countries that we are partnered with around the world. Many of 
our states now have two, even a few have three partners.
    And one of the missions we got early on from General Phil 
Breedlove in Europe was when Crimea first hit the news, he 
said, reassure our partners in Estonia, Latvia, Lithuania, 
Poland, all those partners in eastern Europe, reassure them 
that we are still there with them as NATO partners. And only 
immediately, the adjutants general, who are partnered with 
those states were called by either the chief of defense or the 
minister of defense's office and said, we would like you to 
come over for a visit, we want to continue. And we are already 
doing many exercises there.
    So we do that on every continent. Those 74 partners that we 
have now, soon to be 75, we will do about 700 engagements in 
support of the combatant commands each year. An engagement may 
be a chief of defense from a foreign nation coming to the 
United States to meet with their partner, it may be an exercise 
of a company or a battalion on their land or at home here. And 
we do all of that a lot with training dollars and with support 
from the combatant command and the Department of State. 
Department of State and the combatant command gives us our 
strategy for those missions.
    So it is a great program. This year we will spend about $9 
million above what is in the budget to do 700 engagements. And 
I know that all the way to the Secretary of Defense, they have 
stressed the importance of this program.
    Mr. Frelinghuysen. It is an excellent investment, and we 
saw some of it firsthand. I think other nations would benefit 
from it.
    Yes, General Talley. And then I am going to go to Mr. 
Israel.
    General Talley. Sir, great question. As the chief of the 
Army Reserve, I routinely get asked by heads of states and 
other heads of government outside the United States, they want 
to use the Army Reserve as the business model for their Reserve 
component, and so I routinely engage with them. So, of course, 
the United Kingdom just changed the name of their Reserve 
component to the Army Reserve, and we see lots of increased 
corroboration.
    Because we are a global command, we are not tied to state 
boundaries. So I am in 32 countries right now, and because we 
are directly embedded in every combatant command, we are 
engaging mil to mil every day. I have 5,000 forces in the 
Pacific, I have 1,500 and a one-star command permanently in 
Europe that takes care of all the evacuations and coordinations 
for General Breedlove.
    So because--again, because we are a global command, because 
we are not tied to a state territory as a Federal force under 
Federal control, we are directly engaged with these mil-to-mil 
programs throughout the globe.
    Mr. Frelinghuysen. Thank you, gentlemen.
    Mr. Israel.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Mr. Israel. Thank you, Mr. Chairman. And I also apologize 
for being tardy. General Grass, I wanted to talk to you and 
follow up on the engagement that you all had with Congressman 
Ryan about suicides and PTSD. Some time ago Congressman Peter 
King and I were able to pass an amendment to the DoD 
authorization bill providing $10 million for new public-private 
partnerships between DoD, primarily in the Guard and Reserve, 
to engage in research, treatment, outreach and other aspects of 
PTSD. I have to tell you I am rather disappointed. This is a 
bipartisan amendment supported by every member of the House of 
Representatives, $10 million was authorized. One program was 
stood up under this amendment, one program was stood up in 
Indiana, and I have nothing against Indiana, but one program.
    In addition to that, it is my understanding that DoD is 
intending to roll out a second program. I have two concerns: 
Number one, the pace of the program; number two, this was 
clearly intended to be primarily utilized by the Guard and 
Reserve. My understanding is that the Guard and Reserve has not 
been included to the extent that Congressman King and I and the 
United States Congress had intended.
    So my question is, are you aware of this funding, are you 
tapping into it, why so slow, and are you making sure that you 
are maximizing the intent of the program for the Guard and 
Reserve components?
    General Grass. Congressman, let me start by saying this is 
where we have to go for the future, private-public. As our 
defense budget shrinks, as thousands come back home with 10, 15 
years experience, you know, the problems we are going to see 
and how people are affected by long periods of war will espouse 
in our communities, and that is why private-public partnerships 
are so critical.
    General Lyons can talk in much more detail as far as what 
we are doing, but we started a program just in the last year, 
actually, it started some time ago, but it is called Joining 
Community Forces, and, in fact, Indiana has one of the models 
right there in Indianapolis, but many States now have created 
their own Web sites and their own brick and mortar facilities 
that if you have an issue, whether it is fiscal, family, you 
know, you are a veteran, you don't know where to meet with 
medical staff, psychological health, we have a setup now where 
you can walk into a facility and they will advise you, and we 
don't care whether you are a family member, a guardsman, a 
reservist or veteran of any type, retiree.
    And, again, it is the Joining Community Forces. We did our 
first conference about 3 months ago. We had over 400 attendees, 
the Department of Labor, Veterans Administrations, Commerce, 
State government was represented there, and we modeled five of 
the programs at that session, so the States will pick up on it.
    But I think your proposal and your legislation is exactly 
what we are going to have to drill drown even further and look 
at those programs that have already been tested.
    General Lyons. Thank you, Congressman. I wanted to address 
the Indiana example that you highlighted. And there are other 
States involved in that as well, but I think it represents, as 
General Grass said, this idea of joining with community forces, 
I believe that is the spirit of the public-private legislation.
    So this particular program is pretty innovative, and there 
are others out there, but I just wanted to highlight what they 
are doing with this one particular program. So the National 
Guard has partnered with Purdue University and other local 
alliances and they are offering training to civilian behavioral 
health providers on the unique challenges that military members 
and veterans face, how to recognize those challenges if they 
are presented to them. It is a three-tier program that these 
civilian providers attend.
    They actually get CEUs, civilian education unit credits for 
going through that program. And at the end of that should they 
complete that, they are actually entered into a registry, so 
that if a family member is seeking a behavioral health provider 
in the civilian community, they can go to that registry and 
they will know that that particular provider has gone through 
this program and has been trained to recognize the signals, the 
symptoms, the characteristics that military members and 
veterans recognize. So it really does reach deeply into the 
public-private partnership spirit, I think, of which you are 
talking. So I just wanted to commend that one particular 
program.
    Mr. Israel. Well, I don't dispute anything you have said, 
it is a wonderful program, but the point was that $10 million 
was meant to replicate that program, to start up that program 
and replicate it around the country, and I don't know that that 
programmed has been replicated around the country. I guess my 
question is, is that $10 million entirely funding the Indiana 
program, or are there plans to expand it beyond?
    General Lyons. Congressman, I would like to take that for 
the record so I can have the staff come back and outline 
exactly where that has gone and what the plans are for the 
future.
    Mr. Israel. Thank you. Thank you, Mr. Chairman.
    [The information follows:]

    The National Guard Bureau, in conjunction with Purdue University, 
the Uniformed University of the Health Sciences and Center for 
Deployment Psychology assisted in the development of an exemplary model 
of this partnership, known as STAR Behavioral Health Program (SBHP). 
The goal of SBHP is to provide not only training in military culture, 
but evidence based clinical practice training. Other states have 
recognized the value of SBHP; training community providers in local or 
remote locations to better serve remote Service Members and Veterans. 
California, Michigan, Georgia, South Carolina, Ohio and most recently 
New York, are actively implementing SBHP models for behavioral 
healthcare. The goal of these community-based public-private 
partnership models focus on ensuring access to high quality mental 
health treatment for our population, especially in remote locations.
    The Star Behavioral Health Program initiated a study of the 
efficacy of growing these public-private partnership initiatives. The 
research sought to validate the fundamental aspects of these 
initiatives--the training of local clinicians on the unique needs and 
stressors specific not only to Guard, but all military Service Members. 
I am pleased to highlight that these public-private partnership 
initiatives have successfully trained many local providers and 
accessible registries of all these providers are maintained and 
regularly updated. These registries in turn help our Service Members 
quickly find the most appropriate care for behavioral health concerns 
within their local communities.
    In addition to these programs, in the coming months the Department 
expects to award a grant to public partners to address Section 706 by 
supporting research on the causes, development and innovative treatment 
of mental health, substance use disorders, Traumatic Brain Injury and 
suicide prevention in members of the National Guard and Reserves, their 
family members, and their caregivers. The Department also expects to 
award a grant to enhance outreach and education efforts to members of 
the National Guard and Reserves, their families and caregivers.

    Mr. Frelinghuysen. Thank you, Mr. Israel.
    Mr. Womack.

                            ATTACK AVIATION

    Mr. Womack. Thank you. I have just got one follow-up on ARI 
for General Grass. You know, Congress last year created the 
Commission on the Future of the Army, and one of the many 
topics, of course, is attack aviation. It is my understanding 
that the Commission's findings aren't going to be available 
until February of 2016. General Grass, is that your 
understanding as well?
    General Grass. Yes, Congressman, it is.

                     APACHES TRANSFER RESTRICTIONS

    Mr. Womack. It is also my understanding that the fiscal 
year NDAA restricts the transfer of Apaches to only 48 aircraft 
until about the 1st of April of 2016, but after that date, 
there is nothing that I see that would currently stop the Army 
from going ahead and moving all of the rest of the Apaches. Is 
that your understanding as well?
    General Grass. Yes, Congressman.
    Mr. Womack. It is my understanding that the NDAA 
protections expire next April, and as we have indicated, that 
they can move those. So, Chairman Frelinghuysen, I would just 
like to say for the record that it is my opinion that the NDAA 
serves as a Band-Aid to what amounts to an open wound, and if 
the Army is allowed to transfer the aircraft in April of next 
year, they will probably be gone from the Reserve component 
forever. And I would hope that this committee will take steps 
to ensure that the right decisions are made and that we don't 
live to regret an action by the Army that I think would be 
devastating to our Guard. And that is all I am going to say 
about that. I think I have made my point about ARI.

           ARMY NATIONAL GUARD FULL-TIME SUPPORT REQUIREMENT

    General Lyons, it is my understanding the National Guard 
full-time support is about 17 percent of the total Army Guard 
and the foundational force. These guys do a lot of things that 
keep us ready, and 17 percent is a pretty small number to do 
such an important job. And I understand it also represents 
about 70 percent of the total number required for full-time 
manning. So I have just a couple of questions.
    When was the Army National Guard full-time support 
requirement generated, and is your requirement as a result of 
growth during the wars?
    General Lyons. Congressman, thank you. In direct answer to 
your question, pre-9/11, beginning in about 1999 and up to 
January of 2001, so 8 months before 9/11, Congress and the 
Army, I think, recognized an underresourced strategic reserve 
in terms of full-time manning and took definitive steps to 
increase the requirements and authorizations to recognize that 
underresourced strategic reserve. So those decisions were made 
prior to 9/11.
    Mr. Womack. What is the impact on generating combat 
capability if full-time support continues to be cut, and does 
it jeopardize the Guard's ability to remain operational?
    General Lyons. It does, Congressman. It is a deep concern 
as we reduce full-time manning, both active Guard and Reserve 
and military technicians, you know, about 97 percent of them 
are deployable with their units; they are assigned to their 
units, they provide the foundational readiness across the 
spectrum of our formations for the 83 percent that are 
traditional men and women.
    So they pay our soldiers, they help account for the 
equipment that Congress has appropriated funds for properly, 
they take all the actions to maintain our equipment so that we 
are able to respond both for overseas and at home. So when we 
take reductions in full-time manning, particularly as 
programmed under sequestration, it has a direct impact on both 
our capability and our capacity, and the response time that we 
have for responses here at home and overseas. It has a direct 
impact.
    Mr. Womack. Do you have a cost analysis of maintaining the 
Army Guard full-time posture at previous years' levels?
    General Lyons. Congressman, I do. We estimate that in this 
fiscal year, to retain the 1,700 AGRs and military technicians 
that are programmed to come out, it will be about $79 million.
    Mr. Womack. Okay. And then finally, my last question, I am 
going to--you know, I am a Guard guy, so I have to give these 
guys a softball, Mr. Chairman.
    Mr. Frelinghuysen. They deserve at least one.

                             NGREA FUNDING

    Mr. Womack. We have already talked about NGREA, so I am 
just going to just throw it out on the table. This was a $1.2 
billion I think, and the Reserves got a piece of it, the Air 
and the Army split, I think, 415 apiece, whatever the number, 
$415 million a piece. Think for a minute if that money was 
gone, if that capability was not there. This is a pretty 
important part of what you guys depend on, is it not?
    General Lyons. Congressman, that is absolutely accurate. As 
I stated earlier, the impact of NGREA funding on the Army 
National Guard as an operational force can't be overstated. Had 
we not had those funds to recapitalize and modernize our 
equipment lines, we would not be as operational as we are 
today.
    So to put that in perspective, thanks to the committee's 
support in what we call critical dual-use equipment, those 
items of equipment that have a war fight mission, but also here 
at home, thanks to NGREA, we have been able to modernize up to 
92 percent of that equipment. But there are still requirements 
that remain. So with additional NGREA funding, we are going to 
continue to modernize our fleets, we are going to focus on our 
domestic operations with construction engineer equipment, our 
Humvee ambulance fleet that we talked about, our civil support 
team equipment, as well as bridging equipment. So there is a 
legitimate need to continue to modernize.
    Mr. Womack. I know I am out of time. General Talley.
    General Talley. Congressman--excuse me. Thank you. I know 
you love the Army Reserve too, even though you are a Guard guy.
    Mr. Womack. Oh, I do, I do. So let the record reflect.
    General Talley. Let the record reflect.
    $185 million for 2015 is what our scheduled NGREA is. That 
is 30 percent of the total procurement fund for the Army 
Reserve. So that pretty much answers your question on how 
important it is.
    On full-time manning, on 13 percent, the lowest of any 
component or service, and I am as big as all the other Federal 
Reserves combined. So 17 percent's not too big, but 13 
percent's way too low.
    Mr. Womack. But we are still asking these guys to do a lot 
more than----
    General Talley. Absolutely. So I need help on full-time 
funding and keeping the NGREA coming. Thank you, sir.
    Mr. Womack. General Clarke, NGREA?
    General Clarke. Yes, sir. For us, you know, there are 
multiple examples of how NGREA has made a difference. In fact, 
if we didn't have it, combatant commanders wouldn't even allow 
us in their area of operations. That is a fact.
    Mr. Womack. I think that speaks volumes, Mr. Chairman. And 
I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Womack. Well done.
    Mr. Ruppersberger.

                             CYBER SECURITY

    Mr. Ruppersberger. Thank you, Mr. Chairman.
    We have some severe threats, as we know: weapons of mass 
destruction, terrorism, the Russia-China threat, but I think 
one of the most serious threats is as dangerous as those other 
threats is cyber and cyber attack, and it is going to be 
warfare of the future, if it is not now, and not only in the 
amount of money that is being stolen, billions of dollars, and 
the attacks on everything that we do, whether it is our 
business, our military, but I know that you are engaged in the 
cyber issue too.
    And could you explain what your mission is in cyber, and 
address the fact what you are doing and to make sure that there 
is not duplication of effort on what regular Army, Air Force, 
Navy, Marines are doing also? And maybe you could refer--I 
know, again, talk about my district, but I know the 175th is 
involved with cyber, and if you could explain, you know, what 
their mission is and what they are doing and why it is so 
important we continue the funding in this cyber realm as it 
relates to your role to protecting our homeland.
    That is kind of a softball too.
    General Grass. Congressman, if I could open it. As was said 
earlier, we have a capability here within the Guard and Reserve 
that the Nation needs more than ever. And we also have an 
opportunity to be able to capture those men and women that we 
invest in in the future that decide they want to go on a 
different career path and they want to leave active duty, they 
can come into the Guard and Reserve.
    One of the things we have made very clear from day one 
working with both the governors, the adjutants general, as well 
as the Department of Homeland Security and CYBERCOM is that we 
want to be trained, organized, and equipped the same way as the 
active components of the Air Force and the Army, and so we are 
training our cyber warriors right now to those same standards. 
And actually we are going to have a facility which will be 
certified here in the future, where we will actually train Army 
cyber warriors at a Guard facility.
    The intent is for distributing this capability across the 
States where the States have civilian employment available that 
can grow these warriors, and then also that can allow 
opportunities for them to progress up through the ranks. We 
don't want them to get to a certain rank and leave.
    So we are looking at that. I have got General Clarke and 
General Lyons both coming side by side. And as we look at 
stationing Air Guard and Army Guard cyber structure of the 
future, we do that together to make sure that one day we don't 
wake up and we have it all sitting at one location. But again, 
the governors, I am committed to them, to trying to put 
something in each State.
    Congressman, the big challenge here, and we are working on 
this right now with inside the Pentagon, the Deputy Secretary 
of Defense has tasked one of his Deputy Secretaries to take a 
look at this, but it will take probably some change to law 
somewhere down the road, but it deals with the authorities both 
from State, Federal as well as private-public. And there are a 
lot of things the Guard can do with various authorities. But 
how do you know when you have left state boundaries in cyber 
world? And how are we going to handle that both working with 
FBI, Department of Homeland Security, state government?
    So a lot of work to do, but we are putting a lot of 
emphasis right now on going within the authorities within 
Department of Defense, Department of Homeland Security. And I 
think I have been with Admiral Rogers now six times since he 
has taken over at CYBERCOM.
    Mr. Ruppersberger. One of my concerns is that there are so 
many people involved in the military with the cyber issue, and 
it looks like, well, why do we need the National Guard to do 
it? So could you explain really what your mission would be from 
a National Guard perspective versus the regular Army and Navy 
and the Air Force?
    General Grass. Yes, Congressman. In fact, I will ask 
General Clarke to comment and General Lyons, because they are 
really given two different missions from the Air Force and the 
Army.
    General Clarke. So directly, you are looking for, sir, the 
competitive advantages of the National Guard here.
    Mr. Ruppersberger. Yeah.
    General Clarke. What we have found in our units is we have 
people that do IT skills for corporations, State government, 
and local government and Federal Government that are also 
members of the National Guard that use those IT skills as they 
play into the cyber units doing military tasking for--in our 
case, for the United States Air Force and U.S. Cyber Command.
    The relationships that they have with each other as they 
come to drills and other times that they get together is a 
network of people that share ideas on things like computer 
network defense. They are getting that from their civilian 
skills and their companies, industry and they are bringing that 
to bear and using that within the military now.
    Conversely, they are learning things about the military 
side they might be able to use back with their State 
government, if you will. That is just the skill part of it. 
Then there is the relationship part of it. If you want to get 
in the door at a place where people need assistance on things 
like protecting a utility's infrastructure, you have got to 
have a relationship or they might not let you in the door. And 
we might be able to provide things as a part of the National 
Guard that will let you in the door to assist them with that 
further.
    In the case of Maryland, Maryland was in--the Guard was 
into cyber before cyber was even cool, and the relationships 
that they have built, not just domestically with multiple 
three-letter and four-letter agencies of the U.S. Government is 
outstanding. They have now expanded that through the State 
Partnership Program with Estonia. So now we have an 
international piece of what we are doing with military members.
    Mr. Ruppersberger. Okay.
    General Lyons. Congressman, I would like to start out by 
saying that our one full-time cyber protection team that I 
mentioned earlier is, in fact, stationed in Laurel, Maryland, 
there. But to answer your question about the mission sets, the 
cyber protection teams that the Army Guard is standing up are 
part of U.S. Army Cyber's mission set. So the missions that 
Army Cyber will undertake, our Army National Guard teams 
eventually will participate in those. But it is important to 
put this in context. We have the one team full-time that is 
stood up, they are undergoing training as we speak. We just 
announced the three traditional Guard teams. It will take time 
to get them stood up, plug them into schools for both basic 
training and advanced training so they become what we call 
fully operational capable.
    Once they do that, though, they will participate in all of 
the missions that Army Cyber is participating in in cyber 
defense, vulnerability assessments, protect the network, those 
types of missions.
    Mr. Ruppersberger. Thank you.

                        EMPLOYER DISCRIMINATION

    Mr. Frelinghuysen. Thank you, Mr. Ruppersberger.
    Both the private sector and the defense sector, the whole 
government sector is subject to hacking, and goodness knows, we 
are making some substantial investments, and I hope that, if 
you will pardon the expression, we de-conflict all those 
investments so we get the maximum advantage over the people 
that are doing this, nation states or other groups.
    As we move towards the top of the hour, I just want to 
raise the question, all of your Reserve and Guard men and women 
are bread winners for their families, and I think we recognize 
that important contribution, that there is always the view in 
some quarters, and I would like to have it either substantiated 
or dismissed, that some employers sometimes discriminate or 
have some sort of a bias. Of course, from our standpoint, that 
sort of is unacceptable. What is--how would you describe--I 
know we have some wonderful partners and wonderful employers, 
but can you talk frankly just for a minute as to what you are 
doing to sort of combat this issue where it arises?
    General Lyons. Mr. Chairman, I will speak for the Army 
National Guard specifically. The adjutants general in the 54 
States, territories, and the District are continuing to engage 
at the local level with employers. They do that on a daily 
basis. So at the end of the day, we feel that this is all about 
communication. And we stress this with our soldiers, our men 
and women that serve with us, that should they be employed for 
an overseas mission, that as soon as we know it, that they are 
talking to their employer about it and giving them a heads-up.
    We most recently saw this example in Minnesota with 
Operation United Assistance when the 34th was postured to 
undertake that mission. They immediately engaged with employers 
to talk about that. And I think that communication is what 
really bridges that gap and reduces those sources of friction 
that do come up from time to time. There are points of 
friction. But we have tremendous ombudsmen in the employer 
support to the Guard and Reserve community that help us address 
those issues when they do come up, and we think that is really 
a recipe and a best practice to get at that. So we are very 
well focused.
    The last point, Mr. Chairman, is I will tell you, talking 
to the TAGs, talking to commanders, this is part and parcel of 
retaining an operational force is that continued engagement 
either in combatant commander requirements, or here at home. 
The men and women who want to be engaged, they expect to be 
engaged, and they are willing to talk to their employers and 
their family members about that and the importance of that, and 
I think they will get that support.
    Mr. Frelinghuysen. Well, communication is one thing, 
obeying the law is another thing, and it is the law. So where 
you run into instances, I am sure you will bring them to our 
attention.
    General Talley, you wanted to get in or General Grass, jump 
in just for a minute, and then we are going to go to Ms. 
McCollum.
    General Talley. Mr. Chairman, thanks for the question. The 
Employers Partnership program actually started in the Army 
Reserve by my predecessor, Jack Stultz, and became so 
successful, it was replicated throughout all the services and 
components, one of the few times plagiarism is a good thing. I 
say that as a recovering academic.
    We have taken that program and brought it to the next 
level, our P3 or private-public partnership. We have over 6,000 
agreements in place. We believe the Army Reserve is probably 
the best connected of all services and components with the 
private sector, and we utilize that to help our Army Reserve. 
Those soldiers have to be the best employees, because what we 
do see, and I will be very frank, and I saw it when I was a 
traditional reservist, is, yes, you are disadvantaged in some 
employment situations because they know even if you are not 
deployed, you are still gone a lot doing Reserve stuff, and 
they, even though it is against the law, do--it does cost you 
partnerships, it does cost you promotions, and we still 
struggle with that.

                         EMPLOYER RELATIONSHIP

    Mr. Frelinghuysen. General Grass, briefly. General Clarke, 
if you will, please. And then to Ms. McCollum.
    General Grass. Congressman, I think most of the stress we 
see are on the small employers, and we have to do things. I 
know there has been some great work by the Congress, too, to 
help them. But that is our focus right now.
    The medium to large size, they are on board with us. If we 
have someone--a soldier or an airman that has an issue out 
there, we will work very closely with the Department of Labor 
to bring it to closure quickly. And they have been very 
supportive.
    Mr. Frelinghuysen. General Clarke and then Ms. McCollum.
    General Clarke. Yes, sir. Briefly, I parrot the same 
comments. But post-deployment, when the members return home, I 
think it is important to embrace the employers, too, not just 
the members themselves and the families. But bring the 
employers out to be a part of everything when they come home.
    We mentioned how outstanding the SGR is. To date, I do not 
have one single complaint from an ESGR ombudsman. Not one that 
has come forward. So we are getting a lot of support out of the 
employers out there across the Nation.
    And the last one I say, we have recognition programs for 
the outstanding employers. And that is largely a DoD-led 
effort, but even the local units have their own recognition 
programs. That is a big deal. People like being patted on the 
back and their hand shaken and say, ``Thank you for supporting 
our members.''
    Mr. Frelinghuysen. They have a lot to be proud of. As you 
represent all of that, we want to make sure that recognition is 
given and, if there is any issues, you will bring them to our 
attention.
    Ms. McCollum, I believe, unless Mr. Visclosky has any 
questions.
    Ms. McCollum.

                               TURBULENCE

    Ms. McCollum. Thank you, Mr. Chair.
    I know one of the stressors for the long deployment for our 
volunteer departments is standing up to serve in the National 
Guard--quite often are serving in their communities.
    To my question, you talked about turbulence. And one of the 
things that I think was very turbulent, self-inflicted wound, 
was the budget shortfall that Mr. Visclosky started asking 
about.
    I heard it from General Nash, who was going to have to tell 
people coming in for drill what was going to happen. I didn't 
hear it from the committee. I didn't get a heads-up from our 
folks here. And, you know, called back and we were finding out 
at the same time. So obviously you knew you had a shortfall. 
Obviously, you knew there were problems.
    I am very disappointed in the way in which it was handled. 
I have not been satisfied with any of the answers that have 
been given as to the diagnostic of why it happened. Many of us 
have either served in the private sector on boards or small 
businesses or served in local government where we do routine 
audits, and when there is something really wrong, the auditor 
has nailed it down.
    So I would very much like a detailed report as to what the 
forensics were on finding out what this problem was, why it 
happened in the first place, and what action you have taken so 
it doesn't happen again.
    Because that was a very stressful thing not only for you 
here, finding out there was a shortfall, but for all the Guard 
men and women and for those who were going to have to stand in 
front of folks and say, ``Sorry. The drill has been cut'' or 
``This that you have planned on has radically changed.'' There 
is a lot of turbulence at a time when we are trying to, you 
know, retain and recruit people in the Guard.
    So I just want it on the record. I was dissatisfied in the 
way it was handled in the beginning, and I am dissatisfied with 
the way it has been handled even today with the answers.
    Thank you, Mr. Chair.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Frelinghuysen. Okay. Thank you, Ms. McCollum.
    Mr. Visclosky.

                            OPERATIONAL ROLE

    Mr. Visclosky. Thank you, Mr. Chairman.
    If I could ask about the operational role of the Guard, 
there are currently some ongoing missions preserved by the 
Reserve components and Guard that provide an opportunity to 
help maintain an operational Reserve. The Sinai has been 
alluded to a number of times this morning.
    I have always thought about it, not being an expert on 
military matters, operational preparedness. But I was struck 
Mr. Womack, when he was addressing the Guard at the Sinai, 
encouraged them not to talk to each other, but to get to know 
their coalition partners and to get to know the people who live 
in that area that they were serving in. And I thought it was a 
great admonition and good piece of advice and additional 
benefits to our country.
    What, if I could--and if you want to for the record--types 
of mission looking forward will make effective use for the 
Reserve component skills and that would help the Reserve 
component maintain operational status?
    And is it DoD policy to make use of the Reserve components 
in this manner? And, if not, if you think more could be done in 
this regard, if you could provide that, if you have a short 
comment. I have a couple more questions, too, though. And if 
you want to do it for the record, that will be fine or----
    General Lyons. Well, Congressman, just a couple of quick 
examples of some of those missions that we talk about being 
able to engage our men and women who have grown up in 13 years 
of operational tempo. These are missions that we consider to be 
foundational missions for the Army National Guard, in 
particular.
    The Sinai mission, that was an example. Kosovo forces is a 
mission that we have routinely engaged in over a number of 
years. We also have the Horn of Africa, which has traditionally 
been a National Guard mission.
    Virtually anything that a combatant command is doing, we 
think the Army National Guard has equity in that because of our 
force structure, our equipment, and our training. So these are 
all examples of missions.
    Combat training center rotations are another key event for 
leader development engagement that we would like to see 
continue that helps posture us as an operational force, along 
with joint and multinational exercises.

                              AUDITABILITY

    Mr. Visclosky. Okay. I am very drawn to the idea that the 
Department meet its goal as far as auditable financial 
statements by 2017. The Marine Corps has been certified at 
least as far as making progress on part of that.
    If you could describe--and, again, I think, for the 
record--your component's progress toward establishing auditable 
financial statements by 2017, I would appreciate it.
    And, also, do you believe you are on schedule to meet that 
goal or will there be a shortfall? If so, for what reasons that 
we should be concerned about?
    The last question I have, if you would care to comment, is: 
If Congress determines that the A-10 should be retained during 
the consideration of the fiscal 2016 budget, what would the 
effects of the delay of divestiture be on your forces?
    General Lyons. Congressman, I think for the Army National 
Guard I will take the auditability question for the record and 
we will come back on how we are progressing toward fiscal year 
2017.
    [The information follows:]

    The Army National Guard continues to improve our financial 
processes as we prepare for a full financial audit by 2017. We have a 
team working closely with the 50 states, three territories and the 
District of Columbia, with a firm commitment to achieve and sustain 
audit readiness. The Army relies on this team to assist and advise on 
financial processes. Our Army National Guard finance officer works 
side-by-side with the Army to ensure the Army National Guard is 
auditable by 2017. The Army National Guard issued that objective to all 
adjutants general in our 2015 Strategic Planning Guidance.
    The results of our monthly testing, conducted by the Army, reflect 
how well the Army National Guard is performing as we prepare for a full 
financial audit. With regards to general equipment, the Army National 
Guard pass rate is currently 83 percent; the Army-wide pass rate is 76 
percent. For real property, tracking all the assets at 2,386 readiness 
centers and 102 Army National Guard installations, the Army National 
Guard pass rate is 93 percent; the Army-wide pass rate is 96 percent. 
For Operational Materials and Supply, tracking of ammunition assets at 
48 ammunition supply points, the Army National Guard pass rate is 90 
percent; the Army-wide pass rate is also 90 percent. For budgetary 
activities, tracking financial statements and financial transactions, 
the Army National Guard pass rate is 95 percent; the Army-wide pass 
rate is 90 percent. For military pay, tracking of military pay 
transactions, the Army National Guard pass rate is 77 percent; the 
Army-wide pass rate is 69 percent. The Army Reserve recently requested 
training from the Army National Guard audit team, and is currently 
using several of our training tools to improve its testing results.
    One of our major challenges is the reduction of full-time manning, 
military technicians or Active Guard and Reserve personnel. These are 
the people who deliver Army programs We must sustain our full-time 
workforce in order to ensure we have sufficient personnel to maintain 
audit readiness. Additional reductions could cause separation of duties 
conflicts within our financial processes and weaken financial controls. 
Additionally, the demand of the audit to provide appropriate supporting 
documentation for financial transactions requires the immediate 
attention of full-time personnel. Reductions in personnel will 
negatively affect our ability to support the audit with timely 
responses.
    Currently, the Army National Guard is on track to achieve auditable 
financial statements by 2017.

    Mr. Visclosky. I don't make light of my concern by saying 
``the record'' because I just want to make sure--you know, I 
think it is a very important issue. But go ahead on the A-10.
    General Clarke. Sir, the same for us on audit goal. Is that 
the one you want to address first?
    Yeah. We are in lockstep with the United States Air Force 
on audit responsibilities to be compliant by 20--I think we are 
on track for that.
    And then I also worked that on the National Guard side to 
make sure that we are fully meeting anything that they request 
in order to push forward and meet that goal by 2017. To my 
knowledge, we are on track.
    Mr. Visclosky. Okay.
    General Talley. Sir, I will answer that question directly.
    The Army Reserve is doing pretty well, actually, in 
auditability. Looking at three areas in support of the Army's 
auditing program, one, general equipment, which is the tracking 
of all the Army Reserve equipment, we are at 100 percent pass 
rate right now. Army-wide rate right now is 91 percent. Army 
Reserve, 100 percent.
    Real property, tracking all the assets we have at Army 
Reserve centers, which is over 2100 and 6 installations, Army 
Reserve rate right now, pass rate, 100 percent. Army-wide rate, 
94 percent.
    Budgetary activities, the Army Reserve, that is, tracking 
financial statements and financial transactions, you know, 
handled by CFO, the Army Reserve currently, according to the 
Army, 100 percent. Army-wide rate, 84 percent.
    And then to try and--but not so good area, military pay, we 
are currently tracking our auditability at 56 percent. Army-
wide is 63 percent.
    One of the challenges I have there--and we are trying to 
work on it--is that is that full-time manning, those MILTECHs. 
I need my MILTECHs and my full-time manning to pay those 
troops. But, overall, we are doing pretty well.
    That is it, sir.
    Mr. Visclosky. Okay. Thank you very much.
    Mr. Frelinghuysen. Gentlemen, on behalf--oh, yes. General 
Grass. Excuse me.
    General Grass. Congressman, I just wanted to share with you 
that, in each State, there is a colonel that works directly for 
me, and I hold them accountable for, you know, the FIRREA 
legislation. And we are making significant progress. We will 
submit that to you for both working with the Army and Air and 
show you the progress we are making.
    But I also have, of course, my head comptroller and my 
audit team that provides me regular updates on this. But the 
key for us is to work it through the State, and that is why we 
do have those colonels out there that work directly for me.

                                  A-10

    Mr. Visclosky. Okay. And on the A-10, if we don't divest?
    General Clarke. Sir, directly on A-10 divestment, could you 
restate your question so--I am going to get----
    Mr. Visclosky. As you know, last year Congress decided to 
continue, if you would, with the A-10 program.
    Assuming that is Congress's decision for the 2016 bill, 
what types of situations, problems, benefits does that cause 
you?
    General Clarke. Right now, none. As you know, the unit from 
Indiana is in current combat operations with the A-10. So no 
slowdown in what they have done in their capabilities.
    The future holds for continued mobilization of A-10 units 
to actually support combat operations. In order to be there, 
they have got to have the full-up training kit, the equipment, 
and the opportunities to train. That is there. So they will be 
fully trained and capable when they show up in theater to do 
these combat operations.
    Beyond that, then there is going to be a degradation of 
that unit's capability because they are going to convert to a 
different platform. At some point, when we divest the A-10s, 
whether it is today, tomorrow, or 20 years from now, sometime 
that A-10 is going to leave and they will be converting over. 
So that would be a difference in their readiness at that time.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    On behalf of the committee, gentlemen, thank you for your 
testimony and thank you for the great work you do representing 
the best of America. Thank you.
    We stand adjourned.

                                         Wednesday, March 18, 2015.

      UNITED STATES PACIFIC COMMAND AND UNITED STATES FORCES KOREA

                               WITNESSES

ADMIRAL SAMUEL J. LOCKLEAR III, U.S. NAVY, COMMANDER, UNITED STATES 
    PACIFIC COMMAND
GENERAL CURTIS M. SCAPARROTTI, U.S. ARMY, COMMANDER, UNITED NATIONS 
    COMMAND; COMMANDER, UNITED STATES-REPUBLIC OF KOREA COMBINED FORCES 
    COMMAND; AND COMMANDER, UNITED STATES FORCES KOREA

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Committee will come to order.
    Mr. Visclosky, I recognize you.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered. Thank you, Mr. Visclosky.
    This morning the committee conducts a closed--I remind 
everybody--closed hearing on the posture of the United States 
Pacific Command and the United States Forces Korea.We are 
pleased to welcome Admiral Samuel J. Locklear, U.S. Navy 
Commander, United States Pacific Command, and General Curtis M. 
Scaparrotti, Commander, United NationsCommand, Commander, 
United States-Republic of Korea Combined Forces Command, and 
Commander, United States Forces Korea. Three hats.
    Admiral, welcome back, and thank you for your many years of 
distinguished service. The committee notes that you assumed 
command of PACOM in March of 2012, and this is your fourth time 
testifying before this committee.
    Today we look forward to your update on a broad variety of 
topics in the Pacific AOR.
    General Scaparrotti, welcome back, and thank you as well 
for your service.
    General Scaparrotti assumed command of U.S. Forces Korea in 
August of 2013. Two years into your command you have amassed a 
wealth of experience in working with our allies in Korea. We 
look forward to your candid assessment of what is going on, on 
the Korean Peninsula and that environment.
    Gentlemen, we are pleased to have you both here today. We 
are constantly reminded that the situation in Korea is, to say 
the least, fluid. In fact, we can never be completely sure what 
will happen next in Korea, or for that matter in the Taiwan 
Straits, in the South China Sea, or the Sea of Japan. China 
continues to modernize its Armed Forces and adds to its fleet 
in both numbers and quality, including more subs, and is 
working on a second aircraft carrier. Longstanding disputes 
over territory can surface with little or no warning. Frankly, 
many people wonder if the recent Russian annexation of Crimea 
may encourage similar actions by other nations in the Pacific 
AOR. And we can't forget that the Russians have contacts and 
interests there as well.
    We are aware that the ongoing pivot or rebalance to the 
Pacific will involve shifting as much as 10 percent of our 
Navy's war ships into the Pacific. The buildup of assets on 
Guam continues. However, some of the Army's increases in 
military assets will rotate forward into the Pacific to train, 
but will actually remain based in the continental United 
States.
    Of course, the committee will continue to ensure that our 
Armed Forces have the resources they need to be well maintained 
and trained. We are reminded that our naval air and land forces 
cannot be in two places at once. A force that is smaller but 
more agile is still smaller. And of course we always are 
reminded of the tyranny of distance.
    We look forward to a robust question-and-answer session 
this morning. It is important for this committee to have a 
clear picture of operations in the Pacific in general and on 
the Korean Peninsula specifically. We are particularly 
interested in the readiness of forces that are assigned which 
rotate through Pacific deployments and the many potential hot 
spots you monitor. We want to hear about your ISR requirements 
and efforts by our adversaries to deny sea and air access and 
our ISR, and the cyber component of all of that.
    Before we hear from our witnesses, I would like to ask my 
distinguished ranking member, Mr. Visclosky, for any opening 
comments he may wish to make.

                        Remarks of Mr. Visclosky

    Mr. Visclosky. Mr. Chairman, just to thank you for holding 
the hearing, gentlemen, for your service, and look forward to 
your testimony. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Admiral Locklear. Good morning. Thank you. Your full 
statement will be in the record.
    [The written statement of Admiral Locklear follows:]
  
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    [The written statement of General Scaparrotti follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]

                                  [all]
</pre></body></html>
